<html>
<title> - LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2010</title>
<body><pre>[Senate Hearing 111-]
[From the U.S. Government Publishing Office]



 
         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2010

                              ----------                              


                        THURSDAY, APRIL 23, 2009

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:33 p.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Ben Nelson (chairman) presiding.
    Present: Senators Nelson, Pryor, Tester, and Murkowski.

                              U.S. SENATE

                        Office of the Secretary

STATEMENT OF HON. NANCY ERICKSON, SECRETARY OF THE 
            SENATE
ACCOMPANIED BY:
        SHEILA DWYER, ASSISTANT SECRETARY OF THE SENATE
        CHRIS DOBY, FINANCIAL CLERK


                OPENING STATEMENT OF SENATOR BEN NELSON


    Senator Nelson. The subcommittee will come to order.
    First of all, good afternoon, everyone, and welcome. We are 
glad to have you here. We meet this afternoon to take testimony 
on the fiscal year 2010 budget requests for the Secretary of 
the Senate, the Senate Sergeant at Arms, and the U.S. Capitol 
Police.
    This is my first hearing as chairman of this subcommittee, 
and I look forward to working closely with my ranking member, 
Senator Murkowski, and the other members of the subcommittee, 
Senator Pryor and Senator Tester, who we hope will be able to 
join us before we are concluded.
    And I must admit I was surprised having this be my first 
opportunity as the chairman to see an overall request for the 
legislative branch totaling $5 billion, or a 15 percent 
increase over the current year. So needless to say, I look 
forward to working with all of the legislative branch agencies 
on ways that we can help try to reduce these numbers.
    I understand that this subcommittee, for example, received 
an 11 percent increase in fiscal year 2009, but I hope that we 
don't expect double-digit increases this year.
    I also want to welcome our three witnesses today. Nancy 
Erickson, who is Secretary of the Senate. Nancy, we are glad to 
have you here. Terry Gainer, Senate Sergeant at Arms. Terry, 
thank you for being here. And Chief Phillip Morse of the 
Capitol Police. Chief, we are very happy to have you here, and 
Chief Nichols with you as well and Gloria Jarmon.
    I want to first acknowledge the dedication and hard work of 
all of your staff. The Senate isn't an easy place to work, and 
we take a lot for granted here. But we do owe a debt of 
gratitude to all of you for keeping the Senate running safely 
and smoothly on a daily basis. And to the extent that it 
doesn't, I assure you it is not your fault.
    And Chief Gainer, I note with sadness the passing of one of 
your valued staff, Steve Mosley, after a dedicated 32-year 
career with your agency. The entire Senate community joins you 
in mourning the loss of this outstanding individual and 
dedicated public official. We were grateful for his dedication 
and commitment to this institution. I know you may want to make 
a statement about that just a little bit later.
    But first, I want to welcome you, Nancy. We are pleased to 
have you here this afternoon. We are anxious to hear your 
testimony. Among many others on your staff, I want to 
especially acknowledge Chris Doby of the Disbursing Office for 
his fine work.
    Your office is requesting a budget of $27.8 million, which 
is an increase of roughly $1.7 million, or 7 percent above the 
current year. I look forward to hearing about the specifics of 
your request.
    Chief Gainer, the Sergeant at Arms request for 2010 totals 
$243.5 million, a 10 percent increase over fiscal year 2009. I 
realize that your request is laden with technology upgrades for 
the Senate community, which tend to be expensive, and I look 
forward to discussing those with you just a little later.
    And finally, Chief Morse, the fiscal year 2010 Capitol 
Police budget request totals $410 million, or 34 percent over 
the enacted fiscal year 2009 level, and I realize also that the 
bulk of your increase is related to the radio project and the 
Library of Congress police merger. But that is a fairly 
significant and perhaps even massive increase. So I want to 
discuss these and other issues with you today.
    And Chief Morse, in closing, I would like to congratulate 
you on the clean opinion your agency received on your 2008 
financial statements. Your agency has obviously come a long 
way, and we appreciate getting to this point. And we on this 
subcommittee appreciate your personal efforts and the efforts 
of your chief administrative officer, Gloria Jarmon.
    Now I would like to turn to the ranking member of the 
subcommittee, my good friend Senator Murkowski, for her opening 
remarks.


                  STATEMENT OF SENATOR LISA MURKOWSKI


    Senator Murkowski. Well, thank you, Mr. Chairman.
    And I look forward to working with you on the issues that 
face us as we deal with the legislative branch appropriations. 
We have not had an opportunity to do much work together. So I 
am sure that this is the beginning of a long and fine 
relationship and look forward to that.
    But I also appreciate hearing your comments this morning as 
we work to address the needs of the legislative branch. I think 
it is important that we exercise fiscal discipline and that we 
lead by example. And I think that that is very key for us all.
    I want to welcome our witnesses as well. The Secretary of 
the Senate Nancy Erickson, Sergeant at Arms Terry Gainer, Chief 
Phillip Morse, their deputies Sheila Dwyer, Drew Willison, Dan 
Nichols, the Senate financial clerk Chris Doby, and the Capitol 
Police chief administrative officer Gloria Jarmon.
    We had had some meetings scheduled earlier in the week that 
I had to cancel because I am still working on a little bit of a 
knee issue, but we will have plenty of opportunity to spend 
quality time together and I look forward to that.
    I do appreciate the very good work that you and your staffs 
do, the parliamentarians, the legislative professionals, many 
working very, very late nights here in the Senate, the police 
officers who protect the Capitol complex, the Sergeant at Arms 
employees that ensure that our mail is safe, the folks who 
develop the emergency plans, the doorkeepers, the phone 
operators, the technology specialists, and there are just so 
many that you can't even mention, all those who make this place 
operate smoothly.
    Your agencies contributed a great deal in the last year to 
many, many important events, including the Presidential 
Inauguration, the opening of the Capitol Visitor Center (CVC), 
and yet you did all this while still maintaining the day-to-day 
functions. And I think that speaks highly of you, and we 
appreciate all of your efforts there.
    Now the chairman has mentioned the legislative branch 
request for fiscal year 2010, a total of over $5 billion, an 
increase of nearly 15 percent over fiscal year 2009. And I, 
too, am looking forward to hearing about and understanding more 
the needs of the legislative branch agencies. But as I have 
just stated, I do believe that we here in the legislative 
branch should serve as a model for the rest of Government. I am 
not convinced that a 15 percent increase does set a good 
example.
    So I would like to look at those ways that we can, through 
prioritization and just working together, figure out how we set 
that better standard. I will be honest with you. I am one who 
questions the need for continued growth in the size of 
legislative branch agencies. I would like to explore some of 
these concerns today and through the process.
    But again, Mr. Chairman, I look forward to the opportunity 
to work with you to meet the needs of these very, very 
important agencies. And while we do this, we will tighten our 
belts where possible.
    So thank you so much.
    Senator Nelson. Well, it seems like we are going from 
tight, tighter, to perhaps tightest.
    I turn now to my friend Senator Pryor and ask if he might 
have any opening remarks.
    Senator Pryor. Thank you, Mr. Chairman.
    I will just submit my statement for the record because I am 
ready to go ahead and hear from the witnesses.
    Thank you for your leadership, as well as the ranking 
member. Thank you as always. You all do great work around here.
    Thank you.
    Senator Nelson. Appreciate it.
    [The statement follows:]

                Prepared Statement of Senator Mark Pryor

    Thank you Chairman Nelson and Ranking Member Murkowski for holding 
this hearing concerning the budget requests for the Secretary of the 
Senate, the Senate Sergeant at Arms, and the United States Capitol 
Police.
    I look forward to having the opportunity to work with my colleagues 
on this subcommittee to consider the budget requests put forward by 
organizations within the Senate and the Legislative Branch of 
Government.
    As this subcommittee works toward producing the 2010 Legislative 
Branch Appropriations bill, I want to work to keep the Legislative 
Branch of government operating efficiently and as wise stewards of the 
taxpayers' money.
    I thank the Honorable Nancy Erickson, Secretary of the Senate; the 
Honorable Terrance W. Gainer, Senate Sergeant at Arms; and Phillip D. 
Morse, Sr., Chief of the United States Capitol Police, for testifying 
today before the subcommittee.
    I look forward to hearing your testimony and having the opportunity 
to ask questions.

    Senator Nelson. Now we will begin with the witnesses and, 
if we could, keep the opening statements perhaps to about 5 
minutes, and then that will give us more time for questions. 
So, Ms. Erickson, we will start with you. And then we will hear 
from Terry Gainer and then Chief Morse.
    Nancy.

                  SUMMARY STATEMENT OF NANCY ERICKSON

    Ms. Erickson. Chairman Nelson, Senator Murkowski, and 
Senator Pryor, I appreciate this opportunity to provide 
testimony. I ask that my statement, which includes our 
department reports, be submitted for the record.
    With me today is Sheila Dwyer, the assistant secretary, and 
Chris Doby, the Senate financial clerk, who is no stranger to 
your subcommittee staff.
    Our budget request for fiscal year 2010 is $27,790,000, of 
which $25,790,000 is salary costs and $2 million is operating 
costs, which is the same level of operating funds we received 
for the current fiscal year. Our department leaders have 
demonstrated wise stewardship of our financial resources in a 
way that has maximized the services we provide to the Senate.
    Since 1789, when the Senate first convened in Federal Hall 
in New York City, the Secretary of the Senate has been tasked 
with legislative, administrative, and financial 
responsibilities to support the Senate. For me, there is no 
more notable moment for our office this year than the tribute 
paid to Dave Tinsley, the chief legislative clerk and director 
of our legislative floor staff, who retired from the Senate 
after 32 years of public service.
    The moving statements of Majority Leader Reid and 
Republican Leader McConnell were followed by a standing ovation 
by the full Senate. I believe the well-earned tribute to Dave 
Tinsley was also recognition of the other public servants in my 
office who work effectively behind the scenes to support this 
institution, its members, and its staff. I am very proud of 
their work.
    I am confident that our legislative department with its 
cadre of veterans and eager new hires will continue to serve 
the Senate in an exemplary manner. During fiscal year 2010, 
they will continue to focus on cross-training, evacuation 
exercises, and continue discussions with the House clerk, the 
Government Printing Office, and the White House on the 
transmittal of legislation in an emergency to bring life to our 
continuity of operation plans (COOP) and ensure chamber support 
under any circumstance.
    Our administrative departments provide a variety of 
services to the Senate, ranging from the Senate library, which 
is now led by a woman for the first time in its 138-year 
history, to the Senate page school whose faculty provide an 
excellent education to our Senate pages, beginning at 6:15 a.m. 
each day.
    As the subcommittee knows, for 17 years, our stationery 
room has effectively managed the $1.5 million Metro subsidy 
program for the Senate. Metro's recent transition to electronic 
smart benefits has opened new opportunities to better serve the 
Senate community, and the stationery room hopes to meet the 
requests of our customers by investing in technology that will 
provide an e-commerce option for Senate offices.
    In fiscal year 2007, the Senate gift shop initiated a 
program to require certification by vendors to address 
potential instances of lead in children's products and jewelry. 
Following passage of the Consumer Product Safety Improvement 
Act of 2008, thanks to Senator Pryor, the gift shop has 
increased its program to evaluate its products and ensure 
compliance with the new heightened standards and bans of the 
act.
    Webster, the Senate's internal Web site, was launched in 
1995, and I am pleased to report that our goal to redesign the 
site to better serve Senate users has been accomplished with 
the site's other stakeholders.
    Collaborative planning began almost 2 years ago between our 
staff and the Architect of the Capitol's staff to commemorate 
the 100th anniversary of the Russell Senate Office Building, 
which was completed in 1909. Their efforts produced a wonderful 
publication, a Web site on Senate.gov, exhibits, informational 
kiosks, commemorative merchandise in the Senate gift shop, as 
well as the first-ever comprehensive survey of the Senate's 
inventory of historic Russell furniture.
    I know that transparency is important to this subcommittee, 
and I would like to bring attention to the Office of Public 
Records, which was given an enormous responsibility to 
implement the Honest Leadership and Open Government Act, or 
HLOGA, resulting in substantial changes to the Lobbying 
Disclosure Act. The frequency of reporting doubled from semi-
annually to quarterly, and HLOGA required mandatory electronic 
filing.
    This past year, the office implemented the bill's final 
filing requirement, known as section 203, which requires 
lobbyists to semi-annually report their political contributions 
to Members as well as contributions to any event that honors a 
covered official. Now the public has more sophisticated access 
to public lobbying records, as well as information on Member 
and staff travel and lobbying restrictions for Members and 
staff who have left the Senate.
    Finally, I am pleased to report that our Senate disbursing 
office, which works closely with your subcommittee in 
formulating the budget for the United States Senate, is moving 
forward in its efforts to institute a paperless voucher system. 
An initial prototype was implemented last year, and it was met 
with great success.
    Next, a pilot project will feature new technology, 
including imaging and electronic signatures. Not only will the 
system green the Senate by reducing paper usage, it will also 
enable the continuation of voucher processing operations from 
an alternate location should an emergency occur.

                          PREPARED STATEMENTS

    We appreciate your consideration of our budget request for 
fiscal year 2010. I believe it appropriately focuses on several 
of the Senate's priorities--continuity of operations, archival, 
education, implementation of HLOGA, and the paperless voucher 
pilot program. We are grateful for your support of our efforts 
to support this institution.
    Thank you.
    Senator Nelson. Thank you.
    [The statements follow:]

                  Prepared Statement of Nancy Erickson

    Mister Chairman, Senator Murkowski, and Members of the 
Subcommittee, thank you for your invitation to present testimony in 
support of the budget request of the Office of the Secretary of the 
Senate for fiscal year 2010.
    It is a pleasure to have this opportunity to draw attention to the 
accomplishments of the dedicated and outstanding employees of the 
Office of the Secretary. The annual reports which follow provide 
detailed information about the work of the 26 departments of the 
office, their recent achievements, and their plans for the upcoming 
fiscal year.
    My statement includes: Presenting the fiscal year 2010 budget 
request; implementing mandated systems, financial management 
information system (FMIS) and legislative information system (LIS); 
continuity of operations planning; and maintaining and improving 
current and historic legislative, financial and administrative 
services.

             PRESENTING THE FISCAL YEAR 2010 BUDGET REQUEST

    I am requesting a total fiscal year 2010 budget of $27,790,000. The 
request includes $25,790,000 in salary costs and $2,000,000 for the 
operating budget of the Office of the Secretary. The salary budget 
represents an increase of $1,770,000 over the fiscal year 2009 budget 
as a result of the costs associated with the annual cost of living 
adjustment and targeted merit awards that are associated with our 
Employee Feedback and Development Plans. The expense operating budget 
remains the same as our request in fiscal year 2009.
    The net effect of my total budget request for 2010 is an increase 
of $1,770,000.
    Our request is consistent with the amounts requested and received 
in recent years through the Legislative Branch Appropriations process. 
This request will enable us to continue to attract and retain talented 
and dedicated individuals to serve the needs of the United States 
Senate.

                                 OFFICE OF THE SECRETARY APPORTIONMENT SCHEDULE
----------------------------------------------------------------------------------------------------------------
                                                                      Amount
                                                                     available        Budget
                              Items                                 fiscal year      estimates      Difference
                                                                   2009, Public     fiscal year
                                                                     Law 111-8         2010
----------------------------------------------------------------------------------------------------------------
Departmental operating budget:
    Executive office \1\........................................        $550,000        $550,000  ..............
    Administrative services.....................................      $1,390,000      $1,390,000
    Legislative services........................................         $60,000         $60,000  ..............
                                                                 -----------------------------------------------
      Total operating budget....................................      $2,000,000      $2,000,000  ..............
----------------------------------------------------------------------------------------------------------------
\1\ Includes the Executive, Information Systems, Page School, Security, and Web Technology offices.

                     IMPLEMENTING MANDATED SYSTEMS

    Two systems critical to operations are mandated by law, and I would 
like to spend a few moments on each to highlight recent progress, and 
to thank the committee for your ongoing support of both.
Financial Management Information System (FMIS)
    The Financial Management Information System, or FMIS, is used by 
approximately 140 Senate offices. The Disbursing Office continues to 
modernize processes and applications to meet the continued demand by 
Senate offices for efficiency, accountability and ease of use. The 
Disbursing Office remains committed to and continues working toward an 
integrated, paperless voucher system, improving the Web FMIS system, 
and making payroll and accounting system improvements.
    During fiscal year 2008 and the first half of fiscal year 2009, 
specific progress made on the FMIS project included:
  --Web FMIS was upgraded twice, once in June 2008 and again in 
        September 2008. This system is used by office managers and 
        committee clerks to create vouchers and manage their office 
        funds, by the Disbursing Office to review vouchers and by the 
        Committee on Rules and Administration to sanction vouchers. The 
        two releases provided both technical and functional changes. 
        The primary change in the June release was the conversion of 
        all employee vendor numbers to use the 9-digit employee 
        identification number assigned by the payroll system instead of 
        an employee vendor number that included a partial Social 
        Security Number. With this release, Disbursing also began three 
        pilots: providing payroll reports online, prototype of an 
        online review of imaged vouchers and supporting documentation, 
        and use of electronic invoicing by which electronic credit card 
        data was made available for importing into vouchers. In 
        addition, a number of Web FMIS user-requested functionality was 
        implemented in this release. Disbursing added display of office 
        name to the master vendor file and the ability to search the 
        master expense category list by words in the expense category 
        description field. Finally, in preparation for the new fiscal 
        year, Disbursing implemented a budget function that enables 
        configuring the new budget based on a previous fiscal year.
  --The computing infrastructure for FMIS is provided by the Sergeant 
        at Arms (SAA). Each year the SAA staff upgrades the 
        infrastructure hardware and software. During 2008, the SAA 
        implemented one major upgrade to the FMIS infrastructure: 
        upgrading the Z/OS mainframe operating software from version 
        1.7 to version 1.9. In addition, the SAA implemented quarterly 
        micro-code updates and the application of maintenance releases 
        on a more regular basis, both of which will keep the 
        infrastructure more current. During 2008, maintenance was 
        applied to Z/OS and DB2 in March and to DB2 in August. Because 
        the Z/OS upgrade was accomplished as a stand-alone activity, IT 
        tested all FMIS subsystems in a testing environment and 
        validated all FMIS subsystems in the production environment 
        after the implementation.
  --Disaster recovery operation services for FMIS are provided at the 
        Alternate Computer Facility (ACF). During December 2008, at the 
        Disbursing Office's request, the SAA conducted an FMIS-only 
        disaster recovery test. This is the second year in which a 
        FMIS-only test was conducted. The longer time allotted for this 
        test enabled a more complete functional testing, allowed for 
        the running of more reports than in previous tests, and 
        permitted the testing of the critical payroll and FAMIS batch 
        processes. While the Disbursing IT staff organized the 
        functional test plan, the actual testers included Disbursing IT 
        staff, payroll staff, contractor support staff, and SAA Finance 
        staff. No major problems were encountered and because of the 
        longer testing window any issues encountered were thoroughly 
        investigated and resolved.
    During the remainder of fiscal year 2009 the following FMIS 
activities are anticipated:
  --Implementing a Web FMIS release with a re-writing of the FMIS 
        checkwriter functionality and a new file upload format for the 
        mainframe.
  --Testing credit card data file transfer and implementing 
        ``electronic invoice'' functionality.
  --Transferring all SAVI-system users to the new Web FMIS ``staffer 
        functionality'' for creating online expense summary reports 
        (ESRs) and viewing payment information.
  --Completing analysis of the appropriate hardware/software 
        acquisition strategy for electronic signatures, imaging of 
        supporting documentation, and beginning acquisition.
  --Implementing online distribution of monthly ledger reports through 
        Web FMIS.
  --Attending payroll system demonstrations and completing software 
        acquisition strategy.
  --Implementing two mainframe micro-code and several system 
        maintenance updates.
  --Participating in the yearly disaster recovery exercise at the ACF.
    During fiscal year 2010, the following FMIS activities are 
anticipated:
  --Conducting a pilot with chief clerks and office managers of the 
        technology for paperless payment. This assumes identification 
        of satisfactory hardware and software for electronic signatures 
        and imaging of supporting documentation, and resolution of 
        related policy and process issues.
  --Continuing the implementation, performance tuning of tables and the 
        required updates to the Hyperion financial management 
        application to provide the Senate the ability to produce 
        auditable financial statements.
  --Continue the implementation of online financial reports and Web 
        FMIS reporting enhancements.
    A more detailed report on FMIS is included in the departmental 
report of the Disbursing Office.

                          LEGISLATIVE OFFICES

    The Legislative Department provides support essential to Senators 
in carrying out their daily chamber activities as well as the 
constitutional responsibilities of the Senate. The Legislative Clerk 
sits at the Secretary's desk in the Senate Chamber and reads aloud 
bills, amendments, the Senate Journal, Presidential messages, and other 
such materials when so directed by the Presiding Officer of the Senate. 
The Legislative Clerk calls the roll of members to establish the 
presence of a quorum and to record and tally all yea and nay votes. 
This office prepares the Senate Calendar of Business, published each 
day that the Senate is in session, and prepares additional publications 
relating to Senate class membership and committee and subcommittee 
assignments. The Legislative Clerk maintains the official copy of all 
measures pending before the Senate and must incorporate any amendments 
that are agreed to into those measures. This office retains custody of 
official messages received from the House of Representatives and 
conference reports awaiting action by the Senate. This office is 
responsible for verifying the accuracy of information entered into the 
Legislative Information System (LIS) by the various offices of the 
Secretary.
    Additionally, the Legislative Clerk acts as a supervisor for the 
Legislative Department, providing a single line of communication to the 
Secretary and Assistant Secretary, and is responsible for overall 
coordination, supervision, scheduling, and cross training. The 
department consists of eight offices: the Bill Clerk, Captioning 
Services, Daily Digest, Enrolling Clerk, Executive Clerk, Journal 
Clerk, Legislative Clerk, and the Official Reporters of Debates.

Summary of Activity
    The Senate completed its legislative business and adjourned sine 
die on January 3, 2009. During 2008, the Senate was in session 184 days 
and conducted 215 roll call votes. There were 452 measures reported 
from committees and 589 total measures passed. In addition, there were 
1,812 amendments processed.

Cross-Training and Continuity of Operations (COOP) Planning
    Recognizing the importance of planning for the continuity of Senate 
business, under both normal and possibly extenuating circumstances, 
cross-training continues to be strongly emphasized among the 
Secretary's legislative staff. Approximately half of the legislative 
staff are currently involved or have recently been involved in cross-
training to ensure that they are able to perform the basic floor 
responsibilities of the Legislative Clerk, as well as the various other 
floor-related responsibilities of the Secretary.
    Additionally, each office and staff person within the Legislative 
Department participated in numerous COOP discussions and exercises 
throughout the past year. These discussions and exercises have been 
conducted by a joint effort of the Office of the Secretary and the 
Office of the Sergeant at Arms.

Online Congressional Record Corrections Program
    The Congressional Record currently appears in three formats: the 
daily print version, the online version and the permanent bound 
version. Both the daily and online versions of the Record reflect the 
previous day's session.
    In order to provide the Senate and the public with the most 
accurate, up-to-date version of the Record, procedures have been put 
into place to correct clerical/typographical errors in the online 
version of the Record. This program is specifically designed to address 
clerical errors that occur. The responsibility to correct the online 
Record is shared between the Secretary's legislative staff, who submit 
corrections of clerical errors as needed, and the GPO, which updates 
the online Record on a regular basis. Corrections to the online Record 
will appear on the page on which the error occurred, and will be listed 
after the History of Bills and Resolutions section of the printed 
version of the Congressional Record Index for print-only viewers of the 
Record.

Succession Planning
    Among the Secretary's Legislative Department supervisors, the 
average length of Senate service is 18 years. This is a very good 
situation for the Senate. Due to the unique nature of the Senate as a 
legislative institution, it is critical to attract and keep talented 
employees, especially the second tier of employees just behind the 
current supervisors. The complex practices and voluminous precedents of 
the Senate make institutional experience and knowledge extremely 
valuable.

                               BILL CLERK

    The Office of the Bill Clerk collects and records data on the 
legislative activity of the Senate, which becomes the historical record 
of official Senate business. The Bill Clerk's staff keeps this 
information in its handwritten files and ledgers and also enters it 
into the Senate's automated retrieval system so that it is available to 
all Senate offices through the Legislative Information System (LIS). 
With the exception of the Amendment Tracking System (ATS), such 
information is made available to the House as well. The Bill Clerk 
records actions of the Senate with regard to bills, resolutions, 
reports, amendments, cosponsors, public law numbers, and recorded 
votes. The Bill Clerk is responsible for preparing for print all 
measures introduced, received, submitted, and reported in the Senate. 
The Bill Clerk also assigns numbers to all Senate bills and 
resolutions. All of the information received in this office comes 
directly from the Senate floor in written form within moments of the 
action involved, so the Bill Clerk's Office is generally regarded as 
the most timely and most accurate source of legislative information.

Legislative Activity
    The Bill Clerk's office processed into the database more than 1,000 
additional legislative items and more than 150 additional roll call 
votes than in the previous Congress, for an overall percentage increase 
of almost 9 percent. In fact, only three legislative categories (Senate 
Bills introduced, Senate Concurrent Resolutions submitted, and House 
Bills received) saw a decline in activity between the 109th Congress 
and the 110th Congress. For comparative purposes, below is a summary of 
the second sessions of the 109th and 110th Congresses, and then a 
summary of the entire 109th and 110th Congresses:

--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                 109th           110th
                                                             Congress, 2nd   Congress, 2nd     Percent     109th Congress  110th Congress     Percent
                                                                Session         Session         change                                         change
--------------------------------------------------------------------------------------------------------------------------------------------------------
Senate Bills..............................................           1,953           1,217        -37.686           4,122           3,741         -9.243
Senate Joint Resolutions..................................              14              19        -35.714              41              46        +12.195
Senate Concurrent Resolutions.............................              48              43        -10.417             123             107        +13.008
Senate Resolutions........................................             287             311         +8.362             634             729        +14.984
Amendments Submitted......................................           2,544           1,812        -28.774           5,239           5,704         +8.876
House Bills...............................................             325             427        +31.385             611             940        +53.846
House Joint Resolutions...................................               8               4        -50                  19              13        -31.579
House Concurrent Resolutions..............................              77              93        +20.779             165             186        +12.727
Measures Reported.........................................             233             452        +93.991             519             880        +69.557
Written Reports...........................................             157             274        +74.522             369             528        +43.089
Total Legislation.........................................           5,646           4,652        -17.605          11,842          12,874         +8.715
Roll Call Votes...........................................             279             215        -22.939             645             657         +1.86
House Messages \1\........................................             225             283        +25.778         ( \2\ )             546    ( \2\ )
Cosponsor Requests \3\....................................           7,000           7,306         +4.371  ..............  ..............  .............
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ This number reflects how many messages from the House are typed up by the Bill Clerks for inclusion in the Congressional Record. It excludes
  additional activity on these bills.
\2\ The number of House Messages is not available prior to the 109th Congress, 2nd Session; therefore, this figure is not available.
\3\ This number reflects how many cosponsors were input and subsequently appear in the ``Additional Cosponsors'' section of Morning Business in the
  Congressional Record. This number does not include the cosponsor requests for ``original'' cosponsors which are added on the same day of introduction
  and do not appear in the ``Additional Cosponsors'' section of the Record.

Assistance from the Government Printing Office (GPO)
    The Bill Clerk's staff maintains a good working relationship with 
the Government Printing Office (GPO) and seeks to provide the best 
service possible to meet the needs of the Senate. GPO continues to 
respond in a timely manner to the Secretary's requests, through the 
Bill Clerk's office, for the printing of bills and reports, including 
the expedited printing of priority matters for the Senate chamber. To 
date, at the request of the Secretary through the Bill Clerk, GPO 
expedited the printing of 46 measures for floor consideration by the 
Senate during the second session of the 110th Congress, and 129 
measures during the entire Congress.

                          CAPTIONING SERVICES

    The Office of Captioning Services provides realtime captioning of 
Senate floor proceedings for the deaf and hard-of-hearing and 
unofficial electronic transcripts of Senate floor proceedings for 
Senate offices on Webster, the Senate intranet.

General Overview
    Captioning Services strives to provide the highest quality closed 
captions. For the 15th year in a row, the office has achieved an 
overall accuracy average above 99 percent. Overall caption quality is 
monitored through daily translation data reports, monitoring of 
captions in realtime, and review of caption files on Webster.
    The realtime searchable closed caption log, available to Senate 
offices on Webster, continues to be an invaluable tool for the Senate 
community. In particular, legislative staff continue to depend upon its 
availability, reliability and content to aid in the performance of 
their duties. The Senate Recording Studio is in the process of 
upgrading the closed caption log software, which has not been updated 
since it was developed more than a decade ago. The new system should be 
in place during calendar year 2009.
    Continuity of operations (COOP) planning and preparation continues 
to be a top priority to ensure that the staff are prepared and 
confident about the ability to relocate and successfully function from 
a remote location in the event of an emergency. The staff participates 
with the Senate Recording Studio in an off-site location exercise at 
least once a year.

Capitol Visitor Center Update
    Captioning Services relocated to new offices in the Capitol Visitor 
Center during the month of August 2008.

                              DAILY DIGEST

    The Office of the Senate Daily Digest is pleased to transmit its 
annual report on Senate activities during the second session of the 
110th Congress. First, a brief summary of a compilation of Senate 
statistics:

Chamber Activity
    The Senate was in session a total of 184 days, for a total of 988 
hours and 31 minutes. There were 3 quorum calls and 215 record votes. 
(See the following chart, ``20-Year Comparison of Senate Legislative 
Activity.'')

                                                                        20-YEAR COMPARISON OF SENATE LEGISLATIVE ACTIVITY
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                          1989          1990          1991          1992          1993          1994          1995          1996          1997          1998
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Senate Convened.....................................           1/3          1/23           1/3           1/3           1/5          1/25           1/4           1/3           1/3          1/27
Senate Adjourned....................................         11/21         10/28        1/3/92          10/9         11/26         12/01        1/3/96          10/4         11/13         10/21
Days in Session.....................................           136           138           158           129           153           138           211           132           153           143
Hours in Session....................................      1,00319"      1,25014"      1,20044"      1,09109"      1,26941"      1,24333"      1,83910"      1,03645"      1,09307"      1,09505"
Average Hours per Day...............................           7.4           9.1           7.6           8.5           8.3           9.0           8.7           7.8           7.1           7.7
Total Measures Passed...............................           605           716           626           651           473           465           346           476           386           506
Roll Call Votes.....................................           312           326           280           270           395           329           613           306           298           314
Quorum Calls........................................            11             3             3             5             2             6             3             2             6             4
Public Laws.........................................           240           244           243           347           210           255            88           245           153           241
Treaties Ratified...................................             9            15            15            32            20             8            10            28            15            53
Nominations Confirmed...............................        45,585        42,493        45,369        30,619        38,676        37,446        40,535        33,176        25,576        20,302
Average Voting Attendance...........................          98.0         97.47         97.16          95.4          97.6         97.02         98.07         98.22         98.68         97.47
Sessions Convened Before 12 Noon....................            95           116           126           112           128           120           184           113           115           109
Sessions Convened at 12 Noon........................            14             4             9  ............             6             9             2            15            12            31
Sessions Convened after 12 Noon.....................            27            17            23            10            15            17            12             7             7             2
Sessions Continued after 6 p.m......................            88           100           102            91           100           100           158            88            96            93
Sessions Continued after 12 Midnight................             9            13             6             4             9             7             3             1  ............  ............
Saturday Sessions...................................             1             3             2             2             2             3             5             1             1             1
Sunday Sessions.....................................  ............             2  ............  ............  ............  ............             3  ............             1  ............
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------


                                                                  20-YEAR COMPARISON OF SENATE LEGISLATIVE ACTIVITY--Continued
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                          1999          2000          2001          2002          2003          2004          2005          2006          2007          2008
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Senate Convened.....................................           1/6          1/24           1/3          1/23           1/7          1/20           1/4           1/3           1/4           1/3
Senate Adjourned....................................         11/19         12/15         12/20         11/20          12/9          12/8         12/22          12/9         12/31           1/2
Days in Session.....................................           162           141           173           149           167           133           159           138           189           184
Hours in Session....................................      1,18357"      1,01751"      1,23615"      1,04223"      1,45405"      1,03131"      1,22226"      1,02748"      1,37554"        98831"
Average Hours per Day...............................           7.3           7.2           7.1           7.0           8.7           7.7           7.7           7.4           7.2          5.37
Total Measures Passed...............................           549           696           425           523           590           663           624           635           621           589
Roll Call Votes.....................................           374           298           380           253           459           216           366           279           442           215
Quorum Calls........................................             7             6             3             2             3             1             3             1             6             3
Public Laws.........................................           170           410           136           241           198           300           169           248           142           318
Treaties Ratified...................................            13            39             3            17            11            15             6            14             8            30
Nominations Confirmed...............................        22,468        22,512        25,091        23,633        21,580        24,420        25,942        29,603        22,892        21,785
Average Voting Attendance...........................         98.02         96.99         98.29         96.36         96.07         95.54         97.41         97.13         94.99         94.36
Sessions Convened Before 12 Noon....................           118           107           140           119           133           104           121           110           156           147
Sessions Convened at 12 Noon........................            17            25            10            12             4             9             1             4             4             4
Sessions Convened after 12 Noon.....................            19            24            21            23            23            21            36            24            32            33
Sessions Continued after 6 p.m......................           113            94           108           103           134           129           120           129           144           110
Sessions Continued after 12 Midnight................  ............  ............             2             3             8             2             3             3             4             2
Saturday Sessions...................................             3             1             3  ............             1             2             2             2             1             3
Sunday Sessions.....................................  ............             1  ............  ............             1             1             2  ............             1             1
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Prepared by the Senate Daily Digest--Office of the Secretary.

Committee Activity
    Senate committees held a total of 823 meetings during the second 
session, compared to 1,005 meetings during the first session of the 
110th Congress.
    All hearings and business meetings (including joint meetings and 
conferences) are scheduled through the Office of the Senate Daily 
Digest and are published in the Congressional Record, on the Digest's 
Web site (http://www.senate.gov/pagelayout/committees/
b_three_sections_with_teasers/committee_hearings.htm), and entered in 
the web-based applications system (Legislative Information System). 
Meeting outcomes are also published by the Daily Digest in the 
Congressional Record each day and continuously updated on the Web site.

Computer Activities
    The Digest completed the installation of its Word-based system, 
which shortened the time it takes to create the Digest and send it to 
the Government Printing Office (GPO). Computer Center staff, working 
closely with Daily Digest staff, developed a Daily Digest Authoring 
System which is a Microsoft Visual Basic for Applications (VBA) system 
designed to provide the Daily Digest with structured methods for 
creating, editing, and managing files.
    The Digest continues the practice of sending a disc along with a 
duplicate hard copy to GPO. GPO receives the Digest copy by electronic 
transfer long before hand delivery is completed, which promotes the 
timeliness of publishing the Congressional Record. The Digest staff 
continues to feel comfortable with this procedure, both to allow the 
Digest Editor to physically view what is being transmitted to GPO, and 
to allow GPO staff to have a comparable final product to cross 
reference.
    The Digest staff continues to work closely with the Sergeant at 
Arms computer staff to refine the LIS/document management system. The 
Digest is pleased to report that all refinements made to the Senate 
Committee Scheduling application have been successfully implemented.

Government Printing Office
    The Daily Digest staff continues the practice of discussing with 
the Government Printing Office problems encountered with the printing 
of the Digest; with the onset of electronic transfer of the Digest 
copy, occurrences of editing corrections or transcript errors are 
infrequent. Discussions with GPO continue regarding page references 
inserted by GPO.

                            ENROLLING CLERK

    The Enrolling Clerk prepares, proofreads, corrects, and prints all 
Senate-passed legislation prior to its transmittal to the White House, 
the House of Representatives, the National Archives, the Secretary of 
State, and the United States Court of Claims. The Enrolling Clerk 
transmits in person all Senate messages to the House of 
Representatives.
    During the 110th Congress, the Enrolling Clerk's office prepared 
the enrollment of 135 bills (transmitted to the President), 8 enrolled 
joint resolutions (transmitted to the President), 14 concurrent 
resolutions (transmitted to the National Archives) and 95 appointments 
(transmitted to the House of Representatives). In addition, 
approximately 462 bills from the House of Representatives (including 12 
appropriations bills and the budget concurrent resolution) were either 
amended or acted on in the Senate, thus requiring action on the part of 
the staff of the Enrolling Clerk's office.
    A total of 852 pieces of legislation were passed or agreed to 
during the 110th Congress. Many other Senate bills, including over 350 
resolutions and 229 engrossed Senate bills, were placed in the calendar 
by the Senate and were processed in the Enrolling Clerk's office. The 
office is also responsible for keeping the original official copies of 
bills, resolutions and appointments from the Senate floor through the 
end of each Congress. At the end of the second session of each 
Congress, the Enrolling Clerk's staff carefully prepares all official 
papers for storage at the National Archives.
    During the 110th Congress, the Enrolling Clerk delivered 210 
messages to the House Chamber and 58 messages to the House Clerk's 
office. The Enrolling Clerk also prepared and transmitted 95 
appointments to the House of Representatives, informing the House of 
Senate actions on legislation passed or amended.
    The Senate Enrolling Clerk is also responsible for electronically 
transmitting the files of engrossed and enrolled legislation to GPO for 
overnight printing. The office also followed up on all specific 
requests and special orders for printing from the Senate floor.

                            EXECUTIVE CLERK

    The Executive Clerk prepares an accurate record of actions taken by 
the Senate during executive sessions (proceedings on nominations and 
treaties), which is published as the Journal of the Executive 
Proceedings of the Senate at the end of each session of Congress. The 
Executive Clerk also prepares the Executive Calendar daily, as well as 
all nomination and treaty resolutions for transmittal to the President. 
Additionally, the office processes all executive communications, 
presidential messages, and petitions and memorials.

Nominations
    During the second session of the 110th Congress, there were 1,008 
nomination messages sent to the Senate by the President, which 
transmitted 22,090 nominations to positions requiring Senate 
confirmation and 43 messages withdrawing nominations sent to the 
Senate. Of the total nominations transmitted, there were 3,124 nominees 
in the following ``civilian list'' categories: Foreign Service, Coast 
Guard, National Oceanic and Atmospheric Administration, and Public 
Health Service. An additional 508 nominees were for other civilian 
positions. Military nominations received this session totaled 18,674 
(5,931 Air Force; 6,425 Army; 4,752 Navy; and 1,566 Marine Corps). The 
Senate confirmed 21,785 nominations this session. Pursuant to the 
provisions of paragraph six of Senate Rule XXXI, 478 nominations were 
returned to the President during the second session of the 110th 
Congress.

Treaties
    During the second session of the 110th Congress, there were 13 
treaties transmitted by the President to the Senate for its advice and 
consent to ratification. These were ordered printed as treaty documents 
for the use of the Senate (Treaty Doc. 110-11 through 110-23).
    The Senate gave its advice and consent to 30 treaties with various 
conditions, declarations, understandings and provisos to the 
resolutions of advice and consent to ratification.

Executive Reports and Roll Call Votes
    There were 19 executive reports relating to treaties ordered 
printed for the use of the Senate during the second session of the 
110th Congress (Executive Report 110-10 through 110-28). The Senate 
conducted seven rollcall votes in executive session, all on or in 
relation to nominations and treaties.

Executive Communications
    For the second session of the 110th Congress, 4,608 executive 
communications, 202 petitions and memorials and 31 Presidential 
messages were received and processed.

Paper Reduction
    In an effort to save money and eliminate unnecessary paper, the 
Executive Clerk reduced the printed copies of the Executive Calendar 
each day from over 1,000 to 685. Additionally, the office reduced the 
copies of nominations printed for the committees by 75 percent and some 
committees have requested electronic copies of the appropriate 
paperwork, rather than paper copies.

Legislative Information System (LIS) Update (Projects)
    The Executive Clerk consulted with the Sergeant at Arms throughout 
the year concerning ongoing improvements to the LIS pertaining to the 
processing of nominations, treaties, executive communications, 
presidential messages and petitions and memorials.

                             JOURNAL CLERK

    The Journal Clerk takes notes of the daily legislative proceedings 
of the Senate in the ``Minute Book'' and prepares a history of bills 
and resolutions for the printed Journal of the Proceedings of the 
Senate, or Senate Journal, as required by Article I, Section V of the 
Constitution. The content of the Senate Journal is governed by Senate 
Rule IV. The Senate Journal is published each calendar year. The 2008 
Senate Journal is expected to be sent to the Government Printing Office 
at the end of 2009.
    The Journal staff take 90-minute turns at the rostrum in the Senate 
chamber, noting the following by hand for inclusion in the Minute Book: 
(i) all orders (entered into by the Senate through unanimous consent 
agreements), (ii) legislative messages received from the President of 
the United States, (iii) messages from the House of Representatives, 
(iv) legislative actions as taken by the Senate (including motions made 
by Senators, points of order raised, and rollcall votes taken), (v) 
amendments submitted and proposed for consideration, (vi) bills and 
joint resolutions introduced, and (vii) concurrent and Senate 
resolutions as submitted. These notes of the proceedings are then 
compiled in electronic form for eventual publication of the Senate 
Journal at the end of each calendar year. Compilation is accomplished 
through utilization of the LIS Senate Journal Authoring System.
    In keeping with the Office of the Secretary's commitment to 
continuity of operations programs, the Journal Clerk undertook an 
effort to digitally scan the Minute Book pages, dating from 2004 to the 
present, into a secure directory. Although the Minute Books for each 
session of a Congress are sent to the National Archives one year after 
the end of a Congress, having easily-retrievable files will ensure 
timely reconstitution of the Minute Book data in the event of damage 
to, or destruction of, the physical Minute Book.

                     OFFICIAL REPORTERS OF DEBATES

    The Office of the Official Reporters of Debates is responsible for 
the stenographic reporting, transcribing, and editing of the Senate 
floor proceedings for publication in the Congressional Record. The 
Chief Reporter acts as the editor-in-chief and the Coordinator 
functions as the technical production manager of the Senate portion of 
the Record. The office interacts with Senate personnel regarding 
additional materials to be included in the Record.
    On a continuing basis, all materials to be printed in the next 
day's edition of the Record are transmitted electronically and on paper 
to the Government Printing Office (GPO).
    Each day, roughly 90 percent of transcript production for GPO is 
done electronically, thus significantly reducing the time required by 
GPO to retype materials for presentation in the Congressional Record by 
the next day. In 2008, there were no delays in the overnight production 
of the Congressional Record
    The project to provide online Congressional Record corrections, 
which was launched in 2007, ended its pilot phase and was brought 
online in early 2008. When a significant error, caused by this or any 
other office under the Secretary of the Senate, is identified in the 
Congressional Record, GPO is notified of such mistake and a correction 
in the online Record is made shortly thereafter. This error is 
automatically corrected in the printing of the permanent Record.

                            PARLIAMENTARIAN

    The parliamentarian's office continues to perform its essential 
institutional responsibilities to act as a neutral arbiter among all 
parties with an interest in the legislative process. These 
responsibilities include advising the chair, Senators and their staffs, 
committee staff, House members and their staffs, administration 
officials, the media and members of the general public on all matters 
requiring an interpretation of the Standing Rules of the Senate, the 
precedents of the Senate, unanimous consent agreements, as well as 
provisions of public law that affect the proceedings of the Senate.
    The parliamentarians work in close cooperation with the Senate 
leadership and their floor staffs in coordinating all of the business 
on the Senate floor. The parliamentarian or one of his assistants is 
always present on the Senate floor when the Senate is in session, 
standing ready to assist the Presiding Officer in his or her official 
duties, as well as to assist any other Senator on procedural matters. 
The parliamentarians work closely with the Vice President of the United 
States and the staff of the Vice President whenever he performs his 
duties as President of the Senate.
    The parliamentarians serve as the agents of the Senate in 
coordinating the flow of legislation with the House of Representatives 
and with the President, and ensure that enrolled bills are signed in a 
timely manner by duly authorized officers of the Senate for 
presentation to the President. The parliamentarians monitor all 
proceedings on the floor of the Senate, advise the Presiding Officer on 
the competing rights of the Senators on the floor, and advise all 
Senators as to what is appropriate in debate. The parliamentarians keep 
track of time on the floor of the Senate when time is limited or 
controlled under the provisions of time agreements, statutes or 
standing orders. The parliamentarians keep track of the amendments 
offered to the legislation pending on the Senate floor, and monitor 
them for points of order. In this respect, the parliamentarians 
reviewed more than 800 amendments during 2008 in order to determine 
whether they met various procedural requirements, such as germaneness. 
The parliamentarians also reviewed thousands of pages of conference 
reports to determine what provisions could appropriately be included 
therein.
    The office is responsible for the referral to the appropriate 
committees of all legislation introduced in the Senate, all legislation 
received from the House, and all communications received from the 
executive branch, state and local governments, and private citizens. In 
order to perform this responsibility, the parliamentarians do extensive 
legal and legislative research. During 2008, the Parliamentarian and 
his assistants referred 1,496 measures and 4,842 communications to the 
appropriate Senate committees. The office worked extensively with 
Senators and their staffs to advise them of the jurisdictional 
consequences of particular drafts of legislation, and evaluated the 
jurisdictional effect of proposed modifications in drafting. In 2008 as 
in the past, the parliamentarians conducted several briefings on Senate 
procedure to various groups of Senate staff, on a non-partisan basis.
    During all of 2008, the parliamentarians were deeply involved in 
interpreting the ethics reform proposals adopted in 2007, especially 
the language dealing with earmark accountability and scope of 
conference.
    Since the election in 2008, all of the parliamentarians 
participated in the orientation sessions for the newly elected and 
appointed Senators and have assisted each of them in their initial 
hours as Presiding Officers. The parliamentarians also participated in 
an orientation session on the Senate floor for Senate staff.
    In 2008 and early 2009, as is the case following each general 
election, the parliamentarians received all of the certificates of 
election of Senators elected or re-elected to the Senate, as well as 
those Senators appointed to fill vacancies, and reviewed them for 
sufficiency and accuracy, returning those that were defective and 
reviewing their replacements. In addition, as is the case in all 
Presidential election years, the parliamentarians reviewed all 
certificates of ascertainment and certificates of votes submitted by 
the states and counseled the Vice President on his responsibilities in 
presiding over the joint session of Congress to count the electoral 
ballots.

                          FINANCIAL OPERATIONS
                           DISBURSING OFFICE

    The mission of the Senate Disbursing Office is to provide efficient 
and effective central financial and human resource data management, 
information and advice to the offices of the United States Senate and 
to members and employees of the Senate. The Senate Disbursing Office 
manages the collection of information from the distributed accounting 
locations within the Senate to formulate and consolidate the agency 
level budget, disburse the payroll, pay the Senate's bills, prepare 
auditable financial statements, and provide appropriate counseling and 
advice. The Senate Disbursing Office collects information from members 
and employees that is necessary to maintain and administer the 
retirement, health insurance, life insurance, and other central human 
resource programs and provides responsive, personal attention to 
members and employees on an unbiased and confidential basis. The Senate 
Disbursing Office also manages the distribution of central financial 
and human resource information to the individual member offices, 
committees, administrative and leadership offices in the Senate while 
maintaining the confidentiality of information for members and Senate 
employees.
    The organization is structured to enhance its ability to provide 
quality work, maintain a high level of customer service, promote good 
internal controls, efficiency and teamwork, and provide for the 
appropriate levels of supervision and management. The long-term 
financial needs of the Senate are best served by an organization 
staffed with highly trained professionals who possess a high degree of 
institutional knowledge, sound judgment, and interpersonal skills that 
reflect the unique nature of the United States Senate.

Executive Office
    The primary responsibilities, among others, of the Executive Office 
are to:
  --oversee the day to day operations of the Disbursing Office (DO);
  --respond to any inquiries or questions that are presented;
  --maintain fully and properly trained staff;
  --ensure that the office is prepared to respond quickly and 
        efficiently to any disaster or unique situation that may arise;
  --provide excellent customer service;
  --assist the Secretary of the Senate in the implementation of new 
        legislation affecting any of her departments; and
  --handle all information requests from the Committee on 
        Appropriations and Committee on Rules and Administration.
    This year the Executive Office assisted in the coordination of the 
closing of all suspense accounts as mandated by Treasury. Since 
Automated Clearing House (ACH) and check advances were charged to this 
account, it was necessary to perform an in-depth review and implement 
required system changes in the way the Disbursing Office accounts for 
travel advances in a short period of time.
    As a result of the November elections, the Executive Office issued 
more than 300 letters to staff explaining the requirements of displaced 
staff as authorized by applicable Senate resolutions.
    The Executive Office coordinated a meeting with several Treasury 
Department representatives to discuss required reporting changes for 
non-Treasury disbursing offices (NTDOs) under the Government-wide 
Accounting and Reporting (GWA) modernization project. The agenda 
included a discussion of Treasury's requirements, as well as the 
challenges these new reporting requirements will present to the 
Disbursing Office and any NTDO agency.
    On a monthly basis, the Financial Clerk and the Assistant Financial 
Clerk continue to attend Legislative Branch Financial Managers Council 
(LBFMC) meetings to share issues that affect other Congressional 
managers. In addition, the Financial Clerk and the Assistant Financial 
Clerk, along with Disbursing Office staff and the Sergeant at Arms 
(SAA) technical support staff, participated in meetings for the 
procurement of a new payroll system. The meetings resulted in the 
development of current system requirements and parameters, which will 
be used to help determine requirements for the new system.
    The Disbursing Office was also involved in transitioning the 
Capitol Guide staff from the Senate payroll to the Architect of the 
Capitol's (AOC), as well as transitioning the Special Services staff to 
the newly created Office of Congressional Accessibility Services. 
Disbursing staff continues to work with both groups to transfer fiscal 
year 2009 funds and complete the transfer of all the personnel benefits 
files.
    Disbursing representatives also attended several meetings with 
staff from the Majority Leader's office, the Committee on Rules and 
Administration, the Select Committee on Ethics and other interested 
parties to finalize the procedures and requirements needed to get the 
Congressional Oversight Panel up and running. The Congressional 
Oversight Panel was established by the Emergency Economic Stabilization 
Act of 2008, Public Law 110-343.

Deputy for Benefits and Financial Services
    The principal responsibility of this position is to provide 
expertise and oversight on federal retirement, benefits, payroll, and 
financial services processes. The deputy also coordinates the 
interaction between the Front Office, Employee Benefits, and Payroll 
Sections, and is responsible for the planning and project management of 
new computer systems and programs. The deputy ensures that job 
processes are efficient and up-to-date, modifies computer support 
systems as necessary, implements regulatory and legislated changes, and 
designs and produces up-to-date forms and information for use in all 
three sections.
            General Activities
    After year-end processing of payroll for calendar year 2007, cost 
of living adjustments (COLAs) for 2008 were processed in a timely 
manner. The Disbursing Office issued W-2 forms promptly and made them 
immediately available on the Document Imaging System (DIS). During the 
year, other minor changes were made to the Human Resources Management 
System (HRMS) as a result of changes in regulations and policy.
    A major initiative during 2007 and 2008 was to eliminate the use of 
employee Social Security Numbers (SSN) wherever possible, thereby 
increasing the security of personal information for members and 
employees of the Senate. This ``Social Security Number Migration'' 
project was successfully completed in June of 2008. The ``key field'' 
within the payroll system was changed from the SSN to a randomly 
generated employee identification number (EID). This limits use of the 
SSN only to those entities who have a legitimate need to receive it. 
After extensive research and coordination, the deputy, the Payroll 
Department and SAA technical support developed requirements and 
established guidelines and strategies for the payroll system migration. 
Because the payroll system provides data to so many internal and 
external entities, great care and planning were devoted to the 
coordination with users. This project required significant research, 
programming changes and modifications, testing and feedback. Post 
migration, anticipated minimal fine-tuning and trouble-shooting 
occurred. Successful transmissions and extracts to other entities 
occurred without interruption or incident.
    In continuing efforts to comply with continuity of operations 
(COOP) initiatives, reduce unnecessary use of paper and lessen physical 
storage needs, the Disbursing Office undertook a project to provide 
payroll reports to Senate offices electronically rather than on paper. 
The deputy and Payroll Department worked with Disbursing's Information 
Technology group and several SAA technical support groups to proceed 
with development and implementation of this project. After the 
completion of requirements and development, extensive testing and 
feedback were required. The electronic Payroll Reports were rolled out 
to a pilot group during the summer and full implementation throughout 
the Senate was achieved in October 2008. Feedback on this new resource 
has been very positive.
    As part of continuing efforts to achieve full COOP compliance, the 
office identified a need to accomplish complete document imaging for 
all Senate employee personnel folders. Document Imaging System (DIS) 
programming modifications and upgrades were determined and implemented 
in preparation for this project. Necessary hardware was obtained and 
imaging procedures were drafted and finalized. In August of 2008 a new, 
temporary staffer was hired specifically for this task, which is 
anticipated to be a 2-year project. The document imaging is proceeding 
on schedule. Approximately 15 percent of the employee documents have 
been imaged to the DIS. As an added benefit, this project provides the 
opportunity to conduct an audit and reconciliation of hard-copy 
personnel folders.
    The Disbursing Office, in tandem with SAA Technical Support, began 
initial research into the procurement of a new payroll system. In 
addition to determining current system requirements and parameters, 
Disbursing Office staff and SAA technical support drafted, edited and 
ranked future system requirements. They also attended initial vendor 
demonstrations and drafted and edited demonstration scripts for future 
software vendor demonstrations. Because of the specific laws and 
regulations governing the services and programs administered by the 
payroll system, particular attention was paid to those areas where 
systems will need to be tailored to the Senate. Vendor demonstrations 
are anticipated in 2009, which should be followed by a software 
selection. Following that, the next phase will be to determine the 
requirements and criteria that will further tailor the product to meet 
the needs of the system's users, as well as aid in the selection of an 
implementation vendor. The Disbursing Office will work with 
representatives of member and committee offices to define user 
requirements.
    This office assisted with technical guidance on the impact of 
legislation drafted in support of the new Capitol Visitor Center on pay 
and benefits. As a result of the legislation, the Capitol Guides were 
transferred en masse from the Senate payroll to the payroll of the 
Architect of the Capitol (AOC) in November. This required coordination 
with the Guide Service and AOC personnel in order to prepare for the 
data transfer and ensure a smooth transition for the affected 
employees. The preparation and compilation of employee records, which 
will be transmitted to the AOC, will continue into the new year.

Front Office--Administrative and Financial Services
    The Front Office is the main service area for all general Senate 
business and financial activity. The Front Office staff maintains the 
Senate's internal accountability of funds used in daily operations. The 
reconciliation of such funds is executed on a daily basis. The Front 
Office staff also provides training to newly authorized payroll 
contacts along with continuing guidance to all contacts in the 
execution of business operations. It is the receiving point for most 
incoming expense vouchers, payroll actions, and employee benefits 
related forms, and is the initial verification point to ensure that 
paperwork received in the Disbursing Office conforms to all applicable 
Senate rules, regulations, and statutes. The Front Office is the first 
line of service provided to Senators, officers, and employees. All new 
Senate employees (permanent and temporary) who will work in the Capitol 
Hill Senate offices are administered the required oath of office and 
personnel affidavit. Staff is also provided verbal and written detailed 
information regarding pay and benefits. Advances are issued to Senate 
staff authorized for official Senate travel. Cash and check advances 
are entered and reconciled in Web FMIS. After the processing of 
certified expenses is complete, cash travel advances are repaid. 
Numerous inquiries are handled daily, ranging from pay, benefits, 
taxes, voucher processing, reporting, laws, and Senate regulations, and 
must always be answered accurately and fully to provide the highest 
degree of customer service. Cash and checks received from Senate 
entities as part of their daily business are handled through the Front 
Office and become part of the Senate's accountability of federally 
appropriated funds and are then processed through the Senate's general 
ledger system. The Front Office maintains the Official Office 
Information Authorization Forms that authorize individuals to conduct 
various types of business with the Disbursing Office.
            General Activities
    Processed approximately 900 cash advances, totaling approximately 
$700,000 and initialized 1,200 check/direct deposit advances, totaling 
approximately $900,000.
    Received and processed more than 24,700 checks, totaling over 
$1,900,000.
    Administered oath and personnel affidavits to more than 2,800 new 
Senate staff and advised them of their benefits.
    Maintained brochures for 15 federal health insurance carriers and 
distributed approximately 4,300 brochures to new and existing staff 
during the annual Federal Employees Health Benefits (FEHB) Open Season.
    Provided 33 training sessions to new administrative managers.
    The Front Office continues its daily reconciliation of operations 
and strengthening of internal office controls. Security was further 
enhanced this year by the use of pens that help identify counterfeit 
currency presented to Disbursing during cash transactions. Training and 
guidance to new administrative managers and business contacts continued 
and was enhanced by the revamping of training materials provided to 
newly authorized business contacts. Disbursing staff received many 
positive comments regarding the use of the Document Imaging System, 
which immediately reproduces W-2 and other forms for employees who 
request duplicates. The staff continued to place a major emphasis on 
assisting employees in maximizing their Thrift Savings Plan (TSP) 
contributions and making them aware of the TSP catch-up program. The 
Front Office continued to provide the Senate community with prompt, 
courteous, and informative advice regarding Disbursing Office 
operations.

Payroll Section
    The Payroll Section maintains the human resources management system 
(HRMS) and is responsible for processing, verifying, and warehousing 
all payroll information submitted to the Disbursing Office by Senators, 
committees and other appointing officials for their staffs, including 
appointments of employees, salary changes, title changes, transfers and 
terminations. It is also responsible for input of all enrollments and 
elections submitted by members and employees that affect their pay 
(e.g. retirement and benefits elections, tax withholding, TSP 
participation, allotments from pay, address changes, direct deposit 
elections, levies and garnishments) and for the issuance of accurate 
salary payments to members and employees. The Payroll Section is 
responsible for the administration of the Senate Student Loan Repayment 
Program (SLP). It is also responsible for the audit and reconciliation 
of the FSA and FEDVIP Bill Files received each pay period. The Payroll 
Section jointly maintains the Automated Clearing House (ACH) FedLine 
facilities with the Accounts Payable Section for the normal transmittal 
of payroll deposits to the Federal Reserve. Payroll expenditure, 
projection and allowance reports are distributed to all Senate offices. 
The Payroll Section issues the proper withholding and agency 
contribution reports to the Accounting Department and transmits the 
proper TSP information to the National Finance Center. In addition, the 
Payroll Section maintains earnings records, which are distributed to 
the Social Security Administration, and employees' taxable earnings 
records, which are used for W-2 statements. The Payroll Section is also 
responsible for the payroll expenditure data portion of the Report of 
the Secretary of the Senate. The Payroll Section calculates, reconciles 
and bills the Senate Employees Child Care Center (SECCC) for their 
staff employee contributions and forwards payment of those 
contributions to the Accounting Section. The Payroll Section provides 
guidance and counseling to staff and administrative managers on issues 
of pay, salaries, allowances and projections.
            General Activities
    In January 2008, the Payroll Section conducted all year-end 
processing and reconciliation of pay records and produced W-2 forms for 
employees and state tax agencies, which are also maintained in the 
Document Imaging System (DIS). In addition, an employee cost of living 
adjustment (COLA) of 4.49 percent was administered. Statutory rates and 
program caps were updated in the HRMS. The Payroll Section maintained 
the normal schedule of processing TSP election forms.
    Payroll allowance, expenditure and projection reports are provided 
to all Senate offices on a monthly basis. In 2007, guidelines and 
requirements for the provision of electronic payroll reports were 
developed. The Payroll Section participated with the deputy, 
Disbursing's IT section, and SAA technical support staff to implement, 
test and trouble-shoot the electronic payroll reports project. 
Following the participation of a pilot group, the payroll reports were 
first distributed electronically in October 2008. Payroll now maintains 
responsibility for the review and release of these reports on a semi-
monthly basis. All feedback to this new process has been positive.
    The Payroll Section participated in the testing and implementation 
of the Social Security Number Migration project that took place in 
2008. It was instrumental in the follow-up testing and trouble-shooting 
that occurred after the implementation. The Payroll Section 
participated in the development of procedural changes required to 
accommodate the change to the ``key field'' within the payroll system.
    The Payroll staff participated in the initial research regarding 
the procurement of a new payroll system. They provided job and task 
summaries, records of reports and system output, and attended numerous 
strategy sessions to determine both current system requirements and 
parameters and future system requirements. They attended and reviewed 
vendor demonstrations and participated in the drafting of demo scripts 
for future software vendor demonstrations.
    The Payroll Section administers the Student Loan Repayment Program, 
which includes initiation, tracking and transmission of the payments, 
determination of eligibility and coordination and reconciliation with 
office administrators and program participants. The program is very 
popular and participation remains high. The SLP Administrator continues 
to improve processes for administration of the program and document 
procedures.
    In 2008, the Payroll Section staff continued to work diligently 
with the SAA technical support staff and external entities in order to 
eliminate the use of paper and tape-driven correspondence. In August, 
the Payroll Section began electronically transmitting all Treasury 
tapes to the Federal Reserve in Kansas City. With regards to its 
correspondence and transmissions with the TSP and the Federal Reserve, 
Disbursing now operates completely paper-free and tape-free.
    As a result of the elections, the Disbursing Office staff looked 
into the specifics of applicable Senate resolutions to determine their 
impact, if any, on outgoing and potentially outgoing staff in order to 
ensure that current procedures allowed for the proper administration of 
the resolutions. The Payroll staff provided guidance to staff on those 
resolutions. In addition, the Payroll Section administered the transfer 
of all Capitol Guides to the AOC.
    The Payroll Section continues to participate in disaster recovery 
testing. This year, testing was conducted in December. The Alternate 
Computing Facility (ACF) processing equipment operated the payroll 
system from the Hart Building while SAA programmers ran trial payrolls 
from remote sites. As part of the test, members of SAA Production 
Services had to produce the payroll output from printers located at the 
ACF. The payroll system test proved very successful.

Employee Benefits Section (EBS)
    The primary responsibility of the Employee Benefits Section is the 
administration of health insurance, life insurance, TSP, and all 
retirement programs for members and employees of the Senate. This 
includes counseling, processing paperwork, researching, disseminating 
information and interpreting retirement and benefits laws and 
regulations. EBS staff is also expected to have a working knowledge of 
the Federal Flexible Spending Account (FSA) Program, the Federal Long 
Term Care (LTC) Insurance Program and Federal Employees Dental and 
Vision Insurance Program (FEDVIP). In addition, the sectional work 
includes research and verification of all prior federal service and 
prior Senate service for new and returning employees. EBS provides this 
information for payroll input. Staff also verify the accuracy of the 
information provided and reconcile, as necessary, when official 
personnel folders and transcripts of service from other federal 
agencies are received. Senate transcripts of service, including all 
official retirement and benefits documentation, are provided to other 
federal agencies when Senate members and staff are hired elsewhere in 
the government. EBS is responsible for the administration and tracking 
of employees who are placed in Leave Without Pay (LWOP) as a result of 
leaving to perform military service or being appointed to an 
international organization. EBS participates fully in the Centralized 
Enrollment Clearinghouse System (CLER) Program, which is sponsored by 
OPM and is used to reconcile all FEHB enrollments with carriers through 
the National Finance Center on a quarterly basis. EBS is also 
responsible for ordering inventory and maintaining forms and brochures 
for TSP, retirement, and all other benefits. EBS processes employment 
verifications for loans, bar exams, and entities such as the FBI, 
Office of Personnel Management, and Department of Defense, among 
others. Employees may complete unemployment claim forms and receive 
counseling as to their eligibility. EBS reviews billings for 
unemployment compensation paid to Senate employees by the Department of 
Labor, as well as employee fees associated with FSAs, and submits 
vouchers to the Accounting Section for payment EBS staff processes and 
checks designations of beneficiary for life insurance, retirement, and 
unpaid compensation.
            General Activities
    Many employees changed health plans during the annual Federal 
Benefits Open Season. These changes were processed and reported to 
carriers very quickly. The Disbursing Office continues to provide 
Senate employees with access to the online ``Checkbook Guide to Health 
Plans'' in order to research and compare FEHB plans. This tool will 
remain available to staff throughout the year. The Disbursing Office 
also hosted an Open Season Federal Benefits Fair, which was well-
attended. The Benefits Fair included representatives from most of the 
local and national FEHB plans, as well as representatives from LTC, 
FSA, FEDVIP, and The Consumers Checkbook Guide. OPM announced a 
``belated enrollment opportunity,'' which extended through January 31, 
2009.
    Many retirement, death, and disability cases were also processed 
throughout the year. There was a great deal of employee turnover in 
2008, including the transition of the Capitol Guides to the payroll of 
the AOC, which resulted in appointments to be researched and processed, 
retirement records to be closed-out, termination packages of benefits 
information to be compiled and mailed out, and health insurance 
enrollments to be processed. Transcripts of service for employees going 
to other federal agencies, and other tasks associated with employees 
changing jobs, were at a high level this year. These required prior 
employment research and verification, new FEHB, FEGLI, FSA, FEDVIP, 
Civil Service Retirement System (CSRS), Federal Employees Retirement 
System (FERS) and TSP enrollments, and the associated requests for 
backup verification.
    EBS conducted agency-wide seminars on CSRS and FERS and, as a 
result of the many ongoing changes to the TSP Program, attended 
interagency meetings. EBS participated in a number of meetings with 
other Disbursing staff and the SAA technical staff to help assess the 
needs and parameters for selecting a new payroll system.

Disbursing Office Financial Management
    Headed by the deputy for Financial Management, the mission of 
Disbursing Office Financial Management is to coordinate all central 
financial policies, procedures, and activities; to process and pay 
expense vouchers within reasonable timeframes; to work toward producing 
an auditable consolidated financial statement for the Senate; and to 
provide professional customer service, training and confidential 
financial guidance to all Senate accounting locations. In addition, the 
Financial Management group is responsible for the compilation of the 
annual operating budget of the United States Senate for presentation to 
the Committee on Appropriations, and for the formulation, presentation 
and execution of the budget for the Senate. On a semiannual basis, this 
group is also responsible for the compilation, validation and 
completion of the Report of the Secretary of the Senate. Disbursing 
Office Financial Management is segmented into three functional 
departments: Accounting, Accounts Payable, and Budget. The Accounts 
Payable Department is subdivided into three sections: Vendor/SAVI, 
Disbursements and Audit. The deputy coordinates the activities of the 
three functional departments, establishes central financial policies 
and procedures, and carries out the directives of the Financial Clerk 
and the Secretary of the Senate.

Accounting Department
    During 2008, the Accounting Department approved 51,215 expense 
reimbursement vouchers and 27,700 certification and vendor uploads, and 
processed 1,350 deposits for items ranging from receipts received by 
the Senate operations, such as the Senate's revolving funds, to 
cancelled subscription refunds from member offices. General ledger 
maintenance also prompted the entry of thousands of adjustment entries, 
which include the entry of all appropriation and allowance funding 
limitation transactions, all accounting cycle closing entries, and all 
non-voucher reimbursement transactions such as payroll adjustments, 
COLA budget uploads, stop payment requests, travel advances and 
repayments, and limited payability reimbursements. The department 
continues to scan all documentation for journal vouchers, deposits, 
accounting memos, and letters of certification to facilitate both 
storage concerns and COOP backup.
    This year the Accounting Department assisted in the validation of 
various system upgrades and modifications, including two Web FMIS 
releases. Web release number 2008-2 introduced an imaging prototype for 
the submission and approval of paperless vouchers. Development 
continues so that imaging may be tested and become functional. Web 
release 2008-3 concentrated on reporting and budget upgrades, as well 
as implementation of the employee identification number conversion. For 
expense purposes, employees are no longer identified by Social Security 
number (SSN). They are now identified by a system generated number 
which contains no part of their SSN.
    During January 2008, the Accounting Department completed the 2007 
year-end process to close and reset revenue, expense, and budgetary 
general ledger accounts to zero. The Treasury passed a new requirement 
that all suspense accounts be zeroed out and closed. This required 
significant changes to accounting methodology, as suspense accounts 
were used to clear checks from Front Office accountability, credits, 
and stop payment requests, which resulted in replacement checks, check 
and ACH advances, and payroll adjustments. This change required a 
revamping of the travel advance accounting process, which was tested 
and implemented in a very short period of time.
    The Department of the Treasury's monthly financial reporting 
requirements include a ``Statement of Accountability'' that details all 
increases and decreases to the accountability of the Secretary of the 
Senate, such as checks issued during the month and deposits received, 
as well as a detailed listing of cash on hand. Also, the ``Statement of 
Transactions According to Appropriations, Fund and Receipt Accounts,'' 
a summary of all monies disbursed by the Secretary of the Senate 
through the Financial Clerk of the Senate, is reported to the 
Department of the Treasury on a monthly basis. All activity by 
appropriation account is reconciled with the Department of the Treasury 
on a monthly and annual basis. The annual reconciliation of the 
Treasury Combined Statement is also reported to the Office of 
Management and Budget (OMB) as part of the submission of the annual 
operating budget of the Senate.
    This year, the Accounting Department transmitted all federal tax 
payments for federal, Social Security, and Medicare taxes withheld from 
payroll expenditures, as well as the Senate's matching contribution for 
Social Security and Medicare to the Federal Reserve Bank. The 
department also performed quarterly reporting to the Internal Revenue 
Services (IRS) and annual reporting and reconciliation to the IRS and 
the Social Security Administration. Payments for employee withholdings 
for state income taxes were reported and paid on a quarterly basis to 
each state with applicable state income taxes withheld. System 
modifications installed in the previous year to allow electronic (ACH) 
payment of quarterly state taxes has resulted in a 50 percent 
participation rate by taxing jurisdictions. Numerically, 21 of 42 tax 
jurisdictions are receiving their quarterly state tax payments via ACH. 
Monthly reconciliations regarding the employee withholdings and agency 
matching contributions for the TSP were performed with the National 
Finance Center.
    There are also internal reporting requirements, such as the monthly 
ledger statements for all member offices and all other offices with 
payroll and non-payroll expenditures. These ledger statements detail 
all of the financial activity for the appropriate accounting period 
with regard to official expenditures in detail and summary form. It is 
the responsibility of the Accounting Department to review and verify 
the accuracy of the statements before Senate-wide distribution. The 
Accounting Department is working closely with the IT group to set up 
these reports for electronic distribution.
    The Accounting Department, in conjunction with the deputy for 
Financial Management and the Assistant Financial Clerk, continues to 
work closely with the SAA Finance Department to complete a new draft of 
the Senate-wide financial statements for past fiscal years, in 
accordance with OMB Bulletin 01-09, ``Form and Content of Agency 
Financial Statements'' and any updates required by OMB Circular A-136, 
``Form and Content of the Performance and Accountability Reports''. 
Work to finalize the implementation of the fixed asset system 
continues. The financial management software has been upgraded and the 
license renewed for 2009. Statements and other issues and priorities 
are discussed in monthly accounting meetings.
    Accounting also has a budget division whose primary responsibility 
is compiling the annual operating budget of the United States Senate 
for presentation to the Committee on Appropriations. The budget 
division is responsible for the preparation, issuance and distribution 
of the budget justification worksheets. Despite working under a 
continuing resolution in fiscal year 2008, the budget justification 
worksheets were mailed to the Senate accounting locations and were 
processed in November. The budget baseline estimates for fiscal year 
2009 were reported to OMB in mid-January. The budget analyst is also 
responsible for the preparation of 1099's and the prompt submission of 
forms to the IRS before the end of the January.

Accounts Payable: Vendor/Senate Automated Vendor Inquiry Section
    The Vendor/Senate Automated Vendor Inquiry (SAVI) Section maintains 
the accuracy and integrity of the Senate's central vendor (payee) file 
for the prompt completion of new vendor file requests and service 
requests related to the Disbursing Office's Web-based payment tracking 
system, which is known as SAVI. This section also assists the 
information technology (IT) department by performing periodic testing 
and by monitoring the performance of the SAVI system, including the 
conversion from SAVI to Staffer Functionality. Currently, more than 
16,300 vendor records are stored in the vendor file, in addition to 
approximately 10,000 employee records. Daily requests for new vendor 
addresses or updates to existing vendor information are processed 
within 24 hours of receipt. Besides updating mailing addresses, the 
Vendor/SAVI section facilitates the use of ACH by switching the method 
of payment requested by the vendor from check to direct deposit. 
Whenever a new remittance address is added to the vendor file, a 
standard letter is mailed to vendors requesting tax and banking 
information, as well as contact and e-mail information. If a vendor 
responds indicating they would like to receive ACH payments in the 
future, the method of payment is changed.
    SAVI is a Web-based payment tracking system, but it has been 
replaced by a Web FMIS based system referred to as Staffer 
Functionality. This conversion was necessary so that employees did not 
need to sign on to multiple systems to create and track their payments. 
All Web FMIS users have been moved into the Staffer Functionality and 
new offices are automatically established with it. Senate employees can 
electronically create, save, and file expense reimbursement forms, 
track their progress, and get detailed information on payments. The 
most common service requests are for system user identification and 
passwords and for the reactivation of accounts. Employees may also 
request an alternative expense payment method. Employees can choose to 
have their payroll set up for direct deposit or paper check, but can 
have their expenses reimbursed by a method that differs from their 
salary payment method. Approximately 1,800 employees needed to have new 

Staffer Functionality ID's and passwords assigned.
    The Vendor/SAVI section works closely with the A/P Disbursements 
group to resolve returned ACH payments. ACH payments are returned 
periodically for a variety of reasons, including incorrect account 
numbers, incorrect routing numbers, and, in rare instances, a 
nonparticipating financial institution.
    The Vendor/SAVI section electronically scans and stores all 
supporting documentation of existing vendor records and new vendor file 
requests. When this section receives replies asking for ACH 
participation, Vendor/SAVI staff ask whether the vendors wish to be 
notified by e-mail when payments are sent. Currently, over 2,000 of the 
2,600 ACH participants also receive e-mail notification of payment.
    During 2008, the Vendor/SAVI section processed over 2,300 vendor 
file additions, completed more than 2,200 SAVI service requests, mailed 
over 1,100 vendor information letters, and converted more than 500 
vendors from check payment to direct deposit.

Accounts Payable: Disbursements Department
    The Disbursements Department is the entry and exit point for 
voucher payments. The department physically and electronically receives 
all vouchers submitted for payment. It also pays all of these vouchers, 
as well as the items submitted by upload and the various certifications 
and adjustments that are submitted periodically. The department 
received 156,900 vouchers and paid an additional 27,700 uploaded 
expenses. All of these items were paid by the department via Treasury 
check or ACH. Multiple payments to the same payee are often combined. 
As a result, 22,355 checks were issued, while 60,785 ACH payments were 
required. The decreased check volume and increased ACH volume is a 
desired result as the department continues its efforts to substantially 
reduce reliance on paper checks.
    After vouchers are paid, they are sorted and filed by document 
number. Vouchers are grouped in 6-month ``clusters'' to accommodate 
their retrieval for the semi-annual Report of the Secretary of the 
Senate. Files are maintained in-house for the current period and two 
prior periods, as space is limited. Older documents are stored in the 
Senate Support Facility (SSF). The inventoried items are sorted and 
recorded in a database for easy document retrieval. Several document 
retrieval missions were successfully conducted, and the department 
continues to work closely with warehouse personnel.
    A major function of the department is to prepare adjustment 
documents. Adjustments are varied, and include re-issuance of items 
held as accounts receivable collections, re-issuance of payments for 
which non-receipt is claimed, and various supplemental adjustments 
received from the Payroll Department. Such adjustments are usually 
disbursed by check, but an increasing number are now handled 
electronically through ACH. Paper payroll check registers were replaced 
by an electronic version in 2006. The department maintains a 
spreadsheet that tracks cases of non-receipt of salary checks, 
including stop payment requests and re-issuance.
    While experiencing an increase in ACH payments, Disbursing also 
experienced an increase, though small, in the number of ACH returns. 
Returns are usually the result of receiving incorrect account or 
routing information and are easily corrected with payee contact. Some 
returns result from account closings or non-participating financial 
institutions and, while a bit more difficult, these items are resolved 
either by receiving updated information or simply converting the 
payment to a check. All rejected items are logged into an ACH reports 
folder. They are classified as either Payroll or Accounts Payable, and 
the actual daily reports are also scanned into the folder. Once logged 
in, the payroll items are forwarded to the Payroll Department, and the 
non-payroll items are forwarded to Vendor/SAVI to determine appropriate 
corrective action. The department prepares accounting memos outlining 
the actions to be taken, and makes adjustments as warranted.
    The department also prepares the stop payments forms as required by 
the Department of Treasury. Stop payments are requested by employees 
who have not received salary or expense reimbursements, and vendors 
claiming non-receipt of expense checks. During this year, the A/P 
Disbursement supervisor and the Accounts Payable manager continued 
using the Department of Treasury--Financial Management Service (FMS) 
online stop pay and check retrieval process known as PACER. The PACER 
system allows the department to electronically submit stop-payment 
requests and provides online access to digital images of negotiated 
checks for viewing and printing. Once a check is viewed, it is printed 
and may be scanned. Scanned images are then forwarded to the 
appropriate accounting locations via e-mail. During 2007, over 500 
requests were received for check copies. PACER saves the Disbursing 
Office a $7.50 processing fee for each request. PACER is now Web-based 
and accessible from multiple workstations in Disbursing, enabling staff 
to conduct research using the internet rather than the previously-used, 
slower mainframe system.
    Treasury created a new streamlined application called the Treasury 
Check Information System (TCIS) to aid PACER. All Disbursement staff 
and designated staff from the Payroll section are authorized to use 
TCIS to retrieve copies of cancelled checks. Since implementation in 
July of 2008, there have had more than 500 requests for copies of 
checks.
    Disbursements performed the initial scanning for the imaging 
prototype. Two Senate offices participated in the project, and in 
coordination with the Committee on Rules and Administration, 
Disbursements was able to determine what was needed for the effort. 
Also, Disbursements continues to play an active role in processing 
upload certifications and vendor payments as well as providing frequent 
assistance to the Front Office.

Accounts Payable: Audit Department
    The Accounts Payable Audit Section is responsible for auditing 
vouchers and answering questions regarding voucher preparation and the 
permissibility of expenses and advances. This section provides advice 
and recommendations on the discretionary use of funds to the various 
accounting locations; identifies duplicate payments submitted by 
offices; monitors payments related to contracts; trains new 
administrative managers and chief clerks about Senate financial 
practices and the Senate's Financial Management Information System; and 
assists in the production of the Report of the Secretary of the Senate.
    A major function of the section is monitoring the fund advances for 
travel and petty cash. Late in 2006, phase 1 of a new advance module 
for issuing and tracking advances was placed into service. The module 
is now completely operational and all phases have been completed. The 
system accommodates the issuance, tracking, and repayment of advances. 
It also facilitates the entry and editing of election dates and 
vouchers for Senators-elect. In addition to other functionality, an 
advance type of petty cash was created and is being tested. Regular 
petty cash audits are performed by the department; all petty cash 
accounts were successfully audited in 2008.
    The Accounts Payable Audit Section processed more than 156,900 
expense vouchers in 2008, as well as 27,700 uploaded items. Audit 
sanctioned more than 89,000 vouchers under authority delegated by the 
Senate Committee on Rules and Administration. This translates to 
roughly 16,800 vouchers processed per auditor, and 30,000 vouchers 
posted per certifier. The voucher processing consisted of providing 
interpretation of Senate rules, regulations and statutes and applying 
the same to expense claims, monitoring of contracts, and direct 
involvement with the Senate's central vendor file. On average, vouchers 
greater than $100 that do not have any issues or questions are 
received, audited, sanctioned electronically by the Senate Committee on 
Rules and Administration using Web FMIS, and paid within 8 to 10 
business days.
    Uploaded items are of two varieties: certified expenses and vendor 
payments. Certified expenses have been around since the 1980's, and 
include items such as stationery, telecommunications, postage, and 
equipment. Currently, the certifications include mass mail, franked 
mail, excess copy charges, Photography Studio, and Recording Studio 
charges. Expenses incurred by the various Senate offices are certified 
to the Disbursing Office on a monthly basis. The expenses are detailed 
on a spreadsheet which is also electronically uploaded. The physical 
voucher is audited and appropriate revisions are made. Concentrated 
effort is put forth to ensure certified items appear as paid in the 
same month they are incurred.
    Vendor uploads are used to pay vendors for the Stationery Room, 
Senate Gift Shop and state office rentals, and refund security deposits 
for the Senate Page School. The methodology is roughly the same as that 
for certifications, but the payments rendered are for the individual 
vendors. Although these items are generally processed and paid quickly, 
the state office rents are generally paid a few days prior to the month 
of the rental, which is consistent with the general policy of paying 
rent in advance.
    The Disbursing Office has sanctioning authority for vouchers of 
$100 or less, subject to post-payment audit by the Committee on Rules 
and Administration. These vouchers comprised approximately 57 percent 
of all vouchers processed and are usually paid within 5 business days. 
As in the previous year, Disbursing passed two post-payment audits 
performed by the Senate Committee on Rules and Administration.
    Additionally, advance documents and non-Contingent Fund vouchers 
are now posted in Audit. Currently, there are three certifying accounts 
payable specialists who handle the bulk of the sanctioning 
responsibilities within the group.
    The Accounts Payable Audit Group provided training sessions in the 
use of new systems, the process for generation of expense claims, and 
the permissibility of an expense; and participated in seminars 
sponsored by the Secretary of the Senate, the SAA, and the Library of 
Congress. The section trained 16 new administrative managers and chief 
clerks and conducted four informational sessions for Senate staff 
through seminars sponsored by the Congressional Research Service (CRS). 
The Accounts Payable group also routinely assists the IT department and 
other groups as necessary in the testing and implementation of new 
hardware, software, and system applications. Web FMIS 2008-2 and 2008-3 
were implemented, a prototype for imaging of expense vouchers was 
tested and used for two Senate offices, and the employee number 
conversion was successfully accomplished. Advances and previously 
submitted vouchers needed to be closely monitored so that employees 
were properly paid for expenses submitted prior to and after the 
conversion.
    In 2008, the cancellation process for advances was upgraded and 
streamlined again, and collection times for outstanding advances have 
decreased significantly.

Disbursing Office Information Technology
            Financial Management Information System
    The Disbursing Office Information Technology (DO IT) department 
provides both functional and technical assistance for all Senate 
financial management activities. Activities revolve around support of 
the Senate's Financial Management Information System (FMIS) which is 
used by staff in 140 Senate accounting locations (i.e., 100 Senate 
personal offices, 20 committees, 20 leadership and support offices, the 
Office of the Secretary of the Senate, the SAA, the Senate Committee on 
Rules and Administration Audit section, and the Disbursing Office).
    Responsibilities of the department include: supporting current 
systems; testing infrastructure changes; managing and testing new 
system development; planning; managing the FMIS project, including 
contract management; administering the Disbursing Office's Local Area 
Network (LAN); and coordinating the Disbursing Office's disaster 
recovery activities.
    The Disbursing Office is the ``business owner'' of FMIS and is 
responsible for making the functional decisions about FMIS. The SAA 
Technology Services staff is responsible for providing the technical 
infrastructure, including hardware (e.g., mainframe and servers), 
operating system software, database software, and telecommunications; 
technical assistance for these components, including migration 
management and database administration; and regular batch processing. 
The office's contract support team, along with the SAA, is responsible 
for operational support and is also under contract with the Secretary 
for application development. The three organizations work 
cooperatively.
    Highlights of the year include:
  --implemented two releases of FMIS;
  --eliminated the use of Social Security Numbers in employee vendor 
        numbers by converting all employee vendor numbers to the number 
        assigned by the payroll system;
  --conducted a prototype pilot of online review of imaged vouchers and 
        supporting documentation;
  --made payroll reports available online through Web FMIS;
  --transferred almost all SAVI-system users to Web FMIS ``Staffer 
        Functionality'' for creating online expense summary reports 
        (ESRs) and viewing payment information;
  --conducted a pilot of Web FMIS ``Electronic Invoice'' functionality 
        by which office managers and chief clerks were able to import 
        credit card charges to create vouchers for payment;
  --implemented revised travel advance accounting that eliminates the 
        use of suspense accounts;
  --supported the Disbursing Office staff in remitting quarterly state 
        tax payments via direct deposit;
  --prepared for re-writing the FMIS checkwriter functionality;
  --tested infrastructure changes that included upgrades to the 
        mainframe operating system (Z/OS), the database (DB2), and Web 
        Sphere;
  --coordinated and participated in a FMIS-only disaster recovery 
        exercise at the ACF;
  --supported the Senate Committee on Rules and Administration's post 
        payment audit of a statistically valid sample of vouchers of 
        $100 or less;
  --installed new Disbursing Office local area network servers;
  --upgraded PC software (MS Office 2007 and Adobe) throughout the 
        Disbursing Office;
  --installed new wide PC monitors throughout the Disbursing Office; 
        and
  --conducted monthly classes and seminars on Web FMIS.
            Supporting Current Systems
    The DO IT department supports FMIS users in all 140 accounting 
locations, Disbursing's Accounts Payable (A/P), Accounting, 
Disbursements, Vendor/SAVI and Front Office sections, and the Senate 
Committee on Rules and Administration Audit staff. The activities 
associated with this responsibility include:
  --User support--provide functional and technical support to all 
        Senate FMIS users; staff the FMIS ``help desk''; answer 
        hundreds of questions; and meet with chiefs of staff, 
        administrative managers, chief clerks, and directors of various 
        Senate offices as requested;
  --Technical problem resolution--ensure that technical problems are 
        resolved;
  --Monitor system performance--check system availability and 
        statistics to identify system problems and coordinate 
        performance tuning activities such as those for database access 
        optimization;
  --Security--maintain user rights for all ADPICS, FAMIS, and Web FMIS 
        users;
  --System administration--design, test and make entries to tables that 
        are at the core of the system;
  --Support of accounting activities--perform functional testing and 
        production validation of the cyclic accounting system 
        activities. This includes rollover, the process by which tables 
        for the new fiscal year are created, and archive/purge, the 
        process by which data for the just lapsed fiscal year is 
        archived for reporting purposes and removed from the current 
        year tables;
  --Support the Senate Committee on Rules and Administration post 
        payment voucher audit process--provide the data from which the 
        Rules Committee audit staff selects a statistically valid 
        sample of vouchers for $100 or less. In this way, the Committee 
        on Rules and Administration audit staff review vouchers 
        sanctioned under authority delegated to the Financial Clerk;
  --Upload bulk financial transactions directly to FAMIS--upload 
        documents, such as certifications and vouchers from the Keeper 
        of Stationery, directly into FAMIS. These documents, submitted 
        via spreadsheets, are reviewed by the DO A/P and/or Accounting 
        sections prior to upload; and
  --Training--provide functional training to all Senate FMIS users.
            Continuing Projects
    As part of its normal tasks to support current systems, Disbursing 
created 95 new Web FMIS user accounts and an additional 55 new ADPICS/
FAMIS user accounts. Additionally, the office staff created new 
organization, department and location codes for the Senator-elect 
accounts and the new Senators in the 111th Congress. Through the 
``rollover'' process, Disbursing created the tables necessary for two 
new fiscal periods--fiscal year 2009 (for all FMIS users), and 
Resolution 89D (for Committees), which began October 1, 2008. The two 
queries for the Committee on Rules and Administrations's post-payment 
audit of documents $100 and less identified 24,864 records for the 
period October 1, 2007 to March 31, 2008 and 25,383 for the period 
April 1, 2008 to September 30, 2008. The office uploaded over 325 files 
of multiple documents such as certifications, vouchers from the Keeper 
of Stationery, SAA budget entries, and journal entries. Finally, the 
Disbursing Office IT staff offered Web FMIS classes once a month.
            New Projects
    IT completed a number of new tasks to support current systems this 
year:
  --organized quarterly user group meetings for the Disbursing Office's 
        A/P staff in order to hear concerns and feedback regarding 
        their Web FMIS system use;
  --added materials to the online documentation available via Web FMIS, 
        including 20 administrative forms and 10 documents related to 
        creating vouchers;
  --implemented procedures to create documents for infrequently-used 
        (i.e., Reception of Foreign Dignitaries and Senators-elect) in 
        Web FMIS instead of ADPICS, which simplified the processing of 
        these documents by the A/P and Accounting staff;
  --managed the election moratoria dates for Senators running for 
        reelection. When the expenses are being submitted, this alerts 
        the voucher preparer that the expenses cannot be paid because 
        they were incurred during the 60 day period before an election 
        in which the Senator is a candidate is held;
  --updated the voucher preparation documentation for Senators-elect; 
        and
  --participated in the selection of a new credit card vendor for the 
        Senate and worked with that vendor to obtain a nightly data 
        file of posted charges in a format usable by the Web FMIS 
        ``Electronic Invoicing'' function.
            Testing Infrastructure Changes
    The SAA provides the infrastructure on which FMIS operates, 
including the mainframe, the database, security hardware and software, 
and the telecommunications network. During 2008, the SAA implemented 
one major upgrade to the FMIS infrastructure by upgrading the mainframe 
operating software. In addition, the SAA implemented quarterly micro-
code updates and applied ``maintenance'' releases on a more regular 
basis, both of which will keep the infrastructure current.
            Managing and Testing New System Development
    During 2008, the DO IT department supervised development, performed 
extensive integration system testing, and implemented changes to FMIS 
subsystems. Each implementation and production verification was 
completed over a weekend in order to minimize system down time to 
users. Since 2006, multiple sub-system upgrades have been consolidated 
into two releases each year. This reduced the amount of regression 
testing required. In order to accurately reflect the variety of changes 
in each release, the releases are now numbered by fiscal year. During 
2008, Disbursing implemented two major releases and two problem 
correction releases. The two major releases were: FMIS r2008-2, 
implemented in June 2008; and FMIS r2008-3, implemented in September 
2008.
    The items were selected for development and implementation in 
response to Treasury mandates, and were based on user requests and 
suggestions from the SAA technical staff and the IT department. The 
planned schedule was substantially rearranged this year in order to 
respond to the needs of the DO Accounting staff upon learning that the 
Treasury Department was requiring the Senate to eliminate the use of 
suspense accounts, which were used substantially in the Senate's travel 
advance process. In order to have the new behind-the-scenes accounting 
in place by October 1, 2008, the implementation of FMIS r2008-3 was 
moved from November to September.
    The DO IT Department staff meet regularly with users through 
scheduled user group meetings. The department continued to meet with 
the ADPICS/FAMIS users group (primarily SAA users) almost every month 
and met monthly with the DO Accounting Section in order to address 
their concerns in a user group format. In addition, the department 
initiated a quarterly meeting with the DO A/P Section.
                FMIS 2008-2
    Web FMIS 2008-2 was implemented in June 2008. The primary change in 
this release was the conversion of all employee vendor numbers to use 
the 9-digit employee identification number (EID), which is assigned by 
the payroll system, instead of an employee vendor number that included 
a partial Social Security Number (SSN). The old SSN-based employee 
vendor numbers were deactivated and the new employee vendor numbers 
were made available. In addition, old SSN-based employee vendor numbers 
used on already-created vouchers were masked so that the SSN portion 
was not visible.
    The most popular change in this release was enlarging the itinerary 
field, which previously had been limited to 254 characters. The larger 
itinerary field was made available in both Web FMIS ``Staffer 
Functionality'' (the SAVI replacement) and in Web FMIS Document/Create, 
so that a long itinerary could be created on an ESR and either imported 
into a voucher or created directly on the voucher.
    Three pilots began with this release: online payroll reports, 
prototype of online review of imaged vouchers and supporting 
documentation, and electronic invoicing (making electronic credit card 
data available for importing into vouchers). Access to online payroll 
reports was granted to specifically-authorized Web FMIS users. The 
pilot allowed Disbursing to provide these reports twice a month instead 
of once a month, and eliminated tasks associated with manual 
distribution of paper reports. The first reports for fiscal year 2009 
(i.e., reports for the end of October 2008) were distributed to 
Senators' offices, committees, the Secretary's office, and the Sergeant 
at Arms' office. The second pilot was a prototype of online review of 
imaged vouchers and supporting documentation for vouchers from several 
offices. The goal of this prototype was to provide DO A/P and 
Accounting staff with hands-on experience in reviewing and marking-up 
documents entirely online. As such, Disbursing did not request that the 
offices do anything differently. Instead, Disbursing staff imaged the 
voucher and supporting documentation, which was then filed so as to be 
available for review if needed. This was intended to encourage online 
review, and the documents were reviewed by DO A/P, Rules Audit, and 
Disbursing Accounting online. The prototype ran from June until the 
middle of October; and feedback from the Disbursing Office staff who 
participate in the pilot will be useful as the project proceeds. The 
third pilot enabled offices to see credit card charges from the credit 
card vendor and select some or all to be imported into a voucher. This 
reduces the possibility of paying a credit card charge more than once 
and reduces the work required to create a voucher for these charges. 
The pilot ran from the summer of 2008 to the winter of 2008 and has 
stopped temporarily due to the change in the new Senate credit card 
vendor in November 2008. Disbursing has been working with the new 
credit card vendor to obtain the same kind of electronic data and make 
it available to Web FMIS users. Once successful, there will be a short 
pilot before the functionality is made available to all Senate offices.
                FMIS 2008-3
    This release was originally titled FMIS 2009-1 and was scheduled 
for implementation in November 2008, but the date was moved up to the 
beginning of September 2008, and therefore the release name was 
changed. The timing and priorities for this release were shifted in 
order to accommodate the changes necessary to eliminate use of a 
suspense account in the travel advance accounting, as required by 
Treasury by October 1, 2008 (fiscal year 2009). The Senate received 
notification of this requirement at the end of March 2008. Other NTDOs 
were notified in June 2007.
    A number of Web FMIS user-requested features were also implemented 
in this release. These included a new ``analysis by traveler'' report 
that displays detailed information by vendor (or employee) for only 
travel-related expenses. The display of office name to the master 
vendor file was also added. This enabled users to pick the John Smith 
who works for Senator Jones instead of accidentally picking the John 
Smith who works for Senator Walker. Additionally, users now have the 
ability to search the master expense category list by words in the 
expense category description field. Finally, in preparation for the new 
fiscal year, Disbursing also implemented a budget function that enables 
configuring the new budget based on a previous fiscal year.
            Planning
    The Disbursing IT department performs two main planning activities:
  --Schedule coordination--planning and coordinating a rolling 12-month 
        schedule; and
  --Strategic planning--setting the priorities for further system 
        enhancements.
                Schedule Coordination
    In 2008, this department continued to hold two types of meetings 
between Disbursing and the SAA to coordinate schedules and activities. 
These were:
  --project specific meetings--a useful set of project-specific working 
        meetings, each of which has a weekly set meeting time and meets 
        for the duration of the project (e.g., archive/purge meetings 
        and Web FMIS budget function meetings); and
  --technical meetings--a weekly meeting to discuss the active 
        projects, including scheduling activities and resolving issues.
    As part of planning activities for fiscal year 2009, Disbursing 
decided to increase the planning timeframe from 12 months to 8-24 
months in order to adequately include both FMIS functional releases and 
the infrastructure changes (i.e., software upgrades, maintenance, and 
micro-code updates).
                Strategic Planning
    The FMIS strategic plan has a longer time horizon than the rolling 
12-month timeframe of the technical meeting schedule. It is designed to 
set the direction and priorities for further enhancements. In 2002 a 
strategic plan was written by the Disbursing IT and Accounting staff 
for Disbursing Office Strategic Initiatives. This detailed description 
of five strategic initiatives formed the base for the Secretary of the 
Senate's request in 2002 for $5 million in multi-year funds for further 
work on the FMIS project. The five strategic initiatives are:
  --Paperless Vouchers--Imaging of Supporting Documentation and 
        Electronic Signatures.--Beginning with a feasibility study and 
        a pilot, this will implement new technology, including imaging 
        and electronic signatures, in order to reduce the Senate's 
        dependence on paper vouchers. This will enable the continuation 
        of voucher processing operations from an alternate location 
        should an emergency occur;
  --Web FMIS.--Respond to requests from the Senate's accounting 
        locations for additional functionality in Web FMIS;
  --Payroll system.--Respond to requests from the Senate's accounting 
        locations for online real time access to payroll data;
  --Accounting Subsystem Integration.--Integrate Senate-specific 
        accounting systems, improve internal controls, and eliminate 
        errors caused by re-keying of data; and
  --CFO Financial Statement Development.--Provide the Senate with the 
        capacity to produce auditable financial statements that will 
        obtain an unqualified opinion.
            Managing the FMIS Project
    The responsibility for managing the FMIS project was transferred to 
the Disbursing IT department during the summer of 2003, and includes 
developing the task orders with contractors, overseeing their work and 
reviewing invoices. In 2008, one new task order was executed--Service 
Year 2008 extended operational support, which covers activities from 
September 2008 to August 2009.
    In addition, work continued under four task orders executed in 
prior years:
  --Imaging and signature design and electronic invoicing enhancement 
        continuation;
  --Web FMIS Reporting enhancements;
  --Funds Advance Tracking System; and
  --Service year 2008 extended operational support (covered activities 
        from September 2007 to August 2008).
            Administering the Disbursing Office's Local Area Network 
                    (LAN)
    Disbursing continued to administer its own local area network 
(LAN), which is separate from the network used by the rest of the 
Secretary's Office. Upkeep of the LAN infrastructure, including 
performing routine daily tasks and replacing equipment regularly, is 
critical to providing services. During 2008, LAN administration 
activities included: maintaining and upgrading the Disbursing Office's 
LAN; installing specialized software; and maintaining projects for the 
payroll and benefits section.
                Maintaining and Upgrading the Disbursing Office LAN
    Disbursing maintained the existing workstations with appropriate 
upgrades including: installing new DO LAN servers; upgrading PC 
software (MS Office 2007 and Adobe) throughout the Disbursing Office; 
installing new wide PC monitors throughout the Disbursing Office; and 
managing blackberry devices, including upgrading three devices and 
installing four more.
            Installing Specialized Software
    Disbursing uses a variety of specialized software that is critical 
to workflow processes. In 2008, Disbursing:
  --installed Treasury Check Information System (TCIS) to replace 
        PACER. This system enables Disbursing staff to obtain an imaged 
        copy of negotiated checks; and
  --upgraded the Fixed Asset System (FAS), used by the office to obtain 
        the depreciated value of the Senate's fixed asset records 
        maintained by the SAA.
                Maintaining Projects for Payroll and Employee Benefits 
                    Sections
    Disbursing continued to support the Payroll/Benefits Imaging system 
developed by SAA staff. This system electronically captures and indexes 
payroll documents submitted at the front counter, and is critical for 
the Payroll and Employee Benefits sections. During 2008, a new digital 
sender was installed on the Disbursing network for use on this project.
            Coordinating the Disbursing Office's Disaster Recovery 
                    Activities
    At the request of the Disbursing Office, the SAA conducted a FMIS-
only disaster recovery test in December. This is the second year in 
which a FMIS-only test was conducted. The longer time allotted to this 
test enabled more complete functional testing, (including following 
single documents from data entry in ADPICS and Web FMIS through payment 
in FAMIS), running more reports than during other tests, and testing 
the critical payroll and FAMIS batch processes. While the Disbursing IT 
staff organized the functional test plan, the actual testers included 
Disbursing IT staff, payroll staff, contractor support staff and SAA 
Finance staff. No major problems were encountered, and because of the 
longer time allotted for this test, the problems that were encountered 
were investigated.

                         ADMINISTRATIVE OFFICES
                      CHIEF COUNSEL FOR EMPLOYMENT

    The Office of the Senate Chief Counsel for Employment (SCCE) is a 
non-partisan office established in 1993 at the direction of the Joint 
Leadership after enactment of the Government Employee Rights Act 
(GERA), which allowed Senate employees to file claims of employment 
discrimination against Senate offices. With the enactment of the 
Congressional Accountability Act of 1995 (CAA), as amended, Senate 
offices became subject to the requirements, responsibilities and 
obligations of 12 employment laws. The CAA also established the Office 
of Compliance (OC). Among other things, the OC accepts and processes 
legislative employees' complaints that their employer has violated the 
CAA.
    The SCCE is charged with the legal defense of Senate offices in all 
employment law cases at both the administrative and court levels. Also, 
on a day-to-day basis, the SCCE provides legal advice to Senate offices 
about their obligations under employment laws. Accordingly, each Senate 
office is an individual client of the SCCE, and each office maintains 
an attorney-client relationship with the SCCE.
    The areas of responsibilities of the SCCE can be divided into the 
following categories:
  --Litigation (defending Senate offices in courts and at 
        administrative hearings);
  --Mediations to resolve lawsuits;
  --Court-ordered alternative dispute resolutions;
  --Union drives, negotiations, and unfair labor practice charges;
  --Occupational Safety and Health Act (OSHA) compliance;
  --Americans With Disability Act (ADA) compliance;
  --Layoffs and office closings in compliance with the law;
  --Management training regarding legal responsibilities; and
  --Preventive legal advice.

Litigation; Mediations; Alternative Dispute Resolutions
    The SCCE defends each of the employing offices of the Senate in 
court actions, hearings, proceedings, investigations and negotiations 
relating to labor and employment laws. The SCCE handles cases filed in 
the District of Columbia and cases filed in any of the 50 states.

Compliance with the OSHA and the ADA
    The CAA mandates that, at least once each Congress, the OC shall 
inspect each Senate office to determine whether each office is in 
compliance with the OSHA and the public accommodation portion of the 
ADA. The CAA authorizes the OC to issue a public citation to any office 
that is not in compliance.
    The SCCE provides legal assistance and advice to every Senate 
office to ensure that they are complying with the OSHA and the ADA. The 
SCCE also represents each Senate office during the OC inspections, 
advises them on the preparation of the OC's home state OSHA/ADA 
inspection questionnaires, assists offices in the preparation of 
emergency action plans, and advises and represents each Senate office 
when a complaint of an OSHA or ADA violation has been filed against the 
office with the OC or when a citation has been issued.
    In 2008, the SCCE pre-inspected 224 Senate offices to ensure 
compliance with the ADA and the OSHA. Inspections included 82 member 
offices and 43 committee and leadership offices in the Hart, Dirksen 
and Russell buildings; 67 SAA offices in the Capitol and Hart, Dirksen, 
Russell and Postal Square buildings; and 36 Secretary of the Senate 
offices in the Capitol and Hart, Dirksen and Russell buildings. Senate 
offices had no significant OSHA or ADA problems and no citations.

Management Training Regarding Legal Responsibilities
    The SCCE regularly conducts legal seminars for the managers of 
Senate offices to assist them in complying with employment laws, 
thereby reducing their liability.
    In 2008, the SCCE gave 90 legal seminars to Senate offices. The 
seminars included, among others:
  --The Congressional Accountability Act of 1995: Management's Rights 
        and Obligations;
  --Laws You Must Follow when Setting Up and Managing Your Office;
  --Understanding Sexual Harassment in the Workplace;
  --Dealing with Harassment Complaints and Avoiding a Hostile Work 
        Environment;
  --A Manager's Guide to Complying with the Family and Medical Leave 
        Act;
  --Amendments to the Family and Medical Leave Act Related to Military 
        Service;
  --Avoiding Legal Landmines in Your Office 2008;
  --Labor-Management Overview; and
  --An Office's Legal Obligation to Ensure that All New Hires are 
        Qualified to Work in the Senate: Complying with I-9 and E-
        Verify laws.
    The SCCE also developed and conducted a series of 11 monthly 
seminars covering all major employment laws that govern Senate offices. 
The purpose of the seminars was to educate all Senate management staff 
about their responsibility to ensure that their respective offices 
comply with the CAA. The series was open to all chiefs of staff, staff 
directors, administrative directors, chief clerks and office managers. 
Individuals who completed the series received a certificate of 
completion signed by the Secretary of the Senate. The following topics 
were covered:
  --An Overview of the Congressional Accountability Act;
  --Are You Meeting Your Legal Requirements under the I-9 and E-Verify 
        Laws?;
  --Overtime Pay: Who is Owed It, and How is It Calculated?;
  --The Equal Pay Act;
  --How to Interview, Check References, Give References and Check 
        Backgrounds;
  --The Family and Medical Leave Act: When Do Employees Get It, and How 
        Much Do They Get?;
  --Evaluating, Disciplining and Firing Employees without Violating the 
        Law;
  --The Americans with Disabilities Act: What Managers Must Know about 
        Complying with the Law;
  --Dealing with Harassment Complaints and Avoiding a Hostile Work 
        Environment; and
  --Common Employment Law Mistakes Managers Make.

Legal Advice
    The SCCE meets daily with Members, chiefs of staff, administrative 
directors, office managers, staff directors, chief clerks and counsel 
at their request to provide legal advice. For example, on a daily 
basis, the SCCE advises Senate staff on matters such as interviewing, 
hiring, counseling, disciplining and terminating employees in 
compliance with the law; handling and investigating sexual harassment 
complaints; accommodating the disabled; determining wage law 
requirements; meeting the requirements of the Family and Medical Leave 
Act; management's rights and obligations under union laws and the OSHA; 
management's obligation to give leave to employees for military service 
and to reinstate them at the conclusion of that service; and 
management's obligation to verify with Department of Homeland Security 
and Social Security Administration that each new hire is legally 
eligible to work in the United States. In 2008, the SCCE had over 2,558 
such meetings.
    Also, the SCCE provides legal assistance to Senate offices to 
ensure that their employee handbooks and office policies, supervisors' 
manuals, intern policies, job descriptions, interviewing guidelines and 
performance evaluation forms comply with the law. In 2008, the SCCE 
prepared or significantly revised 204 employee handbooks, supervisors' 
manuals, and intern manuals for member offices.
Union Drives, Negotiations and Unfair Labor Practice Charges
    In 2008, the SCCE trained managers and supervisors regarding their 
new legal and contractual obligations under union contracts that were 
ratified in 2007.

SCCE Web Site
    Working with the Office of Web Technology, the SCCE designed and 
launched an SCCE Web site. The site informs Senate offices of their 
legal obligations under the CAA, provides Senate offices access to 
legal forms and documents, and alerts Senate offices of upcoming SCCE 
seminars. To assist the offices of new members, the SCCE, working with 
chiefs of staff and administrative directors, added a section to the 
site that provides legal advice, legal forms and practical information 
to new Senate offices to assist them in setting up their offices.
Environmental Concerns
    In 2001, the SCCE became the first Senate office to convert to a 
``paperless'' office, which greatly reduced paper usage by minimizing 
the need for copying documents and storing hard copies. The SCCE 
accomplished the conversion by installing a document management system 
and scanning all documents the office receives. In 2008, the SCCE began 
upgrading its systems to stay current with technological advances and 
to allow its staff to utilize the document management system and to 
access all office documents from COOP computers and BlackBerry devices.

                     CONSERVATION AND PRESERVATION

    The Office of Conservation and Preservation develops and 
coordinates programs directly related to the conservation and 
preservation of Senate records and materials. Initiatives include the 
deacidification of paper and prints, phased conservation for books and 
documents, and completion of collection surveys, exhibits, and matting 
and framing for Senate leadership.
    For more than 25 years this office has bound a copy of Washington's 
Farewell Address for the annual Washington's Farewell Address ceremony. 
In 2008, a volume was bound for Senator Mark L. Pryor who was selected 
to deliver the address before the Senate.

Senate Library
    As mandated in the 1990 Senate Library Collection Condition Survey, 
the staff continued to conduct an annual treatment of books identified 
by the survey as needing conservation or repair. In 2008, the staff 
completed conservation treatments for 41 volumes of a 7,000 volume 
collection of House hearings. Specifically, treatment involved recasing 
each volume as required, using alkaline end sheets, replacing acidic 
tab sheets with alkaline paper, cleaning the cloth cases, and replacing 
black spine title labels of each volume as necessary. The Office of 
Conservation and Preservation will continue preservation of the 
remaining 3,653 volumes.
    The office assisted the Senate Library with books sent to the 
Government Printing Office (GPO) for binding. The GPO has been 
returning books to the Senate Library on schedule. Additionally, the 
conservators assisted the Senate Library with two exhibits located in 
the Senate Russell building basement corridor.

Preservation
    The Office of Conservation and Preservation staff rebound 166 
volumes of House and Senate hearings for the Senate Library. These 
books were rebound with new end sheets and new covers using the old 
spines when possible.

Objectives for 2009
    The Office of Conservation and Preservation staff continues to 
assist Senate offices with conservation and preservation of documents, 
books, and various other items. For example, the office staff continues 
to monitor the temperature and humidity in the Senate Library storage 
areas, including the vault and Senate Support Facility, for 
preservation and conservation purposes. Furthermore, staff will 
continue to train Senate Library staff in conservation and repair 
techniques.

                                CURATOR

    The Office of Senate Curator, on behalf of the Senate Commission on 
Art (Commission), develops and implements the museum and preservation 
programs for the United States Senate. The Curator collects, preserves, 
and interprets the Senate's fine and decorative arts, historic objects, 
and specific architectural features; and the Curator exercises 
supervisory responsibility for the historic chambers in the Capitol 
under the jurisdiction of the Commission. Through exhibitions, 
publications, and other programs, the Curator educates the public about 
the Senate and its collections.

Collections: Commissions, Acquisitions, and Management
    A painting of Senator Thomas A. Daschle was presented in the Old 
Senate Chamber on April 22, 2008, as part of the Senate Leadership 
Portrait Collection. Additionally, work continued on the painting of 
Senator Trent Lott, and a portrait of Senator Bill Frist was 
commissioned.
    Sixty-seven objects were accessioned into the Senate collection, 
including: an 1868 ticket to the Andrew Johnson Impeachment Trial; 
seven stereographs depicting interior views of the Capitol; six 
historic prints; nine Senate Chamber gallery passes; four tickets to 
either joint sessions or joint meetings of Congress; several study 
sketches related to the oil on canvas portrait of Senator Robert C. 
Byrd; and seven historic furnishings built for the Russell Senate 
Office Building.
    Throughout the year, the office worked in close cooperation with 
the Sergeant at Arms's (SAA) Cabinet Shop to replicate one of the most 
historic pieces in the Senate collection: the 19th century Senate 
Chamber desk once occupied by Daniel Webster. The reproduction, 
requested for display in the Capitol Visitor Center (CVC) Exhibition 
Hall, afforded the Curator's Office a unique opportunity to create an 
exact replica using original 1819 construction and finishing 
techniques. The project was launched in February when design software 
was used to create drawings from exacting measurements taken of the 
desk on the Senate Chamber floor. During the construction, Senate 
Curatorial Advisory Board member Donald Williams gave presentations to 
the Cabinet Shop on historic practices of hide glue and shellac finish. 
Mr. Williams also provided invaluable expertise throughout the project 
and later returned to apply the finish to the desk himself, using 
traditional materials and techniques. Once it has properly cured, the 
replica will be displayed in the CVC Exhibition Hall. A short 
documentary film on the desk's construction will be developed by the 
Curator's Office.
    Forty-four new foreign gifts were reported in 2008 to the Select 
Committee on Ethics and transferred to the Curator's Office. In 
accordance with statute, the Office of Senate Curator received the 
gifts for deposit on behalf of the Secretary of the Senate. They were 
catalogued and are maintained by the office in accordance with the 
Foreign Gifts and Decorations Act. Following established procedures, 
the office effected appropriate disposition of 36 foreign gifts.
    The office conducted an extensive physical inventory of original 
Russell Senate Office Building furniture located in Senate spaces of 
the Capitol, Russell, Dirksen, Hart, and five other office buildings. 
The goal of the survey was to systematically document the number of 
remaining furnishings purchased (approximately 3,082 were made) for the 
Senate's first office building. The survey was conducted by a contract 
conservator, and the 1,133 pieces found during the survey were placed 
on the Historic Furnishings Inventory. Additionally, 38 Russell 
furnishings were identified in private collections, museums, and 
libraries.
    During the summer, a professional photographer took pictures of 
various historic furniture, several small objects, and a portrait to be 
loaned to the CVC for exhibition.
    Work continued on the two new curatorial spaces located in the CVC, 
which were designed to provide customized preservation storage for the 
Senate collection. Museum quality storage equipment was installed in 
the two rooms, as well as an electronic monitoring system that tracks 
and records temperature and relative humidity and checks for the 
presence of water. The Curator's staff worked with the Architect of the 
Capitol's (AOC) transition team to adjust the HVAC units in each room 
in order to maintain a consistent preservation environment. The units 
are functioning, and need to be fine-tuned.
    In preparation for the collection move into the new CVC storage 
spaces, staff identified the Senate's collection of 1,400 historic 
prints as a first priority for archival re-housing. A storage system 
was developed and archival materials identified for implementing the 
new storage system. The historic prints will be moved once the CVC HVAC 
units have been properly adjusted and the environments are stable.
    The office expanded its comprehensive maintenance program for 
collections and historic spaces to include a monthly inspection 
component, and initiated the distribution of ``art cards'' to provide 
staff with information on monitoring and reporting problems. Along with 
the established daily and weekly inspections, the monthly inspections 
and the ``art cards'' help to avert potential damage by monitoring 
conditions of Senate art and historic spaces and educating Senate staff 
on their care.
    A detailed assessment of the Senate's historic timepieces was 
conducted by a clock conservator. Based upon the results, a two-part 
plan was developed to provide regular reports and related maintenance 
for the clocks and to address any condition identified as high 
priority. This work will proceed in 2009. Much valuable information was 
gained through the assessment, and training was provided to in-house 
staff to improve clock winding practices.
    The discovery of mercury beads on one of the Senate's historic 
overmantel mirrors prompted the Curator's Office to undertake extensive 
research and develop treatment guidelines for mirrors with mercury 
amalgam glass. With the objective of preserving in place any mercury 
amalgam mirrors, the office outlined safe methods for identification, 
tracking, handling, prevention, and containment. The guidelines were 
reviewed by the AOC's Safety Office and conservators, and have been 
used successfully.
    Keeping with scheduled procedures, all Senate collection objects on 
display were inventoried, noting any changes in location. In addition, 
as directed by S. Res. 178 (108th Congress, 1st Session), the office 
submitted inventories of the art and historic furnishings in the Senate 
to the Senate Committee on Rules and Administration. The inventories, 
which are submitted every 6 months, are compiled by the Curator's 
Office with assistance from the SAA and AOC's Senate Superintendent.

Conservation and Restoration
    Conservation cleaning treatment was completed on the monumental 
sculpture, Mountains and Clouds, by Alexander Calder, located in the 
atrium of the Hart Senate Office Building. A facility cleaning company, 
under contract with the AOC, carried out the treatment, and a sculpture 
conservator hired by the Curator's Office supervised the treatment. 
Specialized equipment was used to access all surfaces of the nine story 
sculpture for cleaning. The Curator's Office worked with a National 
Gallery of Art designer to create new protective measures in the form 
of metal strips installed on the ground around the perimeter of the 
sculpture. These strips provide an unobtrusive boundary for visitors. 
In collaboration with the Superintendent of the Senate Office 
Buildings, an ongoing care and maintenance program for the piece is 
under development.
    Conservation treatment continued for the painting, Henry Clay in 
the U.S. Senate, by Phineas Staunton. Due to the painting's size (11 
feet by 7 feet, unframed) and many complicated condition problems, 
painstaking treatment procedures were necessary for both the painting 
and the frame. The results have been dramatic. As coordinated with the 
Senate Committee on Rules and Administration, the painting will be 
installed in the East Brumidi Stairwell in 2009. Lighting has been 
designed specifically for the stairwell, which will enhance viewers' 
appreciation of the painting.
    An objects conservator was hired to evaluate the exhibition mounts 
and display conditions for seven Senate objects scheduled for display 
in the CVC Exhibition Hall. This step was taken to ensure the objects 
were safely displayed while on long-term loan.
    During the Russell furniture survey, the Curator's Office 
identified a mahogany flat top desk, swivel arm chair, easy chair, 
davenport, side chair, and arm chair for conservation. The conservator 
is applying original refinishing and re-upholstery protocols for the 
pieces as developed by the manufacturer. Including the three chairs 
restored in 2003, the Senate will have preserved ten of the fourteen 
pieces made in 1909 for a Senator's suite. The restored furnishings 
will be preserved in the Senate collection and temporarily displayed in 
the Russell basement rotunda for the building's centennial anniversary 
from March 2009 through September 2009.
    The office completed conservation treatment on five mirrors as part 
of the ongoing program to address the most critical conditions in the 
Senate mirror collection. Two were restored off-site, while the other 
three were treated on-site. The on-site treatments addressed localized 
damage, thus preventing further loss of original fabric. The frames 
restored off-site required comprehensive conservation: poor quality 
repairs and bronze powder paint were removed; losses were replaced; and 
the frames were cleaned, consolidated, and gilded. Additionally, the 
Curator's staff formally incorporated the mirrors into the maintenance 
program, and eight frames were cleaned on-site by staff. The office 
also worked with the AOC to investigate and address six cases of 
installation hardware issues.
    The Curator's staff participated in training sessions for the 
Capitol Police regarding the care and protection of art in the Capitol, 
and continued to educate the housekeeping personnel on maintenance 
issues related to the fine and decorative art collections.

Historic Preservation
    The Curator's staff worked with the AOC and the SAA to review, 
comment, plan, and document Senate-side construction projects (many of 
which are long-term initiatives) that involve or affect historic 
resources. Construction and conservation efforts that required 
considerable review and assistance included: exit sign installations; 
Brumidi corridor mural conservation; egress modifications; scagliola 
conservation; and press gallery upgrades. Through this work, the 
Curator's staff was able to ensure that the highest preservation 
standards were applied to all Capitol projects.
    The staff worked with the Office of the Republican Whip to create 
and install the state seal for the incoming leader. The placement of 
the seal on the historic ceiling in S-210, filling framed spaces left 
blank by the ceiling's original artist, dates to 1987 and continues to 
be a responsibility of the Senate Curator.
    The challenging Senate Reception Room restoration and 
rehabilitation project, developed by the Senate Curator and the Curator 
for the AOC, has successfully moved forward. A significant 
accomplishment was the completion of a paint analysis report. While 
some additional analysis and exposures will be necessary before 
specifications can be developed, the major work is completed. In 
addition to the paint analysis, the Curator's staff developed a project 
goal and preservation philosophy to apply to the elements in the room, 
and undertook a room and furniture use survey along with occupant 
interviews.

Historic Chambers
    The Curator's staff continued to maintain the Old Senate and Old 
Supreme Court Chambers, and coordinated periodic use of both rooms for 
special occasions. The office worked closely with the U.S. Capitol 
Police to continue the procedures developed last year to record after-
hours access to the historic chambers by current members of Congress. 
Fifty-six requests were received by current members of Congress for 
admittance to the Old Supreme Court Chamber after-hours.
    By order of the U.S. Capitol Police, the Old Senate Chamber was 
closed to visitors after September 11, 2001. Eighty-six requests were 
received from members of Congress requesting admittance to the chamber 
during the day; 62 requests were received from members for after-hours 
access. During seven Senate recesses the historic room was opened to 
Capitol Guide and staff-led tours.
    During the fall of 2008, the Curator's staff conducted a survey of 
traffic flow in and around the Old Supreme Court Chamber. Data 
generated by this survey will assist the Curator in determining whether 
any changes to furniture or interpretive signs could help alleviate 
congestion in the area.
    As a final, yet critical, component to the documentation of the Old 
Senate Chamber and Old Supreme Court Chamber, the Curator's staff 
supplemented detailed room drawings produced in 2007 with large-format 
photographs that meet the Secretary of the Interior and the Historic 
American Building Survey's standards. These photographs were accepted 
by the Historic American Building Survey for its collection and will be 
available online and at the Library of Congress. Together with the 
drawings, the photographs provide a baseline for planning and research 
and help facilitate interpretation, especially when public access is 
limited.
    Electronic monitoring systems, similar to those in the curatorial 
storage spaces in the CVC, were installed in the Old Senate and Old 
Supreme Court Chambers. Because the rooms are open to the public for 
tours, it is more difficult to maintain stable environments. The new 
systems will document the temperature and humidity fluctuations in the 
rooms, which will allow the staff to better monitor the condition of 
historic objects in order to aid in their preservation.

Loans To and From the Collection
    A total of 50 historic objects and paintings are currently on loan 
to the Curator's office on behalf of Senate leadership and officers in 
the Senate wing of the Capitol. The staff returned four loans, 
coordinated three new loans, and renewed loan agreements for 31 other 
objects. Over 30 loans are projected to be renewed next year, including 
coordination of the loan of the painting, eagle podium, and Lincoln 
table for use at the 2009 Presidential Inaugural Luncheon.
    The official Senate chinaware was inventoried and used at 26 
receptions for distinguished guests, both foreign and domestic.

Publications and Exhibitions
    The Curator's staff continued to coordinate and participate in 
projects and planning for the 100th anniversary of the Richard B. 
Russell Senate Office Building, which opened its doors in March 1909. 
Work proceeded on the design and construction of a series of exhibition 
pylons to be placed in various locations in the Russell Building to 
educate members, staff, and visitors about the architecture and history 
of the building. Additionally, Curator's staff, Historical Office 
staff, and the Senate Webmaster developed a Web site highlighting some 
250 photographic images of the building and selections from the graphic 
art collections of the Senate and the Library of Congress. Other 
centennial projects include a furniture exhibit in the Russell rotunda 
basement, and an accompanying brochure and poster.
    Another Web site under construction will highlight the rediscovery, 
history, and conservation of the monumental painting, Henry Clay in the 
U.S. Senate, by Phineas Staunton. The site will include short video 
segments on the conservation effort. A 15-minute documentary on the 
painting will also be produced.
    An exhibition on the history of presidential inaugurations, I Do 
Solemnly Swear: A Half Century of Inaugural Images, was designed and 
installed on the first floor of the Senate wing in celebration of the 
2009 inaugural ceremonies. The exhibit features graphic art images from 
the Senate's collection of 19th century news magazine illustrations.
    In continuing support of the training for staff-led tours, the 
office updated and expanded its presence on the congressional intranet 
that began with the 2007 posting of the online Guide to Staff-Led 
Tours. Working with the Senate Historical Office, AOC, and House 
Curator, the staff updated and restructured this site to provide 
concise up-to-date information for participants in the CVC's 
Congressional Historical Interpretive Training Program (CHIP).
    As part of an ongoing program to provide more information about the 
Capitol and its spaces, the office completed the production and 
distribution of a brochure for the Democratic Leader's suite. In 
addition, all of the Commission on Art brochures were updated and added 
to the Senate.gov Web site. The Curator's staff continued to be a 
significant contributor to Unum, the Secretary of the Senate's 
newsletter.

Collaborations, Educational Programs, and Events
    The Curator's Office assisted the National Archives with two small 
exhibits for display in the vault at the Center for Legislative 
Archives. In February, objects related to Isaac Bassett, a 64-year 
employee of the Senate, were on view. In December, objects from the 
Senate's inaugural collection were installed. Also this year, the staff 
installed 17 objects from the Senate collection in the new CVC 
exhibition space.
    The Curator and staff assisted with numerous CVC-related projects 
throughout the year. At the request of the CVC oversight committees 
(the Committee on House Administration and the Committee on Senate 
Rules and Administration), the Curator worked closely with the House 
Curator and AOC Curator to review products and publications for the CVC 
gift shop. A total of 1,100 products were reviewed in a 3 month period. 
Additionally, the Curator and Associate Curator assisted with CHIP by 
attending planning meetings and developing a lecture to present to 
congressional staff at the 1-day and 2-day programs. The Curator's 
staff participated in ten programs in a 3 month period. The Curator 
continued to assist the AOC Curator and staff of the Joint Committee on 
the Library to finalize the plan for the National Statuary Hall statues 
in the CVC.
    The staff worked closely with the staff of the Senate Gift Shop to 
develop a series of magnets, note cards, and other gifts commemorating 
the Russell centennial.
    Other joint congressional projects included the following: planning 
and reviewing for the Rosa Parks statue; participating in the Slave 
Labor Task Force Working Group, which was assigned to develop an 
implementation plan for Congress's recommendations to honor slave labor 
in the Capitol; and assisting the Joint Congressional Committee on 
Inaugural Ceremonies with the 2009 inauguration. Joint projects with 
outside organizations included work with the Smithsonian Institution's 
Department of Entomology to research the insects depicted in the 
Brumidi Corridors.
    The Senate Curator and staff gave lectures on the Senate's art and 
historical collections to various historical groups and art museums. 
The staff also assisted the Secretary with the Senate staff lecture/
tour series.

Office Administration and Automation
    The Curator's Office Records Task Force completed work on a master 
records disposition matrix and began its implementation. The new matrix 
allows for standardization and more consistent records collation. As 
part of the matrix, the Task Force created a fully-searchable digital 
record of each file in the office, as well as a protocol for project 
close-out procedures to ensure that each concluded project will 
generate a thorough and consistent set of records. The File Task Force 
also developed detailed document life-cycle and disposition 
recommendations for the most critical and fastest-growing record types.
    The Curator's continuity of operations (COOP) plan was tested with 
an extensive in-house tabletop exercise conducted in August. The office 
was also asked to participate in the Secretary of the Senate's Living 
Data Recovery Planning System pilot COOP program, and two staff members 
participated in the initial trial run. Training on the full system was 
completed in the first quarter of 2009.
    All objects stored in the Senate Curator's non-museum space at the 
Senate Support Facility were added to a new inventory system called 
Asset Management. Implementation of the system allows the Curator's 
staff to track all objects, confirm locations, and verify quantities.
    All current loan agreements were digitized in portable document 
format and stored on flash drives for easy retrieval in the event of an 
emergency. A list of all working fireplaces was also completed. This 
information is now added to loan agreements in order to provide full 
disclosure on environmental conditions for lenders. The office's 
collection database was reviewed to assess the stability and efficiency 
of the system, and a plan was developed for updating and reorganizing 
specific information.
    Based on periodic requests to reproduce the Senate Chamber desks 
for educational purposes, procedures were developed and implemented for 
approving all future requests. Since 1979, ten institutions have been 
granted permission to replicate Senate Chamber desks.
    In conjunction with the staff of the Office of Web Technology, the 
staff continued work on implementing a major redesign of the Senate art 
Web site. Extensive redesign and programming has yielded a new site 
that, when launched in 2009, will provide visitors with more intuitive 
access to the Senate's art, historical collections, and online exhibits 
and publications. A major accomplishment of this initiative is the 
successful development of a new programming paradigm which facilitates 
the automatic generation of a wide variety of subject-related 
collection lists using information imported directly from the Curator's 
automated collections management database. This method ensures that all 
information displayed on the Web site is current and accurate, 
eliminates the redundancy of information, and safeguards against 
inaccuracies that might occur as a result of such redundancy. The first 
list completed is a comprehensive roster of all individuals depicted in 
every portrait and group portrait in the Senate collection, spanning 
the mediums of paintings, sculpture, and graphic art. Additionally, the 
graphic designs and textual elements of the new navigation interface 
pages have been completed and will be published in 2009.

Objectives for 2009
    Now that the Curator storage rooms in the CVC are available, staff 
will work with representatives from the CVC, AOC, the Office of Senate 
Security and the SAA to establish and test the environmental, security, 
access, and fire suppression systems. Additional equipment and supplies 
needed to prepare collection objects for storage will be assembled, and 
plans for transferring objects to the new storage rooms will be 
finalized. Once all facility systems are operating as intended to 
provide secure preservation conditions for the collections, objects 
will be moved to the spaces. Highlights of the new storage include 
specialized racks for hanging paintings and custom cabinets for storing 
paper-based collections, such as historic prints and ephemera.
    Conservation and preservation concerns continue to be a top 
priority. Following conservation priorities identified through a 
historic clock assessment, the Curator will seek proposals for 
treatment reports and related treatment of four clocks. In addition, an 
ongoing program will be developed to provide routine reports and 
related maintenance for the historic clock collection.
    The office will move forward with critical mirror conservation 
priorities, pursuing both on-site and off-site projects that will treat 
at least two mirrors. In addition, the staff will continue to improve 
monitoring and maintenance of the mirrors. This work will include the 
placement of more identification signs on mantels, the installation of 
mantel clock cord clips, on-site cleaning by staff, and the 
establishment of a plinth program.
    Following the completion of conservation treatment for the 
monumental painting, Henry Clay in the U.S. Senate, the painting will 
be installed in the East Brumidi stairwell. The office will work with a 
fine art services company to carry out this complicated installation in 
2009.
    Professional photography is scheduled for numerous objects in the 
Senate collection, including Henry Clay in the U.S. Senate, the 
restored Russell furniture, historic prints, and upcoming Senate 
leadership portraits.
    Regarding historic preservation activities, the office will 
continue to confer with the AOC regarding preservation issues related 
to Senate restoration and remodeling projects, disseminate project 
information to the Senate, develop preservation projects at the request 
of the Senate, conduct condition inspections, and arrange necessary 
maintenance. The bulk of the office's project management will involve 
advancing the restoration and rehabilitation of the Senate Reception 
Room. Specific efforts to be addressed in 2009 include updating the 
advisory board on progress, studying the condition of the historic 
benches in the room, and initiating treatment of the Greek key borders 
on the walls.
    The office will establish an ornamental fragment collection related 
to the documentation of architectural features and historic spaces. 
This new collecting initiative will acquire significant objects removed 
from the Capitol, as well as samples documenting the appearance of 
important rooms. These items will provide valuable information for the 
future about the architectural and decorative history of the Capitol.
    The office will publish its redesign of the Senate art Web site in 
2009. The new site will organize art works by subject, rather than by 
medium, as currently arranged. In addition to the reorganization, the 
newly launched site will include images from the Senate's graphic art 
collection.
    A variety of new Web sites will be posted, including: information 
on the 2009 inaugural luncheon painting; a myth site addressing and 
dispelling frequently heard myths about Senate art and history; an 
extensive site illustrating the history and conservation of the Henry 
Clay painting by Phineas Staunton; and a site on the Senate Leadership 
Portrait Collection, with specific information on the new portrait of 
Senator Trent Lott. The office will begin development of a historic 
spaces component to the Web site and highlight several special 
collections. Of particular note are the nearly 100 mirrors in the 
Senate's collection. Finally, the office will begin creating new 
artifact pages as part of a program to make the Senate's collection 
more publically accessible.
    The Senate leadership portrait of Senator Trent Lott will be 
unveiled in 2009.
    The office will install a comprehensive series of exhibit signs in 
the Hart Building Atrium to interpret Alexander Calder's Mountains and 
Clouds.
    The staff will update its database to better document and store 
information on Senate objects. The office will also review collection 
data for consistency in preparation for the 2010 inventory publication.
    The Curator's staff has completed the numerous projects for the 
March 2009 celebration of the Russell Senate Office Building 
centennial. Work included: installation of informational panels at 
various locations throughout the building; a publication and poster on 
the furniture; an exhibition showcasing nine restored original 
furnishings; an extensive Web site; various merchandise for sale at the 
Senate Gift Shop; and lectures and tours. In addition, the staff will 
continue investigating and documenting Russell furnishings located in 
other collections. The Curator hopes that the centennial celebration 
will bring a new awareness of these historic furnishings and result in 
the return of some of these ``lost'' pieces to the Senate.

                         EDUCATION AND TRAINING

    The Joint Office of Education and Training provides employee 
training and development opportunities for all Senate staff in 
Washington, DC and the states. There are three branches within the 
office: Technical Training, Professional Training and Health Promotion. 
Technical Training staff are responsible for providing technical 
training support for approved software packages and equipment used in 
either Washington, DC or the state offices. This branch provides 
instructor-led classes, one-on-one coaching sessions, specialized 
vendor-provided training, computer-based training, and informal 
training and support services. Professional Training provides courses 
for all Senate staff in areas such as management and leadership 
development, human resources issues and staff benefits, legislative and 
staff information, and new staff and intern information. Health 
Promotion provides seminars, classes and screenings on health and 
wellness issues. This branch also coordinates an annual health fair for 
all Senate employees and plans blood drives every year.

Training Classes
    The Joint Office of Education and Training offered 838 classes and 
events in 2008, drawing 11,366 participants. The registration desk 
staff handled over 25,000 e-mail and phone requests for training and 
documentation.
    The Technical Training area conducted 270 classes with a total 
attendance of 1,074 students. An additional 707 staff received coaching 
in 247 sessions on various software packages and other computer-related 
issues. Professional Development held 381 classes with a total 
attendance of 3,795 students. The staff managed or assisted the staffs 
of the Employee Assistance Program, the Sergeant at Arms Office of 
Police Operations, Security and Emergency Preparedness, Disbursing 
Office, and the Senate Select Committee on Ethics with 157 training 
classes for 3,395 students.
    The Joint Office of Education and Training works with teams on 
issues related to team performance, communication, and conflict 
resolution. During 2008, Professional Development fulfilled over 150 
requests for special training and team building for 1,500 staff.
    In the Health Promotion area, 2,865 staff participated in 25 health 
promotion activities throughout the year. These activities included 
lung function and kidney screenings, eight blood drives, the Health and 
Fitness Day, seminars on health-related topics, and the annual Senate 
Health Fair.
    On an annual basis, the Joint Office of Education and Training 
provides a Senate Service Expo for Senate office staff. Thirty-five 
presenters from the offices of the Secretary of the Senate, the 
Sergeant at Arms, the Architect of the Capitol, the Capitol Police and 
the Library of Congress participated in this year's program.

State Training
    Since most of the classes that are offered are only practical for 
staff based in Washington, DC, the Joint Office of Education and 
Training continues to offer the ``State Training Fair,'' which began in 
March 2000. In 2008, two sessions of this program were attended by 79 
state staff. In addition, 38 state administrative managers and 
directors attended the State Directors Forum, and 60 state staff 
participated in a Constituent Services Forum.
    Education and Training has also implemented the ``Virtual 
Classroom,'' an internet-based training library with more than 3,000 
courses. To date, 412 state office and D.C. staff have registered and 
accessed a total of 1,300 different lessons and publications using this 
training option. Additionally, the office offered 37 video 
teleconferencing classes, which were attended by over 500 state staff. 
The Joint Office of Education and Training also provides 25 Senate-
specific self-paced lessons which have been accessed by approximately 
1,000 staff.

                               GIFT SHOP

    Since its establishment in October 1992 (2 U.S.C. 121d), the Senate 
Gift Shop has continued to provide service and products that maintain 
the integrity of the Senate while increasing the public's awareness of 
its history. The Gift Shop serves Senators, their spouses, staffs, 
constituents, and the many visitors to the U.S. Capitol complex.
    The products available include a wide range of fine gift items, 
collectibles, and souvenirs created exclusively for the U.S. Senate. 
The services available include special ordering of personalized 
products and hard-to-find items, custom framing including red-lines and 
shadow boxes, gold embossing on leather, etching on glass and crystal, 
engraving on a variety of materials, and shipping nationally and 
abroad.

Facilities
    In addition to three physical locations, the Gift Shop has an 
online presence within Webster, the Senate's Intranet. The Web site 
currently offers an increasing selection of products that can be 
purchased by phone, e-mail, or by printing and faxing the order form 
provided on the site. In addition to offering over-the-counter, walk-in 
sales and limited Intranet services, the Gift Shop administrative 
office provides mail order service via phone or fax, and special order 
and catalogue sales via e-mail, phone, fax, and in person.
    The Gift Shop maintains two warehouse facilities. The bulk of the 
Gift Shop's stock is held in the Senate Storage Facility (SSF), an 
offsite storage facility. While the Sergeant at Arms (SAA) of the 
Senate is in charge of the overall management of the SSF, the Director 
of the Gift Shop has responsibility for the operation and oversight of 
the interior spaces assigned for Gift Shop use. Storing inventory in 
this centralized, climate-controlled facility provides protection for 
the Gift Shop's valuable inventory in terms of physical security as 
well as improved shelf life for perishable and non-perishable items 
alike.
    The second Gift Shop warehouse is maintained in the Hart Building. 
This facility serves as the point of distribution to the Gift Shop 
store and the Capitol Gift Shop counter, both of which have limited 
storage space. The Hart warehouse accommodates the Gift Shop's 
receiving, shipping, and engraving departments, and also supplies the 
inventory sold through the administrative and special order office.

Sales Activities
    Sales recorded for fiscal year 2008 were $1,444,511.15. Cost of 
goods sold during this same period was $1,006,176.13, accounting for a 
gross profit on sales of $438,335.02.
    In addition to tracking gross profit from sales, the Senate Gift 
Shop maintains a revolving fund and a record of inventory purchased for 
resale. As of October 1, 2008, the balance in the revolving fund was 
$2,549,720.48. The inventory purchased for resale was valued at 
$2,880,597.31.

Additional Activity
    The Gift Shop performed major upgrades to both its back office and 
point of sale computer systems during the 2008 fiscal year.
    Last year, Congress passed the Consumer Product Safety Improvement 
Act of 2008 (CPSIA). Additionally, in interpreting the law, the 
Consumer Product Safety Commission (CPSC) promulgated guidelines 
concerning the CPSIA's limits on lead and ban on phthalates in 
children's products, and certifications as required by law. The Gift 
Shop continues its vigilance of this important issue by maintaining its 
certification program in order to evaluate and monitor all products 
sold in its stores. This will continue to be a part of its regular 
business practice, especially as the Gift Shop considers the addition 
of new product lines.

Selected Accomplishments in fiscal year 2008
            Official Congressional Holiday Ornaments
    2008 marked the 15th year of the Congressional Holiday ornament. 
Each ornament in the 2006-2009 series of unique collectables depicts an 
image celebrating the day-to-day activities taking place on the Capitol 
grounds. The four images of the series are based on original oil 
paintings commissioned by the Gift Shop.
    Sales of the 2008 holiday ornament exceeded 29,000 ornaments, of 
which more than 6,400 were personalized with engravings designed, 
proofed, and etched by Gift Shop staff. This highly successful effort 
was made possible by the combined efforts of the administrative, 
engraving, and store staffs. Additional sales of this ornament and 
ornaments from previous years are expected to continue for years to 
come.
            Capitol Bookend
    The Capitol Bronze Doors Bookend is a remarkably detailed 
recreation of the doors that were designed by Thomas Crawford and 
William H. Rinehart and cast as a single piece by James T. Ames in 
Chicopee, Massachusetts. The doors were installed in 1868. Marble 
recovered during the renovations to the east front of the Capitol was 
added to the building materials, making the piece truly unique.
            Capitol Wooden Box
    These new boxes were designed and created using the wood of trees 
felled from the Capitol complex during the construction of the Capitol 
Visitor Center. A selection of three different images, reproduced on 
porcelain stone tiles and inlayed into the lids of the boxes is 
available. Varieties of wooden pens were also created from the rescued 
trees and have been made available as a regular product in the store. 
Both the wooden boxes and the wooden pens include an insert card, 
printed on recycled paper and in a soy-based ink, describing the 
history of the recovered wood.

Projects Recently Produced/New Initiatives for 2009
            Senate Photography Studio
    In partnership with the Senate Photography Studio, the Gift Shop 
will offer prints of original photos taken by Senate photographers. 
These images will be made available for sale in the Gift Shop and be 
offered in several sizes and formats. Professional matting and framing 
will be available.
            Senate Staff China
    In late 2008 the Gift Shop received its first shipment of fine 
china designed for Senators and Senate staff. This product, 
manufactured by Pickard China, a manufacturer of fine china in 
Illinois, depicts a pattern based on a Brumidi ceiling fresco. The 
china pattern, ``Brumidi Rinceau,'' is available by special order and 
may be personalized with the staffer's name or respective office on the 
reverse. Cups and saucers, dinner plates, salad plates and assorted 
serving pieces are available.
            Wilton Armetale
    As a complement to the Senate staff china, the Gift Shop has also 
designed and produced a collection of metal service pieces with Wilton 
Armetale Company of Columbia, Pennsylvania. The border design depicted 
on these pieces is ``Brumidi Rinceau'' and, as with the china, 
replicates the borders of a series of vignettes decorating the ceiling 
of the Capitol's North Brumidi Corridor.
            Senate Scarves
    The Gift Shop has recently received new scarf designs depicting 
various elements of Constantino Brumidi art. The ceiling of the Lyndon 
Baines Johnson Room and other Brumidi corridor frescos are the 
inspiration for this product. The Echo Design Group of New York is 
providing the product.
            United States Senate Shawls
    Through an agreement with LR Paris Company in Washington, DC, the 
Gift Shop has produced shawls in red, charcoal, brown and tan. These 
shawls, a silk and wool blend, depict an artistic design element found 
in the encaustic Minton tiles located in the Capitol just outside the 
third floor entrance to the Senate gallery.
            Senate Ties
    New Senate ties have also been designed by LR Paris and are 
available for sale. This product contains design elements found within 
the Capitol and is produced in two styles and three color variations.
            Musical Jewel Box
    The Gift Shop, working with the Splendid Music Box Company of New 
York, has completed the development of a Senate music box. The box, 
which depicts a highly detailed image of the Capitol West Laylight, 
recently became available for sale in the store. The laylight was 
designed by the Philadelphia architect Thomas U. Walter and is located 
in the ceilings of both of the grand staircases.
            Brumidi Stemware
    Working with Evergreen Crystal Company of Montrose, Colorado, the 
Gift Shop developed and began selling a new style of crystal stemware. 
Each glass in this set of four wine glasses depicts a different bird 
taken from the frescoes in the Brumidi corridor.
            Russell Centennial
    The celebration of the Russell Building centennial in March 2009 
presented the Gift Shop with an opportunity to work with the Office of 
the Senate Curator for the purpose of creating commemorative gift items 
appropriate for the occasion. The Gift Shop developed bookmarks, 
jewelry and note cards to complement the celebratory activities that 
took place.

                           HISTORICAL OFFICE

    Serving as the Senate's institutional memory, the Historical Office 
staff collects and provides information on important events, 
precedents, dates, statistics, and historical comparisons of current 
and past Senate activities for use by members and staff, the media, 
scholars, and the general public. The staff advises Senators, officers, 
and committees on cost-effective disposition of their non-current 
office files, and assists researchers in identifying Senate-related 
source materials. The historians keep extensive biographical, 
bibliographical, photographic, and archival information on the more 
than 1,900 former and current Senators. Historical Office staff edits 
historically significant transcripts and minutes of selected Senate 
committees and party organizations for publication, and conducts oral 
history interviews with key Senate staff. The photo historian maintains 
a collection of approximately 40,000 still pictures that includes 
photographs and illustrations of Senate committees and most former 
Senators. The office develops and maintains all historical material on 
the Senate Web site, Senate.gov.

Editorial Projects
            Pro Tem: Presidents Pro Tempore of the United States Senate 
                    since 1789
    To honor the important role played by the Senate's president pro 
tempore (PPT) since 1789, the Historical Office published a 120-page 
history of the office and its occupants in early 2008. A biographical 
profile of each of the 87 individuals who have served in the office 
highlights their PPT service along with their non-Senate careers, 
includes commentary by contemporaries, historians, and biographers, and 
presents a photographic likeness of the individual. Divided into four 
chronological sections, the book includes contextual essays that 
explain the evolution of the office, its changing duties and 
responsibilities, its place in the line of presidential succession, and 
the unique role played by these leaders in Senate history.
            United States Senate Chamber, 1859-2009
    This 25-page richly illustrated booklet commemorates the 150th 
anniversary of the Senate Chamber. It highlights the Chamber's 
construction, physical features and furnishings, and some of the 
landmark events that have taken place there since 1859. Nearly 50 color 
and black and white photographs and illustrations chronicle the 
Chamber's history, from the first session held there during the 35th 
Congress to the official photograph of the 110th Congress. United 
States Senate Chamber, 1859-2009 was made available to Senators on 
January 6, 2009, to mark the anniversary.
            Russell Senate Office Building, The First Century
    In preparation for the centennial of the Russell Senate Office 
Building's March 5, 1909, opening, the Historical Office produced a 32-
page illustrated booklet highlighting the facility's design, 
construction, and subsequent evolution. The Historical Office assisted 
the Senate Curator, Architect of the Capitol, and Senate Library in 
planning exhibits and a companion Web site, Senate.gov/RSOB.
            ``States in the Senate''
    In this collaborative project, which will be featured on 
Senate.gov, staff historians continued to research and write timelines 
and selected illustrative images for each of the 50 states, 
highlighting persons and events of the state's history that relate to 
the U.S. Senate. This online project has now entered the design stage. 
When complete, it will present an interactive timeline for each state, 
with links to relevant documentary and visual material. It is designed 
to inform Senators, staff, and constituents about their state's 
historical role in the Senate.
            Administrative History of the Senate
    Throughout 2008, the assistant historian continued to research and 
write this historical account of the Senate's administrative evolution. 
This study traces the development of the offices of the Secretary of 
the Senate and Sergeant at Arms, considers 19th and 20th century reform 
efforts that resulted in reorganization and professionalization of 
Senate staff, and looks at how the Senate's administrative structure 
has grown and diversified.
            Joint Congressional Committee on Inaugural Ceremonies
    In 2008, Historical Office staff assisted the Joint Congressional 
Committee on Inaugural Ceremonies (JCCIC) with developing the inaugural 
theme, and wrote and edited content for printed materials, including 
the platform program, luncheon program, and the commemorative edition 
of Inaugural Addresses of the Presidents of the United States. 
Historical Office staff researched precedents and compiled historical 
data on previous inaugurations in response to queries by the JCCIC, the 
media, and the general public.
            Rules of the United States Senate, Since 1789
    In 1980, Senate Parliamentarian Emeritus Floyd M. Riddick, at the 
direction of the Senate Committee on Rules and Administration, prepared 
a publication containing the eight codes of rules that the Senate 
adopted between 1789 and 1979. In the 1990s, the Senate Historical 
Office, in consultation with Dr. Riddick, developed a project to 
incorporate an important feature not contained in the 1980 publication. 
Beyond simply listing the eight codes of rules, Rules of the United 
States Senate, Since 1789 is to show how--and why--the Senate's current 
rules have evolved from earlier versions. This work, to be completed 
during 2009, will contain eight narrative chapters outlining key 
debates and reasons for significant changes. Appendices will include 
the original text of all standing rules and, for the first time in one 
publication, all changes adopted between each codification.
            Biographical Directory of the U.S. Congress, 1774-present
    Since publication of the 2005 print edition of The Biographical 
Directory of the United States Congress, the historians have added new 
biographical sketches and bibliographical citations that incorporate 
recent scholarship to the work's online database (http://
bioguide.congress.gov). The assistant historian and historical writer 
work closely with the staff of the House Office of History and 
Preservation to maintain accuracy and consistency in the joint Senate-
House database, and to promote this valuable resource among historians, 
teachers, students and the public. To enhance the online site, the 
Historical Office currently is selecting printed obituaries for 19th 
century Senators for inclusion in their online profile. Office staff 
collected and scanned images of more than 100 obituaries from 
historical newspaper databases and the Office's biographical files and 
will build on this collection in the coming year.

Oral History Program
    The Historical Office conducts a series of oral history interviews 
to provide personal recollections of various Senate careers. Interviews 
were completed with Keith Kennedy, former staff director of the Senate 
Appropriations Committee, and with Mario D'Angelo, a Senate barber. 
Other interviews are ongoing with former Senators Charles McC. Mathias 
(R-MD) and Paul Laxalt (R-NV), Tim Profeta, former legislative 
assistant to Senator Joseph Lieberman (ID-CT) and Robert B. Dove, 
former parliamentarian. In addition, the office continued to seek and 
conduct interviews with current and former Senate spouses. It also 
expanded on its collection of interviews highlighting the role of women 
on Capitol Hill, completing interviews with Virginia Saunders, a 
congressional documents expert who has been employed at the Government 
Printing Office since 1945. The complete transcripts of 26 interviews 
conducted since the 1970s have been posted on Senate.gov. Each month, 
that site features a different oral history interview series, including 
digital audio clips along with the interview transcripts. Unum, the 
Secretary of the Senate's newsletter, has also begun a regular series 
entitled ``Senate Voices,'' which includes excerpts from the oral 
histories.

Member Services
            Members' Records Management and Disposition Assistance
    The Senate archivist assisted members' offices with planning for 
the preservation of their permanently valuable records, emphasizing the 
importance of managing electronic records and transferring valuable 
records to a home state repository with a digital asset management 
system. Meetings continued with offices closing at the end of the 110th 
Congress. The archivist revised the Handbook for Closing a Senator's 
Office and the pamphlet, Senators' Papers: Management and Preservation 
Guidelines.
    To enhance communication within the Senate regarding archival 
preservation, the archivist led brown-bag lunch discussions and 
contributed to a listserv that promotes archival training for staff, 
efficient records management, and historical records preservation. A 
video seminar was developed for Senate state offices. The Senate 
archivist continued to work with staff from all repositories receiving 
senatorial collections to ensure adequacy of documentation and the 
transfer of appropriate records with adequate finding aids. Advice on 
access restrictions also was provided. The archivist conducted a 
seminar on records management for Senate offices and participated in 
the Sergeant at Arms' Senate Services Fair.
            Committee Records Management and Disposition Assistance
    The Senate archivist provided each Senate committee with staff 
briefings, record surveys, guidance on preservation of information in 
electronic systems, and instructions for the transfer of permanently 
valuable records to the National Archives' Center for Legislative 
Archives. During the fall, the archivist met with representatives of 
nearly all committees to ascertain the status of their electronic 
archiving. The archivist distributed information on best practices for 
managing electronic records and encouraged committee chief clerks, 
systems administrators, and chief counsels to consider hiring 
professional archivists to focus on electronic archiving. As a result, 
several committees have hired, or are in the process of hiring, 
archival staff.
    The Senate archivist oversaw the transfer to the National Archives 
of 729 accessions of Senate records and provided numerous training 
sessions to Senate interns tasked with archiving committee records. The 
archivist and assistant archivist responded to approximately 197 
requests for loans of records back to committees, totaling nearly 1,000 
boxes. The archivist worked with the Foreign Relations Committee to 
transfer classified transcripts to the National Archives. The archivist 
worked with the Senate Committee on Rules and Administration and the 
Senate Recording Studio to transfer televised recordings of committee 
hearings to the National Archives. The archival assistant continued to 
provide processing aid to committees and administrative offices in need 
of basic help with noncurrent files. A project continues to scan 
committee National Archives' transfer sheets dating from 1982 through 
2004 into the OnBase document management system, which is supported by 
the Sergeant at Arms. To date, records of the Committees on 
Agriculture; Appropriations; Armed Services; Banking, Housing and Urban 
Affairs; Budget; Energy and Natural Resources; Environment and Public 
Works; Finance; Foreign Relations; Health, Education, Labor and 
Pensions; and Homeland Security and Governmental Affairs have been 
processed. This information is provided to the National Archives on 
electronic media, both as a security measure and to enhance future 
access as the records become open for research.

Educational Outreach
            ``Senate Historical Minutes''
    The Senate historian continued a series of ``Senate Historical 
Minutes,'' begun in 1997 at the request of the Senate Democratic 
Leader. In 2008, he prepared and delivered a ``Senate Historical 
Minute'' at 18 weekly Democratic Conference meetings. These 450 word 
``Minutes'' enlighten members about significant events and 
personalities associated with the Senate's institutional development. 
More than 300 of them are available as a regularly expanded feature on 
Senate.gov (``Historical Minute Essays''). An illustrated compilation 
was published in 2006 as 200 Notable Days: Senate Stories, 1787-2002.
Senate.gov
    Much of the Historical Office's correspondence with the general 
public takes place through Senate.gov, which has become an 
indispensable source for information about this institution. Office 
staff maintain and frequently update the Web site with timely reference 
and historical information. In 2008, the office responded to more than 
1,400 inquiries from the general public, the news media, students, 
family genealogists, congressional staffers, and academics, through the 
public e-mail address provided on the site. The diverse nature of their 
questions reflects varying levels of interest in Senate operations, 
institutional history, and former members. Research assistance provided 
by Historical Office staff was enhanced by the comprehensive scanning 
of the office's subject files into the OnBase document management 
system, allowing staff to search the full text of these files 
electronically. Staff provided seminars on the general history of the 
Senate, Senate committees, women Senators, Senate floor leadership, 
relations between the press and the Senate, and the U.S. Constitution. 
The historians also participated in Senate staff seminars and members' 
office retreats, and conducted dozens of briefings for specially 
scheduled groups.

Photographic Collections
    The photo historian continued to ensure history-focused 
photographic coverage of the contemporary Senate by photographing every 
committee once each Congress, collecting formal photo portraits of new 
Senators, and capturing significant Senate events in cooperation with 
the Senate Photography Studio. The photo historian also enhanced the 
office's publications on Senate presidents pro tempore, the Russell 
Building's centennial, and the Senate Chamber's sesquicentennial by 
selecting images to illustrate the respective texts, working closely 
with the historical editor and the Government Printing Office to design 
and publish these three volumes. As a member of the Russell Building 
centennial planning committee, the photo historian helped create the 
official centennial logo and bookmarks, in addition to the centennial 
booklet, and worked closely with the National Archives staff to arrange 
for the scanning of a large collection of early 20th century historical 
photographs donated to the office, thus adding hundreds of rare images 
to the collection.
    The photo historian assisted with several presidential inaugural 
projects, including the selection of images for the commemorative 
inaugural luncheon book. The photo historian also transferred more than 
40,000 photographic negatives of Senators to their appropriate archival 
repositories. These negatives had been languishing at a Senate storage 
site for decades. With the assistance of the archival assistant, the 
photo historian arranged for the transfer of 63 historic Capitol Police 
record books to the National Archives.
    The photo historian also maintained the office's continuity of 
operations (COOP) plan, updated the backup copies of the office's vital 
electronic records, and prepared the office's remote access test plan 
which will enable staff members to fulfill their vital functions from 
an off-site location.

Advisory Committee on the Records of Congress
    This 11-member permanent committee, established in 1990 by Public 
Law 101-509, meets semiannually to advise the Senate, the House of 
Representatives, and the Archivist of the United States on the 
management and preservation of the records of Congress. Its membership 
representing the Senate includes the Secretary of the Senate, who 
chaired the panel during the 110th Congress; the Senate historian; and 
appointees of the secretary and the majority and minority leaders. The 
Historical Office provides support services for the advisory 
committee's regular meetings.

Capitol Visitor Center
    Staff historians continued to provide information and guidance to 
Capitol Visitor Center staff on matters related to the educational 
component of the exhibition gallery. The historians participated in 
multiple planning sessions for a new training program for staff-led 
tours. Beginning in October, they have made regular presentations on 
the history of the Senate in both 2-day and 1-day training seminars for 
Senate staff and interns. They have also assisted in the training of 
visitor assistants who guide visitors through the Capitol and 
exhibition gallery.

                            HUMAN RESOURCES

    The Office of Human Resources was established in June 1995 by the 
Secretary as a result of the Congressional Accountability Act. The 
office focuses on developing and implementing human resources policies, 
procedures, and programs for the Office of the Secretary of the Senate 
that fulfill the legal requirements of the workplace and complement the 
organization's strategic goals and values.
    These responsibilities include recruiting and staffing; providing 
guidance and advice to managers and staff; training; performance 
management; job analysis; compensation planning, design, and 
administration; leave administration; records management; maintaining 
the employee handbooks and manuals; internal grievance procedures; 
employee relations and services; and organizational planning and 
development.
    The Human Resources staff administers the following programs for 
the Secretary's employees: the Public Transportation Subsidy program, 
Student Loan Repayment Program, parking allocations, and the summer 
intern program that offers college and other post-graduate students the 
opportunity to gain valuable skills and experience in a variety of 
Senate support offices. Human Resources has completed migration of 
eligible commuters to the Smart Benefits Program, which is operated by 
the Washington Metropolitan Area Transit Authority.

Recruitment and Retention of Staff
    Human Resources staff have the ongoing task of advertising new 
vacancies or positions, screening applicants, interviewing candidates, 
and assisting with all phases of the hiring process. Human Resources 
staff coordinate with the Sergeant at Arms (SAA) Human Resources 
Department to post all SAA and Secretary vacancies on the Senate 
intranet, Webster, so that the larger Senate community may access the 
posting from their own offices. In an effort to reach a larger and more 
diverse applicant pool, the department uses multiple posting forums to 
reach potential applicants for employment. As a result, the Human 
Resources Department processed more than 2,500 applications for 
vacancies in the Secretary's Office, including review of applications, 
coordinating scheduling of candidates for interview, sending out 
notices to both successful and unsuccessful candidates, and finalizing 
new hire paperwork.

Training
    In conjunction with the Senate Chief Counsel for Employment, staff 
continues to develop and deliver training for department heads and 
staff. Training topics include sexual harassment, interviewing skills, 
Family Medical Leave Act administration, and an overview of the 
Congressional Accountability Act.

Interns and Fellows
    Human Resources staff manages the Secretary's internship program 
and the coordination of the Heinz Fellowship program. From posting 
vacancies, conducting needs analyses, communicating, screening, placing 
and following up with all interns, the office keeps a close connection 
with these program participants in an effort to make the internship 
most beneficial to them and the organization.

Combined Federal Campaign
    The office has again taken an active role in the Combined Federal 
Campaign (CFC) for the Senate community at-large. The office staff 
serve as co-directors of the program. The staff participates in kick-
off meetings, identifies key workers in each office, and disseminates 
and collects necessary information and paperwork.

                          INFORMATION SYSTEMS

    The staff of the Department of Information Systems provides 
technical hardware and software support for the Office of the Secretary 
of the Senate. Information Systems staff also interface closely with 
the application and network development groups within the Sergeant at 
Arms (SAA), the Government Printing Office (GPO), and outside vendors 
on technical issues and joint projects. The department provides 
computer-related support for all location area network (LAN) servers 
within the Office of the Secretary of the Senate. Information Systems 
staff provide direct application support for all software installed 
workstations, initiate and guide new technologies, and implement next 
generation hardware and software solutions.

Mission Evaluation
    The primary mission of the Information Systems Department is to 
continue to provide the highest level of customer satisfaction and 
computer support for the Office of Secretary of the Senate. Emphasis is 
placed on creating and transferring legislative records to outside 
departments and agencies, fulfilling Disbursing Office financial 
responsibilities to the member offices, and complying with office 
mandated and statutory obligations.

Fiscal Year 2008 Technology Summary
  --Successfully migrated all departments to the Senate-wide Active 
        Directory/Messaging Architecture (ADMA) and upgraded Mail 
        Server architecture in fiscal year 2008.
  --Completed fifteen major Legislative Information System (LIS) 
        software upgrades and installed LIS application software in the 
        legislative clerk offices, Senate Library, alternate computing 
        facility, and offsite staff laptop locations.
  --Completed phase two of the Gift Shop and Stationery Room project, 
        which involved updating all server and workstations for each 
        department.
  --Completed installation testing of Disbursing backup servers at the 
        Alternate Computer Facility (ACF).
  --Upgraded all handheld mobile device hardware (Blackberry) for 
        essential staff. All staff now can use the devices as modems to 
        access the Senate network if required.
  --Completed installation of a development SharePoint Server for the 
        Office of Senate Security allowing continuity of operations 
        (COOP) related documents to be readily available through a web-
        based secure network connection.
  --Participated and provided direct technical support for all COOP 
        exercises in 2008. The most notable exercises included the 
        National Level Exercise and Alternate Chamber Exercise in May 
        2008, and department pandemic testing exercises conducted in 
        third and fourth quarters of 2008.
  --Deployed the Government Printing Office public key infrastructure 
        (PKI) software for successful transmission of the 2008 and 2009 
        White House budget. Information System staff ``virtualized'' 
        the software installation for the deputy chief of staff 
        avoiding the purchase of an additional workstation, thus 
        allowing any workstation to accommodate the transfer of the 
        digital certificate document.
  --Reduced space and power consumption by updating printer operations 
        in 19 departments with multi-functional scanner/copier/fax 
        devices. Using all-in-one devices to perform multiple tasks 
        reduces energy, hardware costs, and long term hardware support 
        costs.
  --Installed virtualized server architecture for the LIS Information 
        Project Office.
  --Augmented the Bill Clerk Amendment Tracking System (ATS) process to 
        continue to process submitted amendments in the event that 
        network scanning is not available. This ensures that submitted 
        and proposed amendments continue to reach the ATS Web server 
        site for Senate distribution.
  --Purchased and installed server hardware and network configuration 
        in support of the Senate Library taxonomy project.
  --Relocated the departmental operations for the offices of Senate 
        Security and Captioning Services from the Capitol building to 
        the Capitol Visitor Center expansion space.
  --Redesigned and enhanced the operation of member accountability 
        application used during COOP exercises by implementing a 
        virtualized desktop process to run the application. 
        Standardized the application and provided to both Democratic 
        and Republican Cloakroom staff. Added this process to ensure 
        high availability by installing on an ``always-on'' secure 
        hardware platform at the ACF.
  --Finalized the Living Disaster Recovery Planning System (LDRPS) in 
        fiscal year 2008. Initial user training began in February 2009.
  --Upgraded workstation hardware and software operations in the 
        Executive Office of the Secretary and the Office of Senate 
        Security.
  --Upgraded Microsoft Office Software applications, Adobe Acrobat 
        software, and web browser operations in fifteen Secretary 
        departments. Timeframe to complete legislative offices will 
        coincide with updated SAA LIS application support in the second 
        quarter of 2009.
  --Initiated Parliamentarian indexing software project to migrate 
        operation to a new hardware platform. End results will allow a 
        virtualized environment to index precedent information without 
        a specific laptop or personal computer hardware vendor 
        requirement. Estimated completion is the second quarter of 
        2009.
    In 2007, forty five e-mail security alerts were issued from the SAA 
Security Operations Center alerting Secretary staff of a possible virus 
or malicious code installed on their staff workstations. Information 
Services staff ``clean'' each compromised workstation. This process can 
take up to three hours to correct the possible problem. In 2008, this 
number was reduced by 50 percent.
  --Upgraded to Microsoft Office 2007 Groove collaboration software in 
        the offices of Information Systems, Senate Security, Senate 
        Library, Web Technology, Historian, and the Executive office. 
        This application continues to provide critical information to 
        dispersed staff members who might be offsite or relocated out 
        of the office. Streamlined application deployment by utilizing 
        an improved web management console to install the application 
        remotely.
  --Update the People Trak database operation in the department of 
        Human Resources to allow staff to enter time and attendance 
        sheet records via the Secretary Intranet web portal. Project 
        implementation to be determined by HR Director.
Ongoing and Future Projects
  --Extend Member Status application support to both cloakroom staff 
        during a COOP event
  --In collaboration with the Office of Legislative Counsel, design a 
        ``Virtual Desktop Infrastructure'' (VDI) allowing staff to 
        access desktop applications in a secure manner. VDI reduces the 
        cost in purchasing new computers, centralizes the software 
        management in the ACF data center, provides a reduction in 
        electricity costs, and provides fewer application compatibility 
        problems associated with multiple applications.

                      INTERPARLIAMENTARY SERVICES

    The Office of Interparliamentary Services (IPS) has completed its 
27th year of operation as a department of the Secretary of the Senate. 
IPS is responsible for administrative, financial, and protocol 
functions for all interparliamentary conferences in which the Senate 
participates by statute, for interparliamentary conferences in which 
the Senate participates on an ad hoc basis, and for special delegations 
authorized by the Majority and Minority Leaders. The office also 
provides appropriate assistance as requested by other Senate 
delegations.
    The statutory interparliamentary conferences are:
  --NATO Parliamentary Assembly
  --Mexico-United States Interparliamentary Group
  --Canada-United States Interparliamentary Group
  --British-American Interparliamentary Group
  --United States-Russia Interparliamentary Group
  --United States-China Interparliamentary Group
  --United States-Japan Interparliamentary Group
    In May, the 49th Annual Meeting of the Canada-U.S. 
Interparliamentary Group was held in New Mexico. In June, the first 
meeting of the United States-Japan Interparliamentary Group meeting was 
held in Washington, DC. In July, the United States-Russia 
Interparliamentary Group meeting was also held in Washington, DC. IPS 
staff handled arrangements for these successful events.
    As in previous years, all foreign travel authorized by the Majority 
and Minority Leaders is arranged by the IPS staff. In addition to 
delegation trips, the staff provided assistance to individual Senators 
and staff traveling overseas. Senators and staff authorized by 
committees for foreign travel continue to call upon this office for 
assistance with passports, visas, travel arrangements, and reporting 
requirements.
    IPS receives and prepares for printing the quarterly financial 
reports for foreign travel from all committees in the Senate. In 
addition to preparing the quarterly reports for the Majority Leader and 
the Minority Leader, IPS assists staff members of Senators and 
committees in completing the required reports.
    IPS maintains regular contact with the Department of State and 
foreign embassy officials. The office staff frequently organizes visits 
for official foreign visitors and assists them in setting up meetings 
with leadership offices and tours. The staff continues to work closely 
with other offices of the Secretary of the Senate and the Sergeant at 
Arms in arranging programs for foreign visitors. In addition, IPS is 
frequently consulted by individual Senate offices on a broad range of 
protocol questions. Occasional questions come from state officials or 
the general public regarding Congressional protocol.
    On behalf of the Majority and Minority Leaders, the staff arranges 
receptions in the Senate for heads of state, heads of government, heads 
of parliaments, and parliamentary delegations. Required records of 
expenditures on behalf of foreign visitors under authority of Public 
Law 100-71 are maintained in IPS.
    Planning is underway for the 48th Annual Meeting of the Mexico-U.S. 
Interparliamentary Group which will be held in the United States in 
2009. Preparations are also underway for the 2009 British-American 
Parliamentary Group meeting and the spring and fall sessions of the 
NATO Parliamentary Assembly. IPS will also undertake advance work, 
including site inspection, for the Canada-U.S. Interparliamentary Group 
conference to be held in the United States in 2010.

              LEGISLATIVE INFORMATION SYSTEM (LIS) PROJECT

    The Legislative Information System (LIS) is a mandated system 
(Section 8 of the 1997 Legislative Branch Appropriations Act, 2 U.S.C. 
123(e)) that provides desktop access to the content and status of 
legislative information and supporting documents. The 1997 Legislative 
Branch Appropriations Act (2 U.S.C. 181) also established a program for 
providing the widest possible exchange of information among legislative 
branch agencies. The long-range goal of the LIS Project is to provide a 
``comprehensive Senate Legislative Information System'' to capture, 
store, manage, and distribute Senate documents. Several components of 
the LIS have been implemented, and the project is currently focused on 
the transition to and implementation of a standard system for the 
authoring and exchange of legislative documents, which will greatly 
enhance the availability and re-use of legislative documents within the 
Senate and with other legislative branch agencies. The LIS Project 
Office manages the project.

Background: LISAP
    In April 1997, a joint Senate and House report recommended the 
establishment of a data standards program. In December 2000, the Senate 
Committee on Rules and Administration and the Committee on House 
Administration jointly accepted the Extensible Markup Language (XML) as 
the primary data standard to be used for the exchange of legislative 
documents and information. Following the implementation of the LIS in 
January 2000, the LIS Project staff shifted their focus to the data 
standards program and established the LIS Augmentation Project (LISAP). 
The over-arching goal of the LISAP is to provide a Senate-wide 
transition to and implementation of XML for the authoring and exchange 
of legislative documents.
    The current focus for the LISAP is the development and 
implementation of an XML authoring system for legislative documents 
produced by the Senate Legislative Counsel (SLC) and the Enrolling 
Clerk. The XML authoring application is called LEXA, an acronym for the 
Legislative Editing in XML Application. LEXA replaces the DOS-based 
XyWrite software used by drafters to embed locator codes into 
legislative documents for printing. The XML tags inserted by LEXA 
provide more information about the document and can be used for 
printing, searching, and displaying a document. LEXA features many 
automated functions that provide a more efficient and consistent 
document authoring process. The LIS Project staff has worked very 
closely with the SLC and the Enrolling Clerk to create an application 
that meets the needs of legislative drafting.

LISAP: 2008
    Early in 2008, the Senate and House deployed a module developed by 
the Government Printing Office (GPO) for creating, editing, and 
printing tables in an XML document. This new table tool improves the 
process and provides another module that is common to LEXA and the 
House application.
    Also in the first quarter of 2008, Senate, House, and GPO software 
developers each upgraded their respective installations of the 
Microsoft.Net framework. This upgrade allowed GPO to substantially 
decrease the time it takes to compose large documents for printing. The 
printing component is developed and maintained by GPO and is common to 
both the Senate and House applications.
    Throughout 2008 the SLC used LEXA to create 99 percent of measures 
drafted. The SLC provided valuable feedback on new features and 
required fixes to the software. The Senate Enrolling Clerks also used 
LEXA for the bulk of their production of engrossed bills and amendments 
and enrolled measures.
    The production staff of the Appropriations Committee used LEXA to 
convert XML documents to locator when needed, and provided their 
requirements regarding using LEXA to draft appropriations committee 
prints and bills in XML. The production staff will begin using LEXA in 
2009 to prepare the bills for fiscal year 2010. The LIS Project Office 
participated in meetings with the House, GPO, Appropriations, and the 
Office of Management and Budget to work toward exchanging and round-
tripping, or transferring back and forth, XML data among the various 
entities.
    Support for LEXA users remains an important concern. The LIS 
Project Office provides support for LEXA through the LEXA HelpLine and 
LEXA Web site. The Web site (http://legbranch.senate.gov/lis/lexa) is 
also used to distribute updates of the application to GPO and provide 
access to release notes, the reference manual, and other user aids. The 
2004 legislative branch appropriations act directed GPO to provide 
support for LEXA much as they have for XyWrite. GPO continues to work 
toward augmenting the support provided by the LIS Project Office.
    GPO maintains and supports the printing and table tool software, 
and they also develop and maintain the stylesheet that is used on LIS 
(http://www.congress.gov) and Thomas (http://thomas.loc.gov) to display 
the XML bills. The LIS Project Office worked with the House and GPO in 
2008 to resolve any remaining XML tagging issues and HTML display 
issues so that the XML versions of Senate measures will be made 
available on LIS and Thomas starting with the 111th Congress. The HTML 
version produced from the XML data more closely resembles the printed 
document. This improved HTML format will eventually replace the HTML 
version currently available on the Web.

LISAP: 2009
    The LIS Project Office will continue to work with the SLC and the 
Enrolling Clerk to refine and enhance LEXA so that all of the 
legislative measures produced by those offices will be done in XML. The 
office will also support the Appropriations Committee production staff 
as they begin producing appropriations bills in XML. The LIS Project 
staff will monitor the use of the tagging structures created for 
appropriations language to determine if they provide a sufficiently 
complete description so that appropriations bills can be created as XML 
documents. XML tags and LEXA functions will be added as needed to 
create the appropriations bills using LEXA. The LIS Project Office will 
also continue to participate in the project to exchange and round-trip 
budget and appropriations data in XML.
    The LIS Project Office will continue to work with the House, GPO, 
and the Library of Congress on projects and issues that impact the 
legislative process and data standards for exchange. These groups are 
currently participating in two projects with GPO--one to define 
requirements for replacing the Microcomp composition software and 
another to improve the content submission and exchange processes. Both 
the Senate and House will need to test and implement Vista-compatible 
versions of the XML applications.
    The legislative process yields other types of documents, such as 
the Senate and Executive Journals and the Legislative and Executive 
Calendars. Much of the data and information included in these documents 
is already captured in and distributed through the LIS/DMS database 
used by the clerks in the office of the Secretary. The LIS/DMS captures 
data that relates to legislation including bill and resolution numbers, 
amendment numbers, sponsors, co-sponsors, and committees of referral. 
This information is currently entered into the database, verified by 
the clerks, keyed into the respective documents, and re-verified at GPO 
before printing. An interface between this database and the electronic 
documents could exchange data mutually. For example, the LIS/DMS 
database could insert the bill number, additional co-sponsors, and 
committee of referral into an introduced bill, while the bill draft 
document could supply the official and short titles of the bill to the 
database.
    The Congressional Record, like the journals and calendars, includes 
data that is contained in and reported by the LIS/DMS database. 
Preliminary document type definitions have been designed for these 
documents, and applications could be built to construct XML document 
components by extracting and tagging the LIS/DMS data. These 
applications would provide a faster, more consistent assembly of these 
documents, and would enhance the ability to index and search their 
contents. The LIS Project staff will coordinate with the Systems 
Development Services Branch of the Sergeant at Arms to begin design and 
development of XML applications and interfaces for the LIS/DMS and 
legislative documents. As more and more legislative data and documents 
are provided in XML formats that use common elements across all 
document types, the Library of Congress will be able to expand the LIS 
Retrieval System to provide more content-specific searches.

                                LIBRARY

    The Senate Library provides legislative, legal, business, and 
general information services to the United States Senate. The library's 
collection encompasses legislative documents that date from the 
Continental Congress in 1774; current and historic executive and 
judicial branch materials; an extensive book collection on American 
politics, history, and biography; a popular collection of audio books; 
and a wide array of online resources. The library also authors content 
for three Web sites--LIS.gov, Senate.gov, and Webster, the Senate's 
intranet.
    The year 2008 brought much change to the Senate Library, with the 
retirement in February of the prior Senate Librarian, Greg Harness, and 
the arrival of Mary Cornaby, the first woman to serve as Senate 
Librarian, in April. Other changes included adoption of a new audio 
books program to help meet the needs of visually challenged patrons, 
increased statistical benchmarking, and increased focus on instruction 
and outreach. The Library's expanded use of Web technology, online 
resources, and electronic mail requests continues to meet the Senate's 
increasing demand for information.

Notable Achievements
    Rollout of the new version of the Webster intranet in October 2008 
included extensive Library staff participation on taxonomy, indices, 
and content development, improving Web information delivery, 
functionality, and stability.
    The Senate Library increased its service statistics this year, 
serving every Senator's office and all Senate committees. The Library 
showed a 69 percent increase in the number of requests handled, 
including Web-based inquiries, from 2007.
    Focus on new and more frequent Library instructional classes 
resulted in a 23 percent increase in Library instructional offerings in 
2008.
    The new audio books program, which assists in serving patrons with 
diverse needs, proved wildly successful at bringing Senators and staff 
into the Library. All titles are checked out, and many have a waiting 
list.
    Partially as a result of the success of the audio books program, 
2008 saw a 73 percent increase in online book requests.
    An effective book stack rearrangement program will delay the need 
for new book stack space in the Russell Building for 10 years.
    An emphasis on careful negotiation or renegotiation of vendor 
contracts and purchases has already saved over $352,000 in database 
expenses over the next 4 years.
    An effort to register new library users included a 37 percent 
increase in staff accounts, a 560 percent increase in intern accounts, 
and a 155 percent increase in Senate page accounts.
Senate Library Inquiries, Online Book Requests, and Patron Accounts
    The rise in electronic requests for materials, the availability of 
new and enhanced electronic database offerings, and the expanded 
availability of resources on the Web, combined with efficient content 
management, have all increased Library inquiries dramatically. Prior to 
the availability of Web-based information, Library inquiries totaled 
46,368. Inquiries for 2008 totaled approximately 2.5 million.

                                            SENATE LIBRARY INQUIRIES
----------------------------------------------------------------------------------------------------------------
                                                                  Web                                  Increase
                                                ---------------------------------------               From Prior
               Year                 Traditional                                            Total       Year (in
                                                   Webster        LIS       Senate.gov                 percent)
----------------------------------------------------------------------------------------------------------------
2008..............................       27,283       37,940       29,468    2,429,380    2,524,071          +69
2007..............................       26,309       31,065       32,121    1,392,947    1,491,442           -8
2006..............................       31,032       15,478       20,156    1,561,138    1,627,804          +90
2005..............................       33,080       13,713       26,775      782,588      856,156          +35
2004..............................       33,750      ( \1\ )       20,749      581,487      635,986          +61
2003..............................       46,234      ( \1\ )       18,871      329,327      394,432     \2\ +751
2002..............................       40,359      ( \1\ )        6,009      ( \1\ )       46,368      ( \3\ )
----------------------------------------------------------------------------------------------------------------
\1\ NA.
\2\ Web inquiry statistics, first available in 2003, increased the total from the previous year by 751 percent.
\3\ Baseline.

    A 73 percent increase in online book requests for 2008 can be 
attributed not only to the successful advertising campaign for audio 
books, but also to the direct link between titles in the new books list 
and the catalog record containing the link to the online request form.
    Of the 1,432 library patrons currently registered to borrow 
materials, the breakdown by entity is as follows:
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In 2008, a drive to create library and computer accounts for 
interns, working through office managers as the responsible party, 
combined with high visibility of the new audio books program, resulted 
in higher public recognition of the Library, expansion of its client 
base, and direct contact with all committee and Senators' offices. The 
result was a 560 percent increase in intern accounts, and a 37 percent 
increase in staff accounts. Efforts to assist Senate Page School 
teachers with tours, a reserve collection, and reference assistance 
resulted in a 155 percent increase in page account registrations.

Senate Knowledge Base
    Projects to publish authoritative, standardized Senate data sources 
for multipurpose use continue to be a Library priority. Such projects 
ensure the accurate and timely dissemination of Senate information. The 
Senate knowledge base is an institutional repository for data to 
support these projects: the newly-modernized Webster site, the Senate 
Library site on Webster, and a senator biography database.

Webster Modernization
    A greatly enhanced version of Webster (webster.senate.gov), the 
Senate's intranet, was launched in September. The launch was a 
culmination of a multi-year collaborative effort of Webster's four 
stakeholders--the Secretary of the Senate, the Sergeant at Arms, the 
Senate Chaplain, and the Committee on Rules and Administration. The 
Senate Library and the Web Technology department represent the 
Secretary on the Webster Advisory Group (WAG), which oversees site 
management.
    Since its debut in 1995, Webster has been the most-visited site for 
Senate staff seeking information about internal operations, support 
services, and employee benefits. The large-scale redesign initiative, 
launched last fall by the WAG, was intended to help staff easily 
navigate the ever-expanding volume of online information and to locate 
the resources staff need to do their jobs.
    Usage statistics for the five taxonomy-based indexes total 276,129 
for 3 months, indicating that this new resource is well-used by staff.

             WEBSTER TAXONOMY USAGE STATISTICS, OCT-DEC 2008
------------------------------------------------------------------------
                          Taxonomy                              Usage
------------------------------------------------------------------------
Services...................................................       81,376
Leadership.................................................       27,896
Legislative................................................       55,655
News & Research............................................       55,574
About the Senate...........................................       55,628
                                                            ------------
      Total Taxonomy Usage.................................      276,129
------------------------------------------------------------------------

    The improved Webster-enterprise search functionality is popular 
with staff; there have been 30,114 searches since the redesign 
launched. Library staff help improve search results by analyzing 
monthly statistics and matching popular search terms with pages. During 
the new site's first 3 months, 315 ``keymatches'' were established. To 
date, 845 document records and 1,120 term records in the Senate 
knowledge base are supporting the Webster search and taxonomy projects

Floor Schedule
    Repurposing of authoritative, standardized and timely Senate floor 
schedule data expanded this year, helping to make Senate operations 
more efficient. Floor schedule information is the key component of the 
new Senate intranet and is being used to keep Capitol Visitor Center 
information kiosks up-to-date. Plans to distribute floor schedule data 
in a format that can be displayed on Senate BlackBerry devices are in 
the exploration phase. Floor schedule data are published in XML by the 
Library after each Senate meeting adjourns.

Senate Library Webster Site
    Management of the Senate Library Webster site was transitioned to a 
content management system (CMS) in December, significantly improving 
efficiencies in publishing and editing timely information for Senate 
staff. CMS-published data can also be repurposed for Senate.gov, 
further economizing staff time and labor. The Senate Library site on 
Webster is a research service and information portal for Senate staff. 
The Library's site design team began redesign of the user interface of 
the site in December and is expected to finish in 2009. The team 
continues to identify technology tools that will make delivery services 
and information to Senate staff more timely and efficient.

Senator Biography Database
    The Senate knowledge base currently contains biographical data 
records for the more than 1,900 people who have served as Senators. 
Increased uploading of data records and a refinement/redesign of the 
knowledge base for this purpose will continue in 2009.

Instruction and Professional Outreach
    In order to target the needs of Senate staff, the Library now 
offers two new classes in addition to a renamed class (Beyond Google). 
Increasing the number of sessions taught allowed the librarians to 
teach to smaller groups, increasing interaction and retention.

                         SENATE LIBRARY CLASSES
------------------------------------------------------------------------
                      Subject                        Students   Classes
------------------------------------------------------------------------
Insider's Guide to Webster........................         10          5
LIS Savvy.........................................        190         32
Research Tips and Tricks..........................        103         15
Beyond Google.....................................         20          4
Services of the Senate Library and Got Questions          459         20
 Tours............................................
                                                   ---------------------
      Totals......................................        782         76
------------------------------------------------------------------------

    The number of classes taught and the number of sessions taught 
rose; specifically, there was a 23 percent increase in 2008 in Library 
educational offerings and a slight increase (2 percent) in Senate staff 
trained in 2008.

                                     SENATE LIBRARY CLASSES BY CALENDAR YEAR
----------------------------------------------------------------------------------------------------------------
                                                                             Increase                  Increase
                                                               Attendees    From Prior    Classes     From Prior
                            Year                                 Total       Year (in      Total       Year (in
                                                                             percent)                  percent)
----------------------------------------------------------------------------------------------------------------
2008........................................................          782            2           79           23
2007........................................................          770           49           64            7
2006........................................................          518           25           60          114
2005........................................................          416      ( \1\ )           28      ( \1\ )
----------------------------------------------------------------------------------------------------------------
\1\ Baseline.

    In addition, the Library staff gave tours of the Senate Library to 
Senate groups and to outside library professionals. These tours ranged 
from an introduction to each semester's Senate Page School class to 
hosting parliamentary librarians from Germany and the Netherlands. The 
Library also participated in the Senate Services Fair and in giving 
tours for National Library Week. The Library continued its 
participation in the Federal Library Institute, which introduces 
interested library school graduate students to federal libraries, 
resources, and career opportunities.

Collection Development
            Audio Books Program
    The Library's Acquisitions Committee and the Technical Services 
Department worked collaboratively to create and maintain a new service 
to the Senate Community in the Library's adoption of an audio books 
lending program. Designed to assist users with diverse needs, including 
those who may be visually challenged, as well as to draw patrons into 
the library, the program proved popular in its first year. Of the 55 
titles acquired in 2008, most were checked out multiple times, with 
audio book titles accounting for 50 percent of the holds on the wait 
list, even though they account for less than one percent of the 
collection.
            New Digital Resources
    The Library provides a number of digital resources to the Senate. 
In an effort to reduce purchase and subscription costs, the Library 
acquired, with considerable negotiation, the U.S. Congressional 
Retrospective Hearings from Lexis-Nexis and the Gale Nineteenth Century 
Newspapers database. The Library also negotiated a reduced price 
subscription to the Oxford English Dictionary, for a total savings of 
$352,000 over the next 4 years. These resources provide staff with 
desktop access to two centuries of important legislative documents. In 
addition, the Gale e-book Countries of the World and, after many 
committee staff requests, the journal Health Affairs, are also 
available to the Senate community.
            Expansion of Special Collections
    Summer interns reviewed and collated all versions of every House 
and Senate bill and resolution from the 109th Congress. The project 
resulted in the addition of 188 new bill volumes to the collection and 
identification and mounting of missing full-text documents on GPO 
Access for use in LIS and Thomas.
    As a participant in the Government Printing Office's (GPO) Federal 
Depository Library Program (FDLP), the Library receives selected 
categories of legislative, executive, and judicial branch publications. 
The Library received 11,231 government publications in 2008, the 
majority of which were received through the FDLP. In response to the 
trend of issuing government documents in electronic format, 3,184 links 
were added to the library catalog, bringing the total to more than 
25,976. The links provide Senate staff with desktop access to the full-
text of each document.
    Library staff scanned and created archival print and digital copies 
of Senate Rules for the years 1820, 1849, 1877, 1882, and 1890. These 
were cataloged and bound for the Library's permanent collection with 
links to the digital copies.

                              ACQUISITIONS
------------------------------------------------------------------------
                          Category                              Total
------------------------------------------------------------------------
Congressional Documents....................................        8,234
Executive Branch Publications..............................        2,997
Books......................................................          901
Electronic Links...........................................        3,184
                                                            ------------
      Total Acquisitions...................................       15,316
------------------------------------------------------------------------

Cataloging
    The Library's cataloging staff draws on years of experience to 
produce and maintain a catalog of more than 200,000 bibliographic 
items. During 2008, 7,596 new titles were added to the catalog, a 14 
percent increase in cataloging over the prior year. The catalog is 
updated nightly to ensure that Senate staff will retrieve accurate and 
current information on Library holdings. The addition of book jacket 
images for the new titles enhanced visual appeal and utility.
    A project to review nomination hearings from the 103rd-105th 
Congress in order to enhance existing catalog records with the addition 
of name subject headings for all nominees was completed.
    Catalogers created 633 bibliographic records for Senate hearings 
not yet printed from information in the Congressional Record Daily 
Digest and the combined hearings schedule on Webster. These records 
remain in the catalog until the printed hearing is received and 
cataloged.
    General topical retrieval for the audio book collection was 
enhanced with the addition of genre headings, including biographical 
fiction, legal stories, historical fiction, mystery fiction, political 
fiction, and war stories. These headings were also retrospectively 
applied to catalog records for titles in the print fiction collection.
    Catalogers also completed a project to improve the information 
organization, access, and retrieval of library material regarding the 
offices under the Secretary of the Senate and the Sergeant at Arms. 
Catalogers created and implemented specific classification schemes 
based upon Library of Congress (LC) classification schedules, creating 
specific classification numbers for each of the distinct offices. The 
need for greater specificity in classification reflects the depth of 
the library's collection, which was unanticipated by LC classification.

Library Automation
    Support was provided to the Senate knowledge base project by 
working with the Secretary of the Senate Information Systems office to 
configure and install a server for the software underlying the 
knowledge base. The Library's Head of Technical Services worked with 
the system vendor and the Office of Web Technology to install and test 
the database server, update database files, edit Web files, and test 
the data transfer function to the content management system and 
Webster.
    The Library assumed management of a proxy server to manage computer 
accounts for the library patron computer workstations from the 
Secretary of the Senate Office of Information Systems. Local management 
of the accounts allows the Library to maintain the information more 
efficiently.
Preservation, Binding and Collection Maintenance
    Technical Services staff and summer interns boxed a large portion 
of the library's books collection for transfer to the Library's space 
at the Senate Support Facility (SSF), as well as reshelving material in 
climate-controlled storage. Once additional shifting is completed, this 
effort will yield 10 years of growth storage space in the Russell 
Building book stacks.
    Discovery of a mold bloom in the Library's book stacks, a flood 
from a malfunctioning HVAC pump, and two substantial leaks from 
overhead plumbing all highlighted the vulnerability of the Library's 
collections in the Russell Building. The Technical Services staff and 
the AOC provided a quick response in working together to balance 
existing environmental monitoring systems. The AOC also made 
modifications to the HVAC system to regulate temperature and relative 
humidity in the book stacks.
    Technical Services staff continued to participate in book repair 
training sessions led by the Director of the Office of Conservation and 
Preservation. Trainees repaired 153 historic volumes, an increase of 
425 percent from 2007, making significant progress in the preservation 
of the Library's bound book collection.
    An archival flat file map storage cabinet was purchased for 
installation at the SSF. As a result, for the first time, the Library 
can preserve and store properly flat maps from the United States 
Congressional Serial Set.

Budget
    In addition to the substantial savings in the purchasing of new 
databases, budget savings from cancellation of subscriptions in 2008 
totaled $4,225; and, after 11 years of budget monitoring, the amount of 
total savings is $81,076.86. This continual review of purchases 
eliminates materials that do not meet the Senate's current information 
needs. This oversight is also critical in offsetting cost increases for 
core materials and in acquiring new materials.

Special Projects
            Unum, Newsletter of the Office of the Secretary of the 
                    Senate
    Unum, the Secretary's quarterly newsletter, has been produced by 
Senate Library staff since October 1997. It serves as an historical 
record of accomplishments, events, and personnel in the Office of the 
Secretary of the Senate. The newsletter is distributed throughout the 
Senate, and to former staff and Senators. Highlights from the 2008 Unum 
issues include articles on the greening of Secretary's offices and 
emergency preparedness; new online resources such as the Chicago Manual 
of Style and the revamped Webster Web site; new publications produced 
by Secretary offices, such as the President Pro Tem book by the 
Historical Office; annotated bibliographies of books and audio books in 
the Senate Library; leadership portrait unveilings; and reaccreditation 
of the Page School.
            Exhibitions
    In November 2008, the Library created an imaginative display on 
presidential campaigns, including books, campaign buttons from past 
presidential campaigns, and a multimedia PowerPoint presentation of 
photographs, drawings, and new articles from past campaigns.
            National Library Week
    The National Library Week events were well-attended, with 205 
people attending the opening dessert reception, nearly doubling the 
prior year's participation. The talk by James L. Swanson on his book, 
Manhunt, drew 125 attendees, the largest group ever.

Cooperative Projects
    Library staff completed a pilot project to enter House and Senate 
report titles for the 110th Congress into the Library of Congress's LIS 
system. This project, begun in July 2008 at the request of LIS staff, 
contributed 361 report titles to the database. This project will be 
continued for the 111th Congress.
    Working in cooperation with the Senate Historical Office and the 
Curator's office, Library staff digitized 221 Senate seating charts to 
enhance historical information about the Senate chamber on Senate.gov, 
the Senate's public Web site.
    Library staff worked with LIS staff to test modifications to the 
data management system (DMS) for the entry of multi-part hearing 
numbers. The update was intended to standardize the treatment of part 
numbers and to provide better automated URL link matching.
    In 2008, Library staff made significant contributions to the 
celebration planned for the Russell Building Centennial in 2009. Work 
has been completed in logo design and bookmark design, and significant 
progress has been made on the Library's four display cases. 
Informational displays are planned to highlight the Caucus Room, the 
Russell building's architectural features, a historical chronology of 
events that have taken place in the building, and a look back at office 
life in the oldest Senate Office Building. There was also a special 
issue of Unum to celebrate the Russell Building's centennial.
    On a weekly basis, hearing URL data from the Library catalog is 
exported in order to provide LIS and Thomas with full-text links to 
Senate hearings for the 110th Congress. The Senate Library contributed 
428 new Senate hearing links to the LIS database during 2008.
    The Library's head of Technical Services worked with Joint 
Committee on Taxation staff on a small pilot project to supply 
bibliographic records for a set of committee documents submitted for 
scanning at the Federal Scanning Center at the Library of Congress. The 
scanning center will extract the data needed to enhance retrieval of 
the scanned documents on its public digital archive site.

Major Library Goals for 2009
    Completing the Library's contribution to Webster other than 
maintenance contributions; enlarging the data store and bringing the 
Senators' biography portion of the Senate knowledge base to a wider 
Senate audience; and upgrading the Senate Library Webster page.
    Assuming co-direction of the Senate Information Services Program in 
preparation for transition to full direction at the end of 2010.
    Developing online courses and research and reference guides for 
Senators' state office staff.
    Offering a program of in-house training courses for library staff.
    Outreach to all new senators and their staffs in 2009.

                                                   SENATE LIBRARY ACQUISITIONS FOR CALENDAR YEAR 2008
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                               Books         Government Documents          Congressional Publications
                                                      ----------------------------------------------------------------------------------------
                                                                                                                                     Reports/    Total
                                                        Ordered    Received    Paper      Fiche     Hearings    Prints     Bylaw       Docs
--------------------------------------------------------------------------------------------------------------------------------------------------------
January..............................................         25         51        150         68        298         18         62        304        951
February.............................................         10         57        217         33        375         14         89        420      1,205
March................................................         29         84        197         77        289         11        102        309      1,069
                                                      --------------------------------------------------------------------------------------------------
      1st Quarter....................................         64        192        564        178        962         43        253      1,033      3,225
                                                      ==================================================================================================
April................................................         27         56        199         62        306         13         79        322      1,037
May..................................................         16         56        158         74        267         15         68        391      1,029
June.................................................         36         99        141         58        280         12         56        370      1,016
                                                      --------------------------------------------------------------------------------------------------
      2nd Quarter....................................         79        211        498        194        853         40        203      1,083      3,082
                                                      ==================================================================================================
July.................................................         17         50        168         89        309         12         66        337      1,031
August...............................................         22         56        178         69        287         11         82        367      1,050
September............................................        101         66        116         11        286          4         85        265        833
                                                      --------------------------------------------------------------------------------------------------
      3rd Quarter....................................        140        172        462        169        882         27        233        969      2,914
                                                      ==================================================================================================
October..............................................         21         91        161         93        433          7         53        336      1,174
November.............................................         23        115        128         99        263          3         41         83        732
December.............................................          4        120        387         64        238          9         46        141      1,005
                                                      --------------------------------------------------------------------------------------------------
      4th Quarter....................................         48        326        676        256        934         19        140        560      2,911
                                                      ==================================================================================================
2008 Total...........................................        331        901      2,200        797      3,631        129        829      3,645     12,132
2007 Total...........................................        306        822      2,734      1,433      9,396        576        967      3,797     19,725
                                                      ==================================================================================================
Percent Change.......................................      +8.17      +9.61     -19.53     -44.38     -61.36     -77.60     -14.27      -4.00     -38.49
--------------------------------------------------------------------------------------------------------------------------------------------------------


                                               SENATE LIBRARY CATALOGING STATISTICS FOR CALENDAR YEAR 2008
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                  Bibliographic Records Cataloged
                                    S.               -----------------------------------------------------------------------------------------
                                 Hearing     Report           Books               Government Documents           Congressional Publications      Total
                                 Numbers     Titles  -----------------------------------------------------------------------------------------  Records
                                 Added to   Added to                                                                                  Docs./   Cataloged
                                   LIS        LIS       Paper     Audio/E-    Paper      Fiche    Electronic   Hearings    Prints     Pubs./
                                                                   Books                                                             Reports
--------------------------------------------------------------------------------------------------------------------------------------------------------
January.......................         30  .........         20  .........          7          1          14        439          1         10        492
February......................         79  .........         30          3         16  .........          24        489  .........          7        569
March.........................         30  .........         26  .........         20          6          15        405          2         11        485
                               -------------------------------------------------------------------------------------------------------------------------
      1st Quarter.............        139  .........         76          3         43          7          53      1,333          3         28      1,546
                               =========================================================================================================================
April.........................          3  .........         97          2         29  .........          17        666          4          2        817
May...........................          3  .........         26  .........         16  .........           9        611         12         16        690
June..........................         43  .........         22          1          2  .........          19        488         14          8        554
                               -------------------------------------------------------------------------------------------------------------------------
      2nd Quarter.............         49  .........        145          3         47  .........          45      1,765         30         26      2,061
                               =========================================================================================================================
July..........................          9         57         20          1          8  .........          24        677          7          8        745
August........................         15         84         34         18         13  .........          20        468          4          8        565
September.....................         22         79         31         11         16          2           7        604          4         44        719
                               -------------------------------------------------------------------------------------------------------------------------
      3rd Quarter.............         46        220         85         30         37          2          51      1,749         15         60      2,029
                               =========================================================================================================================
October.......................         12        119         48         26          4          3          24        497          2         40        644
November......................          5  .........        123          1         15          2           9        464          5  .........        619
December......................         20         22        114          1          9  .........          32        524          1         16        697
                               -------------------------------------------------------------------------------------------------------------------------
      4th Quarter.............         37        141        285         28         28          5          65      1,485          8         56      1,960
                               =========================================================================================================================
2008 Total....................        271        361        591         64        155         14         214      6,332         56        170      7,596
2007 Total....................        687  .........        451  .........         84         57         267      5,580         74        136      6,649
                               =========================================================================================================================
Percent Change................     -60.55  .........     +31.04  .........     +84.52     -75.44      -19.85     +13.48     -24.32     +25.00     +14.24
--------------------------------------------------------------------------------------------------------------------------------------------------------


                             SENATE LIBRARY DOCUMENT DELIVERY FOR CALENDAR YEAR 2008
----------------------------------------------------------------------------------------------------------------
                                                                                     Micrographics  Photocopiers
                                                   Volumes    Materials  Facsimiles   Center Pages      Pages
                                                   Loaned     Delivered                 Printed        Printed
----------------------------------------------------------------------------------------------------------------
January........................................         167         289          22           256         5,969
February.......................................         333         335          31           810         7,209
March..........................................         378         371          32           246         7,665
                                                ----------------------------------------------------------------
      1st Quarter..............................         878         995          85         1,312        20,843
                                                ================================================================
April..........................................         518         445          24           417         5,873
May............................................         309         260          27           315         8,048
June...........................................         303         291          27            49         8,362
                                                ----------------------------------------------------------------
      2nd Quarter..............................       1,130         996          78           781        22,283
                                                ================================================================
July...........................................         308         294          30           301        22,415
August.........................................         322         208  ..........            58         5,900
September......................................         466         175           9           117         9,517
                                                ----------------------------------------------------------------
      3rd Quarter..............................       1,096         677          39           476        37,832
                                                ================================================================
October........................................         463         260          18           610         9,941
November.......................................         411         232          21           130         4,667
December.......................................         359         245          17           204         4,700
                                                ----------------------------------------------------------------
      4th Quarter..............................       1,233         737          56           944        19,308
                                                ================================================================
2008 Total.....................................       4,337       3,405         258         3,513       100,266
2007 Total.....................................       2,547       3,319         416         2,926       101,533
                                                ================================================================
Percent Change.................................      +70.28       +2.59      -37.98        +20.06         -1.25
----------------------------------------------------------------------------------------------------------------

                              PAGE SCHOOL

    The United States Senate Page School provides students with an 
academically and experientially sound program, within the limits of the 
constraints imposed by their work for the Senate, during their stay in 
the nation's capital. The Page School also strives to provide a smooth 
transition from and to the students' home schools,

Summary of Accomplishments
    Accreditation by the Middle States Commission on Secondary Schools 
continues through April, 2013.
    Two page classes successfully completed their semester curriculum. 
Closing ceremonies were conducted on June 6, 2008, and January 23, 
2009, the last day of school for each semester.
    Orientation and course scheduling for the Spring 2008 and Fall 2008 
pages were successfully completed. The semester schedules were 
determined by the needs of incoming students.
    Each semester, faculty administered an English Usage pre- and post-
test to students and reviewed the results to determine what usage 
instruction or remediation was needed.
    Faculty and staff provided extended educational experiences to 
pages, including twenty-four field trips, seven guest speakers, 
opportunities to play musical instruments and vocalize, and foreign 
language study with the aid of tutors. As an extension of the page 
experience, eight field trips to educational sites were provided for 
summer pages. National tests were administered for qualification in 
scholarship programs as well.
    The community service project embraced by pages and staff in 2002 
continues. Students, staff and faculty collected items for gift 
packages, which were assembled and shipped to military personnel in 
Afghanistan and Iraq. Pages included letters of support for the troops.
    Historical Power Point Presentations from Colonization to Present 
was purchased for use in U.S. History classes.
    The evacuation and COOP plans have been reviewed and updated. Pages 
and staff continue to practice evacuating to primary and secondary 
sites.
    Staff and pages participated in escape hood training, and staff 
continues certification in CPR/AED procedures.
    In May 2008, 16 Senate pages took Advanced Placement tests in 7 
subjects. There were 27 pages in the Spring 2008 page class.

Summary of Plans
    Goals include:
  --Teachers will continue to offer individualized small group 
        instruction and tutoring on an as-needed basis.
  --Foreign language tutors will provide assistance to students.
  --The focus of field trips will be sites of historic, political, and 
        scientific importance which complement the curriculum.
  --An English Usage pre- and post-test will be administered to 
        students each semester to assist faculty in determining needs 
        of students for usage instruction.
  --Staff development options include attendance at seminars conducted 
        by Education and Training and subject matter and/or educational 
        issue conferences conducted by national organizations.
  --The community service project will continue.

                     PRINTING AND DOCUMENT SERVICES

    The Office of Printing and Document Services (OPDS) serves as 
liaison to the Government Printing Office (GPO) for the Senate's 
official printing, ensuring that all Senate printing is in compliance 
with Title 44, Chapter 7 (Congressional Printing and Binding) of the 
U.S. Code as it relates to Senate documents, hearings, committee prints 
and other official publications. The office assists the Senate by 
coordinating, scheduling, delivering and preparing Senate legislation, 
hearings, documents, committee prints and miscellaneous publications 
for printing, and provides printed copies of all legislation and public 
laws to the Senate and the public. In addition, the office assigns 
publication numbers to all hearings, committee prints, documents and 
other publications; orders all blank paper, envelopes and letterhead 
for the Senate; and prepares page counts of all Senate hearings in 
order to compensate commercial reporting companies for the preparation 
of hearings.

Printing Services
    During fiscal year 2008, OPDS prepared 3,970 requisitions 
authorizing GPO to print and bind the Senate's work, exclusive of 
legislation and the Congressional Record. Because the requisitioning 
done by OPDS is central to the Senate's printing, the office is 
uniquely suited to perform invoice and bid-reviewing responsibilities 
for Senate printing. As a result of this office's cost accounting 
duties, OPDS is able to review and ensure accurate GPO invoicing, as 
well as play an active role in helping to provide the best possible 
bidding scenario for Senate publications.
    In addition to processing requisitions, the Printing Services 
Section coordinates proof handling, job scheduling and tracking for 
stationery products, Senate hearings, Senate publications and other 
miscellaneous printed products. The Printing Services Section also 
monitors blank paper and stationery quotas for each Senate office and 
committee. OPDS coordinates a number of publications for other Senate 
offices, such as the Curator, Historian, Disbursing, Legislative Clerk, 
and Senate Library, as well as the U.S. Botanic Garden, U.S. Capitol 
Police, Architect of the Capitol, and the U.S. Capitol Visitor Center. 
These tasks include providing guidance for design, paper selection, 
print specifications, monitoring print quality and distribution. Last 
year's major printing projects included:
  --Semi-Annual Report of the Secretary of the Senate
  --Tributes to Retiring Senators
  --U.S. Senate Leadership Portrait Collection brochure
  --U.S. Senate Foreign Relations Committee brochure
  --U.S. Senate Appropriations Committee brochure
  --U.S. Senate Republican Leader's and Democratic Leader's Suite 
        brochures
  --Senate Chamber 150th Anniversary brochure
  --Russell Building Centennial and building furniture brochures
  --Senate Sergeant at Arms and Doorkeeper brochures
  --Capitol Visitor Center tour tickets and informational brochures
  --2009 Inaugural Ceremony materials
            Hearing Billing Verification
    Senate committees often use outside reporting companies to 
transcribe their hearings, both in-house and in the field. OPDS 
processes billing verifications for these transcription services, 
ensuring that costs billed to the Senate are accurate. OPDS utilizes a 
program developed in conjunction with the Sergeant at Arms Computer 
Division that provides improved billing accuracy and greater 
information gathering capacity, adhering to the guidelines established 
by the Senate Committee on Rules and Administration for commercial 
reporting companies to bill the Senate for transcription services. 
During 2008, OPDS provided commercial reporting companies and 
corresponding Senate committees a total of 855 billing verifications of 
Senate hearings and business meetings. Over 63,000 transcribed pages 
were processed at a total billing cost of $408,467.
    The software program used to process the hearing verifications 
required by the Senate Disbursing Office to pay vendors for 
transcription services was completely updated in 2008. OPDS worked with 
the Senate Committee on Rules and Administration to draft updated 
regulations governing the production and reimbursement of transcripts 
in order to provide greater flexibility to the particular needs of 
different committees. In addition, input was solicited from vendors and 
committee clerks to ensure consideration of current transcription 
practices and costs. The new software program has been fully tested by 
all current Senate transcription vendors and is now fully implemented.
    The office continued to process all file transfers and billing 
verifications among committees and report companies electronically, 
which ensures efficiency and accuracy. Department staff continues to 
train in today's expanding digital technology in order to improve 
performance and services.
            Secretary of the Senate Service Center
    The Service Center is staffed by experienced GPO detailees who 
provide Senate committees and the Secretary of the Senate's office with 
complete publishing services for hearings, committee prints, and the 
Congressional Record. These services include keyboarding, proofreading, 
scanning, and composition. This allows committees to decrease or 
eliminate additional overtime costs associated with the preparation of 
hearings, thus improving the management of Congressional Printing and 
Binding Appropriation funds. Additionally, the Service Center provides 
work for GPO detailees assigned to legislative offices during Senate 
recesses.

Document Services
    The Document Services Section coordinates requests for printed 
legislation and miscellaneous publications with other departments 
within the Secretary's office, Senate committees, and GPO. This section 
ensures that the most current version of all material is available, and 
that sufficient quantities are available to meet projected demands. The 
Congressional Record is one of the many printed documents provided by 
the office on a daily basis. Additionally, the office processed and 
distributed 7,450 distinct legislative items during the second session 
of the 110th Congress, including Senate and House bills, resolutions, 
committee and conference reports, executive documents, and public laws.
    The demand for online access to legislative information continues 
to be strong. Before Senate legislation can be posted online, it must 
be received in the Senate through OPDS. An improved database allows the 
office to report the receipt of all legislative bills and resolutions 
received in the Senate. These bills and resolutions are then made 
available on Web sites such as the Legislative Information System (LIS) 
and Thomas, which are used by Congressional staff and the public.
            Customer Service
    The primary responsibility of OPDS is to provide services to the 
Senate. During 2008, more than 15,000 requests for legislative material 
were received at the walk-in counter, through the mail, by fax, and 
electronically. Online ordering of legislative documents and the 
Legislative Hot List Link, where Members and staff can confirm arrival 
of printed copies of the most sought-after legislative documents, 
continued to be popular. The site is updated several times daily as new 
documents arrive to the Document Room from GPO. In addition, the office 
handled thousands of phone calls pertaining to the Senate's official 
printing, document requests and legislative questions. Recorded 
messages, fax, and e-mail operate around the clock and are processed as 
they are received, as are mail requests. The office stresses prompt and 
courteous customer service while providing accurate answers to Senate 
and public requests.
            On-Demand Publication
    The office supplements depleted legislation where needed by 
producing additional copies in the DocuTech Service Center. The 
DocuTech is staffed by experienced GPO detailees who provide Member 
offices and Senate committees with on-demand printing and binding of 
bills and reports. On-demand publication allows the department to cut 
the quantities of documents printed directly from GPO, thereby reducing 
waste. The DocuTech is networked with GPO, allowing print files to be 
sent back and forth electronically. This allows OPDS to print necessary 
legislation for the Senate floor and other offices in the event of a 
GPO continuity of operations (COOP) situation.
            Accomplishments and Future Goals
    Over the past year, OPDS has continued to provide new services for 
customers and improve existing ones. The office is committed to help 
``green'' the Senate. The office has made improved quality 100 percent 
recycled copier and letterhead paper available to all Senate offices, 
and orders for those products have increased tenfold over the previous 
year. The office works diligently to track document requirements by 
monitoring print quantities and reducing waste and associated costs. 
The office continues to use the electronic proofing procedures that 
were implemented in 2006; over four hundred new and revised print jobs 
were routed electronically for customer approval, improving turnaround 
time and efficiency. Additionally, blank paper orders, now transmitted 
electronically to GPO as they are processed, save time and move toward 
the office's goal of paperless ordering.
    The office's future goals include working with GPO to improve 
efficiency and help answer the evolving needs of the Senate, as well as 
developing online ordering of all stationery products for Senate 
offices. The office will continue to focus on COOP and its emergency 
preparedness. OPDS staff continue to seek new ways to use technology to 
assist Members and staff by adding services and improving access to 
information.

                             PUBLIC RECORDS

    The Office of Public Records receives, processes, and maintains 
records, reports, and other documents filed with the Secretary of the 
Senate that involve the Federal Election Campaign Act, as amended; the 
Lobbying Disclosure Act of 1995, as amended; the Senate Code of 
Official Conduct: Rule 34, Public Financial Disclosure; Rule 35, Senate 
Gift Rule filings; Rule 40, Registration of Mass Mailing; Rule 41, 
Political Fund Designees; and Rule 41(6), Supervisor's Reports on 
Individuals Performing Senate Services; and Foreign Travel Reports.
    The office provides for the inspection, review, and publication of 
these documents. From October 2007 through September 2008, the Public 
Records office staff assisted more than 2,300 individuals seeking 
information from reports filed with the office. This figure does not 
include assistance provided by telephone, nor help given to lobbyists 
attempting to comply with the provisions of the Lobbying Disclosure Act 
of 1995. A total of 125,160 photocopies were sold in the period. In 
addition, the office works closely with the Federal Election 
Commission, the Senate Select Committee on Ethics, and the Clerk of the 
U.S. House of Representatives concerning the filing requirements of the 
aforementioned Acts and Senate rules.
            Fiscal Year 2008 Accomplishments
    The office implemented major parts of S. 1, the Honest Leadership 
and Open Government Act (HLOGA), which amended the Lobbying Disclosure 
Act of 1995 and the Senate Code of Conduct. The work entailed updating 
the written guidance for the lobbying community and posting two 
versions of four new public databases.
            Plans for Fiscal Year 2009
    The Public Records office is working with the staff of the Clerk of 
the House of Representatives on updating the Lobbying Disclosure Act 
(as amended) guidance as needed, and is concentrating on compliance 
issues that have arisen as a result of HLOGA.
            Automation Activities
    During fiscal year 2008, the Senate Office of Public Records worked 
with the Sergeant at Arms to design a new lobbying database, new public 
query programs for Senate.gov, and a new page design for Senate.gov.
            Federal Election Campaign Act, as Amended
    The Act requires Senate candidates to file quarterly and pre- and 
post-election reports. Filings totaled 4,232 documents containing 
253,527 pages.
            Lobbying Disclosure Act of 1995
    The Act requires semi-annual financial and lobbying activity 
reports. As of September 30, 2008, there were 5,073 registrants 
representing 19,799 clients. The total number of individual lobbyists 
disclosed on 2008 registrations and reports was 14,247. The total 
number of lobbying registrations and reports processed was 89,738.
            Public Financial Disclosure
    The filing date for Public Financial Disclosure Reports was May 15, 
2008. The reports were made available to the public and press by 
Friday, June 13, 2008. Public Records staff provided copies to the 
Select Committee on Ethics and the appropriate state officials. A total 
of 3,885 reports and amendments were filed containing 23,321 pages. 
There were 383 requests to review or receive copies of the documents.
            Senate Rule 35 (Gift Rule)
    The Senate Office of Public Records received 301 reports during 
fiscal year 2008.
            Registration of Mass Mailing
    Senators are required to file mass mailings on a quarterly basis. 
The number of pages was 625.

                            STATIONERY ROOM

    The mission of the Keeper of Stationery is to:
  --Sell stationery items for use by Senate offices and other 
        authorized legislative organizations;
  --Select a variety of stationery items to meet the needs of the 
        Senate community on a day-to-day basis and maintain a 
        sufficient inventory of these items;
  --Purchase supplies utilizing open market procurement, competitive 
        bid and/or GSA Federal Supply Schedules;
  --Maintain product supply and order capability during Continuity of 
        Operation incidents;
  --Maintain individual official stationery expense accounts for 
        Senators, Committees and Officers of the Senate;
  --Render monthly expense statements;
  --Ensure receipt of reimbursements for all purchases by the client 
        base through direct payments or through the certification 
        process;
  --Make payments to all vendors of record for supplies and services in 
        a timely manner and certify receipt of all supplies and 
        services; and
  --Provide delivery of all purchased supplies to the requesting 
        offices.

------------------------------------------------------------------------
                                            Fiscal Year     Fiscal Year
                                               2008            2007
                                            Statistics      Statistics
------------------------------------------------------------------------
Gross Sales.............................      $4,547,290      $5,456,125
Sales Transactions......................          41,704          45,608
Purchase Orders Issued..................           6,224           7,356
Vouchers Processed......................           6,832           8,078
Office Deliveries.......................           6,985           7,305
Number of Items Delivered...............         160,538         153,813
Number of Items Sold....................         503,238         587,529
Cartons Received at SSF.................          19,637          31,678
Mass Transit Media Sold.................          70,766          91,569
    $20.00..............................          54,905          75,922
    $10.00..............................           8,781           6,955
    $5.00...............................           7,080           8,692
Public Transportation Users.............           2,006           1,763
------------------------------------------------------------------------

Fiscal Year 2008 Highlights and Projects
            Computer Modernization Upgrades
    The Stationery Room began fiscal year 2008 preparing for major 
application upgrades to its Microsoft Business Dynamics Retail 
Management System and Great Plains accounting application software. 
These upgrades involved the installation and configuration of new 
workstations and server hardware, along with upgrades to the Microsoft 
Sequel database engine. Project and implementation planning were 
paramount in making this process smooth and transparent. The upgrade 
process began in mid-July and concluded on October 23, 2008 after 
successful system acceptance and testing.
            Recycling Initiatives
    The Stationery Room continues to monitor the marketplace for office 
products that are suitable, sustainable and environmentally friendly in 
order to promote recycling programs. In conjunction with the Senate 
Superintendent, the Stationery Room launched a battery recycling 
program approximately 2 years ago. Since that time, approximately 70 
gallons of battery product have been captured and recycled through the 
Superintendent's recycling sources.
    The Stationery Room also continues to promote the Senate 
Superintendent's recycling program for safe disposition of printer, fax 
and copier cartridges. This effort was initiated to eliminate the 
disposal of these materials in landfills. Users are encouraged to drop 
these materials off at the Superintendent's drop-off site in the 
Dirksen Building.
Senate Support Facility (SSF)
    The facility continues to be a major asset for Stationery Room 
operations. During fiscal year 2008, the Senate Sergeant at Arms 
Central Operations Division transported 19,637 cartons of product from 
the U.S. Capitol Police screening facility to the SSF for processing 
and distribution to the Senate campus. This process has virtually 
eliminated most commercial vehicular traffic coming to the Senate 
campus in support of Stationery Room operations. The Senate Sergeant at 
Arms' (SAA) Central Operations Division is to be commended for the 
support and ``team effort'' they provide to the Stationery Room 
operation in meeting its responsibilities to the Senate community.
            Public Transit Subsidy Program
    As reported last fiscal year, the Washington Metropolitan Transit 
Authority (WMATA) announced that they would be discontinuing the 
Metrochek paper media at the end of 2008 and transitioning agencies to 
the SmartBenefit SmarTrip Card. In order to facilitate this process, 
the Stationery Room, in coordination with WMATA and the Senate 
Committee on Rules and Administration, held four workshops to 
demonstrate self-program management tools in order for participating 
offices of the Public Transportation Subsidy Program to continue 
offering the subsidy in an accountable electronic format.

                             WEB TECHNOLOGY

    The Department of Web Technology is responsible for the Web sites 
that fall under the purview of the Secretary of the Senate:
  --the Senate Web site (Senate.gov)--available to the world;
  --the Secretary's internal Web site (Webster.senate.gov/secretary)--
        covering functions of the office, available to the Senate 
        Staff;
  --the central portion of Senate intranet (Webster.senate.gov)--
        available to the Senate Staff; and
  --the Senate Legislative Branch Web site (Legbranch.senate.gov)--
        available to the Senate, House of Representatives, Library of 
        Congress, Architect of the Capitol, Government Accountability 
        Office, Government Printing Office, Congressional Budget 
        Office, and U.S. Capitol Police.
The Senate Web Site--Senate.gov

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The Senate Web site content is maintained by over 30 contributors 
from seven departments of the Secretary's office and three departments 
of the Sergeant at Arms (SAA). Content team leaders meet regularly to 
share ideas and coordinate the posting of new content. All content is 
controlled through the Secretary's Web Content Management System (CMS), 
which is managed by the Department of Web Technology.
Major Additions to the Site in 2008
    United States Senate Expulsion and Censure Cases (http://
www.senate.gov/artandhistory/history/common/briefing/
Expulsion_Censure.htm);
    Senators Who Changed Parties During Senate Service (Since 1890) 
(http://www.senate.gov/artandhistory/history/common/briefing/
senators_changed_parties.htm);
    History of the Senate Chamber (http://www.senate.gov/pagelayout/
history/h_multi_sections_and_teasers/Senate_Chamber.htm);
    Senators Representing Third or Minor Parties (http://
www.senate.gov/artandhistory/history/common/briefing/
senators_thirdParties.htm);
    Votes to Break Ties in the Senate (http://www.senate.gov/
pagelayout/reference/four_column_table/Tie_Votes.htm);
    16 Historical Minute Essays added (http://www.senate.gov/
pagelayout/history/b_three_sections_with_teasers/essays.htm);
    4 Oral History Interviews (http://www.senate.gov/pagelayout/
history/g_three_sections_with_teasers/oralhistory.htm);
    Breaking New Ground--African American Senators (http://
www.senate.gov/pagelayout/history/h_multi_sections_and_teasers/
Photo_Exhibit_African_American_Senators.htm);
    Senator Dole's and Senator Daschle's leadership portrait 
unveilings;
    13 new Virtual Index Pages; (http://www.senate.gov/pagelayout/
reference/b_three_sections_with_teasers/virtual.htm);
    10 Bibliographies available internally and externally; (http://
www.senate.gov/pagelayout/reference/a_three_sections_with_teasers/
biblio.htm);
    XML data of popularly requested information (Senators' contact 
information and committee assignments); and
    Public Disclosure Online Tutorials (http://www.senate.gov/
legislative/Public_Disclosure/Training.htm).
            Homepage Feature Articles Published
    What is All this Talk About Sessions;
    A U.S. Senate Tradition: Washington's Farewell Address;
    Recording the Senate's Debates: The Congressional Record;
    Historical Minutes: Stories about Senate History;
    Classic Senate Speeches: Great Orators of the Senate's Past;
    ``We the People'' Celebrating the Constitution;
    The Senate's President Pro Tempore; and
    The Senate Chamber: 1859-2009.
Secretary's Web site--Webster.senate.gov/secretary

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The department launched a new intranet Web site (http://
webster.senate.gov/secretary) covering the office of the Secretary. 
This replaced the previous site, which had existed for over a decade. 
The new site uses the CMS to maintain all content that exists on the 
site and is now in XML. The new design implements a universal banner on 
all Webster pages. For the first time, each of the Secretary's 26 
departments has a presence on the site and supplied input to meet 
specific office needs. In the next year, maintenance of the individual 
pages will be transferred to the distinct departments, as desired, 
leveraging the CMS.
Webster Central Web site--Webster.senate.gov

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In conjunction with the SAA, Chaplain, and the Senate Committee on 
Rules and Administration, the Secretary, through the Web Technology 
Department, completed a 2-year effort to publish a new Senate Intranet, 
Webster.senate.gov (Webster). As these organizations represent the 
stakeholders that manage Webster, they enacted a formal management 
strategy, the Webster Administrative Group (WAG), to develop a mission 
statement, determine operating guidelines and enlist feedback from 
Senate staff for the site.
    Collectively, the WAG established components desired by Senate 
staff and developed solutions to deliver the information in an 
efficient and timely matter. Throughout its development, the WAG 
continually involved Senate staff in the process through exhaustive 
user testing and surveys. The newly added components are:
  --Floor Schedule.--The data for this section is derived from several 
        other files already used to populate the public Web site, 
        Senate.gov, and the Capitol Visitor Center museum kiosks. The 
        data is updated both automatically from the Secretary's Content 
        Management System (CMS), through integration with the 
        Legislative Information System, and manually by Senate 
        librarians.
  --Events.--A calendar display of activities of interest to staff that 
        occur around the Capitol Hill Complex, such as Committee 
        Hearings, training classes, and special Senate activities. 
        Senate staff can now easily add and edit information to display 
        on the calendar.
  --Announcements.--Revamped this component from the old site so that 
        designated staff from the four stakeholders may easily create 
        their own announcements and manage its display.
  --Did You Know.--A rotating section that allows all stakeholders to 
        advertise services that may be of special interest.
  --Image of the Week.--Each week a piece of artwork or a photograph 
        from either the Curator's office or the Historical office is 
        highlighted. This content is managed through the CMS and reuses 
        graphics and data posted on Senate.gov.
  --Tabs.--Assisted the Senate Library in the creation, delivery, and 
        maintenance of five advanced indices organizing Senate related 
        information: Services, Leadership, Legislative, News & 
        Research, and About the Senate. The tabs are populated through 
        XML feeds from the Montague Knowledge Base which catalogs 
        relevant pages by establishing relationships to terms through a 
        taxonomy and integrated through the CMS.
  --Search.--Established, built, and maintained a virtual server to 
        implement the advanced features of the Google Search Appliance, 
        Onebox. The new search uses information supplied from the 
        Senate Library's knowledge base to assist users in quickly 
        finding their desired information through the established 
        taxonomy. The search is now implemented site-wide and is a vast 
        improvement over the previous search. The now-established 
        architecture may be expanded for additional advanced 
        functionality.
  --Common Header.--Established and implemented a consistent header to 
        be used across all Webster.senate.gov pages, regardless of 
        stakeholder, to ensure that the focus is service-based instead 
        of department-based.

Senate Legislative Branch Web site (Legbranch.senate.gov)
    A new Legbranch server was installed, replacing obsolete hardware. 
The Department of Web Technology worked in conjunction with the SAA to 
ensure all preexisting content was transported and functional on the 
new system. Web Technology also built and maintained a simple internal 
Web site for a Capitol Hill e-mail messaging working group. In the 
upcoming year, the server will be used to share more information with 
other Capitol Hill entities.

Accomplishments of the Office of Web Technology in 2008
    Led online Congressional Research Service (CRS) publication 
project, fulfilling a request of the Senate Committee on Rules and 
Administration to enable offices to easily publish CRS reports online 
and ensure that the reports posted are always the most current version. 
Completed the project through collaboration with CRS, the Committee on 
Rules and Administration, and Senate SAA. The CRS Publishing 
application (http://webster.senate.gov/crsapplication) is now available 
to all Senate offices and is being utilized.
    Created virtualized development server for the Secretary's intranet 
in conjunction with integration into the CMS. The processes for 
controlling content for the Secretary's intranet now mimic that of 
Senate.gov, facilitating the content authors with procedures in which 
they are well versed and increasing their ability to train others. 
Created, populated, and launched a new Secretary Intranet site in 
conjunction with all 26 departments and the Webster Administrative 
Group based on the new back-end architecture.
    Vastly expanded the functionality of the Google Search Applicance 
used for internal searching on Webster.senate.gov through taking 
advantage of Google's Onebox technology. Worked with the SAA to set up 
a virtual server to run a Onebox application used on the new Webster 
search, which can be easily expanded to incorporate more complex search 
requests. The search is now integrated with portions of the taxonomy 
maintained in the Senate Library's knowledge base.
    Worked with the Curator's Office and the Government Printing Office 
in the design of three custom sites: the Henry Clay portrait unveiling, 
Senate myths, and the Russell Senate Office Building Centennial.
    Audited the Senate.gov Web pages regularly, updating and correcting 
links; verifying content; and reviewing individual page designs 
throughout Senate.gov.
    Worked with the Curator's office to reorganize their content within 
the Art and History bucket. Instituted new information architecture for 
the artifact pages, making editing much more efficient. Designed new 
layout concepts for the Curator's office areas of focus. Built subject-
based collection lists, initially organizing art objects by sitters, 
which will be expanded for other subject areas, all drawn from the 
Curator's maintained object database.
    Constantly monitored data feeds from the LIS/DMS system, ensuring 
content on Senate.gov was current and all processes were functioning 
properly. This is of vital importance regarding information such as 
committee hearing schedules, vote data, and member contact information.
    Worked with new Senate Offices to establish and maintain temporary 
web pages, including a picture, biographical, and contact information, 
until they are able to establish permanent Web sites.
    Conducted user testing with Senate Staff and interns to increase 
understanding of current Web site desires and best practices. User 
testing was conducted for the Curator's Senate Myths exhibit, the newly 
launched Webster Central, and the Legislative reorganization of 
Senate.gov.
    Incorporated the use of handles established by the Library of 
Congress for legislation, ensuring functional links to pieces of 
legislation regardless of changes to other systems. Handles are now 
used on the many different statistical tables maintained by the Senate 
Library, and reflect information on currently active legislation, 
cloture motions, nominations, and vetoes. Also, summary tables were 
created for the various data sets to further ensure the accuracy and 
usability of data reported.
    Created a secure custom Web site for the Senate Chief Counsel for 
Employment (SCCE) along with a separate and secure search. Also 
reviewed current security practices and options with the SAA and 
validated the current methodology for SCCE's Web site is most apt.
    Established a new system for the Senate Placement Office to post 
employment offerings online. Collaborated with the Sergeant of Arms in 
the development of a web-based application that integrates with the CMS 
and a newly created display of job postings via XML. Having the data in 
XML will allow for the integration of all job postings from the 
Secretary's Office and the SAA into one comprehensive list which may be 
sorted.
    Worked with the Office of Public Records, Secretary's Counsel, and 
the SAA to maintain and enhance newly established reporting 
requirements relating to public disclosure on Senate.gov. Also, 
collaborated with staff from the House of Representatives and the 
Senate Recording Studio to set up streaming tutorial videos in various 
formats ensuring accessibility.
    Incorporated various LIS/DMS streams to produce XML data requested 
by the Capitol Visitor Center to populate kiosks displaying member 
information. Worked with the Legislative Clerk and staff to ensure the 
correctness of this data. Worked with LIS/DMS group to transition to 
committee hearings being reported in XML and shared with the Capitol 
Visitors Center. Additionally, floor Schedule information is now 
maintained by the Senate Library in XML in order to facilitate needs of 
the Capitol Visitor Center and Webster Central.
    Established a back-up server for the CMS at the Alternate Computer 
Facility (ACF) with the SAA, vastly improving continuity of operations 
planning (COOP). The newly built server is an exact replica of the 
production system and has been thoroughly tested to serve as a real 
time replacement should the production server become inoperable.
    Participated and helped organize Capitol Hill-wide webmaster 
meetings, where best practices were shared among various entities. 
Regularly gave presentations and facilitated conversations during 
meetings.
    Worked extensively with the Senate Library in the development and 
implementation of taxonomies utilizing the Montague Knowledge Base 
system. Currently, the knowledge base is used to populate the tabs on 
the front page of Webster, allowing staff to easily find appropriate 
services and resources, regardless of the provider. Aided in data 
capturing and reporting of senator data through the knowledge base.
Senate.gov Usage Statistics
    In 2008, over 275,000 visitors per day, on average, accessed the 
Senate Web site. Twenty-one percent of them entered through the main 
Senate homepage of the central site (http://www.senate.gov) while the 
majority came to the site through a bookmarked page (possibly directly 
from their Senator's site) or to a specific page from search results, 
consistent with previous years.

----------------------------------------------------------------------------------------------------------------
                                                                                                     2007-2008
                        Title of Web Page                          2007 Visits/    2008 Visits/       Percent
                                                                       Month           Month         Increase
----------------------------------------------------------------------------------------------------------------
Visits--Entire Site.............................................       8,196,662       8,521,779               4
Senate.gov......................................................       1,704,675       1,704,697  ..............
----------------------------------------------------------------------------------------------------------------

    Reviewing statistics on Web page usage helps the content providers 
better understand what information the public is seeking and how best 
to improve the presentation of that data. Visitors are consistently 
drawn to the following content items, listed in order of popularity.

                                           MOST VISITED PAGES IN 2008
----------------------------------------------------------------------------------------------------------------
                                                                   2007 Visits/    2008 Visits/
                            Top Pages                                  Month           Month      Percent Change
----------------------------------------------------------------------------------------------------------------
Senators Contact Information List...............................         448,301         546,847             +21
Roll Call Votes.................................................         242,122         182,691             -25
Committees......................................................          91,451          78,810             -14
Legislation & Records...........................................          63,544          64,010              +1
Votes Home......................................................          62,578          58,277              -7
Active Legislation..............................................          36,730          37,860              +3
Senate Leadership...............................................          18,104          19,981             +10
Committee Hearings Scheduled....................................          18,232          16,668              -8
----------------------------------------------------------------------------------------------------------------

    By a huge margin, the most popular page on Senate.gov is the list 
of Senators with links to their Web sites and comment forms. Visitors 
also continue to be interested in legislative matters, with Roll Call 
Vote Tallies, the Active Legislation table, Committee assignments and 
schedules being particularly popular. The visits per month did decrease 
across some of the most visited pages on the site. The decrease is most 
likely attributed to the information on the pages being consumed by 
other Web sites and then being redisplayed. Additionally, some of the 
most sought information was offered in XML for the first time in 2008, 
making the consumption and dissemination faster and easier. Thus, 
although the actual visits to Senate.gov decreased on some pages, it is 
likely that more people actually utilized the information being 
provided.
                                 ______
                                 
   Prepared Statement of Christopher J. Doby, Financial Clerk of the 
                                 Senate

    Mr. Chairman, I appreciate the opportunity to present to your 
Committee, the Budget of the United States Senate for fiscal year 2010.
    Mr. Chairman, the fiscal year 2010 budget estimates for the Senate 
have been included in the Budget of the United States Government for 
fiscal year 2010. This Budget has been developed in accordance with 
requests and proposals submitted by the various offices and functions 
of the Senate. The total budget estimates for the Senate are 
$1,015,431,000 which reflect an increase of $114,975,000 or 12.77 
percent over the amount appropriated for fiscal year 2009 and does not 
reflect any adjustments to these estimates which may be presented to 
your Committee during these hearings. The total appropriations for the 
Senate for fiscal year 2009 are $900,456,000. An individual analysis of 
the budget estimates for all functions and offices has been included in 
the Senate Budget Book, previously provided to your Committee.
    The budget estimates for fiscal year 2010 are divided into three 
major categories as follows:

------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
Senate Items............................................    $194,995,000
Senate Contingent Expense Items.........................     814,245,000
Senate Joint Items......................................       6,191,000
                                                         ---------------
      TOTAL.............................................   1,015,431,000
------------------------------------------------------------------------

    Specifically, Mr. Chairman, the fiscal year 2010 budget estimates 
reflect increases over the fiscal year 2009 enacted levels as a result 
of: (1) the anticipated 4.0 percent cost-of-living adjustment including 
locality pay for fiscal year 2010, and the annualization costs of the 
fiscal year 2009 4.78 percent cost-of-living adjustment; (2) the 
cumulative under funding of previous fiscal years in the Senators' 
Official Personnel and Office Expense Account due mainly to increases 
in population categories of various states and increases in the 
Administrative and Clerical Assistance Allowance authorized by the 
Legislative Branch Appropriations Acts 1999, 2000, 2002, 2003, 2004, 
2005, 2006, 2007, 2008 and 2009; (3) personnel adjustments, other than 
the cost-of-living; (4) increases in agency contributions applicable to 
the cost-of-living adjustments and other personnel increase requests; 
and (5) other miscellaneous and administrative expense increases.
    Mr. Chairman, I submit for the consideration of your Committee, the 
Budget of the United States Senate for fiscal year 2010.
                    Sergeant at Arms and Doorkeeper

STATEMENT OF HON. TERRY GAINER, SERGEANT AT ARMS
ACCOMPANIED BY DREW WILLISON, DEPUTY SERGEANT AT ARMS

    Senator Nelson. Terry.
    Mr. Gainer. Thank you, chairman and ranking member and 
members of the subcommittee. I appreciate the opportunity to 
testify today.
    I have a brief statement about the progress that our office 
has made in our plans to enhance our contribution to the Senate 
in the coming year. I ask that my written statement be made 
part of the record.
    Senator Nelson. It shall be.
    Mr. Gainer. On behalf of our nearly 900 employees, I would 
like to take just a few moments to describe the breadth of 
services we provide to the Senate community. My deputy, Drew 
Willison, often describes our roles as that of city managers. I 
think he is correct.
    We provide most of the nonlegislative and nonpayroll, back-
of-the-house services that are required to keep the Senate 
running smoothly every day. From BlackBerries and cell phones 
to parking and haircuts and ID badges and the pages, the 
Sergeant at Arms organization cuts a pretty broad path.
    My written testimony covers many of the specifics in great 
detail. I would like to provide some context very quickly here.
    Kim Winn, our chief information officer, runs our largest 
organization. All our phones, BlackBerries, computer servers, 
firewalls, and other activities related to the Senate network 
infrastructure are handled through Kim's shop.
    Esther Gordon runs central operations. Our Capitol 
facilities unit is charged with cleaning and maintaining the 
Senate wing of the Capitol, and I think it is spotless. She 
also oversees the printing, graphics, and direct mail shop that 
handles everything from your constituent newsletter to the 
posters you use during debates on the floor.
    Our customer service staff that your office managers rely 
on every day work within Esther's organization, as do the folks 
who handle your State office leases. Esther also oversees one 
of the finest cabinet shops in the country. Your Senate chair 
was handmade by these craftsmen, and the maintenance of all the 
desks and furniture on the floor are under their watchful eyes 
and hands. All the Senate surface parking lots are also run by 
Esther's team, as is the Senate hair care facility.
    Rick Edwards runs our Capitol operations organization. His 
shop includes the doorkeepers office, the Senate post office, 
the recording studio, the media galleries, and the Senate 
appointments desk. The doorkeepers not only assist with keeping 
order on the floor, they also assist the thousands of visitors 
to the galleries each year.
    The recording studio produces our floor feed, provides live 
coverage of nearly all the Senate committee and subcommittee 
hearings, and assists all 100 Members in sending your messages 
home.
    The appointments desks in the Capitol, Russell, and the CVC 
ensure that official visitors to the Capitol get where they 
need to be quickly and efficiently. The post office delivers 
millions of pieces of mail the Senate receives each year, 
screened and safe.
    The police operations, security, and emergency preparedness 
organization is under the command of Mike Heidingsfield. Mike's 
team is charged with working with the United States Capitol 
Police and others to ensure our evacuation plans work, that we 
are able to shelter in place, if necessary, and able to 
communicate with Members and their staff here or anywhere else, 
regardless of conditions.
    Mike Heidingsfield's team has led a huge effort in recent 
years to make sure that the 450 State offices, your offices, 
for all the Members and your staff are as safe as possible. 
That team is responsible for the COOP operations--continuity of 
operations, continuity of Government, and enduring 
constitutional Government, the relationship between the other 
two branches.
    Peggy Greenberg runs our joint office of education and 
training, along with the Secretary of the Senate. Her team 
provides hundreds of in-person and remote classes per year. She 
facilitates retreats and oversees a number of health 
promotions. And she mentioned with some pride, Senator Tester, 
this past summer when she visited you in Montana, getting up on 
your tractor in order to accomplish her work.
    Elizabeth Roach is the director of the page program. And 
while the Secretary of the Senate is responsible for the page 
school, Elizabeth and her staff handle logistics of housing, 
meals, and taking care of them. And yes, keeping them out of 
the kind of trouble only 16 year olds can dream up.
    Christy Prietsch facilitates our Employee Assistance 
Program and does a fantastic job of meeting the needs of our 
large and varied community.
    Pat Murphy directs our human resource shop and ensures that 
the vast majority of our positions are competed, that annual 
written performance appraisals for all are completed on time, 
and that position descriptions are updated frequently to 
reflect changes to work required and work performed. He is also 
charged with ensuring that our merit-based salary system is 
fully implemented.
    And finally and most important, Chris Dey, our chief 
financial officer (CFO). He and his team are responsible for 
our budget and contracting systems. I have worked with many 
CFOs during my career, and Chris is, without a doubt, the best 
I have encountered at keeping our books straight, managing 
contracts, insisting on competitive awards, and offering solid 
policy advice.
    So there you have it, a rather quick Senate Sergeant at 
Arms 101. As we like to say, if all of us are having a good day 
and everything is going just right, you barely notice we are 
here. To the extent that happens, it is a tribute to the hard-
working men and women who serve this institution every day. 
They exceed the expected.
    Mr. Chairman, as you know, many Capitol Hill offices 
experience pretty high turnover. It is natural and has always 
been the case. A lot of young staff coming and going from 
graduate school, campaigns, and the administration. We are very 
different. Our average tenure for nonpatronage employees is 
well over 10 years. Retirements of 20, 30, and 40 years are not 
unusual.
    We work very hard to create a workplace where someone can 
come to find challenging work, promotional opportunities, and 
the ability to build a career. The sheer scope of what we do 
helps us to ensure that we are always--there are always 
opportunities available.
    Our budget for fiscal year 2010, we respectfully request a 
total budget of $243 million, representing an increase of just 
over $23 million, or 10.5 percent over fiscal year 2009. This 
request will allow more than mere maintenance, but leads to 
improvement in the level of service we provide to you and your 
staff and your community.
    The general operations and maintenance expense budget for 
the existing and new services is $91.7 million, which is an 
increase of $8.2 million, or 9.9 percent over 2009. Major 
factors contributing to the expense budget increase are 
equipment and software maintenance costs for enterprise 
storage, professional services, software purchase, and 
technical support for information technology (IT) security and 
smartcard badges for the ID office.
    One of our information technology priorities in fiscal year 
2010 is upgrading the Secretary's payroll system. We are 
requesting contract support at the cost of $2 million and 
upgrading our data network to keep up with the ever-increasing 
demands for network-based services at a cost of $4.7 million.
    We are also requesting $5 million for the Senate recording 
studio, to upgrade committee rooms, an activity we have 
undertaken for years with end-of-year funds. But this year, we 
are requesting it in our budget.
    Our budget submission requested five new FTEs. We need the 
particular job sets. However, after discussions with your staff 
and meeting with you, Mr. Chairman, on Tuesday, I withdraw the 
request for five FTEs and will work with your staff to further 
trim our headcount through the elimination of some vacancies 
and reclassification of vacant positions.
    As you know, the Sergeant at Arms serves on the Capitol 
Police Board, this year as chairman. As the chief law 
enforcement officer of the Senate, I work closely with Chief 
Morse and his valiant team. They do a great job. I am proud to 
have served with them.
    But in that agency, there is nearly a singular point of 
failure--radio communications. The funds necessary to leap to 
the 21st century are included in the supplemental, and I 
request your support of that need and recognize that there will 
be substantial discussions about it.
    With the exception of our police operations, security, and 
emergency preparedness created after 9/11, generally the scope 
of our office has not changed significantly since 2001. But the 
depth of the responsibilities has expanded materially, and our 
information technology budget has continued to increase as we 
try to keep up with the ever-changing ability of bigger, 
better, and faster technology.
    Today, unlike a few years ago, all printing equipment is 
digital, networked, and computer controlled, improving resource 
use. We went from computer servers in closets to virtual 
servers. As more processes can be automated and managed 
electronically, we have added those applications to our 
inventory, improving customer service, management of processes, 
and enabling new services to be offered in a cost-effective 
manner.
    Our efforts are closely tied to our strategic plan in which 
we have captured performance measures that help us assess our 
work--performance measures that can identify in the areas of 
customer satisfaction, timeliness of service, employee 
satisfaction, employee personal development, and competitive 
contracts. Plans are underway for assessing performance for 
these measures in the calendar year 2010.
    I have an outstanding senior management team led by Drew 
Willison, who serves as my deputy. The Office of the Sergeant 
at Arms works closely with other organizations in the support 
of the Senate. The Secretary of the Senate, Nancy; the 
Architect of the Capitol; the Office of the Attending 
Physician; and the United States Capitol Police are partners. 
We coordinate our efforts with the House of Representatives and 
the agency's executive branch where possible.
    Finally, let me say this. The employees of the Office of 
the Sergeant at Arms are among the most committed and creative 
in Government. They are quiet, effective, and dedicated to you 
and your staffs. They spend their working life careers with us.
    And I would just like to point out one special individual, 
Mr. Chairman, that you mentioned, and that is Steve Mosley. 
Early this morning, we were notified that Steve, a 32-year 
employee of the Senate Sergeant at Arms office, died of an 
apparent heart attack.
    He spent 32 years with us. He was a wonderful husband and a 
father. I talked to his wife, Michelle, this morning, and she 
was still in shock, and the hurt was very raw. She appreciated 
the comments and well wishing from our office. But Steve was a 
friend to everybody and known throughout the Capitol. He will 
be deeply missed.
    We joked that he was a diehard Redskins fan. I don't think 
any of our meals that we have and different holiday seasons 
will ever be the same without him. And he is truly 
representative of the type of employees that I have the 
opportunity to lead. And I just wanted to affirm what you said. 
He was a wonderful man and will be a terrible loss to the 
Senate community.

                           PREPARED STATEMENT

    Thank you. And I will be happy to answer questions when 
appropriate.
    Senator Nelson. Thank you.
    [The statement follows:]

         Prepared Statement of the Honorable Terrance W. Gainer

                              INTRODUCTION

    Mr. Chairman and Members of the Subcommittee, thank you for 
inviting me to testify before you today. I am pleased to report on the 
progress the Office of the Sergeant at Arms (SAA) has made over the 
past year and our plans to enhance our contributions to the Senate in 
the coming year.
    For fiscal year 2010, the Sergeant at Arms respectfully requests a 
total budget of $243,505,000--an increase of $23,104,000 (or 10.5 
percent) over the fiscal year 2009 budget. This request will allow us 
to maintain and improve the level of service we provide to the Senate 
community. It will also fund the development and maintenance of 
business and network security applications, among other support 
services. Appendix A, accompanying this testimony, elaborates on the 
specific components of our fiscal year 2010 budget request.
    In developing this budget and our operating plans, we are guided by 
three priorities: (1) ensuring the United States Senate is as secure 
and prepared for an emergency as possible; (2) providing the Senate 
with outstanding service and support, including the enhanced use of 
technology; and (3) delivering exceptional customer service to the 
Senate.
    This year I am pleased to highlight some of this office's 
activities, to include the furtherance of our efforts towards our 
United States Senate Sergeant at Arms Strategic Plan, in which we have 
captured performance measures that help us assess our work. During the 
past fiscal year we clearly lived up to our motto: ``Exceptional Public 
Service . . . Exceeding the Expected.'' Most recently, performance 
Measures have been identified in the areas of Customer Satisfaction, 
Timeliness of Services, Employee Satisfaction, Employee Professional 
Development, and Competitive Contracts. Plans are underway for 
assessing performance for these measures in calendar 2010.
    Our accomplishments in the areas of security and preparedness, 
information technology, and operations are impressive. Recent months 
have brought great successes with the opening of the Capitol Visitor 
Center (CVC), affecting a safe January Presidential Inauguration, as 
well as ensuring a secure Presidential address to a Joint Congress. Our 
office has been involved with the CVC since its inception, and scores 
of hours were spent preparing for the operations and security of the 
Center.
    Our men and women working in IT Support Services, Technology 
Development, and Process Management & Innovation continued to improve 
our cyber security efforts by not only reducing the amount of spam and 
phishing e-mail messages, but by enhancing the reliability of core IT 
systems. They automated more of the Senate's business processes, made 
www.Senate.Gov more functional, helped implement the Honest Leadership 
and Open Government Act of 2007, and improved wireless access on 
Capitol Hill. The greening efforts of the CIO team stepped up this year 
with substantial power savings due to the implementation of the Virtual 
Machine Infrastructure and the elimination of the costly creation of 
CD-ROMs through ISO server software delivery.
    Continuing to progress, yet taking longer than we had expected, the 
telecommunications modernization project experienced some setbacks as 
the vendor had several personnel changes, replaced some of the 
originally-proposed system components, and had to rewrite design 
documents. We are very close to the end of the final engineering and 
design phase of the project and we currently are reviewing the proposed 
design to ensure it meets the Senate's needs. Once we accept the final 
design, we will begin a testing phase that will extend through this 
summer. Assuming that testing goes well, the production system will be 
installed later this year in preparation for pilot tests in offices to 
start early next year. The work that has been completed thus far has 
been under a fixed-price contract, so the cost to the Senate has not 
increased even though the effort has clearly taken longer than 
expected. We will work with the vendor to identify every opportunity to 
compress the remaining work to roll out the enhanced system as soon as 
possible.
    We had over 250,000 visitors to the Senate galleries; handled over 
100,000 official appointments; increased the ability to simultaneously 
broadcast Senate hearings from three to twelve hearings; and tested and 
delivered 10 million pieces of mail while reducing mail processing 
time, costs, and personnel. These efforts were accomplished through 
improved processes, teamwork, and the desire to improve.
    Our Employee Assistance Program (EAP) offered a variety of services 
to staff, Pages, interns, and family members. EAP expanded outreach 
programs through updated materials, the Web and Page training, and 
provider resource development. It expanded the Peer Support Team 
training functions, and is exploring additional work/life benefits for 
Senate employees, including child care and nanny locator, advocacy 
support for children with special needs, backup child care placement, 
and elder care support and referral services.
    Our Education and Training personnel introduced several online, 
self-paced training programs, provided hundreds of customized classes 
and consultations for Senate staff, and led the Senate's participation 
and certification in the mandatory Code of Conduct training. They lead 
retreats in state offices, delivered in-office Systems Administrator 
training, add certification courses, such as Web Development, and are 
deeply involved in new Senator orientation programs.
    We have several new initiatives during this next fiscal year. In 
emergency preparedness efforts, the Senate and House will participate 
in a joint Contingency Legislative Processes exercise that will test 
our ability to transfer various legislative documents between the 
House, Senate and the White House during an emergency. We also plan to 
conduct a Continuity of Government tabletop exercise that will include 
participants from the Sergeant at Arms, Secretary of the Senate, Clerk 
of the House, House Sergeant at Arms, and House Chief Administrative 
Officer organizations. Additionally, we plan to exercise our Briefing 
Centers, Emergency Operations Centers, and Leadership Coordination 
Centers within the Washington, DC area. These exercises will not only 
test the sites, but also the personnel responsible for setup and 
operation.
    Assisting with all of the efforts of the Office of the Sergeant at 
Arms is an outstanding senior management team including Drew Willison, 
who serves as my Deputy; Administrative Assistant Rick Edwards; 
Republican Liaison Mason Wiggins; General Counsel Joseph Haughey; 
Senior Assistant Sergeant at Arms for Police Operations, Security and 
Emergency Preparedness Michael Heidingsfield; Assistant Sergeant at 
Arms and Chief Information Officer Kimball Winn; Chief Financial 
Officer Christopher Dey and Assistant Sergeant at Arms for Operations 
Esther Gordon. The many accomplishments set forth in this testimony 
would not have been possible without this team's leadership and 
commitment.
    The Office of the Sergeant at Arms also works with other 
organizations that support the Senate. I would like to take this 
opportunity to mention how important their contributions have been in 
helping us achieve our objectives. In particular, we work regularly 
with the Secretary of the Senate, the Architect of the Capitol, the 
Office of the Attending Physician, and the United States Capitol 
Police. When appropriate, we coordinate our efforts with the United 
States House of Representatives and the agencies of the Executive 
Branch. I am impressed by the people with whom we work, and pleased 
with the quality of the relationships we have built together.
    I am very proud of all the men and women of the Sergeant at Arms 
team who help keep the Senate running. While serving as Sergeant at 
Arms, I have seen their great work and devotion to duty. The employees 
of the Office of the Sergeant at Arms are among the most committed and 
creative in government. We are continuously building on the success 
this organization has experienced in recent years.
    None of our efforts would be accomplished, though, without the 
guidance of this Committee and the Committee on Rules and 
Administration. Thank you for the support you consistently demonstrate 
as we work to serve the Senate.

                       SECURITY AND PREPAREDNESS

          (Protecting the Senate and Planning for the Unknown)

    In our security and preparedness programs, we work collaboratively 
with organizations across Capitol Hill to secure the Senate. We also 
rely upon Senate Leadership, this Committee, and the Committee on Rules 
and Administration for guidance and support.
    The SAA Office of Police Operations, Security, and Emergency 
Preparedness (POSEP) represents the integrated plans and programs for:
  --Successful execution of law enforcement support and coordination.
  --Access credentialing of the Senate community, appropriate staff 
        from other government agencies, and members of the press.
  --Security of the Senate as both an institutional body and a campus.
  --Protection of Members and staff in the District of Columbia and 
        respective state offices.
  --Counterterrorism measures taken to physically guard against attack.
  --Continuous Senate operations during minor or major disruptions.
  --Necessary testing, training, and exercising in preparation for any 
        catastrophic event.
    Formerly composed of the standalone Office of Security and 
Emergency Preparedness and the Office of Police Operations and Liaison, 
these offices have been re-titled and restructured as Contingency and 
Emergency Preparedness Operations (CEPO) and Law Enforcement and 
Security Operations (LESO) in an effort to merge all SAA homeland 
security efforts under a single operational umbrella. This 
restructuring was undertaken in the fall of 2008 and continues to 
mature, creating enhanced efficiency, unity, and collaborative lines of 
authority.

Contingency and Emergency Preparedness Operations
            Emergency Notifications and Communications
    A robust number of effective notification and communications 
programs have been designed to ensure devices and systems are ready to 
support the Senate during emergencies. The Dialogic Communicator NXT 
system now functions as the primary alert and notification system 
(Senate Alerts) to provide a single interface for delivering emergency 
e-mail, PIN, and voice messages to the Senate population. Message 
templates and customized distribution lists allow quick dissemination 
of important information and a staff training package includes step-by-
step activation procedures, visual aids, and login instructions. We 
provided support to the USCP Command Center during the Democratic and 
Republican National Conventions by configuring the Dialogic system with 
convention-specific alert and notification information.
    Monthly Senate Alerts tests for staff and biannual tests for 
Senators are conducted in coordination with the USCP, Secretary of the 
Senate, party secretaries, and other stakeholders. These tests are 
designed to ensure our emergency messaging system is reaching all 
intended recipients and are transmitted through e-mail, PIN, voice, 
annunciator, and public address systems. Other means we have developed 
for distributing emergency messaging services to the Senate community 
include the Chyron Emergency Alert System. This is a text and/or voice 
messaging service broadcast over the Senate cable television network. 
We recently upgraded the system's capacity to include new cable 
channels 37 through 60. Requirements for installing modulation 
equipment were finalized in December and modulators which will separate 
House and Senate channels and allow exclusive Senate emergency 
notification broadcasts were ordered in February; equipment delivery is 
expected to be completed in early April, and the system is forecast to 
be operable at the end of April.
            Accountability
    The ability to account for Senators and staff remains a priority in 
all emergency plans and evacuation drills. Several years ago, we 
undertook an initiative to improve procedures for offices to report 
accountability information to the USCP and the SAA quickly and 
accurately using proximity card-enabled laptops and a BlackBerry-based 
application that allows office emergency coordinators to account for 
staff remotely. In 2008, we focused on training coordinators to use 
these programs flawlessly. The backbone of this capability is the 
Accountability and Emergency Roster System (ALERTS), which allows each 
office to manage staff rosters and designate individuals receiving e-
mail and phone alerts. We train Senate staff and USCP personnel to use 
ALERTS during individual and classroom sessions.
            Training
    Three distinct themes serve as the foundation of our emergency 
planning training program and provide essential knowledge to the Senate 
community regarding office emergency coordinator responsibilities, 
emergency preparedness basics, and escape hood use. Additional training 
courses focus on the specialized features of emergency preparedness on 
Capitol Hill. We collaborate with Senate offices to deliver 
personalized training specifically designed to meet staff needs by 
covering such topics as emergency equipment use, emergency action 
planning, emergency coordinator responsibilities, and preparedness 
basics. During the past year we conducted 249 sessions with 4,359 
attendees.
            Emergency Plans, Operations, and Facilities
    We continue to implement emergency plans that emphasize life safety 
and continuity of operations to address Senate needs after a disaster. 
We assisted all new Member offices in developing emergency action 
procedures, taking into account that many of them were initially 
assigned to temporary office spaces. As a result, each of the new 
offices has functional emergency action plans, established primary and 
secondary evacuation routes, mobility impaired evacuation procedures, 
and a complete collection of emergency contact records.
    Senate SAA and House planners joined forces with the USCP's 
Emergency Management Division and the Architect of the Capitol to 
establish procedures in response to respiratory threats requiring the 
use of internal relocation sites. Select facilities throughout the 
Capitol complex have been structurally improved and modified to allow 
for short-term (2-3 hour) sheltering. We will continue to focus on 
police procedures, signage, and subsequent staff training to fully 
implement this capability.
    We participated in the Emergency Management Task Force with the 
USCP, House SAA, House Office of Emergency Preparedness Planning and 
Operations, and Architect of the Capitol to prepare the Capitol Visitor 
Center for opening. The group's primary focus was to develop emergency 
preparedness plans, procedures, and joint training for the CVC by 
preparing USCP officers and Capitol Guides, creating safety outreach 
material, training staff and visitors, and developing general facility 
emergency plans. Our role was to review egress capacities in 
stairwells, identify potential chokepoints, and create visitor 
emergency preparedness facts to be published on the CVC website and 
included in brochures and guided tours. Layouts of the new facility 
have been added to the Senate Emergency Action Plan and Member Office 
Visitor Guide. To date, eight emergency phones for two-way 
communication with the USCP Command Center have been installed and a 
mobility impairment evacuation guide has been developed in conjunction 
with House counterparts. We assisted Senate offices with moving into 
the facility's expansion space by conducting 13 individual emergency 
evacuation walkthroughs with more than 230 staff members. These offices 
were also supplied with emergency equipment and received assistance 
updating emergency action plans.
            Exercises
    Our comprehensive exercise program is structured to ensure Senate 
plans are practiced and validated regularly. Every year, the SAA and 
Secretary of the Senate conduct exercises in coordination with the 
USCP, Architect of the Capitol, party secretaries, and other key 
stakeholders. This year's exercise plan outlines a series of diverse 
events to maintain and strengthen our existing capabilities, while 
addressing emerging needs. A key area of emphasis over the last several 
years has been the integration of several joint exercises with the 
House of Representatives and other Legislative Branch entities.
    We continue to conduct ``no-notice'' exercises to test select 
functions at various locations. During fiscal year 2009, we conducted 
exercises in partnership with the USCP, Office of the Attending 
Physician, Secretary of the Senate, Architect of the Capitol, Committee 
on Rules and Administration, and the House of Representatives. The 
general exercise format included functional capabilities demonstrations 
and tabletop scenarios. These exercises are designed to test the 
Senate's ability to function during an event that requires relocating 
the federal government. After-action reports are generated to document 
lessons learned and improve future plans.
    The Senate Chamber Protective Actions Exercise is a notable event 
we led in concert with the USCP, Secretary of the Senate, party 
secretaries, and other key stakeholders. This was the largest and most 
complex chamber protective action exercise to date. The exercise used 
two protective actions (evacuation due to an air threat and shelter-in-
place) to examine life-safety procedures and validate the new Chamber 
Emergency Actions Guide. The guide coordinates staff action on the 
Senate floor and areas surrounding the chambers. As a result of the 
exercise, several areas of our plan requiring improvement are being 
addressed. Three joint exercises are being planned with the House of 
Representatives and other Legislative Branch organizations: Contingency 
Legislative Processes, Continuity of Government, and Shelter in Place.
            Office Support
    Providing responsive customer support through training, equipment, 
exercises, planning, and outreach to Senate offices and support 
organizations continues to improve overall individual readiness. 
Readiness equates to developing appropriate continuity plans and 
emergency procedures, making necessary equipment available, and 
training individuals on execution and use. Readiness involves ensuring 
the Senate community is alert and able to react to any emergency event, 
whether it be a minor service outage or a serious fire incident.
    Each office receives an array of emergency equipment that is 
distributed, inventoried, and maintained by emergency preparedness 
staff on an annual basis and includes escape hoods, Victim Rescue 
Units, Wireless Emergency Annunciators, and Emergency Supply Kits. Our 
inventory ensures equipment accountability and functionality resulting 
in the replacement of all expired batteries, food, and water in 
Emergency Supply Kits during fiscal year 2009.
    Another initiative has been to increase staff awareness and 
personal preparedness outside the workplace. We developed a Personal 
Preparedness Plan Tutorial allowing users to create, update, and store 
a personal preparedness plan. The tutorial provides step-by-step 
planning instructions and allows each user to create a customized plan.
    A variety of security and emergency preparedness brochures and 
publications have been developed and disseminated to continuously 
educate the Senate community. Recent additions and updates include:
  --Capitol Visitor Center Staff-Led Tours Z Card.--In order to reach 
        each staff member conducting tours, a foldout card was 
        developed to address safety procedures when dealing with 
        visitors. The Z Card lists prohibited items, evacuation routes, 
        shelter-in-place locations, alternatives for mobility-impaired 
        individuals, and safety measures to consider before embarking 
        on a tour. The Z Card also contains maps of all three facility 
        floors with stairwells, evacuation elevators, and exits 
        depicted.
  --U.S. Senate Emergency Annunciator System.--We recently switched 
        from a wideband frequency to a narrowband frequency due to a 
        National Telecommunications and Information Administration 
        directive requiring transmissions to be on a narrowband system 
        by 2008. While the USCP maintains a wireless annunciator system 
        used to disseminate emergency information and situational 
        updates, we are responsible for maintaining and replacing units 
        throughout Senate office buildings including the Capitol and 
        Capitol Visitor Center. We surveyed the entire complex to 
        replace these units and updated the accompanying pamphlet.
  --Equipment.--Over 18,800 SCape CBRN30 Escape Hoods are currently 
        deployed throughout the Senate. This number includes both adult 
        and baby escape hoods located in Senate offices and public 
        caches. We continue to conduct over 80 courses to train 
        hundreds of staff members to use this equipment appropriately.
      More than 1,590 Wireless Emergency Annunciators are deployed 
        throughout the Senate complex. These devices allow the USCP to 
        provide verbal instructions to staff during significant events 
        and provide periodic updates. Our office provides daily 
        troubleshooting support for these devices.
      There are 1,229 Victim Rescue Units positioned alongside escape 
        hood bags throughout Senate offices, in public caches, and 
        included in each Emergency Supply Kit.
    We have additionally developed a program to review existing 
continuity of operations plans that are more than 2 years old. This 
initiative has resulted in more than 80 percent of D.C. Member offices 
being equipped with modern plans that will allow operations to continue 
in the event of a relocation. A program has also been initiated to 
provide assistance in developing and executing tabletop exercises for 
D.C. Senate offices to test their published plans. This program allows 
offices to discuss individual roles and responsibilities that must be 
performed in order to continue legislative and constituent operations 
offsite. The Living Disaster Recovery Planning System is a new 
automated program that is being tested and piloted, which will allow 
offices to quickly develop Continuity of Operations (COOP) plans that 
capture all aspects of essential functions and personnel 
electronically.

Law Enforcement and Security Operations
            Smart Card Programs
    The implementation of Homeland Security Presidential Directive 
(HSPD) 12--Policy for a Common Identification Standard for Federal 
Employees and Contractors will significantly impact Senators and their 
staff whose offices are located in federal buildings across the 
country. While Legislative Branch adoption of HSPD-12 is optional, 
compliance will allow Members and staff unhindered access to work 
freely within these facilities. We are currently collaborating with our 
Executive Branch counterparts to implement compatible access cards 
during the 111th Congress.
    Sophisticated Smart Card credentials can provide multiple functions 
beyond current ``flash pass'' identification badges. The primary 
movement towards Smart Cards is a result of Executive Branch programs 
like HSPD-12, but potential uses within the Senate community include 
secure network logins, digital signatures for financial documents, and 
encrypted personal identification information. Although a substantial 
cost is associated with system architecture, we will continue to 
explore the advantages of Smart Card deployment.
    The First Responder Authentication Credential system launched under 
the auspices of the Department of Homeland Security outlines issuing 
cards to individuals who require access to controlled areas during 
emergencies. We envision limited Senate staff receiving these badges 
during the 111th Congress and are engaged with our Legislative Branch 
partners and other program administrators within the National Capital 
Region to determine the Senate's involvement in this program.
            State Office Security and Preparedness Programs
    The goal of this program is to provide a level of security and 
preparedness in state offices similar to Senators' Washington, DC 
offices. We provide equipment, training, and consulting for secure 
reception areas, access control, and duress and burglar alarms. With 
over 400 state offices varying from single to multiple staff offices, 
located everywhere from commercial storefronts to federal courthouses, 
this is no easy task. However, these programs remain critical and have 
been well received by state staff, even with their voluntary 
implementation status.
    We initiated the State Office Preparedness Program in January 2008 
to provide an all-hazards risk assessment to each state office, a basic 
set of emergency supplies, online and video teleconferencing training 
tools, and a template to build customized office emergency plans. 
Offices have the opportunity to verify compliance with Congressional 
Accountability Act requirements when they utilize this program, and all 
Senate offices have received basic equipment and general program 
briefings.
    Through the State Office Security Enhancement Program established 
in 2002, we have conducted over 700 onsite physical security surveys of 
state offices throughout the country. The results of these surveys are 
shared with Senate offices along with recommendations for improvement. 
State offices open, close, and relocate throughout the year, and 
sometimes offices that have already received remediation choose to 
relocate and require our services more than once. There are currently 
433 state offices, of which 294 are located in commercial space and 139 
are located in federal buildings. We have provided security remediation 
in 73 percent of commercial offices and 57 percent of those located in 
federal buildings. These state programs have received accolades from 
Senate offices and we continue striving to provide a higher level of 
customer service.
            Senate Campus Access Accommodations
    Our team collaborated with the USCP in fiscal year 2009 to 
coordinate and approve 211 requests for vehicles requiring special 
access to the Senate campus. This total does not include military and 
government arrivals, which we also coordinate. Requests for access 
continue to grow with the opening of the new Capitol Visitor Center. 
Our office works closely with House counterparts to coordinate access 
on both sides of Capitol Hill for groups with special needs who wish to 
visit their Members or attend functions hosted by them. This service 
involves working directly with Member offices and their constituents to 
help resolve accessibility issues and create memorable, meaningful, and 
safe trips to the Hill without compromising security. We recently 
approved a new webpage designed to better facilitate accessibility 
requests from Senate offices.
            Campus Security Vulnerabilities
    Our office continues to address security vulnerabilities throughout 
the Senate complex. We anticipate continued analysis of various campus 
security and vulnerability studies conducted by the USCP, U.S. Secret 
Service, and the Defense Threat Reduction Agency to develop and enhance 
security measures. Our office employs area-specific security experts 
dedicated to identifying vulnerabilities and implementing solutions. 
The Senate's physical presence extends well beyond Capitol Hill, making 
it critical to engage in continued research, deliberate planning, and 
exploration of emerging security technologies. We expect our security 
role to continue to grow in fiscal year 2010.
            Mail Handling
    Last year, the Senate processed, tested, and delivered nearly 
15,000,000 safe items to Senate offices, including over 9,400,000 
pieces of U.S. Postal Service mail; over 5,200,000 pieces of internal 
mail that were routed within the Senate or to or from other government 
agencies; almost 111,000 packages; and over 130,000 courier items. The 
total volume of mail for the past 2 years has been significant and 
represents an 8.2 percent increase in the mail that we delivered as 
compared to the previous 2 years.
    We continue to seek improvements in mail processing and have worked 
with this Committee to identify avenues to reduce our costs. Last year, 
we began processing packages that previously had been processed by a 
contractor. This move reduced our expenses by over $200,000 annually, 
and improved our security as zero suspicious packages were delivered to 
Senate offices.
    This year, we further reduced our costs by leveraging technology 
and improving our processes. We were able to reduce the Senate Post 
Office FTEs by four, without compromising safety or customer service.
    Recently, we employed a technology solution to replace the manual 
``clip and jog'' process that has been employed for the past 7 years. 
We worked with our science advisors to create a solution that is less 
damaging to letter mail, without compromising safety to Senate offices.
    We also worked with this Committee and the Committee on Rules and 
Administration to build and operate one of the best facilities within 
the government to process time-sensitive documents that are delivered 
to the Senate. In August 2006, we opened the Courier Acceptance Site to 
ensure all same day documents are x-rayed, opened, tested, and safe for 
delivery to Senate offices. The number of time-sensitive documents 
addressed to Senate offices is significant. Last year, we processed 
almost 131,000 courier items to ensure safe and timely delivery to 
Senate offices.
    Last year, our Senate Post Office and our Office of Security and 
Emergency Preparedness worked collaboratively with our science advisors 
to develop and introduce the first device designed to provide Senate 
staff who work in state offices a level of protection when handling 
mail. To date, 52 Senate state offices across the country have the 
Postal Sentry mail processing device in place. We have offered this 
device to all Senate state offices and we remain ready to assist and 
install the Postal Sentry in any office that requests one.

                         INFORMATION TECHNOLOGY

             (Enhancing Service, Security and Stewardship)

    We continue to embrace and enhance the role of technology to 
improve upon physical and information security and life safety, to 
prepare for emergencies and to support the entire Senate's information 
technology needs. As in our other areas, we also emphasize 
stewardship--the careful use of all our resources, including the 
funding we are provided, our personnel, and the external resources that 
we consume--in all aspects of our information technology operation.
    As we do each year, we have updated and are performing under our 2-
year Information Technology Strategic Plan. The current revision, under 
which we will be operating in fiscal year 2010, continues to emphasize 
our five strategic information technology goals and their supporting 
objectives that drive our information technology programmatic and 
budgetary decisions:
  --Secure: A secure Senate information infrastructure.
  --Customer Service Focused: A customer service culture, top-to-
        bottom.
  --Effective: Information technology solutions driven by business 
        requirements.
  --Accessible, Flexible & Reliable: Access to mission-critical 
        information anywhere, anytime, under any circumstances.
  --Modern: A state-of-the-art information infrastructure built on 
        modern, proven technologies.
    Our strategic goal of a customer service culture top-to-bottom 
starts with our own staff. Our Chief Information Officer (CIO) 
organization, in particular, is dedicated to ensuring that we foster 
mutual respect and teamwork where every customer and employee is a 
valued member of the Senate team. Major accomplishments in the 
information technology area during the past year include:
  --Making it easier for our customers to obtain cellular telephones 
        and BlackBerry devices by continuing to upgrade and improve our 
        online ordering system to meet the changing needs of our 
        customers. With the introduction of touch screen devices, we 
        implemented a loaner program to enable customers to ``try 
        before you buy'' ensuring that they are comfortable and able to 
        adapt to the usage differences required by the new devices. 
        Offices are then allowed to switch back to a more traditional 
        device with no financial penalty should the touch screen device 
        not meet their needs.
  --Improving the ability of Senators, staff, and visitors to 
        communicate by increasing the capacity of our infrastructure 
        that supports cellular telephone, BlackBerry devices, and 
        wireless data networks into the Capitol and the Senate 
        expansion space in the Capitol Visitor Center. As part of our 
        Inauguration efforts, we temporarily increased system capacity 
        on the West Front of the Capitol to improve the probability 
        that guests could successfully use their wireless devices.
  --Improving the experience of office staff as they accommodate the 
        required physical inventory of Senate assets by expanding the 
        use of barcode scanning technologies and developing electronic 
        reports that are immediately available to the office as the 
        inventories are completed. In keeping with our effort to 
        implement solutions based on supporting the Senate, work is 
        also underway to include features in TranSAAct that will allow 
        offices to maintain the user names and locations associated 
        with their equipment.
  --Continuing to progress toward the implementation of our new 
        telephone system while ensuring that the existing phone system 
        meets the existing needs of our customer base. As the final 
        design moves toward approval, plans are in place to operate 
        both systems concurrently to ensure no loss of service.
  --Making it easier for office administrative personnel to manage 
        their offices by deploying additional functionality within 
        TranSAAct, our Web-based system for managing office functions. 
        Some of the added features include access to Verizon Wireless 
        bills and accounts, which eliminates the need for paper 
        statements and allows office administrative staff to makes 
        account changes that formerly required SAA staff to handle; 
        access to indoor and outdoor parking allocations and permits; 
        and the ability to grant floor privileges and authorization to 
        make charges from the Recording and Photographic studios.
  --Improving the functionality and reliability of Senate Conference 
        Services and Senate Fax Services.
  --Ensuring that we maintain a responsive infrastructure for secure 
        communications by successfully completing the audit of secure 
        communications equipment that was mandated by the National 
        Security Agency.
                    enhancing service to the senate

          (Customer Service, Satisfaction, and Communications)

    Our strategic plan stresses customer service as a top priority, and 
we actively solicit feedback from all levels and for all types of 
services. For instance, we solicit customer feedback for every Help 
Desk ticket opened. In major contracts that affect our customers, we 
include strict service levels that are tied to the contractors' 
compensation--if they do well, they get paid more; if they do poorly, 
they get paid less. For instance, during the past year, the percentage 
of on-time arrivals for the IT installation team never dropped below 
99.1 percent. The percentage of Help Desk calls that were resolved 
during the initial call averaged 47 percent, and 96 percent of customer 
surveys rated the IT Help Desk and installation services as either very 
satisfactory or excellent.
    We continue to stress effective communications with our customers 
through a well-developed outreach program that includes information 
technology newsletters, periodic project status reviews, encouraging 
customer participation in information technology working groups, weekly 
technology and business process review meetings with customers, and 
joint monthly project and policy meetings with the Committee on Rules 
and Administration, the Senate Systems Administrators Association, and 
the Administrative Managers' Steering Group.

Keeping Senators and Staff Informed
    The Senate Information Services program continues to deliver 
premium, vital online information services to Senators and staff. These 
services range from the Senate's own near-real-time news tool, 
NewsWatch, to mission-critical external research services providing 
far-reaching current and archived news and general information, 
historical newspapers dating back as far as the 18th century, federal 
and state statutes and case law, regulatory and judicial updates, 
Congressional news and current policy issues analysis, information 
technology policy developments, and daily updated directories of 
personnel in government, business, media, and professional 
associations. Senators and staff accessed more than 3.5 million real-
time news stories and almost 2 million pages of Congressional news and 
current policy analyses throughout 2008. During the same period, staff 
conducted more than 15,000 hours of legal research, read more than 
39,000 historical newspaper and journal articles, researched contact 
and biographical information for 53,000 professionals in wide-ranging 
disciplines, and reviewed newspaper content contained in almost 22,000 
images from more than 400 local daily newspapers from the United States 
and around the world.

Robust, Reliable and Modern Communications
    The Senate data network supports the vast majority of our 
information technology. As with other information technology services, 
the data network is a constantly evolving entity that must be scalable 
and robust enough to more than meet the increasing needs for 
information technology services and solutions. Most critically, it must 
remain available to ensure these services are reachable.
    We have undertaken extensive efforts this past year to ensure that 
the core of the data network environment is in position to meet the 
rapidly increasing needs for more centralized data services. Our 
efforts included enhancing the overall availability of critical 
services such as e-mail and access to the Internet and World Wide Web 
by increasing network capacity within the core and data center 
environments, using a robust optical network between our primary and 
alternate computing facilities. We also improved our ability to react 
quickly to restore services following failures by decreasing the number 
of exposure points outside the Senate's internal data network. 
Consolidating the number of ``border'' points to a geographically 
dispersed set of firewalls has allowed us to eliminate several 
processes that previously required manual interaction that delayed 
service restoral. We increased the level of availability of critical 
services by dispersing them between two distinct sites. In addition to 
enhancing our overall security posture, we have also more than doubled 
our capacity for Internet services this past year by being able to use 
what was once idle bandwidth at the Alternate Computing Facility. This 
increase then provided the opportunity for adding services such as 
high-quality video streaming of Senate committee hearings without 
degrading the level of service our customers have come to expect.
    To ensure we maintain a secure information infrastructure, the data 
network and information security teams increased their level of 
collaboration to ensure a more proactive and rapid approach to 
identifying and resolving network-based vulnerabilities, as well as to 
remain vigilant on the issues of protecting both the perimeter and 
internal components of the data network. The collaboration has resulted 
in more rapid notification and reaction to evolving threats, as well as 
a more comprehensive assessment of security vulnerabilities affecting 
major networking components. We also remain vigilant in our approach to 
maintaining network-based access controls and, during the next year, 
will be assessing technologies to further enhance our security posture 
for managing remote access clients.
    The Senate led a collaborative effort with the other Legislative 
Branch agencies during the latter part of 2008 to enhance the 
capabilities and resiliency of the common backbone between the 
agencies--Capnet. This included the creation of a new common network at 
the Alternate Computing Facility using optical connections from each 
agency to the facility and dynamic failover mechanisms to ensure 
availability and provide a more secure environment for inter-agency 
communications. All Legislative Branch agencies participated in a 
successful full-scale failover exercise in October 2008. This coming 
year, efforts will continue among the agencies to facilitate an 
increase in communication services over Capnet and to take advantage of 
its high-speed conduit to enhance continuity of operations capabilities 
such as alternate office space.
    The network team completed the installation of wired and wireless 
data network services to the Capitol Visitor Center this past year, in 
preparation for the recent opening of this facility. An added benefit 
of the work in the Capitol Visitor Center was to add resiliency to the 
networks supported within the Capitol by dispersing the two main 
distribution points supporting these networks and using diverse fiber-
optic paths to increase redundancy.
    This coming year, the focus will be on further preparing the campus 
network for the anticipated support of the Senate's new IP-based phone 
system as part of the Telecommunications Modernization Program. 
Already-planned enhancements to the resiliency of the access layer 
switches and will give them the ability to power the IP-based telephone 
sets much like traditional telephone sets are powered by the telephone 
switch today. We will also refresh other network hardware, which will 
be the first major refresh of this equipment since we acquired it in 
fiscal year 2004.
    At the end of calendar year 2008, we introduced a virtual server 
environment to support the new class of Senators initially, with the 
anticipation of expanding participation to all interested offices. The 
centralized server environment provides great benefits, and it will 
increase the bandwidth requirements on the data center network. To 
accommodate those increases, we have begun upgrades to increase 
capacity there and will continue this year with the overall backbone 
network. Combined with the planned upgrade efforts to the access layer, 
we will be in position to enhance the capacity to these locations as 
necessary. This is not solely due to the virtualization effort, but is 
needed to ensure support for a growing number of network-based services 
that extend outside the individual offices' networks.
    The wide-area network supporting state offices, commonly referred 
to as the WAN, has also been a focus this past year in terms of 
upgrading network hardware to meet expanding business requirements and 
position the Senate for future capabilities. We upgraded the hardware 
in almost 75 offices this past year and, overall, have completed router 
and switch upgrades in more than 200 sites. In addition to the 
immediate benefit of providing higher-speed access to staff in the 
state offices, the new hardware positions us for future technologies 
such as a secure wireless solution for state offices. This past year we 
also installed higher speed service at the Alternate Computing Facility 
to support the aggregation of WAN circuits, which provided a threefold 
increase in available bandwidth. This positioned us to pursue 
relocating replication servers from state offices to the alternate 
computing facility, including 18 sites this past year and 40 offices 
overall, thus preserving bandwidth to these sites for more critical 
services.
    We have continued to emphasize visibility and proactive management 
of network services as key to the success of ensuring the availability 
of network resources. We have increased our focus on change and 
configuration control processes this past year. That focus will 
continue to increase as more services become dependent on the data 
network, including the advancement of IP-based telephony. The Network 
Operations Center, which manages the network change process, received 
more than 1,000 network-related change requests in 2008 and serviced 
more than 950 requests for LAN connections, the majority of which are 
associated with changes in the data center environment. These requests 
range from minor modifications to major build-outs of new services and 
does not include the various moves, adds, and changes within the office 
environments that occur on a daily basis. The continuing evolution of 
our data network further instills the need to continue properly 
documenting and reviewing changes to the networking environment, 
especially when supporting less-tolerant applications such as voice and 
video.
    The entire Senate enjoys the benefits of a modern, robust, 
reliable, and scalable messaging infrastructure that includes built-in 
options for continuity of operations, design choices, and a platform 
for leveraging modern technologies to improve collaboration, mobility, 
and communications. During this past year, we upgraded the messaging 
system to the latest software version that provides additional features 
and benefits for electronic mail users and reduces by half the number 
of messaging servers required. We also provided single sign-on 
capabilities and changes that allow us to deploy many solutions 
centrally where they are available to all offices, thus reducing 
development, deployment, and support costs. This year we leveraged this 
ability to deploy Microsoft's Office Communications Server to allow 
instant messaging and collaboration within the Senate and messaging to 
external clients without the risks associated with other instant 
messaging clients. More than 2,500 users in at least 30 offices 
currently use the service.
    We continue to make progress toward modernizing the Senate's entire 
telecommunications infrastructure to provide improved reliability and 
redundancy in support of daily operations and continuity of operations 
and government, as well as to take advantage of technological advances 
to provide a more flexible and robust communications infrastructure. 
While conducting the final engineering and design phase of the 
Telecommunications Modernization Project, we determined that some of 
the proposed components should be replaced to better serve the Senate 
and meet our functional requirements. Concurrently with this effort, we 
asked a third party to conduct an independent verification and 
validation of the proposed solution. After replacement products were 
identified, the independent vendor endorsed the overall architecture 
with some caveats and suggested additional considerations and best 
practices before deploying the solution. These best practices include 
process and operational changes, security recommendations, and the 
suggestion to migrate our systems deliberately to ensure adequate time 
for lessons learned and feedback regarding the impact of this 
transformative technology. We are working to incorporate those 
suggestions into the project. In late January, we received a design for 
the system and have continued to work with our vendor to further 
clarify and refine several design elements. We expect to be performing 
proof-of-concept testing into late spring or early summer. The outcome 
of that testing will result in a decision on implementing the solution.
    To help ensure systems are kept updated, we deployed a server to 
better make available software updates that come on disk. This solution 
eliminates the need for mass duplication of system update disks by 
providing the necessary files for offices to create disks on their own 
or download the files directly without creating a disk. This solution 
makes updates available faster and at a time of the offices' choosing.
    In the past year we have significantly enhanced our 
videoconferencing infrastructure by upgrading the systems which handle 
video traffic routing. This upgrade has increased redundancy and will 
enable us to further enhance the stability of the network through load 
balancing traffic between infrastructure at the primary and alternate 
computing facilities. This move also prepares our infrastructure to 
support future converged technologies, which will use a new standard 
for communications. Additionally, we have enhanced the scalability of 
our infrastructure to handle up to 5,000 individual video call 
registrations, a tenfold improvement.

Web-based and Customer-Focused Business Applications
    Working with the other major stakeholders (the Secretary of the 
Senate, the Committee on Rules and Administration, and the Senate 
Chaplain), we launched a restructured version of Webster, the Senate's 
intranet. The new Webster provides a more functional front page, a new 
banner, and an improved look and feel. Included in the site is a new 
method of categorizing information to improve search results and 
content layout, making information easier to find and significantly 
improving the user experience.
    This year, we completed the third phase and began the next phase of 
TranSAAct, which is our platform for moving business online. Based on 
the business requirements of offices and the Committee on Rules and 
Administration, we continue to develop TranSAAct to eliminate paper-
based manual processes and move them to the Web. Through TranSAAct, 
administrative managers and chief clerks can manage and track invoices 
for SAA services through a modern Web interface, and have single sign-
on access to 14 Web-based applications, including the ALERTS emergency 
notification database, package tracking, and the Capitol Facilities 
ordering system. The latest additions to TranSAAct provide the ability 
to request services online and use electronic signatures for approvals, 
eliminating paper requests and significantly streamlining the 
previously manual processes. In addition to the processes for granting 
floor privileges and authorizations to request services from the 
Recording Studio, we added the processes for granting authorizations to 
request services from the Photo Studio, real-time consolidated view of 
outdoor and garage parking space allocations and permit issuance, 
access to Verizon Wireless billing, and a comprehensive set of over 20 
links to the services that administrative managers use the most. 
Because it is built on an extensible modern database framework, 
TranSAAct allows indefinite expansion as new requirements are 
fulfilled. We look forward, over the coming months and years, to moving 
additional business process to the Web, reducing the time, paper, and 
errors associated with the current manual processes.
    We developed and deployed several Web-based tools in support of the 
56th Presidential Inauguration, including applications to manage the 
credential approval process and help the Joint Congressional Committee 
on Inaugural Ceremonies manage seating during the ceremony and the 
luncheon afterward. Our efforts streamlined the credentialing and press 
ticketing process by allowing the Joint Congressional Committee on 
Inaugural Ceremonies, the Capitol Police and the Media Galleries to 
approve requests for credentials for all applicants. The credentialing 
application managed the entire approval process, including name and 
personal information submission, data export for background 
investigations, notifying appropriate parties of approval status, 
allowing selection of broadcast position or access area, photo 
acquisition and data export to the Government Printing Office for badge 
printing. Overall, 10,137 credentials were processed and distributed 
utilizing our application in advance of the Inaugural ceremony.
    The seating management application provided Joint Committee staff 
the ability to enter and manage data on guests of the 56th Presidential 
Inauguration via a secure internal website, and to generate custom 
reports and event timelines from that data. The Joint Committee staff 
extensively used the application and this effort contributed to the 
success of the Inaugural ceremonies with 1,578 seats assigned. More 
than 1,250 guests were processed, including 148 packages or groups of 
guests, and 186 rooms were scheduled for the event.
    We also developed and deployed a new and improved version of the 
Rules Committee room reservation system. The application allows offices 
to view the 25 rooms under the jurisdiction of the Rules Committee and 
request a reservation. The application has an approval process and room 
availability schedule that allows the Rules Committee staff to view and 
approve requests.
    Finally, we deployed the infrastructure to support streaming the 
video of committee hearings and other events in higher quality using 
Flash Media, and developed Web-based tools that allow the Senate 
Recording Studio to post archived committee hearings and send 
committees the links to their archived hearings.
Showcasing and Promoting Modern Information Technology in the Senate
    This past year, we continued to highlight new technologies in the 
Information Technology Demonstration Center through a series of well-
attended demo days. After products are tested and validated in our 
technology assessment laboratory, they are then available for offices 
to try in the Demo Center. The demo days feature live demonstrations of 
new and emerging technologies. Just to name a few of the new products 
and technologies that we recently brought to the Senate, in the past 
year we introduced the Office Application Manager, a secure Web-based, 
user-friendly application that provides Senate offices the ability to 
create and manage online forms such as service academy nominations, 
flags, internships, and fellowships; a service that provides 
information to system administrators about the computers in their 
offices and the status of applicable security updates; an e-mail 
archiving solution that provides an alternative to larger mailboxes 
through a software application that archives and indexes aged e-mail 
messages and attachments; and Research in Motion's latest 3G network-
hosted BlackBerry devices, the Bold and Storm.
    In order to perform technology assessments, feasibility analysis, 
and proof of concept studies to ensure we are considering technologies 
that will directly support the Senate's mission, we continue to improve 
the capabilities in our technology assessment laboratory. Technologies 
and solutions are vetted and tested here prior to being announced for 
pilot, prototype, or mass deployment to the Senate. To ensure we focus 
on the most relevant technologies and solutions, the CIO-sponsored 
Technology Advisory Group, consisting of CIO staff and our customers, 
performs high-level requirements analysis and prioritizes new 
technologies and solutions for consideration for deployment in the 
Senate. Some of the new technologies evaluated and/or recommended for 
support through our lab testing during the current fiscal year include:
  --Enterprise class server virtualization to reduce the number of 
        physical servers we require;
  --Tier 2 enterprise class storage, which greatly reduces the cost of 
        highly available, highly reliable centralized data storage;
  --Enterprise instant messaging, a critical business communication 
        tool that provides all the customary instant messaging 
        capabilities, without sacrificing enterprise class reliability 
        and security;
  --More than 34 new Hewlett-Packard, Fujitsu, and Apple portable or 
        desktop computer offerings;
  --16 new Hewlett-Packard workgroup printers;
  --10 new document imaging scanners;
  --Nearly 600 Microsoft critical software security patches; and
  --24 office productivity suite applications.
    We will continue or intensify these efforts in fiscal year 2010 to 
ensure that the Senate is always well equipped to perform its 
functions. To keep our customers informed of our efforts, we publish 
the results of our studies on the emerging technology page of the CIO's 
area on Webster.
    We continue to seek ways to improve our offerings to the Senate 
community for their correspondence systems. Working together with our 
users, we developed new, updated requirements for the Constituent 
Services Systems to help keep them responsive to changing office needs. 
By using new technologies to freshen the application mix, we are 
ensuring that these applications reflect the evolving Senate enterprise 
needs.

Enhancing Security with Accessible, Flexible and Reliable Systems
    We continue to seek ways to improve the security of our technology 
infrastructure in order to protect data, respect privacy, enable 
continuous Senate operations, and support our emergency and continuity 
plans.
    This past year our CIO organization fully implemented a BlackBerry 
scanning program designed to detect security intrusions on wireless 
devices used during international travel. Increasing our education 
efforts allowed us to find some potential security compromises on 
BlackBerrys that were taken to foreign countries. A strong partnership 
with the National Security Agency helped to mitigate the risk to the 
Senate once the discrepancies were found. For staff looking for 
additional protective measures, we introduced tamper-evident storage 
bags into which they could place laptops or smaller wireless devices 
when leaving those devices in a non-secured location such as a hotel 
room. These relatively simple procedures have helped mitigate potential 
damage that might have occurred otherwise.
    We successfully completed the first audit in 5 years of our secure 
communications equipment by the National Security Agency with high 
marks from the audit team. The audit team found no discrepancies and 
complimented us on our knowledge and control of secure communications 
equipment in the Senate. We also continued our efforts to stay ahead of 
end-of-life deadlines on certain secure equipment that will arrive 
within the next year. We have begun upgrading firmware and replacing 
secure key cards to ensure that, should an emergency arise, our 
community will suffer no denial of service and will be able to 
communicate securely with outside entities.

Alternate Sites and Information Replication
    We are continuing to test our technology in scenarios in which our 
primary infrastructure and primary work locations have become 
inaccessible. This includes the simulated loss of our primary data and 
network facilities, as well as simulated loss of staff work spaces. All 
mission-essential Senate enterprise information systems continue to be 
replicated at our Alternate Computing Facility (ACF), using our 
upgraded optical network and storage area network technology. In 
December, working with staff from the Office of the Secretary of the 
Senate, we conducted a third failover exercise involving the Senate's 
financial systems. Our CIO organization, including staff from all 
departments and vendors, continued to conduct pandemic exercises. These 
exercises demonstrate the CIO's ability to support mission-essential 
systems with a minimum number of on-site personnel, and the ability to 
support substantial numbers of people working from home. As a means to 
further our commitment to ensuring customer service regardless of the 
situation, the Network Operations Center (NOC) remains vigilant in the 
organization's support of network resources by continuing to answer 
service calls once a week from the ACF and by conducting periodic 
``pandemic'' testing where support staff operate through remote access. 
The NOC also rotates remote access and WAN services between the 
alternate and primary sites on a monthly basis as a means to 
continually test and ensure network availability and continue our 
mission to provide access to mission-critical information at all times. 
These exercises continue to be extremely successful and give us 
valuable insight into how we would provide our support in an emergency.
    This past year, our CIO organization also continued helping offices 
protect their data by enabling them to replicate data to state offices 
or the ACF through the remote data replication program. To date, 57 
Senate offices and 23 committees are taking advantage of this program, 
with 81 percent installed at the ACF and 19 percent installed in 
Senators' state offices. Remote data replication provides the Senate an 
unprecedented ability to access institutional data in the event of an 
emergency. Another system that is integral to emergency planning, 
particularly in the event of a mass telecommuting scenario such as a 
pandemic, is our video teleconferencing system. We continue to maintain 
a state-of-the-art level of services and offerings in our video 
teleconferencing infrastructure. We have improved infrastructure 
redundancy and functionality by incorporating seamless failover 
capabilities and support for high-definition video. Through this 
highly-successful project we have installed nearly 650 units in offices 
across the nation with usage rates in excess of 35,000 minutes per day 
when the Senate is in session.
    Two (enterprise and hybrid) of the three architectural options we 
offer for electronic messaging provide complete replication of the 
office's electronic mail at our Alternate Computing Facility. Eighty-
six percent of offices are now taking advantage of the continuity of 
operations capability inherent in the enterprise and hybrid options. 
Also, the recently deployed e-mail archiving system provides complete 
replication of electronic mail that has been archived to ``near-line'' 
storage media for long term storage.
    Our previous virtual file server offering is reaching its end-of-
life and is being replaced with newer virtual technology, which is 
addressed later in this testimony.

Securing our Information Infrastructure
    As a result of the information security activities we described in 
last year's testimony, we now have much better insight into the dynamic 
nature of global cyber threats. This knowledge, combined with the 
flexible technologies we use in our information security operations 
centers, allows us to monitor and quickly respond to changes in IT 
operational risk present in the Senate environment. Our active 
prevention and detection capabilities continue to evolve. We are 
deploying technologies and processes that will help detect and prevent 
most malware infections and attempts to exploit vulnerabilities as they 
are attempted. Our capability to detect and prevent attacks in real 
time is crucial in light of the ``zero-day'' (previously undetected) 
attacks that frequently target our computing environment. These 
processes and technologies shield Senate information technology assets, 
reducing operational impact on offices and accompanying downtime and 
lowering remediation costs. We continuously adjust our controls in 
response to new threats and make security recommendations to offices 
and committees, thereby increasing the resiliency of the Senate's IT 
infrastructure to ensure continuity of government, even under duress.
    Similar to security in the physical world, protecting information 
and technology resources requires constant vigilance and the capability 
to detect and deter attacks. We operate in an ongoing attack 
environment, as the threats to our information infrastructure are 
increasing in both frequency and sophistication. We continue to see not 
only ``general'' threats that affect all Internet-connected 
organizations, but also sophisticated, targeted attacks originating 
from numerous foreign and domestic sources. These attacks continuously 
target vulnerabilities in our systems using many different infection 
vectors and malicious programs, including viruses, worms, Trojan 
horses, spyware, spybots, adware, adbots, trackware, keyloggers, and 
rootkits. Countering this evolving threat environment requires 
situational awareness and robust processes, as well as continual 
research, testing and deployment of emerging security technologies. 
Recently, infections have been highly virulent in nature and difficult 
to detect because they exploit newly-identified or previously-unknown 
vulnerabilities. We have determined that these attacks are probably 
launched by determined and sophisticated adversaries, so we have very 
little advance notice of new types of attacks. Responding to these 
attacks requires significant investment in flexible security control 
structures and processes that can be rapidly revised and adjusted to 
respond to these sophisticated new threats. As part of this effort, we 
are cultivating external relationships to improve our overall awareness 
of Internet-based threats. As the global threat environment shifts and 
intensifies, we continually modify our processes and technologies to 
better protect the Senate's information and IT infrastructure. Over the 
next year, we will meet the challenge of managing a dynamic security 
environment by: (1) expanding our current security controls to enhance 
our incident handling capabilities; (2) expanding the technical 
capabilities of our information security operation centers; (3) 
collaborating with other federal agencies to enhance our situational 
awareness and incident response capabilities; (4) evaluating, testing, 
and deploying new security technologies and processes; and (5) 
enhancing communication with system administrators to help them improve 
the security posture of their own information infrastructures.
    In 2008, we provided an increased level of computer security 
support to offices. We were increasingly called upon to help office 
system administrators properly configure desktop and server security 
controls and assist them in responding to security threats of which we 
had notified them. Through our outreach program, we conducted training 
for staff in nearly a dozen offices, regularly assisted with 
orientation sessions for our own new staff, and produced a number of 
new reference guides to assist staff in securing information and 
technology resources. We also continued to work with system 
administrators to promote staff awareness of threats to Senate 
information, and to help them understand what they can do to assist in 
reducing the risk from such threats. As part of the information sharing 
process, we produced numerous blog entries, articles, and user notices 
targeted at both system administrators and the general Senate user 
population. As the Senate continued to employ cutting edge 
technologies, we adjusted our processes and controls to ensure optimal 
product performance and service delivery. We augmented both our 
security services and security infrastructure. For example, over the 
past year we upgraded our security technology monitoring infrastructure 
to provide greater flexibility, improved utilization of our computing 
resources, and enhanced our continuity and disaster recovery 
capabilities. This infrastructure is very scalable, allowing us to 
expand capabilities while controlling costs.
    This year we have continued development of our redundant 
information security operations centers. The mission of these centers 
is to identify and understand threats, assess vulnerabilities, identify 
failure points and bottlenecks, determine potential impacts, and remedy 
problems before they adversely affect Senate operations. We augmented 
these capabilities by collaborating with other federal agencies to 
ensure that we have the most up-to-date information and techniques for 
combating cyber threats. The combination of our information security 
operations centers, defense-in-depth capability, enterprise anti-
malware programs, and centralized security update management service 
has proven effective.
    As outlined earlier, we must continue to remain vigilant because 
the threat environment, as measured by detected security incident 
attempts, remains very high. For example, every day our security 
operations center detects approximately 28.6 million potential security 
threats targeting the Senate, less than 5 percent of which are 
characterized as high-risk based upon the possible severity or impact 
of the threat. Our SAA information security staff handles about 40 
security issues each month. We have also improved our capability to 
monitor the Senate's information technology environment over the past 
year. For example, our ability to detect, analyze, and categorize 
security ``events,'' defined as instances of network traffic that have 
the potential to cause a security breach, have dramatically increased 
from 7 to 9 million per month in 2008, to almost 860 million per month 
so far in 2009. During 2008, we upgraded existing equipment which 
provides richer data feeds on the Senate network. These improvements 
allow us to more clearly identify malicious activity, and thus, have 
resulted in an increase in the number of events we have observed. 
Looking ahead, we project that in-progress infrastructure improvements 
will allow our information security operations centers to evaluate many 
more events in a 24-hour period. This capability will help prevent our 
systems from being overwhelmed during a widespread malware outbreak or 
distributed denial of service attack, and will also allow for 
significant improvements to our security monitoring sensor network.
    Our anti-virus controls detected and countered nearly 52,500 virus-
related events on Senate computers during 2008. Similarly, our client-
based firewalls detected and countered approximately 52,000 attempted 
exploits on Senate computers during the same period. Almost all offices 
use our managed anti-virus system to detect and prevent malware 
infections, and receive patches to repair critical software 
vulnerabilities from our software update servers. These systems protect 
more than 12,000 Senate computers from malicious software and other 
known software vulnerabilities that would otherwise allow attackers to 
compromise these systems. With this said, security controls best 
prevent against unsolicited network traffic, which is to say traffic 
that is not initiated from internal users. We have continued to see an 
increase in infection attempts brought about by users opening malicious 
e-mail attachments or visiting infected Web sites. While the Senate did 
experience an assortment of viral infections on multiple systems in 
2008, our security controls prevented any of these isolated events from 
turning into a widespread outbreak. All our information security 
monitoring activities are in compliance with the SAA's information 
privacy policy.
    Our new information security Watchstander role, patterned after 
similar security operations center positions in other agencies, 
requires around-the-clock availability of our information security 
staff. The position provides the Senate community a central point of 
contact when reporting and responding to IT security events. The 
Watchstander also reviews and responds to IT security alerts, 
suspicious activity bulletins, and warnings compiled by public and 
private sources. Watchstander services include responding to office 
complaints about e-mail spam, e-mail disruptions due to blacklisting by 
external Internet service providers, and phishing attempts. The 
Watchstander also creates user notices in response to warnings on new 
vulnerabilities, and responds to reports of suspicious network traffic 
identified by our information security operations center.

Emergency and Contingency Communications
    This year we continued upgrading and testing our two Senate 
emergency response communications vehicles according to a monthly 
exercise plan. These assets are available for deployment with data 
network, telephone, and satellite connectivity and provide the ability 
to relocate significant information infrastructure virtually anywhere. 
We also continue to train and expand our deployment teams, and work to 
revise and refine our operations procedures for deployment of these 
vehicles in support of the Senate.
    During the year we refined the in-building wireless infrastructure 
in the Capitol and the Capitol Visitor Center. This infrastructure 
provides coverage in areas where it was previously poor or non-existent 
and also allows Senate staff to connect back to their offices via 
wireless remote computing. The wireless infrastructure also supports 
the major cellular carriers, allowing Senators and staff to use the 
carrier of their choice with the device of their choice across the 
Senate campus.
    As we continue to demonstrate during continuity of operation 
exercises, staff can work and communicate from virtually anywhere at 
any time. Because these capabilities are crucial to our ability to 
support the Senate in an emergency, we continue to enhance and expand 
these capabilities in order to support a potentially dispersed 
workforce with the ability to telecommute. It also allows us to provide 
employees with flexible work options on a daily basis and, by allowing 
those options, keeps their remote access skills honed and ready to use 
as needed.

Enhancing Stewardship through Fiscal and Environmental Responsibility
    Stewardship of our resources is intertwined in everything we do, as 
well as being a driving force for some of our activities. We are always 
looking for ways to improve our processes or technologies so that we 
save time, money, electricity, paper, or other resources. Our CIO 
organization is a good steward of the fiscal resources of the Senate, 
as they are consistently and continuously improving on the services 
offered to our customers while seeking only modest increases in 
funding. Many of their initiatives save offices hundreds or thousands 
of dollars in costs that would otherwise be borne out of their official 
accounts. As most of these initiatives save money due to a reduction in 
the purchase of some commodity, they also fit in with our efforts 
toward environmental stewardship. Some examples of our efforts to 
enhance fiscal and environmental stewardship are:
  --Continuation of our virtualization efforts, where we now save 
        $100,000 in annual energy costs and $975,000 in maintenance and 
        support costs by running more than 150 servers/services in 
        virtual environments. We will continue an aggressive campaign 
        to virtualize more systems.
  --During the past year we replaced all Internet e-mail gateway 
        servers with new appliances. The appliances have a much smaller 
        footprint than the servers that they replaced, use much less 
        power, and provide more computing power than the older servers, 
        which allowed us to reduce the number of servers. The 
        appliances also come pre-configured so support is much less 
        labor-intensive. Addition of new appliances or upgrades to 
        existing appliances should also be easier. The overall effect 
        of this replacement project is a ``greener'' computing center.

----------------------------------------------------------------------------------------------------------------
                                                                  Pre-              Post-          Difference
                          Metric                              consolidation     Consolidation       (percent)
----------------------------------------------------------------------------------------------------------------
Power consumption.........................................           80,000W           32,760W               -59
Number of servers.........................................                25                20               -20
Rack space................................................    100 rack units     40 rack units               -60
Heat dissipation..........................................    136,475 BTU/hr     59,464 BTU/hr               -56
----------------------------------------------------------------------------------------------------------------

  --The newly implemented virtual machine infrastructure allows us to 
        centrally host office file and application servers on shared 
        hardware at our primary and the alternate facilities as well as 
        consolidate the test and production servers we manage. The 
        infrastructure greatly increases server hardware efficiency 
        over both the previous virtual file server offering and in-
        office servers, and through system duplication and data 
        replication, offers enterprise class data redundancy and 
        recovery in the event of a critical local failure or crisis. 
        The virtual solution will also relieve offices of considerable 
        noise, excess heat, and will increase usable office working 
        areas for staff. It removes the single point of failure from 
        existing office servers and meets continuity of operations and 
        data replication requirements for approximately half the cost 
        of existing solutions. To date, we are hosting 28 Senate office 
        file servers on our virtual infrastructure. Virtual servers 
        running in the Data Center consume only 15 percent of the 
        energy of a comparable number of physical servers. This means a 
        reduction in power consumption and air conditioning 
        requirements, saving Senate funds, while enhancing our ability 
        to provide reliable and redundant services.
  --Adding network services to copier maintenance contracts allows 
        offices to consider purchasing a networked multi-function 
        copier that can perform print, scan, and fax functions rather 
        than having three separate machines. One machine doing the work 
        of three decreases energy consumption as well as consumable 
        costs. Because network services were previously a billable item 
        for offices, the initiative to bundle network services into the 
        maintenance contracts also reduces invoicing costs.
  --We continue to upgrade and enhance the electronic fax system to 
        encourage offices to use this as well. Senate Fax Services 
        saves hundreds of thousands of pages of paper each year by 
        allowing staff to dispose of unwanted fax messages 
        electronically before they are printed, and reduces the need 
        for fax toner cartridges, which again reduces the need for 
        manufacturing and disposal of them, and saves tens of thousands 
        of dollars a year on their purchase.
  --Online Verizon Wireless billing through our TranSAAct system has 
        eliminated a significant amount of paper. Each invoice was 
        potentially several hundred pages long and at least three paper 
        copies of each invoice were sent to the Senate.
  --Scrutiny of our telecommunications bills for overcharges and 
        incorrect items has saved us more than $100,000 in the current 
        fiscal year.
    We also ensure that the devices we recommend to the Senate meet the 
applicable EnergyStar guidelines, and where feasible, the guidelines 
for the responsible manufacture of information technology equipment.
    IT security is, and will continue to be in the near term, a growth 
area. We anticipate that the trend of cyber attacks associated with 
geopolitical events will continue. In response, our operating model 
emphasizes speed and agility and the ability to bring needed resources 
to bear quickly. Our cyber security contract provides additional 
resources to support this operating model. We continually work to stay 
ahead of threats and put new safeguards in place to protect the 
Senate's information and computing infrastructure. In support of our 
efforts to increase both our analytical and defensive capabilities, we 
are filling two new full-time positions in our IT Security Branch 
approved in our fiscal year 2009 appropriations. We are also deploying 
additional security mechanisms and other protective technologies in the 
Senate network, which will enhance our ability to protect the Senate 
from cyber threats, malware, and other network-borne threats that 
originate from external networks. In addition, we are assisting in 
efforts to integrate sophisticated security products and technologies 
into the new telecommunications system, thus providing a monitoring, 
detection, and active prevention capability that will further protect 
us from current and future cyber threats and better satisfy the 
Senate's requirements for voice communications privacy and reliability

Capitol Visitor Center
    Our office has been involved with the Capitol Visitor Center (CVC) 
since its inception. We have worked collaboratively on this bicameral 
project with representatives from Leadership, oversight committees and 
other agencies to ensure the design, construction and operational 
aspects of the facility achieve the desired results. Our participation 
and the challenges presented have been vast and varied, including but 
not limited to: security; hours of operation; transitioning the Capitol 
Guide Service; emergency preparedness; information technology; 
furnishings for the Senate side of the CVC; Senate Meeting Rooms 
design, set-up and maintenance; bus routes; Capitol tour routes; coat 
checks; official appointments; accommodating visitors to the Senate 
Gallery; broadcast media infrastructure; ATM service; telephone service 
and other communications infrastructure.
    We have several departments that have been impacted by the CVC. 
Their operation and processes changed with its opening.

Senate Appointments Desks
    To improve security and the flow of visitors to the Capitol, the 
Senate Appointments Desk added two desks in the CVC, one located near 
the main entrance and the other located outside of the Senate Meeting 
Rooms on the lower level. Our goal is to process approximately 80 
percent of the people who have appointments at the Capitol through the 
CVC, reducing congestion within the Capitol and minimizing processing 
and waiting time for our guests. We have maintained scaled versions of 
the Capitol and the Russell Appointments Desks for visitors with 
appointments with Leadership and for those who have appointments in 
both the Senate office buildings and the Capitol. Our Appointments 
Desks staff expanded from six to ten and we researched avenues to fill 
these vacancies without increasing the Sergeant at Arms budget. The 
labor efficiencies we implemented in the Senate Post Office enabled us 
to transfer 4 FTEs to the Senate Appointments Desk team to fill the 
vacancies created by our expansion of services to the CVC.

Senate Gallery Visitors
    We improved the visitor experience for those who want to witness 
Senate proceedings from the Gallery. We now process these guests 
through the CVC, rather than the Capitol's North Door. This process 
enhancement improved security, as well as the visitor experience, by 
eliminating the long lines and congestion that had been commonplace 
throughout the Capitol. Our Senate Doorkeepers team manages a staging 
room in the CVC that facilitates the collection of Gallery prohibited 
items and the movement of people in a secure manner. The staging room 
and the surrounding areas offer our guests numerous creature comforts 
and educational opportunities.
    The number of visitors to the Senate Gallery has increased by 
nearly 300 percent during the first 2 months of the 111th Congress as 
compared to the same period during 2008. We expect this trend to 
continue throughout 2009 and beyond. Despite the significant increase, 
the feedback from our visitors has been extremely positive. Senate 
Gallery visitors have complemented our processes, including the 
elimination of long lines waiting outside in the elements, the speed of 
gaining access to the Gallery, and the educational opportunities 
afforded by the CVC.
    This was another opportunity where our team was able to make 
significant improvements without adding FTEs. Despite the fact that our 
Doorkeepers' footprint of responsibility increased by over 70 percent, 
we were able to improve our performance with existing resources.
    The opening of the CVC has had a major impact on the duties of 
Capitol Facilities. We procured and installed both modular and standard 
furniture and relocated other office goods to the Senate Expansion 
Space occupied by the Office of Police Operations, Security and 
Emergency Preparedness (POSEP), Senate Security, the United States 
Capitol Police (USCP), the Senate Curator's office, the Senate 
Recording Studio, and Closed Captioning Services. We also procured 
special event seating, tables and podiums to support ten meeting rooms 
in the CVC that fall under Facilities' purview.
    Capitol Facilities is responsible for providing planning assistance 
for special event set-up, including tables, chairs, podiums, and 
easels. We provide daytime cleaning of space occupied by Senate 
Security, as well as the setup, take down and clean up for each special 
event in the Senate Meeting Rooms. Our Facilities team assisted in the 
conversion of vacated Capitol space due to CVC moves. This included the 
installation of new carpeting and furnishings, as well as furniture 
moving and deep cleaning of renovated spaces. Future expenditures can 
be anticipated as the useful life of furnishings and equipment will be 
determined by the frequency of use.
    Virtually all of the Senate side of the CVC's IT infrastructure is 
supported by the SAA. Maintenance initially will be minimal and will 
not require additional FTEs. However, changes in requirements or 
technological enhancements could require significant time and 
resources. Additionally, as time passes, obsolescence and advances in 
technology become issues that have significant impact on costs.

Recording Studio
    Our Recording Studio is responsible for providing gavel-to-gavel 
coverage of Senate floor proceedings, broadcasting Senate committee 
hearings, and providing radio and television production studios, and 
equipment for Senators' use. Last year, we televised all Senate floor 
proceedings, broadcast 1,309 radio and television productions, and 885 
committee hearings. The committee hearing broadcasts represented a 17 
percent increase versus 2007. This trend continues with the 111th 
Congress as, in the month of January, committee hearing broadcasts 
increased by 86 percent, and radio and television productions increased 
by 62 percent as compared to the previous year. This is another example 
of where we have increased productivity by utilizing process 
improvements and technology rather than adding FTEs. In coming years, 
the Recording Studio will require new cameras in the Senate Chamber and 
replacement of a satellite truck necessary for alternate chamber 
broadcasts and other COOP events.

Committee Hearing Room Upgrade Project
    Demand for additional committee broadcasts has been continually 
increasing. In 2003, we began working with this Committee and the 
Committee on Rules and Administration to upgrade and install multimedia 
equipment in Senate committee hearing rooms. The project includes 
digital signal processing audio systems and broadcast-quality robotic 
camera systems.
    To date, we have completed 21 hearing rooms, S-207, S-211, and we 
are currently working on SH-219. Room enhancements include improved 
speech intelligibility and software-based systems that we can configure 
based on individual committee needs. The system is networked; allowing 
committee staff to easily and automatically route audio from one 
hearing room to another when there are overflow crowds. Additionally, 
the system's backup will take over quickly if the primary electronics 
fail.
    As part of the upgrades, we installed technologies in our new 
Capitol Visitor Center (CVC) Recording Studio to enhance our ability to 
provide broadcast coverage of more hearings simultaneously without 
adding staff. For example, the Committee Hearing Room Upgrade Project 
will allow us to cover a hearing with one staff member. Before the 
upgrade, three staff members were required to adequately cover a 
hearing. These technology enhancements, coupled with the expansion of 
the number of control rooms for committee broadcasts to twelve, will 
enable us to increase our simultaneous broadcast coverage of committee 
hearings from five to as many as twelve.

Migration to the Capitol Visitor Center
    Our Senate Recording Studio was one of the first departments to 
move into the recently completed Capitol Visitor Center. We 
successfully moved from eight dispersed offices in the Capitol to our 
state-of-the-art facility in the CVC. This move enabled the Recording 
Studio to complete its upgrade to a fully digital, high definition 
facility, which began almost 10 years ago. The Studio completed the 
move of all aspects of its operation, including the engineering shops, 
the Senate Television operation, Studio production and post-production 
facilities, committee broadcast services, and all administrative and 
management offices to the CVC by September 2008, when the Senate 
returned to session.
    Our new facility has received accolades from guests since its 
opening, including Senate Leadership, Senators and their staffs. The 
convenience of the Studio's location and proximity to the Senate Floor 
and Senate subway is a benefit to Senators and staff.
    We completed the move on time despite the challenge of broadcasting 
ten pro forma sessions during August. We successfully used equipment 
designated for Continuity of Operations (COOP) events to broadcast 
these sessions, allowing us to exercise our COOP processes and 
equipment simultaneously.

Media Galleries
    Our four Media Galleries experienced one of their busiest years on 
record and performed their tasks exceptionally well despite numerous 
challenges. Changes in technology have created significant issues for 
our Galleries as they seek avenues to accommodate the various new media 
that have been emerging over the past 10 years. All Galleries have 
worked to incorporate as many online and multimedia organizations as 
possible within the current rules and structure of each respective 
Gallery.
    A significant accomplishment was expanding ``Wi-Fi'' to all rooms 
occupied by Gallery staff and media. This was done in an efficient and 
secure fashion. All involved worked very hard to maintain necessary 
firewalls while providing the wireless access.
    The Media Galleries moved their respective gallery membership data 
files into online applications. This data is housed on more secure SAA 
servers, is easily accessible to Gallery staff, and is available for 
day-to-day credentials, as well as numerous upcoming special events.
    Our Media Galleries work in some of the most beautiful areas of the 
Capitol. Last year we renovated the Daily Press Gallery with a complete 
remodeling of furniture, and installed the latest technology so that we 
may better serve our Members and the media who cover the Senate. The 
Senate Radio/TV Gallery Studio was also renovated in order to install 
the latest technology and provide a modern look for Senators' 
appearances on camera.
    The historic 2008 election cycle was the major story that occupied 
much of the news over the past 2 years. The declaration of six sitting 
Senators seeking their respective party's Presidential nomination and 
the election of two sitting Senators as President and Vice President 
was significant and kept our Galleries busy. This story, coupled with 
the wars in Iraq and Afghanistan and the declining economic conditions 
created great interest among those in the media throughout 2008.
    Election years require significant additional efforts from our 
staff who work in the Media Galleries because, in addition to their 
normal duties, the scope of their responsibilities is expanded to 
making media arrangements for the Democratic and Republican Conventions 
and the Inaugural Ceremonies. While our Media Gallery staff has worked 
diligently on the Presidential Conventions since 1904, that role was 
codified through legislation this past year.
    Preparations for the 2008 Republican and Democratic Presidential 
Nominating Conventions in Minneapolis, Minnesota and Denver, Colorado 
began in January 2008. After months of working on preliminary 
arrangements, workspace assignments, screening applicants, press stand 
allocations, and numerous other logistics, staff were on-site at the 
convention cities from mid-August through the first week in September. 
Approximately 15,000 media attended the conventions. While onsite, the 
Media Galleries allocated approximately 200,000 square feet of 
workspace for news organizations. Additionally, they accredited press, 
oversaw workspace, assigned positions on press and camera stands, and 
distributed floor passes. This year, most arrangements for the 
Democratic convention had to be done twice, since the first three 
nights took place in the Pepsi Center Arena, and the final night was 
held at a second venue, the Denver Broncos football stadium.
    As soon as the conventions ended, our Media Galleries immediately 
shifted their attention to the Inauguration. This year was 
extraordinary: we had approximately a 400 percent increase in the 
number of organizations who wanted to cover the Inaugural compared to 
2005. Newspapers and reporters from all over the United States and from 
countries around the globe applied for credentials. Between the four 
galleries, roughly 5,000 media were on the Capitol's West Front for the 
swearing-in ceremony.
    After January 20th, the work of the Galleries was not done. The 
first year of an Administration is always the busiest time for the 
media, and this one, like the conventions and Inauguration, has had 
more media interest than anything we have seen.

                         OPERATIONS AND SUPPORT

Capitol Facilities
    Capitol Facilities serves the Senate community by providing a clean 
and professional work environment through its Environmental Services 
Division. The Furnishing Division provides creative framing services to 
all Senators and committees, custom cabinets and other high quality 
furniture, carpeting and draperies.
    The Senate Expansion Space of the Capitol Visitor Center (CVC) has 
impacted both the Furnishings Division and the Environmental Services 
Division of Capitol Facilities. Through multi-year funding, furnishings 
were procured for the offices located in this space. The Environmental 
Services Division has accommodated the additional ten event spaces by 
providing meeting planning through our administrative division and room 
setup. Daytime cleaning is also provided for the Senate Security 
offices.
    The Cabinet Shop designer has been instrumental in providing space 
planning for the Senate Expansion Space offices and the newly renovated 
Capitol offices. Through the use of computer aided design, floor plans 
were constructed easing the transition of Capitol offices into their 
new CVC spaces.
    An online request system known as CAPFOR (Capitol Facilities Online 
Request) has been launched to provide online access for Capitol work 
requests. This system provides an instantaneous way for staff to make 
service requests and view photos of the office furniture inventory.
    Capitol Facilities completed 5,000 service requests from staff; 
planned and provided 2,600 setups for special events; constructed 140 
pieces of furniture; and matted and framed 1,900 documents, photos and 
memorabilia for Senators.

Central Operations
            Printing Graphics and Direct Mail
    The Printing, Graphics, and Direct Mail (PGDM) branch provides 
high-level, direct customer support to the Senate community in 
photocopying, print design, and production services. During 2008, PGDM 
responded to customer requests for color printing by utilizing digital 
and traditional full-color offset printing equipment to produce over 
19.7 million full-color pages, an increase of 4 percent over 2007.
    PGDM retained high levels of customer satisfaction through 
maintaining reliable, user-friendly copiers in convenient satellite 
copy centers which produced over 8.6 million copies in 2008. In 
response to many requests, PGDM expanded its very popular microfilm 
conversion service and produced over 551 CDs from microfilm, a 77 
percent increase over 2007. PGDM also met growing Senate office 
requests for report printing and produced 2.8 million pages, up 16 
percent over 2007.
    As a good steward of its own resources and that of others, PGDM 
saved the Senate over $2.2 million in postage costs (53 percent more 
than 2007) by pre-sorting 10.9 million pieces of Senate franked mail, a 
126 percent increase over 2007. PGDM's commitment to teamwork and to 
excellent customer service extends to our Senate partners as well. The 
department's collaborative work with the Architect of the Capitol (AOC) 
fulfilled 65,000 flag requests during 2008 and in tandem with the 
Government Printing Office, delivered over 1 million documents (Pocket 
Constitutions, Our Flag, Our American Government, etc.) to requestors.
    PGDM's Senate Support Facility upheld the SAA mission for 
operational security by receiving 65,425 items from the United States 
Capitol Police Off-Site inspection facility and transferring them to 
the Senate Support Facility in 2008. This eliminated 619 truck 
deliveries to the Capitol complex.
            Parking Office
    The Senate Parking, Transportation and Fleet Office is a leader in 
``green'' initiatives:
  --The fleet includes 22 flex-fuel vehicles, two hybrid vehicles and 
        one electric car. In a collaborative agreement with the AOC, 
        eleven E85-compatible Senate vehicles have access to the AOC 
        E85 fuel station.
  --Six motorcycle parking spaces were added on the Northwest Lower 
        Drive in 2008. In combination with 28 motorcycle spaces on Lot 
        16 and 12 spaces on Lot 12, this gives Senate staff more 
        choices when considering their commuting options.
  --Solar panel lighting was added to Lot 18 to provide heightened 
        security and energy efficient illumination for customers.
            Photography Studio
    The Photography Studio provides photography and imaging services 
for Senate offices, capturing 75,000 photo images and producing more 
than 100,000 photo prints in fiscal year 2008. The Photography Studio's 
popular image archiving service was used to scan, organize, and 
transfer more than 113,000 photo images to portable hard drives for 
departing Senators.
    The Photography Studio is currently replacing the Photo Browser 
application. After extensive research and evaluation of numerous 
commercial off-the-shelf products, a selection was made and application 
installation began in December 2008. North Plains Telescope is a fully 
supported Digital Asset Management (DAM) product that is well-
architected and meets all modern, open architecture programming 
standards. General Dynamics is working with North Plains and Photo 
Studio staff to identify design and configuration requirements, and 
plans to test the new application by June 2009.
            Senate Hair Care
    Following careful market research, Senate Hair Care increased 
prices on selected services in July 2008. Within the following 7 
months, revenue increased by $18,565 (7 percent) over the same period 
in 2007. After listening to customers, services and retail product 
offerings were also expanded to include more personal care products and 
travel-sized items which keep customers compliant with Transportation 
Security Administration security. Customers are responding positively 
to the new services and retail products offered in Senate Hair Care.

                               CONCLUSION

    We take our responsibilities to the American people and to their 
elected representatives seriously. The composition of the Office of the 
Sergeant at Arms is comparable to a number of small businesses, each 
with its own primary mission, each with its own measures of success, 
and each with its own culture. It has a fleet of vehicles that serves 
Senate Leadership, delivers goods, and provides emergency 
transportation. Our Photography Studio records historic events, takes 
official Senate portraits, provides a whole range of photography 
services, and delivers thousands of pictures each year. The SAA's 
printing shop provides layout and design, graphics development, and 
production of everything from newsletters to floor charts. The Office 
of the Sergeant at Arms also operates a Page dormitory, a hair salon, 
and parking lots. It provides many other services to support the Senate 
community, including framing, flag packaging and mailing, and intranet 
services. Each of these businesses requires personnel with different 
skills and abilities. One thing that they all have in common is their 
commitment to making the Senate run smoothly.
    Over the past year, the staff of the SAA has kept the Senate safe, 
secure, and operating efficiently. This Committee and the Committee on 
Rules and Administration have provided active, ongoing support to help 
us achieve our goals. We thank you for your support and for the 
opportunity to present this testimony and respond to any questions you 
may have.

              Appendix A--Fiscal Year 2010 Budget Request

           ATTACHMENT I--FINANCIAL PLAN FOR FISCAL YEAR 2010

                     EXECUTIVE SUMMARY: OFFICE OF THE SERGEANT AT ARMS--UNITED STATES SENATE
                                          [Dollar amounts in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                                          Fiscal year 2010 vs.
                                                                          Fiscal year       fiscal year 2009
                                                             Fiscal year      2010    --------------------------
                                                             2009 budget    request                    Percent
                                                                                          Amount      Incr/Decr
----------------------------------------------------------------------------------------------------------------
Salaries...................................................      $66,800      $75,044       $8,244          12.3
Expenses...................................................      $83,472      $91,712       $8,240           9.9
                                                            ----------------------------------------------------
      Total General Operations & Maintenance...............     $150,272     $166,756      $16,484          11.0
                                                            ====================================================
Mandated Allowances & Allotments...........................      $63,118      $55,114      ($8,004)        -12.7
Capital Investment.........................................       $2,315      $15,185      $12,870         555.9
Nondiscretionary Items.....................................       $4,696       $6,450       $1,754          37.4
                                                            ----------------------------------------------------
      TOTAL................................................     $220,401     $243,505      $23,104          10.5
                                                            ====================================================
Staffing...................................................          958          963            5           0.5
----------------------------------------------------------------------------------------------------------------

    To ensure that we provide the highest levels and quality of 
security, support services and equipment, we submit a fiscal year 2010 
budget request of $243,505,000, an increase of $23,104,000 or 10.5 
percent compared to fiscal year 2009. The salary budget request is 
$75,044,000, an increase of $8,244,000 or 12.3 percent, and the expense 
budget request is $168,461,000, an increase of $14,860,000 or 9.7 
percent. The staffing request is 963, an increase of five.
    We present our budget in four categories: General Operations and 
Maintenance (Salaries and Expenses), Mandated Allowances and 
Allotments, Capital Investment, and Nondiscretionary Items.
    The general operations and maintenance salaries budget request is 
$75,044,000, an increase of $8,244,000 or 12.3 percent compared to 
fiscal year 2009. The salary budget increase is due to the addition of 
five FTEs, a COLA, and merit funding. The additional staff will support 
increased demand for services, as well as advancing technology.
    The general operations and maintenance expenses budget request for 
existing and new services is $91,712,000, an increase of $8,240,000 or 
9.9 percent compared to fiscal year 2009. Major factors contributing to 
the expense budget increase are equipment and software maintenance 
costs for enterprise storage, $1,235,000; professional services, 
software purchase and technical support for IT Security, $1,094,000; 
escalating costs of the IT Support Contract and other IT Support 
agreements, $844,000; smart card badges for the ID Office, $650,000; 
and system design costs for the Senate services portal, $600,000; 
system design services for admin systems, $553,000; and telephone 
system maintenance, $551,000.
    The mandated allowances and allotments budget request is 
$55,114,000, a decrease of $8,004,000 or 12.7 percent compared to 
fiscal year 2009. This budget supports state office rents, $17,644,000; 
voice and data communications for Washington, DC and state offices, 
$13,200,000; purchase of computer equipment, $12,315,000; procurement 
and maintenance of office equipment for Washington, DC and state 
offices, $4,665,000; maintenance and procurement of Member mail 
systems, $4,500,000; and state office security enhancements, 
$2,700,000.
    The capital investment budget request is $15,185,000, an increase 
of $12,870,000 or 555.9 percent compared to fiscal year 2009. The 
fiscal year 2010 budget request includes funds for audio and video 
upgrades for committee hearing rooms, $5,000,000; hardware for network 
upgrades, $2,500,000; equipment purchases for the storage area network, 
$1,600,000; replacement of printing equipment, $1,540,000; and state 
office wide area network hardware, $1,150,000.
    The nondiscretionary items budget request is $6,450,000, an 
increase of $1,754,000 or 37.4 percent compared to fiscal year 2009. 
The request funds three projects that support the Secretary of the 
Senate: contract maintenance for the Financial Management Information 
System, $3,427,000; costs related to the replacement of the Senate 
Payroll System, $2,150,000; and maintenance and necessary enhancements 
to the Legislative Information System, $873,000.
      attachment ii--fiscal year 2010 budget request by department
    The following is a summary of the SAA fiscal year 2010 budget 
request on an organizational basis.

                                          [Dollar amounts in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                                          Fiscal year 2010 vs.
                                                                          Fiscal year       fiscal year 2009
                                                             Fiscal year      2010    --------------------------
                                                             2009 budget    request                    Percent
                                                                                          Amount      Incr/Decr
----------------------------------------------------------------------------------------------------------------
Capitol Division...........................................      $31,307      $39,566       $8,259          26.4
Operations.................................................      $42,827      $47,120       $4,293          10.0
Technology Development.....................................      $47,877      $62,523      $14,646          30.6
IT Support Services........................................      $81,752      $75,368      ($6,384)         -7.8
Staff Offices..............................................      $16,638      $18,928       $2,290          13.8
                                                            ----------------------------------------------------
      TOTAL................................................     $220,401     $243,505      $23,104          10.5
----------------------------------------------------------------------------------------------------------------

    Each department's budget is presented and discussed in detail on 
the next pages.

                                                CAPITOL DIVISION
                                          [Dollar amounts in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                                          Fiscal year 2010 vs.
                                                                           Fiscal year      fiscal year 2009
                                                              Fiscal year      2010    -------------------------
                                                              2009 budget    request                   Percent
                                                                                           Amount     Incr/Decr
----------------------------------------------------------------------------------------------------------------
General Operations & Maintenance:
    Salaries................................................      $17,537      $19,612       $2,075         11.8
    Expenses................................................      $10,970      $12,254       $1,284         11.7
                                                             ---------------------------------------------------
      Total General Operations & Maintenance................      $28,507      $31,866       $3,359         11.8
                                                             ===================================================
Mandated Allowances & Allotments............................       $2,700       $2,700  ...........  ...........
Capital Investment..........................................         $100       $5,000       $4,900      4,900.0
Nondiscretionary Items......................................  ...........  ...........  ...........  ...........
                                                             ---------------------------------------------------
      TOTAL.................................................      $31,307      $39,566       $8,259         26.4
                                                             ===================================================
Staffing....................................................          287          287  ...........  ...........
----------------------------------------------------------------------------------------------------------------

    The Capitol Division consists of the Executive Office, the Office 
of Police Operations, Security and Emergency Preparedness, Post Office, 
Recording Studio and Media Galleries.
    The general operations and maintenance salaries budget request is 
$19,612,000, an increase of $2,075,000 or 11.8 percent. The salary 
budget increase is due an expected COLA and merit increases, and other 
adjustments.
    The general operations and maintenance expenses budget request is 
$12,254,000, an increase of $1,284,000 or 11.7 percent primarily in 
support of the new smart card badges for the ID Office.
    The mandated allowances and allotments budget request for state 
office security initiatives is $2,700,000.
    The capital investments budget request of $5,000,000 will fund 
hearing room audio and video upgrades.

                                                   OPERATIONS
                                          [Dollar amounts in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                                          Fiscal year 2010 vs.
                                                                           Fiscal year      fiscal year 2009
                                                              Fiscal year      2010    -------------------------
                                                              2009 budget    request                   Percent
                                                                                           Amount     Incr/Decr
----------------------------------------------------------------------------------------------------------------
General Operations & Maintenance:
    Salaries................................................      $18,509      $20,358       $1,849         10.0
    Expenses................................................       $6,876       $7,028         $152          2.2
                                                             ---------------------------------------------------
      Total General Operations & Maintenance................      $25,385      $27,386       $2,001          7.9
                                                             ===================================================
Mandated Allowances & Allotments............................      $16,992      $17,744         $752          4.4
Capital Investment..........................................         $450       $1,990       $1,540        342.2
Nondiscretionary Items......................................  ...........  ...........  ...........  ...........
                                                             ---------------------------------------------------
      TOTAL.................................................      $42,827      $47,120       $4,293         10.0
                                                             ===================================================
Staffing....................................................          305          307            2          0.7
----------------------------------------------------------------------------------------------------------------

    The Operations Division consists of the Central Operations Group 
(Director/Management, Parking Office, Printing, Graphics and Direct 
Mail, Photo Studio, and Hair Care Services), Facilities, and the Office 
Support Services Group (Director, Customer Support, State Office 
Liaison, and Administrative Services).
    The general operations and maintenance salaries budget request is 
$20,358,000, an increase of $1,849,000 or 10.0 percent. The salary 
budget increase is due to an expected COLA, merit increases, two new 
FTEs to support increased service levels, and other adjustments.
    The general operations and maintenance expenses budget request is 
$7,028,000, an increase of $152,000 or 2.2 percent. This increase is 
primarily due to increases in equipment maintenance costs.
    The mandated allowances and allotments budget request is 
$17,744,000, an increase of $752,000 or 4.4 percent due to increased 
commercial and federal office rents.
    The capital investment budget request is $1,990,000, an increase of 
$1,540,000 or 342.2 percent. This request includes funds for a color 
network printer, $500,000; laser printer, $400,000; copy center 
copiers, $200,000; and servers, $200,000; a digital printing and 
processing machine, $200,000.

                                             TECHNOLOGY DEVELOPMENT
                                          [Dollar amounts in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                                          Fiscal year 2010 vs.
                                                                           Fiscal year      fiscal year 2009
                                                              Fiscal year      2010    -------------------------
                                                              2009 budget    request                   Percent
                                                                                           Amount     Incr/Decr
----------------------------------------------------------------------------------------------------------------
General Operations & Maintenance:
    Salaries................................................      $13,922      $16,306       $2,384         17.1
    Expenses................................................      $27,594      $31,572       $3,978         14.4
                                                             ---------------------------------------------------
      Total General Operations & Maintenance................      $41,516      $47,878       $6,362         15.3
                                                             ===================================================
Mandated Allowances & Allotments............................  ...........  ...........  ...........  ...........
Capital Investment..........................................       $1,665       $8,195       $6,530        392.2
Nondiscretionary Items......................................       $4,696       $6,450       $1,754         37.4
                                                             ---------------------------------------------------
      TOTAL.................................................      $47,877      $62,523      $14,646         30.6
                                                             ===================================================
Staffing....................................................          146          149            3          2.1
----------------------------------------------------------------------------------------------------------------

    The Technology Development Services includes the Technology 
Development Director, Network Engineering and Management, Enterprise IT 
Operations, Systems Development Services, Information Systems Security 
and Research Services.
    The general operations and maintenance salaries budget request is 
$16,306,000, an increase of $2,384,000 or 17.1 percent. The salary 
budget increase is due to the addition of three FTEs, an expected COLA 
and merit funding for fiscal year 2010. Technology Development requires 
three FTEs in support of wireless network services and to provide 
expertise in mass distribution of software solutions in the SAA LAN 
environment.
    The general operations and maintenance expense budget request is 
$31,572,000, an increase of $3,978,000 or 14.4 percent. This increase 
is due to equipment and software maintenance costs for enterprise 
storage, $1,235,000; professional services, software purchase and 
technical support for IT security, $1,094,000; and systems design 
services for admin systems, $553,000.
    The capital investment budget request is $8,195,000, an increase of 
$6,530,000 or 392.2 percent. This request includes data network upgrade 
project, $2,500,000; data network engineering, $2,200,000; upgrade of 
the Storage Area Network (SAN), $1,600,000; and state office wide area 
network hardware, $1,500,000.
    The nondiscretionary items budget request is $6,450,000, an 
increase of $1,754,000 or 37.4 percent. The request consists of three 
projects that support the Secretary of the Senate: contract maintenance 
for the Financial Management Information System, $3,427,000; 
replacement of the Senate Payroll System, $2,150,000; and maintenance 
and necessary enhancements to the Legislative Information System, 
$873,000.

                                               IT SUPPORT SERVICES
                                          [Dollar amounts in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                                          Fiscal year 2010 vs.
                                                                          Fiscal year       fiscal year 2009
                                                             Fiscal year      2010    --------------------------
                                                             2009 budget    request                    Percent
                                                                                          Amount      Incr/Decr
----------------------------------------------------------------------------------------------------------------
General Operations & Maintenance:
    Salaries...............................................       $6,916       $7,669         $753          10.9
    Expenses...............................................      $31,310      $33,029       $1,719           5.5
                                                            ----------------------------------------------------
      Total General Operations & Maintenance...............      $38,226      $40,698       $2,472           6.5
                                                            ====================================================
Mandated Allowances & Allotments...........................      $43,426      $34,670      ($8,756)        -20.2
Capital Investment.........................................         $100  ...........        ($100)       -100.0
Nondiscretionary Items.....................................  ...........  ...........  ............  ...........
                                                            ----------------------------------------------------
      TOTAL................................................      $81,752      $75,368      ($6,384)         -7.8
                                                            ====================================================
Staffing...................................................          113          113  ............  ...........
----------------------------------------------------------------------------------------------------------------

    The IT Support Services Department consists of the Director, Office 
Equipment Services, Telecom Services and Desktop/LAN Support branches.
    The general operations and maintenance salaries budget request is 
$7,669,000, an increase of $753,000 or 10.9 percent. The salary budget 
will increase due to an expected COLA and merit funding for fiscal year 
2010.
    The general operations and maintenance expenses budget request is 
$33,029,000, an increase of $1,719,000 or 5.5 percent. This increase is 
primarily due to escalating costs of the IT Support Contract and other 
IT support agreements, $844,000; telephone system maintenance, 
$551,000; and upgrade of Postal Square voice and data cabling, 
$354,000.
    The mandated allowances and allotments budget request is 
$34,670,000, a decrease of $8,756,000 or 20.2 percent. This budget 
supports voice and data communications for Washington, DC and state 
offices, $13,200,000; computer equipment, $12,315,000; procurement and 
maintenance of office equipment for Washington, DC and state offices, 
$4,665,000; and maintenance and procurement of Member and Committee 
mail systems, $4,500,000.
    The capital investment budget request is $0.

                                                  STAFF OFFICES
                                          [Dollar amounts in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                                          Fiscal year 2010 vs.
                                                                           Fiscal year      fiscal year 2009
                                                              Fiscal year      2010    -------------------------
                                                              2009 budget    request                   Percent
                                                                                           Amount     Incr/Decr
----------------------------------------------------------------------------------------------------------------
General Operations & Maintenance:
    Salaries................................................       $9,916      $11,099       $1,183         11.9
    Expenses................................................       $6,722       $7,829       $1,107         16.5
                                                             ---------------------------------------------------
      Total General Operations & Maintenance................      $16,638      $18,928       $2,290         13.8
                                                             ===================================================
Mandated Allowances & Allotments............................  ...........  ...........  ...........  ...........
Capital Investment..........................................  ...........  ...........  ...........  ...........
Nondiscretionary Items......................................  ...........  ...........  ...........  ...........
                                                             ---------------------------------------------------
      TOTAL.................................................      $16,638      $18,928       $2,290         13.8
                                                             ===================================================
Staffing....................................................          107          107  ...........  ...........
----------------------------------------------------------------------------------------------------------------

    The Staff Offices Division consists of Process Management & 
Innovation, Education and Training, Financial Management, Human 
Resources, Employee Assistance Program, and Special Projects.
    The general operations and maintenance salaries budget request is 
$11,099,000, an increase of $1,183,000 or 11.9 percent. The salary 
budget increase is due an expected COLA, merit funding and other 
personnel adjustments.
    The general operations and maintenance expenses budget request is 
$7,829,000, an increase of $1,107,000 or 16.5 percent. This increase is 
primarily due to system design costs for the Senate services portal, 
$600,000.

                      UNITED STATES CAPITOL POLICE

STATEMENT OF PHILLIP D. MORSE, SR., CHIEF
ACCOMPANIED BY:
        DAN NICHOLS, CHIEF OF OPERATIONS AND ASSISTANT CHIEF OF POLICE
        GLORIA JARMON, CHIEF ADMINISTRATIVE OFFICER

    Senator Nelson. Chief Morse.
    Chief Morse. Good afternoon, Mr. Chairman and Ranking 
Member Murkowski, Senator Pryor, Senator Tester. It certainly 
is an honor for me to be here today.
    I do have written testimony that I would like to submit for 
the record.
    Senator Nelson. It will be received.
    Chief Morse. I also have a brief opening statement, if that 
would be okay with you?
    Senator Nelson. That would be fine. Thank you.
    Chief Morse. First, I would like to make just two 
introductions. First, to my left is the chief of operations, 
our assistant chief of police Dan Nichols. And to his left is 
our chief administrative officer, Gloria Jarmon.
    Over the past year, several years, the department has 
undergone many changes. While all of these are necessary to 
move the department forward, I believe that our focus for the 
next fiscal year will be one of leveling out our operational 
and administrative activities.

            FUNDING EFFICIENCIES AND ADDRESSING DEFICIENCIES

    My direction to my management team is to focus on finding 
efficiencies and addressing longstanding deficiencies to meet 
the department's core mission as well as focus on 
institutionalizing and standardizing repeatable business 
practices.
    The Government Accountability Office (GAO) and the Office 
of Inspector General has made over 169 recommendations since 
2005, which were intended to improve the department's 
operations, and most of these were geared toward the 
administrative operations. These administrative operations 
encompass more than just how we manage our finances.
    The audit recommendations cover how we maintain our 
physical inventory, how well we control privacy information, 
how well we secure our information systems, as well as how 
efficiently and effectively we recruit, select, train, and pay 
our employees. I am pleased to report that, again, we have made 
significant progress.
    We have now closed over one-half of all these 
recommendations. This is despite the addition of 40 additional 
recommendations this past year alone. We currently have just 85 
of 169 still open and are in the process of implementing 
corrective actions to close these in the near future.
    Recently, we closed 16 Office of Inspector General 
recommendations dealing with property management, the memorial 
fund, hiring standards, and the student loan repayment program. 
We also anticipate closing many GAO recommendations in the 
coming months.
    The department, as you mentioned, produced a fiscal year 
2008 financial statement in time for a complete independent 
audit, which resulted in the department receiving a clean 
opinion on our financial statements for the first time in our 
history.
    We received reaccreditation from the Commission of 
Accreditation in Law Enforcement after undergoing an extensive 
onsite evaluation to review operations and supporting 
documentation to verify that we have maintained compliance with 
standards over the 3-year accreditation review period. This 
confirmed the fact that we achieved mandatory compliance for 
almost 300 accreditation requirements.
    We issued our updated strategic plan and strategic human 
capital plan, which will improve our ability to link our human 
resources programs to our strategic goals and enable us to 
measure out our staffing needs and progress much more 
efficiently and effectively. We implemented effective business 
practices and internal controls in our financial and human 
capital resources, facilities, and information technology.
    We reconciled our financial management and property 
management systems and performed a complete physical inventory. 
We aligned our salary and benefits data with the National 
Finance Center. We revised our budget justifications to 
incorporate strategic objectives, accomplishments, and 
schedules consistent with executive and other legislative 
branch agency budgets.
    Finally, on the operational side of the mission, again, our 
police officers and our operational civilians have once again 
done an outstanding job representing our police department and 
protecting the legislative process and all its members, staff, 
visitors, and dignitaries. And I want to thank them today for a 
job well done.

                           PREPARED STATEMENT

    At this time, sir, I will answer any questions that you 
have.
    Senator Nelson. Thank you.
    [The statement follows:]

              Prepared Statement of Phillip D. Morse, Sr.

    Chairman Nelson, Ranking Member Murkowski, and Members of the 
Committee, I am honored to be here to testify before you today. With me 
today are Dan Nichols, our Chief of Operations, and Gloria Jarmon, our 
Chief Administrative Officer.
    Over the past several years, the Department has undergone many 
changes. While all of these were necessary to move the Department 
forward, our focus for the next fiscal year will be one of ``leveling 
out'' our operational and administrative activities. My direction to my 
management team is to focus on institutionalizing standard and 
repeatable business practices, finding efficiencies, and addressing 
longstanding deficiencies to meet the Department's core mission set. To 
do so, we have developed a budget proposal that I believe meets my 
vision.
    Our total budget request for fiscal year 2010 is $410.1 million. 
This represents a requested increase of $104.3 million. Of this 
increase, about 69 percent or about $71.6 million is for modernization 
of our radio system and 20 percent or about $18 million is for items 
over which we have no control such as cost of living and salary 
adjustments, costs associated with the merger of the Capitol Police 
with the Library of Congress Police, plus uncontrollable inflation 
increases. The remaining portion of our requested increase is primarily 
to cover additional positions to help us reduce the overtime that we 
need to properly cover everyday post requirements, as well as to 
address the lifecycle replacement of systems that have been deferred in 
previous fiscal years. Due to the time critical nature of the radio 
modernization project, we have also requested that the same $71.6 
million be included in the President's fiscal year 2009 Supplemental 
Request.
    I would like to take a few minutes to expand on some of these areas 
and provide you with the highlights for some of our accomplishments 
over the last year.

                      RADIO MODERNIZATION PROJECT

    First, let me address our request for funding to support the new 
radio system. There are three critical life and safety tools that our 
officers need in the performance of their duties. They are reliable 
radio communications, weapons, and protective equipment. The radio 
system currently in use is the only one of these three that we believe 
may present an unacceptably high risk to the life and safety of our 
officers, Members of Congress, their staff, family, and visitors, as 
well as to our ability to properly respond to emergency situations on 
Capitol Hill. Since the attacks of 9/11, the threat posed to the 
Congress, the Capitol, and the Complex has changed significantly. It 
has become much more critical for us to have reliable radio 
communications that provide for interoperability between the Department 
and our other federal, state and local law enforcement partners in the 
area. As the scope of this increased threat on the Congress has 
evolved, it has become increasingly apparent that our current radio 
system, which is over 20 years old and experiencing multiple regular 
failures, is not capable of providing the reliable communication 
capability that we need.
    In addition, we have recently received notice from the manufacturer 
of our dispatch consoles that they will no longer be providing us 
technical support because of the age of our equipment. These 
circumstances create a substantive risk to our ability to properly 
carry out our mission, especially during a time of emergency. 
Increasing that risk is our lack of an interoperable system able to 
communicate with other first responding organizations such as the 
Secret Service, the Metropolitan Police, the Metropolitan Fire 
Department and the U.S. Park Police. We believe this risk to be 
significant and immediate. Another area of vulnerability is the lack of 
encryption for our current radio system. This lack of encryption 
enables our adversaries, the press and others to monitor our radio 
transmissions, which has potential to compromise our mission.
    To address this risk, the U.S. Capitol Police plans to procure a 
VHF trunked radio system in order to achieve adequate on street, in-
buildings, garages, basements and in-tunnels radio coverage throughout 
the Capitol Complex as well as our extended area of operation. 
Therefore, we are requesting a total of $71.6 million in multi-year 
funding for this project.
    Because of the criticality of this requirement, we have expedited 
our request for this funding by asking that it also be included in the 
President's fiscal year 2009 Supplemental Request. The sequence that we 
would otherwise follow would require us to complete the detailed design 
and hopefully obtain funding in fiscal year 2010, and then procure the 
necessary equipment and services. If funding is delayed (by a CR, for 
example) due to circumstances beyond our control we would need to 
suspend procurement activity until such time as funding could be made 
available, and that would slip project completion dates accordingly.
    If we could get supplemental funding in fiscal year 2009 rather 
than in fiscal year 2010 it would permit us to begin the acquisition 
process for segments of the project as soon as the detailed engineering 
design is completed for each segment rather than having to delay all 
procurement activities until we are able to obtain funding in fiscal 
year 2010. By doing so we could begin to roll out these segments much 
sooner than we would otherwise be able to do and consequently may be 
able to shave several months off the time required to fully implement a 
new system. Given the increased risks associated with the continued 
problems we are experiencing with an aging system, we believe it 
prudent for us to expedite our new system implementation as much as we 
can.
    We believe that the nature of the radio modernization project 
comports with the intent of emergency supplemental bills, which 
frequently fund ``pressing domestic needs.'' This new system is 
critical to our ability to effectively address anti-terrorism, and the 
continuity of government operations. The initial funding of $10 million 
for this project was provided in the fiscal year 2007 emergency 
supplemental bill because of the urgency associated with beginning the 
planning and detailed engineering design of the new system as quickly 
as possible. We believe that urgency still exists and justifies our 
request that funding for the project be included in the pending 
supplemental.
    The requested amount of $71.6 million for the radio project 
includes $4 million for the build out or construction of a mirror or 
alternate site; $31.1 million for equipment hardware costs; $20.1 
million for subscriber equipment; $9.9 million for travel equipment, 
encryption, and professional services; and $6.5 million for contingency 
funds for unforeseen conditions with strict controls on the use of such 
funds. However, the Department's funding requirements for a new radio 
system are estimated at $89.6 to $97.6 million, which includes the $10 
million previously provided by the Congress for this purpose and the 
$71.6 million included in this request. The remaining $8 to $16 
million, which is expected to be requested in fiscal year 2011, relates 
to the indoor coverage requirements, which cannot be finalized until 
after the completion of the design engineering, plus project 
contingency requirements.
    The Department has evaluated a number of alternatives regarding how 
to proceed with this critical procurement. We have also sought the 
advice of various independent experts, who have advised us to enlist 
the project management and related services of an outside government 
agency with considerable expertise in technical procurements of a 
similar magnitude. For this reason, we have established an interagency 
agreement with the Naval Air Systems Command (NAVAIR). NAVAIR's Special 
Communications Requirements Division has accomplished numerous 
communications efforts for other U.S. government agencies, to include 
the White House Communications Agency, the U.S. House of 
Representatives, the U.S. Senate, the Department of Homeland Security's 
Office of Emergency Communications and various other classified 
efforts.
    For this effort, they have already begun to develop a detailed 
design engineering study of each building, garage, tunnel, and outdoor 
site so we will have complete technical specifications for the project 
once we have the funding and are ready to proceed.

                           OVERTIME/STAFFING

    Our other area of requested growth is related to additional sworn 
personnel, whom we would use to help us reduce the Department's 
dependence on overtime in meeting our normal mission requirements. Over 
the last year, we have continued to analyze and evaluate posts and 
other staffing needs and have concluded that we could increase 
operational efficiency through the addition of sworn personnel.
    The Department has continued to approach its sworn manpower 
requirements through a three-pronged approach. This approach includes 
the assessment of threats against the Capitol Complex using the risk 
matrix we designed in collaboration with the Government Accountability 
Office, the physical security surveys we have conducted on the Capitol 
Complex buildings under our jurisdiction, and the alignment of 
available sworn staff to meet the threats.
    The Department began the first step in this effort in fiscal year 
2007 with a review of our overtime utilization in relation to mission 
requirements. The review resulted in a manpower study that was 
performed for us by Enlightened Leadership Solutions (or ELS).
    We have begun to use the ELS study as a guiding management tool for 
the alignment of functions and the deployment of personnel, but this 
study does not represent a complete analysis of our sworn manpower 
requirements. We will also need to assess the staffing requirements for 
the Library of Congress and Capitol Visitor Center, since these 
missions were added subsequent to the completion of the ELS study. As a 
result, we are continuing to analyze ELS data, current threat 
assessment data and the ability of our infrastructure to support sworn 
growth, in order to establish and validate an appropriate staffing 
level for the Capitol Police, as well as an appropriate level of 
overtime. We expect this analysis to be completed no later than our 
fiscal year 2012 budget submission. In the meantime, we believe that 
our fiscal year 2010 sworn staffing request represents a reasonable 
first step toward the proper balance of overtime and full-time sworn 
staff and can be supported within our current infrastructure.
    This year's request is an important step in an ongoing evaluation 
that we will use to identify an overtime level that will be balanced 
and more efficient.

New Sworn Positions
    Therefore, we have requested an increase of 89 sworn positions in 
fiscal year 2010, which includes 76 to help us to fulfill our current 
mission while enabling us to begin reducing our use of overtime. The 
other 13 sworn positions are requested in our Protective Services 
Bureau for counter surveillance and investigative intelligence 
gathering in order to conduct basic surveillance detection and field 
collection operations across the Complex. This will bring the sworn 
positions to 1,888 by the end of fiscal year 2010.
    Our plan is for the new sworn officers we are requesting to enable 
us to reduce the amount of overtime worked by most of our sworn 
positions once recruit training is completed. Of course, there will 
always be a need for overtime to cover uncontrollable protective 
details of Members and certain intermittent work requirements, such as 
scheduled events like the Fourth of July celebration. In addition, 
unpredictable overtime to support events, such as unplanned late 
Congressional sessions, Congressional delegations, unplanned special 
events, unplanned major demonstrations, and emerging threats, will also 
be needed. Scheduled and unscheduled events such as these will continue 
to be staffed by using overtime, as they reasonably should be.

New Civilian Positions
    In fiscal year 2010, we have also requested 48 new civilian 
positions. Twenty-one of these positions are for civilian employees who 
were formerly LOC officers, transferring to the USCP as a result of the 
Capitol Police and Library of Congress Police merger. Several of the 
remaining positions would eliminate our need to use contractors to 
accomplish critical mission sets, as well as to address outstanding 
audit findings. Additionally, four of these positions are to support 
the Department's Office of the Inspector General.
            Highlights
    We recognize that our requested salaries and general expenses 
increases are significant in today's fiscal environment, but we believe 
these funds are critical to the Department's ability to efficiently, 
effectively and--most importantly--safely perform our mission.
    However, I believe that when an agency is making such a request for 
increased budgetary consideration, we must also demonstrate to you the 
value we bring to the overall community. Therefore, I would like to 
provide some brief highlights of these operational and mission support 
efforts to you.
    Over the last year, the Department has made significant efforts to 
review its operations for efficiency, standardize its business 
practices, address its management and fiscal shortcomings and address 
outstanding audit recommendations and findings. During this same 
period, we also provided law enforcement operations for a number of 
high profile activities, while continuing to provide for the safety and 
security of the Capitol Complex.
            Operational Activities
    Nearly 400 officers and support staff participated in the law 
enforcement and security activities associated with the Republican and 
Democratic Conventions. These efforts included dignitary protection and 
protective intelligence.
    The Department played a key role in the planning and execution of 
the law enforcement support for the 56th Presidential Inauguration. By 
any measure, the Inauguration of President Barack Obama was historic 
with an unprecedented 1.8 million people gathered to witness and 
experience this historic event.
    In addition:
  --We provided security and counter-intelligence support for 63 Head 
        of State arrivals, 34 Presidential and Vice Presidential 
        Motorcades, the State of the Union, the Papal Visit, the 2008 
        Concert Series and over 2,000 VIP arrivals to include Supreme 
        Court Justices, Cabinet Members and other U.S. and foreign 
        dignitaries.
  --We screened 8.7 million staff and visitors to the Complex, 
        including the Capitol Visitor Center (CVC) that opened in 
        December 2008.
  --As a result of law enforcement actions, we confiscated several 
        handguns, an AK-47, a number of .22 Caliber Rifles, shotguns, a 
        BB rifle, ammunition, a sword, a night stick, several knives, a 
        bayonet, a machete, a hatchet, a stun gun, metal pipes, 
        grenades, pepper spray, mace, box cutters and razor blades, a 
        sling shot, a table leg and a baseball bat.
  --We conducted over 163,000 K-9 security sweeps.
  --We screened over 32,000 vehicles at our offsite facility.
  --We conducted over 24,000 Transportation Interdiction Group 
        Emergency Response Team (T.I.G.E.R.) vehicle screenings, which 
        resulted in 11 vehicles being refused access to the Complex, 3 
        arrests and 104 citations.
  --We conducted 3,500 foundation checks of the buildings on the 
        Complex utilizing the Department's mountain bike patrols 
        yielding 9 arrests, and 532 Notices of Interest.
  --We conducted 3,800 hazardous materials/weapons sweeps and responded 
        to over 150 suspicious package and substance incidents.
  --We conducted 90 emergency evacuation drills in conjunction with the 
        House, Senate and the Architect of the Capitol to ensure that 
        the Congressional Community is trained to respond to 
        emergencies.
  --We completed 5,664 preventative maintenance checks on security 
        equipment, up from 2,229 checks in 2007, partially due to 
        delays in lifecycle replacement.
  --We completed 7,172 checks on Barriers, up from 2,263 in 2007, 
        partially due to delays in lifecycle replacement.
  --We performed 3,697 Magnetometer calibrations, up from 1,997 in 
        2007, partially due to delays in lifecycle replacement.
            Administrative Activities
    Over the last year, we have also provided a significant level of 
mission support to the overall operational mission, and we improved 
upon our administrative capabilities.
    As you know, both the Government Accountability Office and our 
Inspector General have made 169 recommendations since 2005 intended to 
improve the Department's operations, and most of these are geared 
toward administrative operations. These administrative operations 
encompass more than just how we manage our finances. The audit 
recommendations cover how we maintain our physical inventory; how well 
we control privacy information; how we secure our information systems; 
as well as how efficiently and effectively we recruit, select, train, 
and pay our employees. Responding to these recommendations with limited 
staff has been a challenge for us, but we are pleased to report that we 
have made significant progress.
    We have now closed about half of all these recommendations--this 
despite the addition of 40 recommendations in the past year alone. We 
currently have just 85 of the 169 still open and are in the process of 
implementing corrective actions to close these in the near future. 
Recently, we closed 16 OIG recommendations dealing with property 
management, the Memorial Fund, hiring standards, and the Student Loan 
Repayment Program. We also anticipate closing many GAO recommendations 
in the coming months. We believe we are beginning to get ahead of the 
curve on improving our administrative operations, and while we realize 
we have a lot of work ahead of us, we anticipate more improvement as 
the year proceeds.
    Some of the best progress we have made in the past year has been in 
the financial management arena. In order to achieve these results, we 
focused on the hiring of a Chief Financial Officer (CFO), Deputy CFO, 
Budget Officer, Deputy Procurement Officer, as well as several other 
professional positions within the Office of Financial Management. The 
hiring of these highly qualified managers allowed the Department to 
benefit from their experience, talent, knowledge and understanding, 
along with a high level of integrity that is critical to agency 
operations. They have federal--as well as considerable legislative 
branch--expertise, and we are optimistic that with this team we can 
establish the practices, policies and procedures that (as this 
Committee has noted in the past) we have been lacking. The professional 
administrative oversight from these individuals, as well as the many 
other professional and technical civilians within the Department, has 
enabled us to begin to institutionalize an administrative operation in 
the U.S. Capitol Police that will be as responsive, accountable, and 
transparent as any in the federal government.
    To this end, we have recently completed classes in appropriation 
law for all of the Department personnel who have any impact on 
appropriated funds. This makes it the perfect time for us to continue 
to examine our procurement and budgeting standard operating practices 
to ensure we comply with all mandates. In addition, we are now 
ascribing salary data to the Bureaus and Offices that directly benefit, 
and thus in the future, we will be better able to project salary data 
and trends. Having tied our strategic goals to spending of our general 
expenses appropriation in the fiscal year 2010 budget request, we will 
be able to do this with our salary appropriation, as well, for the 
fiscal year 2011 budget cycle.
    Other administrative accomplishments and enhancements within the 
past year have included the following:
  --The Department produced an fiscal year 2008 financial statement in 
        time for a complete independent audit, which resulted in the 
        Department receiving a clean opinion on our financial statement 
        for the first time in the Department's history.
  --We received reaccreditation from the Commission on Accreditation of 
        Law Enforcement Agencies (CALEA) after undergoing an extensive 
        on-site evaluation to review operations and supporting 
        documentation to verify that we have maintained compliance with 
        standards over the 3 year accreditation review period. This 
        confirmed the fact that we achieved mandatory compliance for 
        all of the almost 300 accreditation requirements and resulted 
        in the Department receiving its third accreditation award.
  --We issued our updated Strategic Plan and our Strategic Human 
        Capital Plan which will improve our ability to link our human 
        resources programs to our strategic goals and enable us to 
        measure our staffing needs and progress much more efficiently 
        and effectively.
  --We implemented effective business practices and internal controls 
        into our financial, human resources, facilities, and 
        information technology operations.
  --We reconciled our financial management and property management 
        systems, and performed a complete physical inventory.
  --We aligned our salary and benefit data with the National Finance 
        Center budget object codes to be able to respond to Committee 
        requests with more precision.
  --We revised our budget justification to incorporate strategic 
        objectives, accomplishments, and schedules consistent with 
        Executive and other Legislative Branch agency budget reports.
    Even with these significant achievements, the Department continues 
to struggle to level off its administrative operations. One of our 
biggest concerns is the retention of professional talent within our 
civilian staff that we know to be necessary to move the Department 
forward. We simply cannot sustain the turnover rates in critical 
civilian positions that we have experienced in the past. By continuing 
this level of attrition, we lose far too much in productivity, 
institutional knowledge and employee morale. We need to be able to 
provide the same flexibilities for our civilian employees that other 
federal government agencies provide.
    While we have authorization and often funding to provide 
recruitment and retention bonuses, as well as to administer a Student 
Loan Repayment Program and tuition reimbursement program, the 
Department has either not had sufficient program staff onboard to 
develop, implement and manage a best-practices program for each of 
these areas, or the onboard staff has been overburdened with workloads 
necessary to maintain other areas of the Department.
    Additionally, we do not have alternate work schedule or telework 
programs or an incentives awards program that provides for cash and 
time off incentives, programs for which many federal civilian employees 
have grown accustomed in their workplace.
    All of these factors have contributed to the Department's 
challenges in recruiting qualified candidates or retaining those we 
currently have onboard. In fact, during our attempts to fill some of 
the current civilian vacancies, the process has proceeded to the point 
of selection, only to have the selectee decline the job offer when they 
found out that the Department could not offer workplace benefits or 
quality of life programs similar to those of other federal entities.
    To address these challenges, the Department is working on policies 
to administer these programs in accordance with applicable laws, 
regulations and consistent with best practices. However, the Department 
wants to be thoughtful in its rollout, so that the programs are not 
compromised, which could result in additional audit findings and 
stakeholder recommendations.
    Additionally, we are planning our first all-employee customer 
satisfaction survey, and have begun regularized exit interviews for 
terminating employees to better understand how to improve the workplace 
in order to retain our talented sworn and civilian workforce.
    Another area in which we also hope to achieve greater efficiencies 
is in fleet management. We are completing a comprehensive analysis of 
our fleet services, including a cost-benefit analysis of leasing versus 
buying vehicles, which we plan to present to the Committees for funding 
consideration. This plan will focus on providing justification for the 
fleet requirements, demonstrating areas where we have reduced or plan 
to reduce the fleet, and it will provide for a 5-year fleet management 
plan to meet the validated fleet requirements. This plan will also 
address our efforts to make the fleet more energy efficient.

                               CONCLUSION

    In conclusion, I believe that there is much work left to be 
undertaken, but we expect that the combined efforts of many of our 
dedicated staff will result in the continued transformation of the 
Department into a more efficient and accountable organization.
    Recognizing that the Committees have expressed concerns over the 
last several years about the Department's leadership, internal 
controls, and financial management, we have placed significant emphasis 
on addressing these shortcomings.
    Under the leadership of Gloria Jarmon, the Department achieved a 
clean opinion on its financial statements 2 years earlier than 
expected; our Office of Financial Management has become more efficient 
and it has achieved staffing stability; we have addressed numerous 
oversight studies and inquiries; we have developed a comprehensive plan 
to procure and implement a new radio system; we have redesigned our 
budget development and execution processes; we have completed 
appropriations law training for all Department personnel who have any 
impact on appropriated funds; and we have resolved numerous audit and 
oversight findings and recommendations.
    On our Operational side, under the leadership of Dan Nichols, the 
Department has continued our efforts to find efficiencies in sworn 
staffing and the utilization of those personnel resources. This effort 
has resulted in a savings in the Department's overtime utilization.
    All these achievements have been accomplished while supporting the 
operational mission of protecting the Capitol Complex, providing 
security for two national political conventions and supporting a 
Presidential Inauguration of historic size and capacity.
    It is through this leadership and the dedication of our employees 
that the Department has been able to realize these achievements, even 
with a large number of civilian vacancies and under a continuing 
resolution. With a continued focus on addressing our civilian staffing 
needs, balancing the optimum sworn personnel levels against overtime 
requirements and resolving audit recommendations and findings, I 
believe that the next year will see even greater efficiencies and 
effectiveness from our team.
    I believe that our fiscal year 2010 budget request supports the 
goals I have stated here today. Please be assured that this management 
team, with the continued support of the Capitol Police Board and our 
stakeholders, is committed to moving the Department forward to meet 
these operational and administrative goals.
    I am happy to answer any questions you may have.

    Senator Nelson. Senator Tester, do you have any opening 
remarks you might like to make before we go to the questions?
    Senator Tester. Thank you, Mr. Chairman.
    I just want to thank you for the work you do, and we will 
grill you on the budgets here in a bit.
    So, thank you.
    Senator Nelson. Thank you.
    Ms. Erickson, can you discuss the project that you are now 
working on jointly with the Sergeant at Arms to replace the 
current Senate payroll system? How that will work and how it 
will be improved, what it will cost, and how long it will take 
to complete?
    Ms. Erickson. Sure thing. Our payroll system has served us 
well over the years, but it has been what we call patched and 
updated to meet the growing demands of the system. And it was 
actually brought to my attention by the Sergeant at Arms IT 
staff that there are concerns that the technology--our payroll 
system uses a mainframe technology--has a declining market 
share these days. And as a result, there is declining vendor 
support.
    I felt that it was prudent to look ahead at other options 
for our payroll system and had asked our financial clerk to 
work with his counterpart, Jay Moore, in the Sergeant at Arms 
IT shop to begin the process of looking at what is available 
out there for technology that would meet the increasingly 
complex demands of the Senate community.
    Senator Nelson. In the improvement of that, will there be 
some cost savings that are identifiable? In other words, will 
it be not only more efficient, but will that efficiency 
translate into lesser costs?
    Ms. Erickson. Yes, I believe over the long run, it will be 
a more efficient system. And as this subcommittee well knows, 
our payroll system is highly customized to meet the 
requirements of Federal statutes, title II. We have a unique 
semi-monthly or 24-pay cycle. We have shared employees often 
between Senate offices and committees. And we don't have a 
uniform pay scale. We also have unique minimum and maximum 
salaries.
    So it is a very highly customized system, but I am 
confident, Mr. Chairman, that the system will in the long run 
be efficient.
    Senator Nelson. I know that Senator Pryor is worried that 
his check will come on time.
    I am sure that you can assure us that there won't be any 
slowdown in pay?
    Ms. Erickson. I promise. I promise.
    Senator Nelson. Good. For both Ms. Erickson and Mr. Gainer, 
a question on evacuation drills. I know that we have from time 
to time tried to go through evacuation drills to keep everybody 
aware of what is necessary in the case of an emergency. And it 
seems like it is a better process than the first time that I 
heard officers running through the Capitol--near the Senate 
chamber yelling, ``Get out of the building,'' which was fairly 
mundane compared to what I think we are perhaps able to do 
today.
    Can you tell us where we are on the security that would be 
involved to get people out of the Capitol in an organized, 
prompt, and safe manner?
    Mr. Gainer. Senator, thank you.
    We have come a long way, I think, since the--one of the 
first mass evacuations after 9/11 when I was the Chief of the 
Capitol Police, when we had the incoming aircraft, Senator, at 
Reagan's funeral----
    Senator Nelson. That is the one I was referring to.
    Mr. Gainer [continuing]. Which didn't go as smooth as it 
would today. And what it meant was between the Chief's office 
and our office and others was to put together programs and 
practice those programs that would get as orderly an evacuation 
as you can when everybody is pretty terrorized.
    So we have plans. We work with your offices and staff so 
that they understand those. There are plans for each one of the 
offices, and we have been drilling those. And in fact, next 
month there will be another drill on the Senate floor, where we 
will exercise staying in place or evacuating. And we work very 
closely with the floor staffs to do that and your office and 
Nancy's and the police departments.
    And we just had a meeting in the Secretary's office 
yesterday, I believe, with the other officers of the Senate, 
and we will come to each one of your luncheons--the Democratic 
luncheon and the Republican luncheon--to give a little bit more 
focused information for you as we do with your staff. So I 
think we are actually in a pretty good place on it.
    Senator Nelson. I have a question that was submitted to us 
from Senator Inouye, the chairman of the Appropriations 
Committee. He says that a few years ago, the offices submitted 
in conjunction with the Senate Rules Committee, a contract for 
a study of the Senate employees childcare center. Based on the 
findings of this study, do we have a shortfall of adequate 
childcare available to Senate employees, or is it okay? If it 
isn't, what is the next step in addressing that challenge?
    Ms. Erickson. Well, the Senate Rules and Administration 
Committee asked my office in 2007 to conduct a childcare 
survey, and it was the first survey that was done since the 
childcare center opened in 1984.
    And if my memory serves me correctly, I believe we had 
roughly 3,500 Senate employees, including State staff 
employees, who participated in the survey. And to my 
recollection, there were roughly 850 people who responded who 
indicated that they were using childcare services or plan to in 
the very near future.
    We do have a problem, particularly with infant care. There 
are only nine infant slots. I have someone on my staff who has 
put her name in the Senate childcare center and was told there 
was a waiting list of 99 people for infant care with the Senate 
childcare center.
    It has been a problem for a long time. My baby, who is now 
14, was on the waiting list back in 1994. He never got off the 
waiting list. So I am empathetic to the young parents in the 
Senate community who are trying to get into the center.
    Some of the options that the study looked at were possibly 
expanding the facility; collaborating with other childcare 
centers, particularly those on Capitol Hill; purchasing slots 
for Senate employees; providing specialized referral services 
for our staff, as well as looking at other family friendly 
policies; and providing folks, when applicable, telecommuting 
opportunities.
    My staff was asked to look at some property. There is a 
townhouse located next to the childcare center that is 
currently for sale. The assistant secretary and my chief of 
staff went to look at the property. A follow-up visit was done 
by the Architect of the Capitol's staff, who determined that 
the row house would not be feasible for a childcare center.
    One positive result of the study, I will say, is that it 
prompted the Senate childcare center, which is a nonprofit run 
by a parent cooperative board, to retool their admission 
policy, which now gives preference to Senate employees.
    Another promise that was made by the childcare center is 
that they would increase transparency in their waiting list. 
Unfortunately, a promised Web site that would give people who 
apply to the childcare center a sense of where they are at on 
the wait list hasn't been launched yet.
    But I am, again, very empathetic to the situation. It is a 
problem, and I am grateful for Senator Inouye's and all of your 
interest in this issue and advocacy on behalf of young parents 
in the Senate.
    Senator Nelson. Thank you.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    Nancy, you had mentioned in response to the chairman's 
inquiry on the payroll system, explaining the importance of it 
and the need to advance with the Sergeant at Arms. I didn't 
hear if you mentioned what the estimated cost is for that new 
system.
    Ms. Erickson. I believe $2 million. Is that----
    Mr. Gainer. If I may?
    Ms. Erickson. Go ahead.
    Mr. Gainer. Well, the initial funds we are asking you for 
is $2 million. I think the total cost for its full 
implementation won't be known until the first quarter of fiscal 
year 2010. But we have discussed with the Secretary if that is 
the case, if it gets much beyond where we are at, then we will 
sit down collaboratively and see how we can come up with those 
funds and perhaps not have to come back to you.
    So we are aware it could be more, and we just wait to see 
that final price.
    Ms. Erickson. And I would also add we are obviously 
consulting with your subcommittee, keeping you posted as we 
learn more about the potential costs for such a system.
    Senator Murkowski. Okay. So at this point in time, we are 
just in the process of identifying----
    Ms. Erickson. The very beginning.
    Senator Murkowski [continuing]. What it is that we are 
looking at there.
    Ms. Erickson. The very beginning.
    Senator Murkowski. I appreciate that.
    Terry, let me ask you, you had indicated that after 
conversations with the chairman--and this is as to the staffing 
within the Sergeant at Arms office--that you were now prepared 
to perhaps pull back on some of the full-time equivalents 
(FTEs) that you had advanced. Now I just want to have a clear 
sense as to what the staffing issues and needs are within the 
Sergeant at Arms office.
    You are proposing an increase in the salary budget of over 
12 percent, and as I understand, you are requesting 878 
employees, and expect to have approximately 824 onboard this 
year. I can very clearly see, as you look at the numbers 
advancing since the year 2001, you can clearly appreciate the 
need for additional staffing.
    But talk to me a little bit about why we would continue to 
expect to see an increase. Since 9/11, it was about a 35 
percent increase is what I understand. In view of that and 
recognizing that at some point you expect to be tapering off, 
tell me why I should expect to see continued increase in 
staffing with each subsequent year?
    Mr. Gainer. Sure. Thank you, ma'am.
    We looked at it, and actually, over the last 6 years or so, 
we have grown by nearly 100 positions. And it is something that 
we continue to wrestle in this organization, as I have in the 
others, and what I wanted and was provided a breakdown of where 
those positions went. And the largest majority, as I recall, 60 
went to our IT group.
    And with this ever-increasing technology, there is the 
requirement to manage it and care for it. So, in some respects, 
to an old sociologist like myself--and cop--it would seem that 
as we get the better technology, we should have fewer people.
    Senator Murkowski. Right.
    Mr. Gainer. But it just requires more sophisticated people 
to take care of those things, and we keep adding IT 
requirements. So, for instance, over those years, I think it 
may have been the year 2000, I am not sure we had many 
BlackBerries. We initially distributed 100 or so to the 
Members. We now have 6,000 BlackBerries distributed to staff.
    So when you add the computers and the BlackBerries and the 
servers and all that is required, and especially the other area 
is the security issue of our technology. We have expanded that 
shop.
    And I was reading in the New York Times today that the New 
York Police Department indicated--this is related to security--
had 70,000 attempts per day to hack into their computer system. 
In talking to our chief information officer, we may have 10 
times that a day, people trying to hack into our system.
    So we really have set up a large shop to counter those 
types of activities. Now that is just an example, and we will 
continue to work with you and your staff to point those out.
    Other areas, 20 people went into the operations division, 
and they went into printing and graphics. As I mentioned, it 
was just a few short years ago that we had monstrous machines 
not unlike that you see at the Government Printing Office, and 
now it is technology driven. But with that technology and 
maintenance, it requires a more sophisticated individual, and 
those are where those people have gone.
    And when I looked at these five, and again, based on 
conversations as recently as Tuesday with the chairman, as he 
did when he was Governor and I worked for my Governor, you have 
to take some of this out of hide. So we went back and looked. 
We saw that last year, we asked you for 19. I believe you gave 
us 19.
    We actually only hired 15 of those 19. One more I think is 
in the pipeline someplace. So I challenged our own staff to say 
we didn't even hire all the ones we asked for last time. Let us 
take a look at what we are doing. As of this morning, we had 
about 38 vacancies in our staff. I said, okay, let us see if we 
can see where and how long we have gotten away with not filling 
those and see if we can convert those to some of the new 
positions.
    So technology actually is driving the more people.
    Senator Murkowski. Which seems counterintuitive.
    Mr. Gainer. Yes.
    Senator Murkowski. You think that if we have got the smart 
technology, you don't need to have as many human beings behind 
it. I would be curious to see a little bit more in terms of the 
breakdown and where it is going. Just because the four of us 
have new BlackBerries doesn't mean that we have got to have one 
person to check up on each of the equipment that is out there.
    Let us have a discussion, though, about these vacancies. 
Now it was my understanding that there is somewhere around 50 
vacancies throughout the organization. You say perhaps it is 
closer to 38. And I appreciate the fact that you are doing a 
specific assessment as to those vacancies. How long have they 
been vacant? Can you do without them? How much funding could we 
save if, in fact, we reprogrammed to other priorities?
    Within these areas of vacancies, where are you seeing that? 
You are saying that they are not in the IT area specifically. 
So what aspect of the organization----
    Mr. Gainer. Sure. Actually, I was looking this morning at a 
spreadsheet, and I will provide that to you and your staff to 
spell it out. One of the things I learned was we really got 
behind with the--where our budget wasn't approved for about 6 
months so we couldn't hire. That is how we got behind in some 
areas.
    And I think these positions are spread throughout the 
agencies. And as I sit here, ma'am, I can't recite those. I 
have a spreadsheet, and I will give it to you and your staff.
    Senator Murkowski. Well, I have just been handed a 
spreadsheet here, and it looks like there is a lot in tech 
development and support services. But I think that would be 
important to take a look at those and determine if we need more 
folks now in the IT and tech support, okay, are there other 
areas that are perhaps dated now? I think that is going to be 
important as we look at the staffing.
    I also understand that there have been funds available from 
prior years, fiscal year 2006 through 2008, totaling over $17 
million that aren't needed for the purposes for which they were 
appropriated. Can you tell me a little bit about the status of 
those funds? Why, what do you propose to be doing with them? 
And do you anticipate that any of the funds provided in fiscal 
year 2009 not to be needed for the purpose for which they were 
initially appropriated?
    Mr. Gainer. Well, the easy answer to the last one is, 
first, we need to work with your staff to see how we can best 
utilize those funds. And the other question we asked, Drew and 
I did, how did we get to that position?
    So, over the 5 years, we have developed that extra funds, 
but also we should keep in mind that over those 5 years, we 
were actually dealing and managing a budget of $750 million of 
$1 billion. So some analysts might say a 3 percent overage is a 
reasonable ballpark and has added up.
    But I did get some specific breakdowns in unexpected 
reductions in the volume of local and especially long distance 
calls. So as I talk about those 6,000 BlackBerries, the upside 
of the 6,000 are people are making fewer telephone calls. We 
ended up saving $5 million in the last 3 years just on that 
alone.
    In the performance incentives in our IT contracts, when we 
let those contracts, we assume that contractors will meet or 
exceed the expectations so that there are performance awards in 
there. And to the extent they don't, that again produces money. 
And that was to the tune of about $2 million.
    So I, of course, said to my CFO, well, are we bad 
estimators or are we contracting improperly? And appropriately, 
they educated me on the fact that the best business practice is 
to assume that your contractor is going to meet all those 
requirements, come in under funds, and come in early, and we 
will owe them the incentive. So our preference would be to 
continue to budget like that and not underbudget what a 
contract may be.
    Let us see, $1.5 million, a customer requirements change, 
the cost of the equipment changed. And so sometimes, blessedly, 
as the process is delayed from the day you order it, envision 
it to 3 years later, it becomes cheaper. And we have picked up 
some funds that way.
    But clearly, that is money we all need to look at to see if 
that can help all of us out in this fiscal year.
    Senator Murkowski. Mr. Chairman, I have other questions for 
Chief Morse, but in deference to my colleagues, I will yield to 
them at this time.
    Senator Nelson. Thank you.
    Senator Pryor.
    Senator Pryor. Thank you, Mr. Chairman.
    Now I understand that Senator Tester may have to leave at 
3:30 p.m.? Do you want to--why don't you go first?
    Senator Tester. If you would be so kind? Thank you very 
much. I owe you--hopefully not too much.

                      RADIO MODERNIZATION PROGRAM

    The question I have deals about the radio modernization 
program. Terry, you talked about it in your testimony. Chief 
Morse, you talked about it in your testimony. Where is the 
money? Which budget is it coming out of?
    Chief Morse. Thank you, Mr. Tester.
    We have also requested funding for the radio modernization 
program in the supplemental. The reason that we have----
    Senator Tester. Is that the $71.6 million?
    Chief Morse. Yes, sir.
    Senator Tester. Okay.
    Chief Morse. The reason we have requested in the 
supplemental is due to the criticality of the system itself. It 
is one of our critical life safety tools, communication. And 
the immediacy in which we can begin to purchase technical 
equipment and such, the supplemental would help us to do that 
in a more timely fashion.
    Senator Tester. And that takes care of the entire project? 
Is there money that comes out of your budget for 2010 also, or 
is it just the supplemental dollars?
    Chief Morse. The supplemental dollars take care of the 
project.
    Senator Tester. Okay. Any out of your budget, Terry?
    Mr. Gainer. No, sir.
    Senator Tester. Okay. If you look at your budget, Nancy, it 
shows an increase of about $2 million, if I am correct----
    Ms. Erickson. Actually, sir, I am not requesting an 
increase in my operating budget. It will remain the same at $2 
million.
    Senator Tester. Okay.
    Senator Nelson. No increase, yes.
    Ms. Erickson. But an increase in the salaried portion of 
the budget, roughly $1.7 million.
    Senator Tester. Okay. So the budget for--let us go this 
way. The budget for fiscal year 2010 is at $27.790 million, 
includes $25.790 million in salary costs and $2 million for 
operating budget. And then the salary budget increases of about 
$1.770 million. That is outside the $2 million for the 
operating budget?
    Ms. Erickson. Yes.
    Senator Tester. Okay. All right. What was your budget in 
2009?
    Ms. Erickson. Our budget for operating costs was at $2 
million. So we are requesting the same level of funding that we 
requested last year.
    Senator Tester. Okay, and what was your salary?
    Ms. Erickson. And the salary budget is $1.7 million more 
this year, which consists of providing a cost-of-living (COLA) 
benefit for employees.
    Senator Tester. Right. So your budget this year is $1.7 
million higher than over last year?
    Ms. Erickson. Roughly a 7 percent----
    Senator Tester. Seven percent? Seven percent, is that what 
the----
    Ms. Erickson. Right.
    Senator Tester. All right. The issue of the five FTEs, what 
kind of savings does that represent of budget?
    Mr. Gainer. Approximately, I think the salary savings was 
$400,000. That would----
    Senator Tester. Is there any other savings that will accrue 
from that, those five FTEs that you are going to pull out?
    Mr. Gainer. I am guessing out-year merit issues and other 
pay adjustments would be affected by that. But the basic salary 
and the COLA would be saved. So probably just close to 
$500,000.
    Senator Tester. Oh, okay. All right. Thank you.
    The payroll system, if I heard the answer to the question 
of Senator Murkowski, was that this was going to be a study to 
see what kind of payroll system you needed?
    Ms. Erickson. Right. I think it is important that we not 
rush ahead, that we take our time.
    Senator Tester. As do I. The question is, is how old is the 
one you have got now?
    Ms. Erickson. Chris, how old?
    Mr. Doby. Twenty plus years.
    Ms. Erickson. Twenty plus years.
    Senator Tester. Twenty plus years. All right. And do you--
and this applies to all three of the entities. Do you do long-
range planning for these kind of things? In other words, 
payroll is something that is going to be around for a while. 
And your payroll system, once you get this one in, it is going 
to be obsolete after x number of years.
    The same thing could be said about the radios. The same 
thing could be said just about everything. I mean, it all is 
going to wear out. It is going to become obsolete. Do you have 
those kind of things within your budget that you set aside so 
much for obsolescence?
    Ms. Erickson. Well, the payroll issue was brought to my 
attention this last year. But----
    Senator Tester. I should ask to begin with, can you even do 
that?
    Ms. Erickson. Can I do that? Well, the two systems that I 
would think of that would be our payroll system and then our 
financial management information system (FMIS) system, which is 
a Web-based system for creating and processing vouchers.
    But I do think that we can do a better job of long-range 
planning, and that is my concern with the payroll system is 
that it is an old system. And I would hate to have the Senate 
in a position where something happens to the system and we 
hadn't done our job to look ahead.
    Senator Tester. Right. I understand. But currently, it is 
not a matter of practice to--and this is a revolving thing. You 
don't have this job forever. So, I mean, but there is not a 
system in place where you plan for that right now, at least not 
in your office?
    And I mean, it is not a negative thing if that is the way 
it is. But if that is the way it is, that is the way it is. I 
am just curious.
    Ms. Erickson. Yes. I think we can do a better job of long-
range planning.
    Senator Tester. Okay. Terry.
    Mr. Gainer. Yes, we do. And in fact, as part of this 
budget, I am trying to do some quick numbers on your question. 
It might be as much as $10 million is built in there to replace 
and upgrade equipment or replace printing equipment or other 
items. And I can get more specific.
    Senator Tester. Okay.
    Mr. Gainer. And we do have kind of a 5-year vision of how 
those affects----
    Senator Tester. Is that public information? Can I get that?
    Mr. Gainer. Yes. You sure can, Senator.
    Senator Tester. Okay.
    [The information follows:]

                      FINANCIAL PLAN FOR FISCAL YEAR 2010--EVERGREEN BUDGET BY EXPENSE TYPE
                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                   111th Congress        112th Congress        113th Congress
                                               -----------------------------------------------------------------
                                                  Fiscal     Fiscal     Fiscal     Fiscal     Fiscal     Fiscal
                                                year 2009  year 2010  year 2011  year 2012  year 2013  year 2014
----------------------------------------------------------------------------------------------------------------
Operations and Maintenance:
    Salaries..................................     66,800     75,044     80,414     86,225     92,260     98,719
    Expenses..................................     83,472     91,712     97,867    101,388     96,722    100,762
                                               -----------------------------------------------------------------
      Total Operations and Maintenance........    150,272    166,756    178,281    187,613    188,982    199,481
                                               =================================================================
Allowances and Allotments.....................     63,118     55,114     55,460     55,826     56,591     57,291
Capital Investments...........................      2,315     15,185      7,982     12,100      8,800      5,821
Nondiscretionary Items........................      4,696      6,450      9,982     10,073      6,145      6,210
                                               -----------------------------------------------------------------
      Grand Total.............................    220,401    243,505    251,705    265,612    260,518    268,803
                                               =================================================================
Staffing......................................        958        963        964        966        966        966
                                               =================================================================
Totals:
    Salaries..................................     66,800     75,044     80,414     86,225     92,260     98,719
    Expenses..................................    153,601    168,461    171,291    179,387    168,258    170,084
                                               -----------------------------------------------------------------
      Total Salaries and Expenses.............    220,401    243,505    251,705    265,612    260,518    268,803
----------------------------------------------------------------------------------------------------------------

    Senator Tester. Chief Morse.
    Chief Morse. Yes. We strategically plan in our budget for 
lifecycle replacement with the things that we know will become 
obsolete or wear out. The radio system, of course, is a more 
robust system that lasts longer than most technology.
    Senator Tester. I understand. Do you have the same kind of 
situation as Terry has? Do you have a 5-year plan or a 10-year 
plan or longer than that as far as replacement of equipment in 
your agency?
    Chief Morse. We do. It may be equipment or technology 
specific, but we do look at each item and strategically plan 
for when it will need to be replaced in the budget.
    Senator Tester. Is that something I can lay my hands on?
    Chief Morse. Yes.
    Senator Tester. And it is not that I want to micromanage 
anybody's agencies. I don't. I just am curious to see where you 
guys put your priorities.
    Chief Morse. Okay. Thank you.
    Senator Tester. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Nelson. Now Senator Pryor.
    Senator Pryor. Thank you, Mr. Chairman.
    Let me start, if I may, with you, Ms. Erickson, about the 
daycare center. The Rules Committee, which we are members of, 
asked was it last year to review and evaluate what is going on 
with the daycare center and to come back with some 
recommendations. What is the current policy about former staff 
members being able to have their children in the daycare 
center?
    Ms. Erickson. Well, it is my understanding that the policy, 
the current policy is that Senate--a sibling of a current 
Senate employee's child or Senate childcare employee's child 
already in the center has preference, followed by a child of 
Senate or childcare center employees. After that preference is 
given to a sibling of a child already enrolled in the center 
who has a parent employed by another legislative branch agency, 
followed by a child of an employee of another legislative 
branch agency. Children whose parents are not employed by the 
legislative branch are further down on the order of preference.
    But that wasn't the case before the study. So you had the 
situation where former staffers who had left the Hill and were 
lobbyists, for example, had their children enrolled in the 
center ahead of current Senate employees.
    Senator Pryor. My understanding, though, is there are still 
22 children enrolled that are children of former staffers. Do 
you know?
    Ms. Erickson. I can get that information and follow up with 
you. But I believe that there are children that have worked 
their way up into the system that are still there.
    Senator Pryor. That are of former staffers?
    Ms. Erickson. Yes.
    Senator Pryor. Okay, yes, I would like to know that. But 
the policy is that if they are former staffers, they shouldn't 
be there. Am I wrong on that?
    Ms. Erickson. Well, that would be a decision for the parent 
board, the cooperative board that runs the childcare center 
with oversight of the Senate Rules Committee.
    Senator Pryor. Okay. I would like to know----
    Ms. Erickson. But I would share your--I mean, my personal 
opinion is obviously that the current Senate employees should 
be given preference.
    Senator Pryor. Right. Yes, I would like to know the facts 
on that, if I may? If you could provide that, I would 
appreciate it.
    [The information follows:]

 [From Senate Employee's Child Care Center Parent Handbook--2009-2010 
                              School Year]

                  ENROLLMENT AND WAIT LIST INFORMATION

    Applications for enrollment will be considered without regard to 
race, color, national origin, religion, sex, or disability.
    A wait list has been established to accommodate the demand for 
child care. Placement on the wait list is determined by (1) priority 
ranking, which is based upon where the parent(s) are employed; (2) 
registration date, which is the date your check for your wait list 
registration fee and your annual Corporation membership fee are 
received at the SECCC (details below); and (3) the age range of the 
vacancy to be filled. Unfortunately, not all applicants will be able to 
enroll because the demand for child care exceeds the current 
availability. Parents are therefore encouraged to place their child, 
expected child, or adoptive child (completed or in a formal adoption 
process) on the wait list at the earliest possible date to increase the 
likelihood that a space will be available at the Center when needed. 
You must have a child, be pregnant or be in a formal adoption process 
to apply for the wait list. Once a space becomes available for a child, 
the parents will be contacted by the Director and given two business 
days to decide whether to enroll their child at the Center. If a 
position is declined, the child will remain in his or her current 
position on the wait list as long as the family remains current with 
annual Corporation dues. Failure to pay annual Corporation dues in a 
timely manner results in removal of a child from the wait list.
    Priority for enrollment is given in the following manner:
  --Sibling of a U.S. Senate employee's child or SECCC employee's child 
        already enrolled in the Center;
  --Child of a U.S. Senate or SECCC employee;
  --Sibling of a child already enrolled in the Center who has a parent 
        employed by another entity of the legislative branch of the 
        Federal Government;
  --Child of an employee of another entity of the legislative branch of 
        the Federal Government;
  --Sibling of a child already enrolled in the Center whose parents are 
        not employed by the legislative branch of the Federal 
        Government; and
  --Child of parents not employed by the legislative branch of the 
        Federal Government.
    A Senate employee is classified as someone who receives his or her 
paycheck from the Secretary of the Senate. A legislative branch 
employee is classified as an employee of the U.S. House of 
Representatives, the Library of Congress, the Capitol Police, the 
Architect of the Capitol, the U.S. Government Accountability Office, 
the Office of Technological Assessment, the Government Printing Office, 
and any other legislative branch activity and spouses of such 
employees.
    In the unlikely event that wait list children have the same 
registration date, the same priority ranking, and the same age range, 
wait list placement will be differentiated additionally by a random 
drawing.
    In order to facilitate transparency of the wait list and assist 
families in making child care decisions, the SECCC offers online wait 
list access to Senate families. The system is accessible through the 
SECCC website and allows individuals to:
  --Enroll as members of the Corporation;
  --Register their child(ren) to be on the wait list;
  --Modify contact and employment information; and
  --Monitor their position on the wait list.
    The online system does not have the capability of accepting 
payments. Therefore, new families that enroll as members of the 
Corporation and register to be on the wait list must deliver or mail a 
check for their wait list registration fee and annual Corporation fee 
to the SECCC in order to activate their account and be assigned a 
registration date. The registration date is the date Corporation 
membership and wait list registration fees are received at the SECCC.
    Non-Senate families may contact the Director to apply and monitor 
their placement on the wait list.
    Families must keep the Center updated with current home, work and 
cell phone numbers, address, employment status and preferred email 
address to ensure that the Center is able to contact families with 
Center information and in the event that a space becomes available for 
a child.

                   RADIO FUNDING IN SUPPLEMENTAL BILL

    Senator Pryor. Chief Morse, let me ask you about your radio 
system. There is $71 million in the supplemental for that. That 
seems awfully high to me.
    I know that Arkansas went through this process a few years 
ago where they put in a statewide system that was 
interoperable, that the idea was that all the counties and all 
the local first responders and all that could tie into the same 
system. I think the cost to do that system statewide was $94 
million, and that was covering 53,000 square miles. And you 
know, you are covering more like 300 acres. So tell me why it 
is so expensive.
    Chief Morse. Certainly. The system and our operations are 
rather unique. In most municipalities, State organizations, and 
some of our Federal partners, there is probably about 80 
percent external use of a radio system, with about 20 percent 
being internal. Here, it is just the opposite. Eighty percent 
of it is internal, and about 20 percent is external.
    That drives the cost because of the infrastructure and 
engineering design that takes place to have adequate coverage 
subterraneally in our garages, subways, and basement areas. So 
that drives the costs. Whereas in an external system, you would 
not have that significant cost.
    Senator Pryor. I can understand how that would drive the 
cost, but not to $71 million. That is an enormous amount of 
money for a radio system.
    Chief Morse. I do have some of the technical experts with 
me. But I believe our coverage would be about 100 square miles 
of area covering a 25-mile radius, which is specific to our 
responsibility for continuity of Government, continuation of 
operations. And perhaps not in this forum, but sidebar, I could 
and the Sergeant at Arms could brief you specifically on that.
    But our operations do not just exist here within the 
Capitol campus. It does reach out far beyond that, and that 
also drives the cost of a system of this nature.
    Senator Pryor. Do you have a breakdown of the costs?
    Chief Morse. Yes, sir. I do.
    Senator Pryor. Do you have a contractor already in place 
that is doing this?
    Chief Morse. No, sir. We do not. This will be an RFP, an 
open competitive bid that will be put out once our engineering 
design is complete for the system.
    Senator Pryor. All right. I would like to see the 
breakdown. Again, not in this forum because I don't want to 
waste my colleagues' time on that, but I would like to look at 
that.

                   SPECIFICATIONS OF THE RADIO SYSTEM

    And also I am curious about the life expectancy of this 
system. It is like what Senator Tester was asking a few moments 
ago about long-range planning. What is the life expectancy on a 
system like this?
    Chief Morse. The life expectancy of this particular system 
is about 10 to 15 years.
    Senator Pryor. And do I understand that it is going to be 
encrypted?
    Chief Morse. Yes, sir. That is one of the pieces of the 
uniqueness of our operations.
    Senator Pryor. Why? Why does it have to be encrypted?
    Chief Morse. Currently, our system is not encrypted. 
Therefore, anyone in the public, press, or another adversary 
could listen to any of our operations. In order to mitigate any 
circumstance that we would have in a critical incident, it is 
imperative that we be able to communicate without others 
listening in or knowing what it is that we are doing to 
mitigate the crisis that we are dealing with.
    So encryption is necessary to protect the legislative body 
as well as visitors and staff that we are trying to protect. If 
we were giving direction to, for instance, shelter in place or 
relocate, and the adversary knew where that was, then it would 
be adverse to the action that we are trying to take.
    Senator Pryor. Do you know how much the encryption adds to 
the cost?
    Chief Morse. I don't have the figure with me, but we do 
have a specific figure for that.
    Senator Pryor. Okay. And I would like for you to provide 
that to the subcommittee, if you could?
    [The information follows:]

                               Encryption

    The table below (excerpted from the USCP budget request) specifies 
the encryption costs associated with designing a radio communication 
system for USCP.
    Encryption.--OTAR, Secure Cards for each Console, Packet Data 
Gateways--$1,300,000.
Notes:
    OTAR (Over-The-Air-Rekeying) is the common name for the method of 
changing encryption keys in a two-way radio system over the radio 
channel (``over the air'').
    Packet Data Gateways (PDGs) integrate alternative Internet protocol 
(IP) access networks into the mobile core and enable delivery of 
services over the IMS (IP multimedia subsystem) control layer. IMS is a 
unified service architecture for all networks.

    Senator Pryor. And I will note that my understanding is--I 
am getting this from just some research I have done--that when 
the District of Columbia went to a new system, in the District, 
it was about $40 million. And I think, to me, $71 million just 
seems way out of line with--and I understand the uniqueness, 
and I understand the challenges, and I understand the old 
buildings and the subterranean nature of some of the things you 
have to do. But that just seems very, very expensive.

                      ADDITIONAL PERSONNEL REQUEST

    And I would like to look at your requirements that you have 
in mind, and I would like to look at that and work with you, 
with the chairman's permission, because that just seems awfully 
high. And I need to look more closely at your budget, but are 
you adding police officers as well?
    Chief Morse. Yes, sir. We are.
    Senator Pryor. And how many are you adding?
    Chief Morse. We are adding 89.
    Senator Pryor. And why?
    Chief Morse. Seventy-six of those are to apply to our 
deployment for our mission in order to reduce the overtime.
    Senator Pryor. Are you basing that on this most recent 
year? How do you make--I mean, is that what you are averaging 
in overtime, the equivalent of 76 additional officers?
    Chief Morse. No, actually, we have had to do a 
comprehensive manpower survey to give us a template in which to 
assess the manpower that we need versus the threat that we 
face. So one of our first bites at the apple with this new 
template is--with the other things that we have to deal with--
for instance, attrition and the ability to have facilities to 
train--is to try to reduce overtime with the new 76.
    The remaining 13 is an enhancement that we are asking for 
with the ability to detect or deter any criminal activity or 
terrorist activity.
    Senator Pryor. Is that counterintelligence?
    Chief Morse. Yes, sir.
    Senator Pryor. Okay. I have a concern about doing 
counterintelligence as well. I am not trying to be a naysayer 
on the Capitol Police because I appreciate what you all do, and 
it is a very important mission. But tell me why you think the 
U.S. Capitol Police should be doing counterintelligence work.
    Chief Morse. First, we--the police department has had 
countersurveillance capability since probably about 2003. We 
know that in terrorist planning for any sort of operation that 
they must first come and surveil. They must first actually come 
to the location and to review the type of operation that they 
are going to do at the facility that they are going to do it.
    One of the ways that law enforcement has found most 
effective in deterring that or discovering that is through 
countersurveillance activities as well as strengthening the 
training and observation and vigilance of our police officers. 
So we believe that with the program that we currently have, 
making it more robust is a benefit to detecting or deterring 
any type of criminal or terrorist activity that may be planned 
for our facilities.
    Senator Pryor. When you talked about that I think you said 
76 or 79 additional officers?
    Chief Morse. Seventy-six.
    Senator Pryor. Are you talking about actually officers in 
uniform that are going to be patrolling the area, or is that 
administrators as well?
    Chief Morse. Those are sworn police officers in uniform to 
be deployed in the field for the various post assignments.
    Senator Pryor. And you already have 1,799 officers?
    Chief Morse. That is correct. That is our current 
authorized strength.
    Senator Pryor. And basically, those 1,800 officers--I mean, 
is it fair to say that they are basically covering about a 300-
acre area?
    Chief Morse. Yes, sir. With also protective operations with 
Members of Congress throughout the United States.
    Senator Pryor. Let me ask, and again, I understand the 
unique mission that the U.S. Capitol Police have and the unique 
circumstances in which you serve and what your responsibilities 
are, but is there--give me a sense of a city that has about 
1,800 police officers right now. I mean, can you point to a 
city or some cities around the country that have about that 
many police officers?
    Chief Morse. I would say probably the county, some of the 
larger counties in the metropolitan area would come close to 
that.
    Mr. Gainer. Senator, would you mind if I just chimed in a 
little bit? Chief.
    Senator Pryor. Sure.
    Mr. Gainer. Because having run the Illinois State Police 
for 9 years, I remember when I came here and had the chance to 
get the chief's job before Phil. Many of the Members of 
Congress said, jeepers, you have a police department up here 
larger than our State police or larger than our county police 
or larger than our city for a substantially smaller area.
    So over these 7 years that I have been around, we continue 
to wrestle with this, and it is not just the officers per acre, 
but it is the demands we put on them. And I can tell you from 
my office now, with Phil, I have made demands on your behalf. 
And I will just give you some for instances.
    The CVC, which I think many thought was going to be the 
panacea for security, really resulted in more doors open for 
the Capitol Police and for the responsibilities of the Senate 
now Sergeant at Arms. Not another single door in this 
institution closed. That just opened more doors.
    And when we look around at all the millions of dollars that 
Congress has given the police department and the Sergeant at 
Arms office to put up the physical security, we take a look at 
Hart and the Hart building, and it is not any top secret issue 
about the openness of Second Street and the vulnerabilities of 
the Hart building.
    So it wasn't too long ago that while the chief and his 
deputies struggled with how to tighten security, that we in the 
Sergeant at Arms office, on behalf of the Senate, said you just 
have to operate different. And they ended up putting, I don't 
know, a dozen or two dozen officers in and around the Hart on 
the streets, on A Street, on Second Street, to try to minimize 
the risk from suicide bombers, improvised explosive devices, 
and trucks.
    And the number of doors that we, the Senate or the House, 
require to be open for the convenience and the egress of 
Members have encumbered that. And so, over the years, the 
Police Board or others have said there are a lot of ways to 
save officers up here. And we could close a lot of doors to do 
that, but there has never been the will on the part of people 
to inconvenience themselves in some respects on door openings 
and in other respects because we have the place open 24/7 to 
provide the access that everybody has.
    Senator Pryor. Well, I will tell you what. I still--my 
sense is that we are heavy in this area, and we are expensive 
in this area. And again, the radio system is a prime example of 
that.
    So what I would like to do is at some point in the future, 
you know, fairly soon, sit down with you and really download on 
the specifics of what your requests are, what your needs are. 
And if you think that we need to close doors, I need to know 
that. You maybe have already mentioned that to the Rules 
Committee or something like that.
    But if you think we need to change some things around here, 
I would like to hear that from you. So let us just set up a 
time sometime in the next week or two where we can really visit 
in detail about it.
    Thank you, Mr. Chairman.
    Senator Nelson. Thank you.

                INCREASE IN STAFF AND EFFECT ON OVERTIME

    Let us stay with the police issue for the moment. Chief, 
your force has grown in manpower by 38 percent since 2000, and 
the overtime has continued to grow steadily as well. In fact, 
between 2006 and 2008, the sworn staff increased by 25 percent, 
and overtime still increased by 80,000 hours.
    I know there is always an argument to be made that it is 
the amount of staff that will dictate whether or not there is 
overtime. But it appears that staff and overtime continue to 
grow at about the same level, and there is another 
countervailing theory that overtime becomes part of regular 
compensation just as a normal happening.
    There does seem to be some correlation between the 
increases here. One would have thought that the increase in 
staff would have decreased the overtime, but that is not 
occurring. Can you help us understand that?
    Chief Morse. Yes, sir. And I don't know that I will be able 
to do that in the limited time that we have. So----
    Senator Nelson. Well, we can plan to talk about it further, 
too.
    Chief Morse. But I would like to just sort of give you a 
broad brush of what might be able to answer the question. Is 
that one of the most significant tragedies in my career here at 
the Capitol Police occurred in 1998 with the loss of our two 
police officers.
    And since that time, we have had 9/11, anthrax, and ricin. 
And with each of these incidents have really come new missions. 
Some of the missions have been related to physical securities. 
Some have been related to post standing, and many have been 
related to technology. So the increase that I have seen, as a 
police officer here since 1985, has been directly related to 
posting of new posts, new technology, and physical securities.
    A lot of our overtime certainly is generated by things that 
we cannot control, and sometimes that is affected by the 
environment in which we live. For instance, last year we had 
many war demonstrations that we did not expect. We have had 
many significant demonstrations this year. One most recent, the 
Power Plant. And I just learned recently there will be a 
significant event on May 30 down at the Lincoln Memorial.
    So there are many unexpected events that take place here on 
the Capitol grounds as well as off the grounds that Capitol 
Police have authority and responsibility for.
    What I do want to assure you is that the Capitol Police, my 
managers, the professionals who are sitting behind me, do have 
a plan to be as efficient and effective as we can with our 
people. We, as I mentioned earlier, have recently gone through 
a manpower study. That manpower study gives us a template that 
is--its foundation is threat based, which came through our GAO 
recommendations.
    What we are trying to do now is apply that to every program 
that we have and every facility that we have. Two facilities 
that are--one is most recent to us and one that will be coming 
in October, the CVC and the Library of Congress. We have not 
yet been able to apply that template, but we will.
    In addition to that, we have looked at many programs where 
technology can replace people, and we are working on doing that 
as well. So not only does the Enlightened Leadership Solutions 
(ELS) study help us--the manpower study by ELS helped us to 
better effectively ask you for people, but it could also result 
in decreasing the size.
    So this is really a very lengthy process. It is one that we 
take very seriously. We understand the sensitivity of the 
growth and the budget, and we are working very hard to not only 
minimize over time, but have the most effective and efficient 
use of our people for the safety and security of the complex.
    Senator Nelson. Well, I hope the report will enlighten us 
because if I understand the numbers right, by adding 55 FTEs, 
you will save $2.5 million. However, the cost of the 55 FTEs is 
$3.7 million. So we get worse off under those numbers by adding 
individuals. We would be better off to spend $2.5 million 
rather than $3.7 million.
    So I hope that as you work through this manpower study that 
you will be able to help us better understand how there will be 
true reductions, bottom-line reductions.
    Chief Morse. Yes, sir, Mr. Chairman. We will do that.
    Senator Nelson. Thank you.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    Chief Morse, I want to go back to questions about the radio 
system that Senator Pryor was discussing with you. We are 
talking about a total cost now of $71.6 million. I would agree 
it seems extraordinarily high, and I think it is important that 
we fully understand and appreciate all that is going into this.
    How confident, though, are we really about this as a cost 
estimate? It is my understanding that when you were first 
looking at this, there was a rough estimate back in 2007 that 
the total of this radio system would be about $35 million. So 
we have essentially doubled it in a 2-year period. So is $71.6 
million a number that we can really believe in?
    Chief Morse. $71.6 million was the request that we had in 
the 2010 budget and for the supplemental. There is an 
engineering design study taking place right now for the 
infrastructure of the building, and we could expect to ask for 
$8 million to $16 million more in the 2011 budget, depending on 
the results of the engineering design and coverage for the 
system itself.
    So we are still what we have done is with the current $71.6 
million request is had many people review the technical 
requirements and the technology associated with that, and we 
are comfortable that those figures are accurate.
    Senator Murkowski. Accurate, but what you are saying is 
that it could be anywhere from $8 million to $16 million in 
addition to the $71.6 million after we get this engineering 
design proposal back?
    Chief Morse. Yes, ma'am.
    Senator Murkowski. So it is getting worse.
    Chief Morse. The cost will rise, yes.

                    MANAGEMENT OF THE RADIO PROJECT

    Senator Murkowski. Okay. How are we going to ensure that we 
will have proper management of the procurement to ensure that 
once we identify what that cost is that we stay on budget and 
on time?
    Chief Morse. Let me first just add one other figure--that 
we did receive $10 million back in the 2007 supplemental to go 
toward the radio system.
    But to answer your second question, we have designed a 
five-phase approach to this. It is a 36-month project. We have 
through the Economy Act looked at Naval Air Systems Command 
(NAVAIR) systems, who have expertise not only with some of the 
existing technologies here on Capitol Hill, but also the 
procurement capabilities and the expertise in that field to 
augment our staff. They have a team and integrated approach and 
will be our consultants.
    In addition to that, we have had the RFP and the technical 
requirements as well as the engineer design reviewed by the 
Government Accountability Office as a safeguard that we are on 
track and doing things right.
    Senator Murkowski. Let me ask about some of the 
administrative issues, and I will echo what was said earlier in 
recognizing the accomplishment of a clean opinion from the 
auditors on the financial statements.
    I do understand that we do have some areas of improvement. 
But there are some 85 open recommendations from GAO or the 
inspector general on the need for improved internal controls, 
whether it is improved asset management, control of travel 
vouchers, payroll processing, information security.
    And you ticked off a few of those areas that have been 
closed out, but given what you have outstanding, what would you 
say are your biggest challenges in resolving these 
administrative deficiencies? Where are your highest priorities 
here?
    Chief Morse. Well, we do prioritize our recommendations. We 
try to go for the low-hanging fruit, the ones that don't cost 
us a lot of money, and get those out of the way first.
    Our biggest challenge is really the people to get this 
done. We have been struggling with that. Most of our folks who 
are working on this, working very hard on this, have other 
duties and responsibilities within the agency. But they work 
very hard to prioritize this. Our chief administrative officer 
works very closely with the Office of Inspector General. We 
have a great working relationship with the Government 
Accountability Office.
    And we try to prioritize these recommendations based on 
risk to our organization. So the ones with the most risk we go 
after first. So we keep track of this. We can actually produce 
a document for the record or for your review that can see how 
we manage the recommendations, how we go about closing them, 
and how we interact with the GAO----

                     ONGOING ADMINISTRATIVE ISSUES

    Senator Murkowski. Well, I would appreciate that. If we 
have got 85 that are outstanding that need to be resolved, it 
is one thing to go after the low-hanging fruit, but if you have 
issues out there that are problematic and have been problematic 
for a period of time, I know that the inspector general has 
recently reported that you didn't have adequate spending 
controls on travel. And I don't know whether or not those 
controls are being put in place.
    I also understand that there were problems with the payroll 
processing, the need to make sure that we have got timekeeping 
records that are adequate. And following in the chairman's 
concern about overtime, is this an issue and an area that needs 
to be placed higher on the priority list?
    Can you just speak to these two? If, in fact, your auditor 
has indicated that with the payroll processing that this is a 
material weakness for you, when do you get to that point where 
you implement those recommendations from the audits?
    Chief Morse. Well, let me just start by saying that by 
getting that clean financial statement, we very aggressively 
went after the recommendations in our financial management. 
That was our most risk to our organization. And I think the 
fact that we were able to obtain clean financial opinion a year 
earlier than we were directed to do so shows the aggressiveness 
in which we go after these recommendations.
    Many of the recommendations that you just mentioned, for 
instance, the travel vouchers, et cetera, we are actively 
working on closing those recommendations as well as many other 
GAO recommendations. We----
    Senator Murkowski. Do you think you are going to have a 
clean report again this year?
    Chief Morse. Absolutely. And our Office of Inspector 
General and the Capitol Police Board, we really work together 
to make--to find out what we need and prioritize what we need 
as an organization, what the Board would like the Capitol 
Police to expound upon, and what the Capitol Police needs.
    We work together so that we are not overwhelmed or 
inundated by audits. So we try to work closely together. We try 
to identify what causes most risk to the organization, and we 
are very transparent about that. We accept the fact that we 
have weaknesses. We accept the fact that we have challenges, 
and we work together to address them.
    So we would be happy to show you how we do that and much of 
the accomplishment that we have had in the last 2 years.

                           CIVILIAN STAFFING

    Senator Murkowski. Let me ask one more question before I 
turn it back to my colleagues here, and this is on the civilian 
staffing. I understand that you currently have about 75 
civilian vacancies, about 15 in the Office of Human Resources. 
Another 21 civilian positions have been requested in fiscal 
year 2010. Tell me why you need these additional positions and 
the prioritization, if you will, for these slots.
    Chief Morse. With respect to some of the civilian 
positions, they are ones that will be coming to us from the 
Library of Congress. There are 23 new positions, 19 of which 
were submitted in previous budgets, and 4 of those are related 
to the radio system, technical experts to do the radio system.
    We also have been working very hard as a part of our audit 
is to reevaluate each position and, in some cases, rewrite 
position descriptions, which has added some delay in those 
positions. Currently, of the 79, we have 25 of which are in the 
hiring phase right now, along with 25 which are currently being 
announced, and we are preparing advertisements for 22 others 
and then the----
    Senator Murkowski. And in what areas would those be, these 
new ones that you are announcing?
    Chief Morse. Those are already approved positions.
    Senator Murkowski. Okay.
    Chief Morse. So of the new 23----
    Senator Murkowski. These are not the 21 that you are then 
requesting in fiscal year 2010?
    Chief Morse. That is correct.
    Senator Murkowski. Okay. So you have got these 23 that you 
are filling that have already been authorized, and you are 
seeking then an additional 21?
    Chief Morse. Yes, ma'am.
    Senator Murkowski. And in what areas would these additional 
21 be?
    Chief Morse. They would be helping us with the audit 
findings. Those are specific to the audit findings or the 
intelligence enhancement, or radio engineering. We have 
requested one diversity officer and training coordinators, 
which are for another program we are working on within our 
Training Services Bureau, a budget analyst, an accountant, 
legal administrative assistant, and then a mission assurance 
bureau person. So some are related to audit findings to help us 
improve in those areas. Some are related to the radio and 
information technology, and others are related to the Training 
Services Bureau and our finances.
    Senator Murkowski. Well, Mr. Chairman, I know that the GAO 
has been closely involved in reviewing these administrative--
not only the administrative problems, but some of the staffing 
issues. I would like to hear what their recommendations are on 
the need for these additional positions and just understand.
    It seems to me that at this time we don't need to be 
necessarily adding more and more and more in terms of staffing, 
we are doing that in very many areas, and I will express my 
concern about it. I would like to understand the need more.
    Senator Nelson. I believe we can probably obtain that 
information. Is that accurate?
    Chief Morse. Yes.
    Senator Nelson. Well, let us do that. Let us get that 
distributed to the subcommittee for our review.
    Senator Murkowski. Appreciate it.
    Senator Nelson. Thank you, Senator.
    We understand that the number for the radio project is well 
established. Now I am a little unclear because I heard you say 
$71.6 million as the base, but that is after $10 million that 
has already been put in. So this is a multiyear process. What I 
am trying to find out is the additional $8 million to $16 
million, this is the total as it all comes together so that it 
won't change? Is that fair?
    I am just trying to understand that the costs are 
established and they have been because it is a multiyear 
process that is going on here. Is that accurate?
    Chief Morse. Once we do the engineering design phase within 
the infrastructure of the buildings, the additional cost for 
indoor requirements could be $8 million to $16 million.
    Senator Nelson. Eight to 16.
    Chief Morse. There was $10 million given to us in 2007.
    Senator Nelson. Right.
    Chief Morse. And then the request for $71.6 million.
    Senator Nelson. Does not include that $10 million already 
received or the additional of $8 million to $16 million?
    Chief Morse. That is correct.
    Senator Nelson. There is not another part of the project 
that is not included within those numbers?
    Chief Morse. That is correct.
    Senator Nelson. Okay. I just want to get that for the 
record so we have the total numbers. I was unclear. I 
appreciate that.
    Let us see now. If you didn't have the radio project in 
place and you didn't have that capability that the radio 
project is going to give you when it is complete, what are the 
implications for security on the campus?
    Chief Morse. Let me just give you real quick the status of 
our current system. We are unable with our current system to be 
interoperable with any of our partners who would respond here 
to assist us in the event of an emergency.
    Senator Nelson. And they would be who, the partners?
    Chief Morse. It would include the fire departments, the 
local police, and other Federal agencies. The other concern is 
that we most recently were contacted from one of the vendors on 
our dispatch technology who said they could no longer service 
it because it was outdated.
    And we have experienced pretty routinely both software and 
hardware failures with our system, and at one point within the 
last 3 years, we had a complete failure of the system. 
Therefore, it would cripple our ability to communicate with 
each other in a critical incident situation should that system 
fail, which is, like I mentioned before, is one of the three 
critical life safety tools for a police officer, and a life 
safety tool for the legislative process.
    So we are obviously very concerned about that. That is why 
we brought it as a priority. This was originally looked at in 
2005 to begin the process of replacing the system.

                    OVERTIME AND ADDITIONAL STAFFING

    Senator Nelson. Switching now, going back to the overtime 
and additional staff question, let me just see if I am clear 
here. Is your goal to eventually eliminate the use of overtime 
in your day-to-day operations, or are you intending to use a 
combination of overtime and onboard staff? And have you 
established what positions are better utilized through the use 
of overtime if you plan to continue to have overtime?
    Chief Morse. We plan to use a combination. As I mentioned 
before, in some cases, we are using technology, and I could 
provide that information to you in a sidebar. But we are using 
technology that will decrease the number of officers we need to 
do a specific mission. Therefore, we can put them back into the 
field.
    In other instances, by adding, for instance, the 76, we can 
perhaps downsize the amount of overtime that we are using and 
enhance our capability with our mission. So we are using a 
combination of technology as well as redeployment of our 
personnel.
    We have also worked very closely with our oversight 
committees in detail, for instance, we're checking how many 
people come through a specific door during a specific time. And 
the committees have worked with us, for instance, at adjusting 
the hours of those doors.
    So we have done things on the very low level and on the 
very high level to try to lower the amount of overtime and have 
the most efficient and effective use of our police officers. So 
it is a challenge. I don't know that we could ever eradicate 
overtime because there are so many variables that come with 
that. For instance, the special events and demonstrations, et 
cetera, that I had mentioned before, just to name a few.
    Senator Nelson. It appears you are having some difficulty 
attracting and retaining civilian personnel, some in positions 
that are quite critical to your mission. How many civilian 
openings would you have at the present time and why?
    Chief Morse. There are 79 or 78 vacancies that are 
currently open. As I was saying earlier, in some cases, we are 
reevaluating the need or the position description or 
reclassifying it to meet our current mission. Many of the 
recommendations that we receive change the way we do business. 
We are trying to do business more efficiently.
    So some of the delays have been with redoing the position 
descriptions. But as I mentioned before, many of these are in 
the hiring process currently, and they passed me a note that 
most recently we just hired four additional personnel. But 16 
are in the hiring process. Twenty-five have vacancy 
announcements out right now.
    So as fast as we can make sure or ensure that these 
personnel are the positions that we need, that we have the 
right person in those positions, then we will, in fact, fill 
them.
    As far as retention is concerned, there is a turnover, and 
some of that has been remedied by simply answering 
recommendations and gaining control and organization over these 
entities and ensuring that we have a strategic plan for where 
it is that we are going to go. And one example of that is our 
Office of Financial Management, where we have current 
tremendous leadership, which resulted in a positive thing for 
the police department.
    But in hiring some of these additional personnel and some 
of the reclassifications, we will do some of the things that 
the other Federal agencies do with regard to retention 
benefits, where we could be more attractive to those from the 
private industry as well as other Federal agencies.
    Senator Nelson. Well, my final question is relating to 
those 13 additional officers for counterintelligence. Have you 
considered in some way partnering with the Department of 
Homeland Security (DHS) or some other agency, perhaps even the 
Federal Bureau of Investigation (FBI), to attract that kind of 
capability rather than try to develop it within the police 
department yourselves?
    Chief Morse. Well, first, let me say that we have wonderful 
relationships with our area law enforcement agencies. We do 
have liaisons at the major intelligence organizations as well 
as DHS, the FBI, Central Intelligence Agency, the Defense 
Intelligence Agency, the metropolitan police fusion center. So 
we work very closely with them. And I won't speak for any one 
of those agencies specifically, but the countersurveillance 
capability is taxing on their own specific mission.
    We are, as you know, the only Federal law enforcement 
agency who has authority and responsibility for protecting this 
branch of Government. And we feel that it is our responsibility 
to recommend that a more robust countersurveillance operation 
would minimize the risk of any criminal or terrorist activity 
that could be planned for our facility. And certainly no one is 
more dedicated to protecting this legislative body than the men 
and women of the United States Capitol Police.
    Senator Nelson. Senator Murkowski.
    Senator Murkowski. One final. The President's budget is 
about an 8 percent increase over last year, if I remember 
correctly. What would happen if we were to set that standard 
within the legislative branch? Right now, we are looking at 
about a 15 percent increase.
    What would that mean to you in terms of your budget and 
your priorities if you were told you got about 8 percent 
increase over last year? Where would you go? We will start with 
you, Ms. Erickson.
    Ms. Erickson. Well, I think I am in the best----
    Senator Nelson. You would have to raise yours, yes.
    Senator Murkowski. Yes. We will start with the easy one.
    Ms. Erickson. I think I am in the best shape of the three 
of us. My operating budget has remained the same, and I will 
say we look for every opportunity to cut costs, down to our 
Senate librarian who just renegotiated some vendor contracts 
and saved $352,000 over 4 years.
    I personally look at every voucher, and I can say our chief 
employment counsel's attorneys have cut back on their travel or 
look for conferences that are held in Washington, DC, rather 
than traveling across the country. So we take that 
responsibility very, very seriously.
    The budgetary impact for our operation would be salary and 
that would mean that I would not be able to offer a COLA to our 
employees or implement our employee performance program for 
merit pay, which, with few exceptions, is capped at 3 percent. 
So that would be the impact for the Secretary of the Senate's 
employees.
    Senator Murkowski. What is the longevity of the employees 
within----
    Ms. Erickson. We have very low turnover. We have I think it 
is 3,000--if you add up the total, we have 3,000 years of 
Federal experience, 238 employees. So there isn't a lot of 
turnover, but there are employees who have a great deal of 
institutional expertise that we hope to keep for a long time.
    Senator Murkowski. Terry, how would you reprioritize if you 
had to?
    Mr. Gainer. I would eliminate the $2 million that I have 
asked for Nancy.
    Seriously, I wouldn't do that because she pays us, too.
    Most of what we do, aside from the salary issues, are 
really for your benefit and your offices. So, number one, we 
would work with you and see how to scale that back.
    But it is really, I think, adjusting the Members' and their 
staffs' and your 450 State offices' expectations so that each 
year, for instance, when we add money in to try to get more 
bandwidth so that your computer works quicker in your home 
State, we would scale that back. And rather than have someone 
come and repair the computer in your office within 30 minutes, 
it might take 2 days.
    So we can adjust that, and we would work with you to try to 
figure that out.
    Senator Murkowski. Chief Morse.
    Chief Morse. Well, it would certainly take some very 
serious analysis to prioritize what we would lose by that. I 
would fear that a lot of our lifecycle replacement that we 
talked about earlier in our technology that helps safeguard the 
campus would be at jeopardy, along with hiring.
    We certainly talked about a significant amount with the 
radio system that is critical to the life safety not only for 
our police officers and employees, but for the legislative 
process. And if we were to still go with the radio project, 
then that would significantly impact other areas of the police 
department.
    Our employees are certainly here and dedicated to you under 
any condition, and I would be remiss if I didn't say that I 
would want to take care of them first.
    So I think that a lot of the significant areas of concern 
would be mostly with the technology, the lifecycle replacement, 
the radio system, and hiring, which I think would probably 
cascade on us as the years went on. We would probably never be 
able to recover from the not hiring.
    Senator Murkowski. Appreciate your responses.
    Thank you, Mr. Chairman.
    Senator Nelson. Thank you.

                     ADDITIONAL COMMITTEE QUESTIONS

    And I would like to personally thank our witnesses for 
attending today's hearing and providing us with their excellent 
responses.
    [The following questions were not asked at the hearing, but 
were submitted to the agencies for response subsequent to the 
hearing:]

                  Questions Submitted to Terry Gainer
               Questions Submitted by Senator Ben Nelson

                    FISCAL YEAR 2010 BUDGET REQUEST

    Question. If the Legislative Branch Appropriations bill for fiscal 
year 2010 is held to current year levels, what will be the impact to 
your agency's operations and on the day to day operations of the 
Senate?
    Answer. We understand that the Committee may face challenges in 
preparing the fiscal year 2010 Appropriation. If we are held at the 
current level, we will examine all of our initiatives and establish 
priorities that reflect the funding allowed. We will review spending on 
capital investments and maintenance; we will defer expenditures for new 
equipment to the extent that we can. We will work with Committee staff 
to ensure that all Senate priorities are funded.
    Question. Your organization has requested a 10 percent increase--to 
$243.5 million in fiscal year 2010. As we have discussed, increases are 
going to be very difficult in a tight budget year. Regardless, the SAA 
has grown from an enacted budget of $109 million in fiscal year 2000 to 
well over $200 million in the current year. I, like most Members, have 
a great deal of respect and gratitude for the work your organization 
does around here--but do you mind spending a couple of minutes telling 
us how you got from there to here in terms of budget and staffing? 
Where do you see the trend line moving in the next few years?
    Answer. Our organization has changed dramatically since 2000. To 
set the stage, in 2000 our budget was just about $100 million. In 
fiscal year 2009, our budget is $220 million. We had 780 employees then 
and have 958 now. In almost all respects, we no longer are the same 
organization. Let me give you some specifics of the changes.
    With the exception of POSEP (formerly OSEP), generally, the 
responsibilities of the SAA have not changed since 2001. However, the 
scope of those responsibilities has expanded materially. Our goal is to 
support Senate offices to enable Members and staff always to more 
effectively manage their business and communicate with their 
constituents. It takes people and money to initiate, implement, operate 
and maintain the infrastructure that provides the systems and services 
to the Senate. In a sense, we do this so that you don't have to. More 
specifically, here are some of the changes that have occurred over the 
years.
    Post Office--receipt and delivery of mail in 2001. Today, receipt, 
inspection and delivery of all mail and packages to Senate offices. We 
have our own offsite facility for mail and package inspection.
    Warehouse--in 2001, we operated four warehouse locations. We now 
have a central facility double the size if the four locations that is 
modern and functional for all of our needs.
    PGDM--in 2001, old press model. Since then, all equipment is 
digital and run by computer operation. This improves resource use and 
quality of printed products.
    Recording Studio--complete conversion to digital High Definition 
since 2001 replacing an infrastructure that was entirely film based. 
Combined with the Hearing Room upgrade project, we can remotely manage 
and broadcast about 12 hearings at the same time. Previously, we were 
able to film three at once.
    CIO Organization--small infrastructure in 2001 with limited backup 
capabilities. Today, we have a fully operational alternate computer 
facility that serves as a real time back up site for all major Senate 
applications and for data storage for many Senate offices. Our primary 
service contracts are all performance based. We have very high 
performance standards which the contractors regularly meet. This is, of 
course, costly.
    We also have state-of-the-art network monitoring capabilities that 
protect the Senate networks from attack. This Security Operations 
Center also has a back up at the ACF.
    As more processes can be automated and managed electronically, we 
have added those applications to our inventory. These applications 
improve customer service, management of our processes and enable new 
services to be offered in a cost effective manner. Applications that 
come to mind include TranSAAct (for managing parking and ID requests, 
floor privileges and SAA billings), MCS (for requesting BlackBerry and 
cell phone services) and the IT Catalog (for ordering computer 
equipment). All Senate offices use these systems.
    In addition to BlackBerrys and cell phones, there are other 
wireless technologies that are expected to expand in the future and we 
must be prepared to support wireless services demanded by Senate 
offices.
    Additionally, we have the ability to set up an alternate Senate 
site, chamber and offices, through the use of satellite and 
communications vehicles. Prior to 2001, there was no such capability.
    POSEP--in 2001, the office did not exist. Since then, the office 
provides nationwide office outreach for security planning and response. 
POSEP leads the Senate's COOP program and coordinates with other 
agencies in the planning and development of COOP and other exercises 
and training events.
    Question. I recently received tea bags in the mail, as did many of 
my colleagues as a result of the organized tax day protests last week. 
Obviously, these envelopes had been subjected to a significant amount 
of screening. Do you mind updating me on the mail and package screening 
processes utilized here in the Senate?
    Answer. All United States Postal Service (USPS) letter mail 
addressed to the Senate zip code 20510 is irradiated by a USPS 
contractor. After irradiation, all mail is x-rayed, opened and tested 
for contaminants at an offsite facility operated by Senate Post Office 
employees, prior to delivery to the Senate office. The mail is 
quarantined, awaiting clear test results.
    Packages are not irradiated. All packages addressed to the Senate 
zip code 20510 are delivered to the same offsite facility operated by 
Senate Post Office employees. Packages are x-rayed, opened and tested 
for possible contaminants, prior to delivery to the Senate office. The 
packages are quarantined, awaiting clear test results.
    The Senate Post Office operates an on-campus facility for expected 
courier deliveries to Senate offices. The items are x-rayed, opened and 
tested for contaminants. Expected items are delivered by the Senate 
Post Office, after the items have clear test results.
    Under no circumstances should anyone bring mail and/or packages 
into the Capitol or Senate buildings that have not undergone the 
Senate's mail and package testing protocols. Tested items are clearly 
marked and are delivered by uniformed Senate Post Office employees 
bearing a Senate ID.
    We provide safe mail handling training for Senate state offices. 
Additionally, our science advisors developed the Postal Sentry, a 
device designed to contain contaminants that a terrorist could send in 
an envelope.
    Question. Your expense budget includes an increase of $15 million--
or 10 percent this year. Yet your office has identified substantial 
multi-year unobligated balances and savings--much of that resulting 
from savings in your Information Technology investments. Can you take 
advantage of prior year savings to reduce your fiscal year 2010 
request?
    Answer. Yes. We will work with the Committee to use these funds in 
a manner that meets your needs.
    Question. Most of the Legislative Branch agencies--including yours 
have requested significant increases for technology development 
upgrades this year. Since most of your prior year unobligated balances 
reflect savings in IT what can you do to improve budgeting for these 
large-ticket items?
    Answer. In some cases, we have already refined our budgets for the 
items that produced the savings. In the other cases, we are reviewing 
our cost estimates and contracts to determine if we can improve our 
budget processes.
    Question. You are requesting funding for five new FTEs--bringing 
your total FTE up to 963. What is your current on-board staffing level? 
Will you work with my staff to arrive at a fiscal year 2010 funding 
level that better addresses your on-board staffing level?
    Answer. We withdraw the request for the additional five positions. 
Our managers will prioritize positions and fill those most necessary to 
complete their respective missions. We have 905 on board at the end of 
April 2009. And we will work with Committee staff to refine our salary 
funding needs for fiscal year 2010 that addresses current and expected 
staffing levels.
    Question. I understand the Senate has invested some $20 million on 
a new telephone system, but that it has been somewhat delayed. What is 
the status of the $20 million telecom modernization project--when will 
it be complete?
    Answer. The Telecom Modernization Project is nearing the end of the 
Final Engineering and Design phase. While this phase took much longer 
than expected, it served its purpose in that we have modified the 
proposed design to better meet the Senate's needs. To begin addressing 
operational issues, we will implement a new voicemail system this fall.
    We are currently preparing for a testing phase to validate the 
design. Upon successful completion of testing, we will order and 
install the equipment which will take about 6 months. We expect to be 
piloting the solution within the Sergeant at Arms organization in the 
spring of 2010 and making it available to offices in the summer. The 
time it takes to migrate all offices to the new system will depend on 
the willingness of the offices to migrate, and could take as long as 3 
years.
    Question. Your salary budget increase totals nearly 13 percent 
which is very high. In your budget submission you used a 4.5 percent 
increase as your COLA base. Other Legislative Branch agencies used a 
2.9 percent formula for their COLA. Why was yours higher?
    Answer. We base our COLA on the most recent base COLA amount plus 
an estimate of the locality adjustment. At the time the fiscal year 
2010 budget was prepared, the general base COLA was 2.99 percent to 
which we added an estimate of locality of 1.5 percent. That resulted in 
the 4.5 percent amount used in the fiscal year 2010 budget. We included 
the COLA for 9 months of 2010 (January through September).
    Question. Your fiscal year 2010 request includes $5 million for 
hearing room upgrades. How much have we invested in this effort so far 
and how much longer will this item be included in your request?
    Answer. The Committee on Rules and Administration selects the rooms 
and identifies the requirements for this project. Since 2003, 21 
hearing rooms have been completed and $25.4 million has been funded for 
this project. Another 11 rooms have been identified as future rooms for 
renovation and upgrades. We anticipate that, with our funding request 
for fiscal year 2010, we will complete the hearing room upgrades that 
we have been tasked to do.
                                 ______
                                 
              Questions Submitted to Phillip D. Morse, Sr.
               Questions Submitted by Senator Ben Nelson

                                 RADIOS

    Question. We understand that the engineering design for the radio 
project is scheduled to be complete at the end of 2009. If you obtain 
supplemental funding for this project would you be able to accelerate 
the purchase of any portion of this project prior to December?
    Answer. Yes, if we could get supplemental funding in fiscal year 
2009 it would permit us to begin the acquisition process for segments 
of the project as soon as the detailed engineering design is completed 
for each item; this would permit us to roll out these segments much 
sooner than we would otherwise be able to do. We believe that the 
nature of the radio modernization project comports with the intent of 
emergency supplemental bills, which frequently fund ``pressing domestic 
needs''. This new system is critical to our ability to effectively 
address anti-terrorism, and the continuity of government operations.
    Question. Would there be any advantages to acquiring increments of 
this system prior to the completion of the final design?
    Answer. As the design engineering study progresses, and technical 
issues are identified, we would be able to begin to contract to acquire 
the technology to meet the specifications the engineering study 
indicates (such as purchasing certain antennas, repeaters, cabling, 
etc.). Additionally, contracting can commence once a final 
determination on the mirror site has been recommended and approved. The 
principal advantage of being able to proceed with procuring increments 
of the project would be overall implementation several months sooner 
than if we were to wait to begin any procurement activity until all of 
the engineering design is complete. The procurement process itself can 
be lengthy. The sooner we are about to begin that process the sooner 
the radio system will be able to go live.
    Question. Can you briefly outline for me what vulnerabilities or 
disadvantages we continue to have in the Capitol Complex by not having 
this technology in the event of an emergency?
    Answer. The most significant vulnerability is our current inability 
to effectively communicate with other first responders as well as some 
of our Legislative Branch partners. In addition, the reliability of the 
current 20-year-old system presents an unacceptable risk of a complete 
system failure during an emergency situation. Also, there are places in 
the Capitol Hill complex (e.g., the Capitol Visitor Center, new 
tunnels, garage areas and other subterranean locations) that the 
current system was not designed or intended to cover and where reliable 
radio communication cannot be expected.
    There are three critical life safety tools for a law enforcement 
agency: proper weapons, protective equipment, and reliable 
communications. Our current communications system is an antiquated 
analog system without interoperability capabilities, and it is not 
encrypted. In many cases, it has been failing us both in the hardware 
and software areas. We most recently had one of our vendors call us to 
say that they could no longer service our dispatch equipment or 
technology because of its age. In the threat environment in which we 
work after 9/11, it is critical that we be able to communicate with our 
partners in a critical incident situation, which we currently cannot 
do. Additionally, we have experienced dead spots with our current 
system. This makes us unable to receive subterraneous communications in 
some of our garage areas, tunnel systems, subways, etc. Part of the 
reason for this is the lack of cabling, antennas, etc., in areas where 
essential communication could not have been foreseen over 20 years ago 
when the system was put in place. In view of the these issues, we 
believe it is critical that we move towards modernizing our radio 
system as soon as possible to ensure the continued safety of Members, 
staff and visitors on the Capitol Complex.

                                OVERTIME

    Question. You are requesting $3.7 million for 55 FTE to reduce your 
overtime to about 10 percent. What percent of overtime are you 
utilizing right now? Is your overtime in a ``pool'' where officers who 
want to work overtime can do so while officers who prefer not to can 
elect to defer? Aren't some of these officers depending on overtime to 
augment their salaries?
    Earlier this year USCP worked with the GAO to review and validate 
our methodologies in the computation, management and reporting of OT 
and utility of officers. The ACOP was notified by the GAO that the 
methodologies were using were consistent and measurable to allow proper 
management and control of its personnel and distribution of OT across 
USCP for controllable OT.
    In the utilization of Load Leveling USCP uses this methodology in 
conjunction of its Officer Voluntary Reassignment Program (OVRP) to 
staff division so that there is fairness in the use overtime across its 
divisions. USCP staffs most of its divisions between 80 percent-90 
percent to regular requirements and available and qualified personnel, 
the remainder requirements are staffed with overtime.
    Regular requirements include the following:
  --The difference between the total Uniformed Services Bureau (USB) 
        post hours and the total USB officer availability (USCP has 
        deemed that each available officer is available 1560 hours per 
        year).
  --The difference between the average usage of overtime used by 
        specialty assignments and the total specialty assignment 
        officer availability (USCP has deemed that each available 
        officer is available 1560 hours per year).
  --Specialty assignments include Containment Emergency Response Team 
        (CERT), Dignitary Protection Division (DPD) (in-town), 
        Hazardous Devices Section (HDS), Hazardous Materials Response 
        Team (HMRT), Security Services Bureau (SSB)) and a minimal 
        amount of supervisory overtime.
  --46 K-9 handlers are currently receiving handler pay; handler pay is 
        30 minutes of additional duty per day paid to the handler to 
        provide care for the K-9 after normal duty hours.
    USCP must also abide in the distribution and assignment of OT based 
on statutory Pay Caps and agreements stated in the Collective 
Bargaining Agreement (CBA). The Office of Human Resources (OHR) and 
Office of Financial Management (OFM) continuously monitor and control 
this area to ensure that no officers exceed these amounts. 
Additionally, Officers direct supervisors determine whether an Officer 
is operationally qualified, eligible and authorized to stand any 
overtime.
    In fiscal year 2009 USCP has had several variable and unscheduled 
OT requirements which are monitored through coding in the time and 
attendance system. USCP has some control of the use of overtime in 
these areas but a majority of these requirements for OT are event, risk 
and threat or member driven and are staffed to maintain the appropriate 
levels of protection and security for the facilities and personnel. 
Some examples are DPD out of area OT, Extended Sessions, House and 
Senate Codels, additional post to the Opening of the CVC, Earlier 
opening of the CVC, special events such as the Capitol Power Plant 
Protest, and ANSWER Demonstration. The level of staffing for the above 
mentioned items are based on the risk and threat associated with them.
    Overtime is allocated evenly within organizational units, but some 
units are required to work more overtime by the nature of their 
assignment. For example, House and Senate Chambers are required to stay 
when Congress is in session late, as is the Dignitary Protection 
Division. However, officers who don't want to work overtime (or 
overtime at the particular time they are scheduled to work) can ask 
someone else to work their hours. Therefore, there is substantial 
variance in how much overtime officers earn per year, although the 
majority earn less than $10,000.
    We have not conducted any analysis to determine whether and to what 
degree officers rely on income from overtime to augment their salaries.
    Question. Your budget request suggests we will realize a savings in 
overtime of $2.5 million if we fund the additional 55 FTE you've 
requested for this purpose. Yet the 55 FTE will cost $3.7 million. This 
seems like a negative savings to me if we spend $3.7 million to save 
$2.5 million of taxpayers' money. Can you explain your rationale in 
making this request?
    Answer. In the first year of funding for additional FTE, it is true 
that adding them would cost more. The cost of recruiting and outfitting 
the new officers alone is substantial, and benefits add to the cost. 
However, not all of the benefit that would derive from decreasing 
overtime would be realized in the first year of the additional 
recruits' tenure, since they would be in training for approximately 6 
months. The full benefit in terms of reducing overtime happens once 
they complete their training, in 2010, 2011, and thereafter.
    In addition, although we have not directly analyzed how working 
prohibitively long hours, or sequential shifts, may affect the 
effectiveness of the officers who are protecting the Capitol and its 
inhabitants, it stands to reason that rested officers will do the job 
better than their tired counterparts, with faster response times in the 
event of a true emergency. A sufficient work/family balance will also 
help sustain the morale that is essential in a police force with such a 
critical mission.
    Question. Your force has grown in manpower by 38 percent since 2000 
and yet your overtime has continued to grow steadily as well. In fact, 
between fiscal year 2006 and fiscal year 2008 your sworn staff 
increased by 25 percent and still overtime increased by 80,000 hours. 
So there doesn't seem to be a trend that shows that more staff equals 
less overtime. What can you do to better manage your overtime usage?
    Answer. Since 2000, the Department's mission load has increased, 
which has outpaced the sworn staffing provided to meet these mission 
requirements. Additionally, the Department has conducted numerous 
threat assessments and we have utilized the outcomes from these 
assessments to deploy our workforce to meet the threats. The staffing 
gap between the required sworn staffing and the mission load 
requirements must be met through the use of overtime.
    To manage our resources while meeting our mission requirements, we 
are also employing various efficiencies Department-wide to reduce 
overtime. To this end, we have:
  --Conducted load leveling of Operational units to ensure 
        proportionate staffing across the Department.
  --Standardized breaks across divisions to a 1-to-4 ratio.
  --Audited the K-9 function. K-9 has undertaken a 4/10 work schedule 
        for better efficiency in meeting its mission set.
  --Approved revisions to the CP-1301 system to better manage overtime 
        by improving how we draft and manage assignments. While the CP-
        1301 process modification has been approved, the assignment of 
        overtime is currently being reviewed and negotiated as part of 
        the Fraternal Order of Police Union Contract.
  --Included 76 new sworn officers in the fiscal year 2010 budget 
        request in order to reduce overtime and increase capability to 
        address threats.
  --Audited and reorganized the Truck Interdiction Program (TIPS), in 
        order to return officers to posts.
  --Directed TIPS midnights staffing reductions.
  --Increased the utilization of technology at the Offsite Delivery 
        Center, in order to return officers to other priority post 
        requirements.
  --Migrated the Security Services Bureau (SSB) to a 4/10 work schedule 
        for better efficiency in meeting their mission.
  --Migrated the Mission Assurance Bureau to a 4/10 work schedule for 
        better efficiency in meeting their mission.
  --Incrementally increased DPD to reduce overtime utilization and 
        better meet the mission. Although DPD is not staffed to the ELS 
        recommendation level, we are migrating to that point based on 
        threat analysis and evolving mission.
  --Assigned recruit officers to USB directly from officer training for 
        distribution following their field training.
  --Assigned HMRT to conduct random sampling of deliveries at the 
        Offsite Delivery Center to leverage their staffing and mission 
        capabilities.
    We have also instituted several cross-training initiatives to 
achieve additional efficiencies. We have:
  --Trained over 1,000 sworn in x-ray security screening protocols to 
        better identify and address threats.
  --Trained all recruit classes in detecting surveillance techniques to 
        enhance officers'' ability to detect individuals conducting 
        surveillance, to elicit information from the individuals during 
        conversations, and to determine what actions to take based on 
        the information obtained.
  --Directed the integration of all divisions within the Patrol Mobile 
        Response Division (PMRD) into one holistic operation, rather 
        than focused units like heavy motors, mountain bikes, TIGER, 
        etc.
    We are continuing several works in progress to reduce overtime and 
increase our overall efficiency. We are completing a staffing gap 
analysis for Uniformed Services Bureau Divisions. Gap analyses from all 
divisions within the Uniformed Services Bureau are due by June 1, 2009. 
We have also directed that a study be conducted to review civilization 
of the USCP Command Center. We are looking at using the Wounded Warrior 
program for this purpose.
    Finally, we are implementing upgrades to version 8.3 of Workbrain, 
so we can adopt electronic scheduling in fiscal year 2010.
    Question. Is your goal to eventually eliminate the use of overtime 
in your day to day operations? Or do you want to use a combination of 
overtime and on-board staff? What positions are better utilized through 
the use of overtime?
    Answer. Our goal is to utilize the findings of the ELS Manpower 
Study and current risk and threat analyses for the Capitol Complex to 
determine the proper mix of full-time sworn staffing, overtime 
utilization, outsourcing, civilianization and technology to meet the 
mission requirements facing the Department.
    As a part of this effort, we believe we must balance the cost-
effectiveness of full-time staffing against the cost and efficiency of 
overtime in meeting mission. In our current configuration, the 
Department has limited long-term infrastructure, such as physical 
space, with which to support additional sworn and civilian personnel. 
Therefore, we believe that any new personnel must be directed at normal 
post requirements for which we currently do not have full-time sworn 
staffing. These post requirements are driven by threat and have pre-
determined sworn staffing requirements against which to manage 
personnel deployment.
    Because many events such as demonstrations, Congressional hearings, 
extended sessions of Congress and other unplanned events on the Complex 
are unpredictable, we believe these are the sworn assignments that are 
best covered using overtime. Additionally, because our dignitary 
protection responsibilities are often unpredictable, we believe that we 
must utilize a balance of sworn staffing and overtime to meet these 
mission requirements.
    Additionally, as a part of our ELS Study implementation, we are 
reviewing normal post requirements to determine any that might be 
candidates for technology implementation, civilianization or 
outsourcing, rather than utilizing sworn personnel or overtime to meet 
the need.
    We do not believe that we could or should eliminate overtime 
utilization to meet mission requirements. Rather, we must find the 
correct balance for its utilization as a part of achieving our overall 
mission or protecting the legislative process.
    Question. Have you conducted an employee survey recently to 
determine your employees' level of satisfaction?
    Answer. USCP has recently taken aggressive steps to gather data 
from its employees regarding satisfaction with their work lives.
    More comprehensive in nature is USCP's effort to gather feedback 
with its Human Capital Survey (Climate Survey), which is currently 
underway. Open for participation throughout the months of May and June, 
this completely online survey will be the first Department-wide 
examination designed to give insight into employees' work life 
perceptions. So far, more than 33 percent (almost 700) of the employees 
have submitted their responses, and we're continuing to encourage their 
participation.

                           CIVILIAN STAFFING

    Question. You are apparently having significant difficulty 
attracting and retaining civilian personnel--some in positions critical 
to your mission. How many civilian openings do you currently have and 
why?
    Answer. We currently have 78 civilian openings. We are planning to 
fill 51 of these by the end of this fiscal year. In the past year, we 
had management challenges in our Office of Human Resources, and we also 
had the need to review job descriptions and classifications carefully 
before posting positions. We also recently issued a Human Capital 
Workforce Plan and are conducting an employee survey for the first 
time. Both of these initiatives, along with others designed to enhance 
our human capital programs, should assist in our efforts to hire and 
retain highly qualified civilian personnel.
    It is also unusually time-consuming to hire civilian employees at 
the U.S. Capitol Police. Prospective employees are required to undergo 
a background investigation, and it is required that they be approved by 
House and Senate oversight committees. Not infrequently, we find that 
fact that many of the people who apply for civilian jobs actually find 
other jobs before we get the approvals necessary to make them an offer.
    Question. With regard to the Library of Congress merger--you are 
obtaining approximately 21 former Library officers who do not meet the 
criteria to become Capitol Police officers. What will these employees 
be doing and can they help in addressing your request for new civilian 
FTE?
    Answer. There are currently 23 LOC sworn officers who have been 
determined to be ineligible for consideration to transfer to the USCP 
as sworn officers, because they cannot meet the statutory requirement 
for 20 years of ``continuous'' Federal service prior to becoming 60 
years of age. These individuals will transfer to Department as 
civilians (i.e., as ``civilianized'' former officers) on October 11, 
2009, which is the 1st day of the 1st pay period following the 
completion of the merger transition period.
    The Department is also finalizing the positions that may be 
civilianized in order to support the transition of the Library of 
Congress sworn to civilian employees. The positions being considered 
are:
  --LOC Dispatchers (Currently a sworn assignment)
  --LOC Call Takers
  --LOC Computer Emergency Notification System (CENS) Messengers
  --LOC Deaf Pager Notifications
  --LOC Fire Panel Monitors
  --Firearms Range Instructors (Currently a USCP sworn assignment)
  --LOC Exit Inspections (Currently a sworn assignment. Two positions 
        and one relief position)
  --CVC Exit Inspection Post
  --Cannon/Madison Tunnel Exit Post
  --LOC Division Support
    We plan to have decisions on the civilianization of these positions 
by mid-June, 2009. These employees will transition into civilian 
positions on October 11, 2009 in accordance with the merger statute.
    Currently, the Library of Congress utilizes sworn officers to staff 
their dispatch operation. This operation is intended to continue to 
reside within the LOC until the USCP's new radio system is implemented. 
Therefore, we intend to look at utilizing up to 16 of these 
civilianized employees for this purpose. This will allow us to 
reallocate the sworn resources currently used for this purpose to meet 
other critical security requirements upon the merger transition 
completion. We also intend to consider these civilianizing employees 
for exit screener positions at the LOC, as well as for monitoring of 
the exits to ensure that collection materials are not removed from the 
LOC, and to support the LOC division. Additionally, two civilianized 
employees are certified firearms instructors and will be considered for 
placement at the USCP firearms range. Finally, any transferring 
civilian employee who does not get placed into any of these 
opportunities, because of a lack of knowledge, skills and abilities 
necessary to meet the position requirements, will be placed at the time 
of transition into a mission support function within the Department 
where their knowledge, skills and abilities are better suited.
    Those LOC sworn officers eligible for sworn consideration who do 
not successfully meet the prescribed hiring standards will transfer as 
civilian employees in accordance with the statute and will be placed 
according to the mission needs of the Department at the time of 
transfer.

                          COUNTER-INTELLIGENCE

    Question. You are requesting 13 additional officers for ``counter-
intelligence'' work. I don't want to ``reinvent the wheel'' here. Are 
you currently coordinating with the Department of Homeland Security and 
the Federal Bureau of Investigation on assessing threats to the 
National Capitol Region--and to Capitol Hill in particular?
    Answer. The Department has three USCP liaisons assigned to 
coordinate with both the FBI and the Department of Homeland Security. 
We currently have agents assigned to the FBI's Joint Terrorism Task 
Force and the FBI's National Joint Terrorism Task force. These agents 
work closely with their counterparts in the FBI, other Federal agencies 
as well as State and local law enforcement agencies in the national 
capitol region. The USCP has one Intelligence Research Specialist 
assigned to the Department of Homeland Security and this analyst 
provides analysis on international and domestic terrorist threats 
toward the U.S. Congress.
    The 13 additional counter surveillance agents would provide broader 
coverage within the USCP jurisdiction and be primarily assigned to the 
detection of hostile surveillance towards the congressional campus, 
Members of Congress and congressional staff. Their primary assignment 
would be the Legislative Branch of the government, as opposed to other 
agency counterparts for whom Congress, its Members, visitors and staff 
represent collateral interests. The current agents assigned perform 
collateral duties outside of the counter surveillance scope to include 
demonstrations, protective operations for congressional leadership 
visiting dignitaries and special congressional events. There are 
currently nine agents assigned to complete all of these tasks.
    Question. What will you do if this committee does not fund these 
additional FTE for counter-intelligence?
    Answer. Should the Department not receive additional sworn FTE to 
meet this mission need, we will continue to run the risk of not having 
the necessary counter-intelligence information necessary to address 
threats against the legislative process. If additional sworn resources 
are not provided, the Department may need to utilize overtime or detail 
sworn officers from other mission activities to address this risk.
                                 ______
                                 
             Questions Submitted by Senator Lisa Murkowski

    Question. If your agency were to receive only half of the requested 
increase for fiscal year 2010, what would be the impact and what 
changes would you make to your budget?
    Answer. If USCP were to receive only half of the requested increase 
(excluding the radio project funding and LOC merger effect), we would 
adjust our projected hiring to focus on replacing attrition and hiring 
the most critical civilian positions including most of the backfills 
and those needed to civilianize the dispatch and alarm monitoring 
program, training managers, and radio technicians. Most of this 
increase would be used to cover mandatory personnel costs including 
COLAs. We would also cover some of the infrastructure and/or lifecycle 
replacements.
    We would not be able to fund all of the infrastructure and/or 
lifecycle replacement projects included in our request for security 
systems (about $3 million was included), information technology (about 
$3.8 million included in our request), vehicle replacements, and other 
infrastructure projects. We would also not be able to hire all of the 
critical civilians we have included in our request, nor new sworn 
officers, and as a result our overtime would once again increase.
    Question. What were the results of the ELS staffing study completed 
a year ago? Did it result in any efficiencies or improvements in 
operations?
    Answer. The Department views the Enlightened Leadership Solutions 
(ELS) Manpower Study (``the Study'') as a living document of guidelines 
and methodologies from which the Department can develop and manage its 
sworn manpower requirements.
    Because the threats facing the Capitol Complex are ever changing, 
items may be added to the list of recommendations as these threats and 
mission requirements change. Likewise, recommendations may be removed, 
because they are completed, determined as not feasible or overcome by 
events.
    Built into the Study are new security protection and response 
protocols, as well as reviews and recommendations from previous 
security studies. After the Study was reviewed by the Government 
Accountability Office and others, additional processes were added, such 
as budgeting via a threat-based approach, in order to ensure holistic 
analysis, consideration and implementation.
    As a first step in implementing the Study's recommendations, the 
Chief of Operations reviewed and prioritized its recommendations based 
on the current threat level facing the Capitol Complex. The Department 
is in the process of documenting this decision making process in the 
recommendation action and tracking matrix described below.
    As a result of his review, the following mission sets received top 
priority for review and implementation of recommendations: the Capitol 
Division (CD), to include the Capitol Visitor Center (CVC), the 
Hazardous Incident Response Division, the Protective Services Bureau's 
Intelligence operation, the Containment Emergency Response Team (CERT), 
and the Truck Interdiction Program.
    Many of the changes we have made or that we will make to theses 
areas are done by optimizing the staffing resources that we have 
currently, which is what we are currently doing within the Capitol 
Division to our assigned personnel. In addition, we are realigning the 
Civil Disturbance Unit (CDU) and Hostage Negotiation Team (HNT) to the 
Mission Assurance Bureau (MAB) in an effort to group mission 
responsibilities for efficiency. Neither action requires additional 
resources to accomplish these recommended efficiencies.
    The Department has implemented many ELS recommendations or taken 
actions in order facilitate the future implementation of 
recommendations in both the USB and other organizational elements 
throughout the Department. (Some of these also assist us in reducing 
our reliance on overtime, and are included in the response to Question 
#6 above.) These include:

Mission Efficiencies
    Conducted load leveling of Operational units to ensure 
proportionate staffing across the Department.
    Standardized breaks across divisions to a 1-to-4 ratio.
    Changed the CODEL footprint, so that roles are performed during 
deployment in line with how they are performed on the Capitol Complex. 
For example, MAB now operates the Command Vehicle when deployed for 
CODELs.
    Reviewed the requirements for a podium camera program and are 
working toward the implementation of the program.
    Restructured the Capitol Division in order to address the 
additional threats resulting from the Capitol Visitor Center 
operations.
    Implemented the assignment of Protective Services Bureau 
intelligence/threat agents traveling with the Speaker's detail.
    Standardized the make up of leadership protective details with 
Dignitary Protection Division to seven agents, except for the Speaker's 
detail.
    Audited the K-9 function. K-9 has undertaken a 4/10 work schedule 
for better efficiency in meeting its mission set. The Chief of 
Operations is evaluating K-9 stopping its search and rescue program and 
the patrol dog program, implementing a vapor wake detection program to 
meet emerging threats.
    Directed that all POAs and Operation Orders go through MAB and the 
Office of the Chief of Operations to create a historical record of 
activities and operational decision-making, as well as to standardize 
the process for developing and implementing them.
    Trained over 1,000 sworn in x-ray security screening protocols and 
podium training to better identify and address threats.
    Reviewed and revised the screening standard operating procedures 
and training for barrier access, and entry points and doors, in order 
to standardize the processes across the Complex. We have also reviewed 
and revised the directive addressing screening and it is now being 
vetted as a part of the Department's directives modernization project.
    Purchased and installed computer x-ray image interpretation 
software on division computers to enhance the officer's ability to 
detect threats in x-ray images.
    Training all recruit classes in detecting surveillance techniques 
to enhance officers' ability to detect individuals conducting 
surveillance, to elicit information from the individuals during 
conversations, and to determine what actions to take based on the 
information obtained.

Staffing Efficiencies
    Approved revisions to the CP-1301 system to better manage overtime 
(OT) by improving how we draft and manage assignments. While the CP-
1301 process modification has been approved, the assignment of overtime 
is currently being reviewed and negotiated as part of the Fraternal 
Order of Police Union Contract.
    Established a standardized positioning of officers at security 
screening posts (doors) to ensure the officer are optimally positioned 
for mission effectiveness and officer safety reasons, and to ensure 
consistency of operations.
    Included 76 new sworn officers in the fiscal year 2010 budget 
request in order to reduce overtime and increase capability to address 
threats.
    Reassigned outside patrols to the House and Senate Divisions for 
better efficiency and effectiveness in addressing threats.
    Audited the CERT function--the Assistant Chief has provided 
tentative approval to restructure CERT.
    Audited the Hazardous Materials Response Team (HMRT) program--
Letters are being prepared for the Capitol Police Board's concurrence 
to reorganize this function to meet the current threats facing the 
Complex.
    Audited and reorganized the Truck Interdiction Program (TIPS), in 
order to return officers to posts.
    Directed TIPS midnights staffing reductions.
    Directed the integration of all divisions within the Patrol Mobile 
Response Division (PMRD) into one holistic operation, rather than 
focused units like heavy motors, mountain bikes, TIGER, etc.
    Increased the utilization of technology at the Offsite Delivery 
Center, in order to return officers to other priority post 
requirements.
    Automated the Officer Voluntary Reassignment Program.
    Migrated the Security Services Bureau (SSB) to a 4/10 work schedule 
for better efficiency in meeting their mission.
    Migrated the Mission Assurance Bureau to a 4/10 work schedule for 
better efficiency in meeting their mission.
Interim Steps Necessary To Implement Recommendations
    Incrementally increased the Dignitary Protection Division (DPD) to 
reduce overtime utilization and better meet the mission. Although DPD 
is not staffed to the ELS recommendation level, we are migrating to 
that point based on threat analysis and evolving mission.
    Included the intelligence capability business case in the fiscal 
year 2010 budget request. (This was previously requested in fiscal year 
2009, but not funded.)
    Assigned recruit officers to USB directly from officer training for 
distribution following their field training.
    Implemented revised protocol, so that officers can transfer into 
Patrol Mobile Response Division (PMRD) without a formal selection 
process. This has added to better efficiencies in addressing emerging 
staffing requirements in a timely manner.
    Assigned HMRT to conduct random sampling of deliveries at the 
Offsite Delivery Center to leverage their staffing and mission 
capabilities.

Work in Progress
    Completed the gap analysis for the House Division.
    Conducted an assessment of applying a 4/10 shift to the Chambers, 
but this analysis determined that there would be offsetting staffing 
needs, so implementation has been suspended at this time.
    Directed that a study be conducted to review civilization of the 
USCP Command Center. To accomplish this effort we are looking at using 
the Wounded Warrior program for this purpose.
    Approved the movement of Civil Disturbance Unit to the Mission 
Assurance Bureau (MAB). The Department is currently working on the 
implementation.
    Approved the movement of the Crisis Negotiation Team to MAB. The 
Department is also working on this implementation.
    Reviewing operational requirements for the staffing of the 
Communications activities. Originally the Department considered the 
civilianization of Communications, but based on additional analysis, we 
decided to make Communications all integrated sworn activity. These 
sworn officers will rotate between duties within Communications to 
better utilize available resources and achieve efficiency in the 
delivery of the mission set.
    Implementing upgrades to version 8.3 of Workbrain, so we can adopt 
electronic scheduling.
    To better document the Department's ongoing efforts to utilize the 
Study's recommendations and methodology to determine the staffing and 
overtime requirements necessary to meet the various subsets of our 
mission, as well as achieve business process reengineering, we are 
implementing a formal tracking matrix for the recommendations contained 
in the Study. This matrix will be used to assist the Department in our 
evaluation and prioritization of initiatives to be considered in our 
annual budget formulation.
    We plan to catalog each of the recommendations contained in the 
Study on this matrix, as well as add new recommendations based on 
emerging threat or mission requirements. We also plan to capture the 
outcome of the feasibility review conducted on each recommendation, the 
management decisions or authorities governing the implementation, the 
preliminary list of resource requirements, training and competencies 
required, and the status of the implementation effort.
    Question. In preparing your staffing request, how were the results 
and recommendations of the ELS study factored into your analysis and 
what type of risk and threat assessments were performed to arrive at 
the number and mix of staff requested for fiscal year 2010?
    Answer. In developing the Department's fiscal year 2010 budget 
request, we looked at several factors in determining the number of new 
sworn and civilian positions that were requested. Because the 
Department is undertaking a three pronged approach to reviewing, 
validating and implementing the ELS study recommendations, the fiscal 
year 2010 sworn staffing request was a limited step forward toward this 
end.
    The Department views the Enlightened Leadership Solutions (ELS) 
Manpower Study (the Study) as a living document of guidelines and 
methodologies from which the Department can develop and manage its 
sworn manpower requirements. Because the threats facing the Capitol 
Complex are ever changing, items may be added to the list of 
recommendations as these threats and mission requirements change. 
Likewise, recommendations may be removed, because they are completed, 
determined as not feasible or overcome by events.
    Built into the Study are new security, protection and response 
protocols, as well as reviews and recommendations from previous 
security studies. After the Study was reviewed by the Government 
Accountability Office, House Appropriations Surveys and Investigations 
and others, additional processes were added, such as budgeting in a 
threat-based approach in order to ensure holistic implementation.
    In order to balance the sworn staffing requirements versus the need 
for overtime and/or technology to address mission requirements, the 
Department believes it must validate the total number of sworn 
personnel necessary to achieve the Department's mission. To do so, we 
plan to use the ELS Manpower Study data as a baseline for reviewing 
each post against current threat and mission requirement. This 
validation will determine the total number of staff hours necessary to 
achieve the mission and the best methods for achieving these 
requirements, such as the appropriate ratio for sworn staffing, 
overtime, outsourcing, and the utilization of technology.
    The 13 sworn positions that were requested for enhanced counter-
intelligence capability were directly related to recommendations 
contained within the ELS study. This request is also directly linked to 
continued threat analysis conducted for the Capitol Complex.
    The 76 requested sworn positions were intended to address existing 
core mission post requirements for which we do not currently have sworn 
staffing. The addition of these sworn positions, once deployed, would 
directly reduce overtime utilization necessary to address normal post 
requirements as determined by our continued threat and risk analyses 
for the Complex. Additionally, these sworn positions when deployed 
would begin to address ELS recommendations as the feasibility for each 
recommendation is validated for implementation. In determining the 
number of sworn positions to request in our fiscal year 2010 budget, 
the Department also had to consider our ability to support recruit 
training activities, as well as our ability to provide the long-term 
infrastructure necessary to support the deployment of these sworn 
personnel.
    The 23 civilian positions were intended to address several critical 
areas, such as positions currently staffed by contractors, positions 
directly related to addressing audit findings and positions necessary 
to support the new radio system and training transformation efforts.
    Question. When will you complete a risk assessment and staffing 
analysis for the CVC and LOC?
    Answer. The Department plans to undertake a risk assessment of the 
Library of Congress (LOC) following the transition of the law 
enforcement functions from the LOC to the USCP in October 2009.
    This LOC review will include a threat analysis, as well as a 
facility security survey, of the LOC's facilities to determine the risk 
and threat levels requiring mitigation. These findings will be applied 
to a gap analysis to determine the appropriate staffing levels required 
to staff the LOC mission under the USCP's sworn staffing model, as well 
as potential alternate staffing models for Capitol Police Board 
consideration. Based on the identified threats facing the LOC 
facilities, the USCP may utilize its existing sworn staffing model or 
an alternate model which best mitigates the identified and validated 
risks. We believe that this threat analysis will be completed during 
the second quarter of fiscal year 2010.
    Similarly, the Capitol Division will undertake a staffing review 
and gap analysis of the CVC to review the current sworn staffing 
pattern against the identified threats and known mission requirements. 
Since opening to the public in the fall of 2008, the CVC's operating 
assumptions have changed and the alignment of posts was altered from 
the original planning assumptions. To address these changes--many of 
which resulted in new posts or extended/expanded hours of operations, 
the Capitol Division has had to realign staffing within the Division 
and utilize overtime to meet the mission. We believe that this staffing 
and gap analyses will be completed by the end of June 2009.
    Both of these assessments will be conducted using the methodology 
developed in the ELS Manpower Study.
    Question. What are the positions you intend to assign the LOC 
officers transferring as civilians to USCP? How will you take advantage 
of their sworn experience?
    Answer. There are currently 23 LOC sworn officers who have been 
determined to be ineligible for consideration to transfer to the USCP 
as sworn officers, because they cannot meet the statutory requirement 
for 20 years of ``continuous'' Federal service prior to becoming 60 
years of age. These individuals will transfer to Department as 
civilians on October 11, 2009, which is the 1st day of the 1st pay 
period following the completion of the merger transition period.
    The Department is also finalizing the positions that may be 
civilianized in order to support the transition of the Library of 
Congress sworn to civilian employees. The positions being considered 
are:
  --LOC Dispatchers (Currently a sworn assignment.)
    --Call Takers
    --Computer Emergency Notification System (CENS) Messengers
    --Deaf Pager Notifications
    --Fire Panel Monitors
  --Firearms Range Instructors (Currently a USCP sworn assignment)
  --LOC Exit Inspections (Currently a sworn assignment. Two positions 
        and one relief position)
  --CVC Exit Inspection Post
  --Cannon/Madison Tunnel Exit Post
  --LOC Division Support
    We plan to have decisions on the civilianization of these positions 
by mid-June, 2009 and will begin meeting with the affected employees 
shortly thereafter. These employees will transition into civilian 
positions on October 11, 2009 in accordance with the merger statute.
    Currently, the Library of Congress utilizes sworn officers to staff 
their dispatch operation. This operation is intended to continue to 
reside within the LOC until the USCP's new radio system is implemented. 
Therefore, we intend to look at utilizing up to 16 of these 
civilianized employees for this purpose. This will allow us to 
reallocate the sworn resources currently used for this purpose to meet 
other critical security requirements upon the merger transition 
completion. We also intend to consider these civilianizing employees 
for exit screening positions at the LOC, as well as for monitoring of 
the exits to ensure that collection materials are not removed from the 
LOC, and to support the LOC division.
    Additionally, two civilianized employees are certified firearms 
instructors and will be considered for placement at the USCP firearms 
range. Finally, any transferring civilian employee who does not get 
placed into any of these opportunities, because of a lack of knowledge, 
skills and abilities necessary to meet the position requirements, will 
be placed at the time of transition into a mission support function 
within the Department where their knowledge, skills and abilities are 
better suited.
    Question. Please provide a list of all light duty posts.
    Answer. Please see below table, which includes 27 employees on 
light duty, 5 of whom are pregnant, and 7 are on Workers' Compensation. 
Recently, the bureaus were authorized to assign light duty officers to 
administrative positions within the organization.

                        RESTRICTED DUTY EMPLOYEES
------------------------------------------------------------------------
                    Name                              Detail to
------------------------------------------------------------------------
T.D........................................  PD-K9
J.T........................................  LOC
R.H. (Sgt.)................................  DPD
D.S........................................  DPD
D.C........................................  Training
T.H........................................  Training
J.J........................................  HD-2
D.P........................................  WC
M.D........................................  Cap Div
L.B........................................  PD
H.E........................................  PD
S.G........................................  LOC
D.S........................................  Sen Div
E.W........................................  Sen Div
M.R........................................  Sen Div
E.R. (Lt.).................................  Comm
L.H. (Sgt).................................  CC-1
B.R........................................  DPD
S.W........................................  House Div
R.E........................................  FRU-2
D.N........................................  Veh Maint
K.G........................................  Veh Maint
E.V. (civ.)................................  PD
L.W........................................  Spec Event
C.Y........................................  Cap Div-1
A.B........................................  OHR
A.M........................................  House Div
------------------------------------------------------------------------

    Question. What is the status of reorganizing the Hazardous 
Materials Response Team, and what specific changes will be made to this 
unit?
    Answer. The Department has reviewed the mission requirements for 
the Hazardous Materials Response Team (HMRT) and has determined that 
the scope of the HMRT's role, duties and responsibilities should be 
reorganized to better support the Department's protective mission in 
accordance with our Strategic Plan.
    To guide this effort, a broadly representative task force was 
established within the Hazardous Incident Response Division (HIRD) to 
develop recommendations and mission-driven proposals for improving the 
Department's Chemical, Biological, Radiological and Nuclear Law 
Enforcement (CBRN-LE) program.
    The Department is recommending the following changes to the Capitol 
Police Board for consideration:
  --Reallocation of duties of the HMRT Manager, the Planning and 
        Readiness Manager, and the HMRT Operations Supervisor to 
        improve leadership and quality management within the 
        organization.
  --Elimination of the Level ``B'' Response Team (LBT) program and 
        incorporation of those members into the Advanced Law 
        Enforcement Response Team (ALERT) program, which will expand 
        the ALERT program to approximately 160 members.
  --Training for all sworn officers and officials to the Hazardous 
        Materials Operations level through a combination of on-line and 
        roll call training.
  --Issuance of new and improved highly portable and compact protective 
        masks to all sworn officers and officials. This will enable 
        USCP officers to quickly evacuate a contaminated environment, 
        establish a secured perimeter and effectively assist others in 
        an emergency situation.
  --Creation of an Integrated Response Team (IRT) under the command of 
        the HDS Commander.
  --Rotation of ALERT officers through the HIRD facility four times per 
        year (one week per quarter) for fit testing of equipment, 
        medical screening, classroom training and practical training 
        with the Integrated Response Team.
  --Unification of ALERT management functions under the command of HIRD 
        Management.
  --Centralize training at the HIRD Headquarters offices, including 
        review of current training, development of ALERT training 
        modules, and creation of USCP Executive Management Overview 
        training to be provided to Captains and above.
  --Creation of a permanent hazardous materials screening team at the 
        Off-Site Delivery Center (OSDC) tasked with conducting random 
        vehicle screening and responding to requests to inspect 
        suspicious mail at the Senate mail handling facility.
    Upon concurrence of the Capitol Police Board, the Department will 
request the appropriate committee approvals to effect the 
reorganization of the Hazardous Incident Response Division, to include 
the Hazardous Materials Response Team.
    Question. What are you doing to ensure overtime is used only where 
it is truly necessary? What controls have been put in place to better 
manage overtime in the last year?
    Answer. In an effort to align overtime usage to the budget 
allocation, several measures were taken to reduce overtime without 
adversely affecting our ability to meet our mission.
    The following Department-wide guidelines have been set in place in 
order to efficiently manage necessary post assignments, enabling our 
continued reduction and management of overtime.
  --Training that is not mission critical or requires back fill by 
        overtime is not authorized, which is a continuation of how the 
        Department has operated during the continuing resolution.
  --Handgun qualifications will continue at the RHOB Range instead of 
        Cheltenham. When handgun requalifications are held at 
        Cheltenham, the officers are removed from the field and must be 
        replaced with overtime for 16 hours per year per officer. When 
        the handgun requalifications are held at our RHOB Range, the 
        officers are not removed from the field and accomplish their 
        requalifications during their tours of duty, requiring no 
        overtime.
  --Restricted Duty personnel will be utilized on Sections 1 and 3 for 
        administrative duties in lieu of officers being paid overtime.
  --Personnel will be relieved when the need for overtime dissipates. 
        Instead of keeping officers for an entire 8-hour tour of duty 
        when they are working overtime, the officers will be sent home 
        if their overtime assignments end prior to the end of their 
        tours of duty.
  --Bureaus are to ensure a 1:4 break ratio for fixed posts.
  --Overtime for sergeants, lieutenants, and their civilian equivalents 
        is to be approved by Division Commanders.
  --No officers are to be assigned to administrative offices. The 
        duties performed by these officers are being assumed by 
        civilian employees or restricted duty officers.
  --Day off allocations are to be adjusted to decrease the scheduling 
        OT on any one particular day.
  --Line reduction posts will not be staffed.
  --Emergency Responder posts are not staffed on Section 1. Uniformed 
        Services Bureau (USB) sergeants and Patrol Mobile Response 
        Division (PMRD) sergeants will assume these duties.
  --House and Senate Office Buildings outside foot patrols staffed by 
        the House and Senate Divisions were eliminated. PMRD will 
        assume these patrols as collateral duties.
  --For out of town protectees, we will request that the local law 
        enforcement agencies begin their D checks as soon as the 
        protectee arrives at their residence, instead of at 2300 hours 
        as they do currently.
  --Officers in the Field Training Officer (FTO) Program (trainee) will 
        be used as the 2nd officer at posts. Previously, trainees 
        shadowed their FTO and were not included in the staffing for 
        the Section. Now they are assigned a post but must always work 
        with their FTO present.
    In addition to the above Department-wide guidelines, the Department 
has taken several measures at the Division level to control or reduce 
overtime utilization. Because the posts described are law enforcement 
sensitive, the list of post reductions will be provided to the 
Committee separately.
    Question. Please provide a breakout of your total officer staffing 
request by division.
    Answer. See table below.

                                                         OFFICER COUNTS (ON-BOARD AS OF 5/15/09)
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                            Additional
                                                                            Fiscal year     Fiscal year      officers       Fiscal year      Projected
    Bureau name/Division name              Title/rank             # of         2009       2009 projected     requested    2010 projected     total at
                                                                officers    additional     attrition--PP   (fiscal year      attrition      fiscal year
                                                                               sworn      10 to year-end     2010) \1\                     2010 year-end
--------------------------------------------------------------------------------------------------------------------------------------------------------
Chief Of Police..................  COP.......................          1  ..............  ..............  ..............  ..............  ..............
                                   CAPTAIN...................          1  ..............  ..............  ..............  ..............  ..............
                                   LIEUTENANT................          1  ..............  ..............  ..............  ..............  ..............
                                   SERGEANT..................          7  ..............  ..............  ..............  ..............  ..............
                                                              ------------------------------------------------------------------------------------------
      Total, Chief Of Police.....  ..........................         10  ..............  ..............  ..............  ..............  ..............
                                                              ==========================================================================================
Chief Of Operations..............  COO.......................          1  ..............  ..............  ..............  ..............  ..............
                                   INSPECTOR.................          1  ..............  ..............  ..............  ..............  ..............
                                                              ------------------------------------------------------------------------------------------
      Total, Chief Of Operations.  ..........................          2  ..............  ..............  ..............  ..............  ..............
                                                              ==========================================================================================
        Long Term Absence

OHR--OPERATIONS DIVISION.........  LIEUTENANT................          1  ..............  ..............  ..............  ..............  ..............
                                   PRIVATE FIRST CLASS.......         18  ..............  ..............  ..............  ..............  ..............
                                   PRIVATE W/TRAINING........          5  ..............  ..............  ..............  ..............  ..............
                                   SERGEANT..................          2  ..............  ..............  ..............  ..............  ..............
                                                              ------------------------------------------------------------------------------------------
      Total, Long Term Absence...  ..........................         26  ..............  ..............  ..............  ..............  ..............
                                                              ==========================================================================================
    Office Of Human Resources

OHR--PROGRAMS DIVISION...........  LIEUTENANT................          1  ..............  ..............  ..............  ..............  ..............
                                   SERGEANT..................          1  ..............  ..............  ..............  ..............  ..............
                                   PRIVATE FIRST CLASS.......          2  ..............  ..............  ..............  ..............  ..............
                                                              ------------------------------------------------------------------------------------------
      Total, Office Of Human       ..........................          4  ..............  ..............  ..............  ..............  ..............
       Resources.
                                                              ==========================================================================================
     Mission Assurance Bureau

MAB..............................  INSPECTOR.................          1  ..............  ..............  ..............  ..............  ..............
                                   CAPTAIN...................          4  ..............  ..............  ..............  ..............  ..............
                                   LIEUTENANT................          6  ..............  ..............  ..............  ..............  ..............
                                   SERGEANT..................         20  ..............  ..............  ..............  ..............  ..............
                                   PRIVATE FIRST CLASS.......         52  ..............  ..............  ..............  ..............  ..............
                                   PRIVATE W/TRAINING........          1  ..............  ..............  ..............  ..............  ..............
                                   SPECIAL TECHNICIAN........          1  ..............  ..............  ..............  ..............  ..............
                                   TECHNICIAN................          1  ..............  ..............  ..............  ..............  ..............
                                                              ------------------------------------------------------------------------------------------
      TOTAL, MAB--OPERATIONS       ..........................         86  ..............  ..............  ..............  ..............  ..............
       (DIVISION).
                                                              ==========================================================================================
MAB--SPECIAL EVENTS (OFFICE).....  LIEUTENANT................          1  ..............  ..............  ..............  ..............  ..............
                                   PRIVATE FIRST CLASS.......          5  ..............  ..............  ..............  ..............  ..............
                                   SERGEANT..................          1  ..............  ..............  ..............  ..............  ..............
                                                              ==========================================================================================
      TOTAL, MAB--SPECIAL EVENTS   ..........................          7  ..............  ..............  ..............  ..............  ..............
       (OFFICE).
                                                              ------------------------------------------------------------------------------------------
      Total, Mission Assurance     ..........................         93  ..............  ..............  ..............  ..............  ..............
       Bureau.
                                                              ==========================================================================================
Office of Policy and Management    PRIVATE FIRST CLASS.......          2  ..............  ..............  ..............  ..............  ..............
 Systems.
                                                              ==========================================================================================
   Operational Services Bureau

PATROL DIVISION..................  DEPUTY CHIEF..............          1  ..............  ..............  ..............  ..............  ..............
                                   SERGEANT..................          1  ..............  ..............  ..............  ..............  ..............
                                   DETECTIVE.................          3  ..............  ..............  ..............  ..............  ..............
                                   INSPECTOR.................          1  ..............  ..............  ..............  ..............  ..............
                                   LIEUTENANT................          5  ..............  ..............  ..............  ..............  ..............
                                   PRIVATE FIRST CLASS.......         84  ..............  ..............  ..............  ..............  ..............
                                   SERGEANT..................         18  ..............  ..............  ..............  ..............  ..............
                                   TECHNICIAN................          2  ..............  ..............  ..............  ..............  ..............
                                   TECHNICIAN K-9............         43  ..............  ..............  ..............  ..............  ..............
                                                              ------------------------------------------------------------------------------------------
      TOTAL, PATROL DIVISION.....  ..........................        156  ..............  ..............  ..............  ..............  ..............
                                                              ==========================================================================================
HAZARDOUS INCIDENT RESPONSE        CAPTAIN...................          1  ..............  ..............  ..............  ..............  ..............
 DIVISION (HIRD).
                                   INSPECTOR.................          1  ..............  ..............  ..............  ..............  ..............
                                   LIEUTENANT................          1  ..............  ..............  ..............  ..............  ..............
                                   SERGEANT..................          2  ..............  ..............  ..............  ..............  ..............
                                   DETECTIVE.................          1  ..............  ..............  ..............  ..............  ..............
                                   PRIVATE FIRST CLASS.......          9  ..............  ..............  ..............  ..............  ..............
                                                              ------------------------------------------------------------------------------------------
      TOTAL, HIRD................  ..........................         15  ..............  ..............  ..............  ..............  ..............
                                                              ==========================================================================================
      Total, Operational Services  ..........................        173  ..............  ..............  ..............  ..............  ..............
       Bureau.
                                                              ==========================================================================================
    Protective Services Bureau

PSB..............................  DEPUTY CHIEF..............          1  ..............  ..............  ..............  ..............  ..............
                                                              ==========================================================================================
INVESTIGATIONS DIVISION..........  CAPTAIN...................          1  ..............  ..............  ..............  ..............  ..............
                                   DETECTIVE.................          2  ..............  ..............  ..............  ..............  ..............
                                   LIEUTENANT................          1  ..............  ..............  ..............  ..............  ..............
                                   SERGEANT..................          3  ..............  ..............  ..............  ..............  ..............
                                   PRIVATE FIRST CLASS.......         21  ..............  ..............  ..............  ..............  ..............
                                                              ------------------------------------------------------------------------------------------
      TOTAL, INVESTIGATIONS        ..........................         28  ..............  ..............  ..............  ..............  ..............
       DIVISION.
                                                              ==========================================================================================
DIGNITARY PROTECTION DIVISION      INSPECTOR.................          1  ..............  ..............  ..............  ..............  ..............
 (DPD).
                                   CAPTAIN...................          1  ..............  ..............  ..............  ..............  ..............
                                   LIEUTENANT................          2  ..............  ..............  ..............  ..............  ..............
                                   SERGEANT..................         11  ..............  ..............  ..............  ..............  ..............
                                   DETECTIVE.................          2  ..............  ..............  ..............  ..............  ..............
                                   SPECIAL TECHNICIAN........          1  ..............  ..............  ..............  ..............  ..............
                                   PRIVATE FIRST CLASS.......        116  ..............  ..............  ..............  ..............  ..............
                                                              ------------------------------------------------------------------------------------------
      TOTAL, DIGNITARY PROTECTION  ..........................        134  ..............  ..............  ..............  ..............  ..............
       DIVISION.
                                                              ==========================================================================================
      Total, Protective Services   ..........................        163  ..............  ..............              13  ..............  ..............
       Bureau.
                                                              ==========================================================================================
     Security Services Bureau

SSB..............................  LIEUTENANT................          1  ..............  ..............  ..............  ..............  ..............
                                   SERGEANT..................          2  ..............  ..............  ..............  ..............  ..............
                                                              ------------------------------------------------------------------------------------------
      TOTAL, SSB.................  ..........................          3  ..............  ..............  ..............  ..............  ..............
                                                              ==========================================================================================
PHYSICAL SECURITY DIVISION.......  SERGEANT..................          1  ..............  ..............  ..............  ..............  ..............
                                   PRIVATE FIRST CLASS.......          5  ..............  ..............  ..............  ..............  ..............
                                                              ------------------------------------------------------------------------------------------
      TOTAL, PHYSICAL SECURITY     ..........................          6  ..............  ..............  ..............  ..............  ..............
       DIVISION.
                                                              ==========================================================================================
TECHNICAL COUNTERMEASURES          DETECTIVE.................          1  ..............  ..............  ..............  ..............  ..............
 DIVISION.
                                                              ==========================================================================================
      Total, Security Services     ..........................         10  ..............  ..............  ..............  ..............  ..............
       Bureau.
                                                              ==========================================================================================
     Training Services Bureau

TSB..............................  DEPUTY CHIEF..............          1  ..............  ..............  ..............  ..............  ..............
                                   INSPECTOR.................          1  ..............  ..............  ..............  ..............  ..............
                                   LIEUTENANT................          4  ..............  ..............  ..............  ..............  ..............
                                   SERGEANT..................          8  ..............  ..............  ..............  ..............  ..............
                                   PRIVATE FIRST CLASS.......          2  ..............  ..............  ..............  ..............  ..............
                                                              ------------------------------------------------------------------------------------------
      TOTAL, TSB.................  ..........................         16  ..............  ..............  ..............  ..............  ..............
                                                              ==========================================================================================
ENTRY LEVEL TRAINING DIVISION....  PRIVATE...................        151  ..............  ..............  ..............  ..............  ..............
                                                              ==========================================================================================
5700--PHYSICAL SKILLS (DIVISION).  LIEUTENANT................          1  ..............  ..............  ..............  ..............  ..............
                                   SERGEANT..................          5  ..............  ..............  ..............  ..............  ..............
                                   PRIVATE FIRST CLASS.......          3  ..............  ..............  ..............  ..............  ..............
                                                              ------------------------------------------------------------------------------------------
      TOTAL, PHYSICAL SKILLS       ..........................          9  ..............  ..............  ..............  ..............  ..............
       DIVISION.
                                                              ==========================================================================================
      Total, Training Services     ..........................        176  ..............  ..............  ..............  ..............  ..............
       Bureau.
                                                              ==========================================================================================
     Uniform Services Bureau

USB..............................  DEPUTY CHIEF..............          1  ..............  ..............  ..............  ..............  ..............
                                   LIEUTENANT................          1  ..............  ..............  ..............  ..............  ..............
                                   DETECTIVE.................          1  ..............  ..............  ..............  ..............  ..............
                                   PLAINCLOTHESMAN...........          1  ..............  ..............  ..............  ..............  ..............
                                                              ------------------------------------------------------------------------------------------
      TOTAL, USB.................  ..........................          4  ..............  ..............  ..............  ..............  ..............
                                                              ==========================================================================================
USB/LOC..........................  INSPECTOR.................          1  ..............  ..............  ..............  ..............  ..............
                                   LIEUTENANT................          1  ..............  ..............  ..............  ..............  ..............
                                   SERGEANT..................          4  ..............  ..............  ..............  ..............  ..............
                                   PRIVATE FIRST CLASS.......         58  ..............  ..............  ..............  ..............  ..............
                                   PRIVATE W/TRAINING........          6  ..............  ..............  ..............  ..............  ..............
                                                              ------------------------------------------------------------------------------------------
      TOTAL, USB/LOC.............  ..........................         70              87  ..............  ..............  ..............  ..............
                                                              ==========================================================================================
HOUSE DIVISION...................  INSPECTOR.................          1  ..............  ..............  ..............  ..............  ..............
                                   CAPTAIN...................          3  ..............  ..............  ..............  ..............  ..............
                                   LIEUTENANT................          6  ..............  ..............  ..............  ..............  ..............
                                   SERGEANT..................         27  ..............  ..............  ..............  ..............  ..............
                                   DETECTIVE.................          2  ..............  ..............  ..............  ..............  ..............
                                   PRIVATE FIRST CLASS.......        243  ..............  ..............  ..............  ..............  ..............
                                   PRIVATE W/TRAINING........         44  ..............  ..............  ..............  ..............  ..............
                                                              ------------------------------------------------------------------------------------------
      TOTAL, HOUSE DIVISION......  ..........................        326  ..............  ..............  ..............  ..............  ..............
                                                              ==========================================================================================
SENATE DIVISION..................  INSPECTOR.................          1  ..............  ..............  ..............  ..............  ..............
                                   CAPTAIN...................          2  ..............  ..............  ..............  ..............  ..............
                                   LIEUTENANT................          4  ..............  ..............  ..............  ..............  ..............
                                   SERGEANT..................         19  ..............  ..............  ..............  ..............  ..............
                                   TECHNICIAN................          1  ..............  ..............  ..............  ..............  ..............
                                   DETECTIVE.................          1  ..............  ..............  ..............  ..............  ..............
                                   PRIVATE FIRST CLASS.......        177  ..............  ..............  ..............  ..............  ..............
                                   PRIVATE W/TRAINING........         65  ..............  ..............  ..............  ..............  ..............
                                                              ------------------------------------------------------------------------------------------
      TOTAL, SENATE DIVISION.....  ..........................        270  ..............  ..............  ..............  ..............  ..............
                                                              ==========================================================================================
CAPITOL DIVISION.................  INSPECTOR.................          1  ..............  ..............  ..............  ..............  ..............
                                   CAPTAIN...................          3  ..............  ..............  ..............  ..............  ..............
                                   LIEUTENANT................          9  ..............  ..............  ..............  ..............  ..............
                                   SERGEANT..................         37  ..............  ..............  ..............  ..............  ..............
                                   PRIVATE FIRST CLASS.......        250  ..............  ..............  ..............  ..............  ..............
                                   PRIVATE W/TRAINING........        105  ..............  ..............  ..............  ..............  ..............
                                                              ------------------------------------------------------------------------------------------
      TOTAL, CAPITOL DIVISION....  ..........................        405  ..............  ..............  ..............  ..............  ..............
                                                              ==========================================================================================
      Total, Uniform Services      ..........................      1,075              93  ..............              76  ..............  ..............
       Bureau.
                                                              ==========================================================================================
      Total......................  ..........................      1,734          \1\ 93              28         \2\ 229             140           1,888
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Total includes 61 LOC Sworn Transfers, 26 LOC Sworn Backfill and 6 USCP Backfill.
\2\ Total includes 89 new sworn positions requested in the fiscal year 2010 budget request and 140 USCP Sworn Backfill

    Question. Please provide a list of additional closures that could 
be made in posts that are underutilized, and the annual savings that 
would be associated with these closures.
    Answer. Over the last 2 years, the Chief and Assistant Chief have 
continually realigned assignments, looked for efficiencies, and 
eliminated and added posts based on threat conditions and stakeholder 
requirements. This is a business process to which we are committed to 
continuing.
    To meet fiscal year 2009 budgetary requirements, the Department has 
developed a plan to adjust post requirements to the Capitol complex. 
``Round 1'' cuts will have no or minimal impact on the Capitol complex. 
The posts identified are not necessarily underutilized, but we have 
determined that the requirements may be better absorbed through other 
divisions or posts picking up the workload as a secondary 
responsibility to their primary responsibility. It should be noted that 
if security conditions change these post may have to be reinstated.
    By executing the Round 1 cuts the USCP expects to save 1,177 hours 
or $61,511 per week in overtime. These cuts were executed at the 
beginning of Pay Period 9 and are expected to decrease our overtime 
requirement for the remainder of fiscal year 2009 by $1.35 million. 
Further, we have included these cuts as an offset for our revised 
fiscal year 2010 overtime request of $25.5 million.
    Because the posts described above are law enforcement sensitive, 
the list of post reductions will be provided to the Committee 
separately.
    Question. Please provide a list of all new posts created in the 
last year, costs for each, and who directed the creation of the post.
    Answer. The majority of posts that were added to USCP in fiscal 
year 2009 are attributed to the opening of the Capitol Visitor Center 
(CVC). In fiscal year 2008 and fiscal year 2009, the Congress 
authorized and appropriated funds for 31 new sworn positions for the 
CVC based on a proposed staffing plan. This staffing plan was proposed 
prior to the final security assessment or the opening of the CVC.
    Since this time additional posts have been required for the CVC and 
posts that the Department thought would be eliminated were retained. 
This equated to an additional 1,811 hours of overtime per week or an 
additional $4 million from the beginning of fiscal year 2009 Pay Period 
24 until the end of fiscal year 2009. Additionally, requirements for 
the CVC to open at 8:30 a.m., 30 minutes prior to the original planned 
opening were added, which required an additional 349 hours per week or 
an additional $780,000 from fiscal year 2009 Pay Period 24 until the 
end of fiscal year 2009.
    Below is a more detailed description of the additional posts added 
as part of CVC that were not projected in the initial staffing plan:
  --Nine mandatory life safety posts required during evacuations (this 
        does not include two funded and anticipated life safety posts 
        or ERs, patrols, or perimeter officers). Life safety posts are 
        staffed only during operating hours of the CVC--additional 
        overtime is incurred for late night receptions/events based 
        upon anticipated guest participation.
  --Two officers Upper Level of the CVC at base of escalators, Monday-
        Friday 0700-1630; one officer, Saturday 0830-1630; and one 
        officer for late sessions of Congress.
    --The escalators leading to the U.S. Capitol from the upper level 
            of the CVC are the major pedestrian/visitor access point 
            between the two buildings. As such, in order to ensure the 
            security of the U.S. Capitol Building and prevent 
            unauthorized access into the building, additional officers 
            were assigned in this area, which were not originally 
            planned. Specifically, during business hours, special 
            events and late sessions of Congress, it is necessary to 
            post a minimum of five additional officers--two in the area 
            of the CVC upper level escalator base, one at the Crypt/top 
            of the escalators, one on the second floor of the Capitol/
            Rotunda entrance, one on the third floor East Front 
            Corridor.
  --One officer at the Rotunda Door interior, Monday-Saturday 0800-
        1630.
  --One officer at the 3rd floor East Front Corridor, Monday-Friday 
        0800-1630 or until the House and Senate adjourn.
  --Two officers, working 24/7 at the CVC Main Entrance exteriors to 
        monitor multiple fire doors.
  --Two officers working 24/7 to monitor new West Front egress fire 
        doors.
  --Two officers working 24/7 to monitor Law Library and Memorial 
        Doors.
    In addition to the new unplanned posts outlined above, the 
Department estimated that 89 sworn FTE would be realized by reassigning 
sworn personnel from posts that would close upon the opening of the 
CVC. However, some of these closures have not been realized, these 
include:
  --North Screening/North Door has remained open after CVC opening, 
        which requires six officers to operate the post.
  --S-407 continues to be a 9-5 post which is an unplanned expenditure.
    --40 hours per week for an additional 47 weeks in fiscal year 2009 
            for a cost of ($100,000).
  --Five officers are required to prevent early morning/late night 
        access into the Capitol from the CVC i.e., tunnels, etc. (CVC 
        opens 30 minutes prior to the Capitol and often has late night, 
        unescorted events.)
  --When the CVC fence was taken down, several doors leading into the 
        Capitol Building had to be staffed because the doors were not 
        alarmed or secured. This was a departure from our CVC staffing 
        plan.
    Additionally, requirements for the protection of Leadership 
positions of Congress were placed on USCP during fiscal year 2009.
  --During the presidential campaign, the Dignitary Protection Division 
        (DPD) was required to place protective details on Senator John 
        McCain and Then-Senator Barack Obama while they were within the 
        Capitol Complex.
  --Due to a staffing shortage, DPD was required to work additional 
        overtime to cover leadership travel. We could not anticipate 
        this staffing shortfall.
    Further, we have had additional requirements, which are:
  --We are staffing two new Truck Interdiction Posts (2nd and D Street, 
        NE, 3rd and C Street, NE).
    --Staffed M-F 0900-1700 or until Senate goes out of session and on 
            weekends when Senate in session; average 80 hours per week 
            or $4,180 per week. Normally when Senate is in session 
            posts are open until about 2100 or an additional 40 hours 
            per week in session or an additional $2,100 per week.
    --It is projected in one fiscal year that Congress is in session 39 
            weeks per year and 13 weeks out of session.
  --The money for the overtime required to replace LOC officer during 
        their transition training ($900,000) was not included in our 
        2009 budget.
    --The requirement for this was that each officer eligible for 
            transfer form the LOC would be required to attend 10 weeks 
            of training at Cheltenham. This equated to approximately 57 
            officers that required backfill or approximately 17,000 
            hours to backfill with USCP Officers.
    Question. A total of $19 million is requested for the Security 
Services Bureau, an increase of $3.9 million or 26 percent over fiscal 
year 2009. Please explain the need for this increase, and the impact of 
deferring or eliminating any of the new items proposed for fiscal year 
2010. How frequently does security equipment need to be refreshed?
    Answer. The $3.9 million increase in fiscal year 2010 would support 
a combination of programs aimed at ensuring that Congressional 
facilities meet current USCP standards and compliance with the LOC 
merger legislation. It is also intended to minimize security 
vulnerabilities, and assist us in maintaining equipment and systems at 
manufacturer suggested lifecycle standards for optimum performance.
    The $3.9 million increase in fiscal year 2010 (over fiscal year 
2009) breaks out as follows:
  --$1.37 million to install technical security systems in the 
        Alternate Computer Facility (ACF) to meet current USCP security 
        standards;
  --$928,000 to design and install Emergency Call Boxes and CCTV 
        cameras throughout the stairwells, areas of refuge, and safe 
        havens for Congressional Office Buildings (a new initiative 
        recommended and approved by the Capitol Police Board);
  --$718,000 for LOC access control system and CCTV integration (steps 
        required to undertake security responsibilities per statutory 
        merger language); and
  --$923,000 for LOC lifecycle replacement of various systems.
    All security equipment has lifecycle replacement guidelines per 
manufacturer recommendation and industry best practices. When equipment 
does not get replaced in a timely manner per these guidelines, 
equipment performance slips, downtime increases, and vulnerabilities 
are more likely. In addition the LOC does not use the same screening 
standards so if the equipment is not procured more officers may be 
required to support screening. By not funding these programs, important 
security equipment such as explosive detectors and x-ray machines would 
be prone to more outages, causing a ripple effect of having to spend 
more resources on repair, rather than proactive preventive maintenance.
    Question. Please provide the Department's comments and concerns 
with legislation passed by the House making technical and other changes 
to USCP statutes.
    Answer. The Department has coordinated with the House 
Administration and Senate Rules Committees on the legislation passed by 
the House making technical and other changes to USCP statutes. The 
Department has no significant comments or concerns with this 
legislation.
    Question. For fiscal year 2009 USCP proposed funding to recruit 264 
officers, with classes planned for October and November 2008, January, 
February and May 2009. What is the status of recruit classes for this 
year? How many new recruits do you anticipate?
    Answer. As of May 15, 2009, USCP hired 163 recruits and have lost 
19 (11.66 percent) recruits in training. We are expecting an additional 
32 sworn personnel to start training on June 4th, and have adequate 
qualified candidates to fill the August class with an additional 24 
hires. Altogether, we could add 56 more recruits to the 163 we've 
already hired totaling 219 for fiscal year 2009. We are monitoring our 
staffing levels closely to stay within our authorized positions.
    Question. Last year USCP estimated it would require $6,956,503 for 
costs associated with the LOC merger in fiscal year 2009. (DM#406860) 
This included $618,453 in salaries, $3,120,000 in transfers from LOC, 
and $3,218,050 in general expenses. What are the current estimates? LOC 
estimated overtime and benefits to cover mission during training of the 
transferring LOC sworn personnel at $400,000. What is the current 
estimate?
    Answer. When this document was created, 73 individuals had been 
identified as being eligible for consideration to transfer to the USCP 
as sworn officers. This was based on an initial review of Federal 
service time and other requirements of the U.S. Capitol Police and 
Library of Congress Police Merger Implementation Act of 2007. In 
addition, 21 LOC sworn officers were determined not to be eligible for 
consideration to transfer to the USCP as sworn officers at the end of 
the transition period pursuant to the U.S. Capitol Police and Library 
of Congress Police Merger Implementation Act of 2007.
    Another assumption when this document was created was that the 
Department would be able to absorb the overtime necessary to backfill 
for the LOC sworn officers who are eligible for consideration to become 
USCP sworn officers while they attended transition training. The 
Department believed at the time that with the efficiencies we were 
realizing in overtime management that additional overtime funding would 
not be necessary for this activity. However, this did not come to pass.
    Currently, there are 61 LOC sworn officers who have been determined 
to be eligible for consideration to transfer to the USCP as sworn 
officers based on the statutory requirements. This total may decrease 
based on the final certification of eligible sworn transferees against 
the standards set by the Capitol Police Board.
    Likewise, there are currently 23 LOC sworn officers who have been 
determined to be ineligible for consideration to transfer to the USCP 
as sworn officers, because they cannot meet the statutory requirement 
for 20 years of ``continuous'' Federal service prior to becoming 60 
years of age. These individuals will transfer to Department as 
civilians (i.e., as ``civilianized'' former officers) on October 11, 
2009, which is the 1st day of the 1st pay period following the 
completion of the merger transition period. There are also 11 
additional LOC sworn vacancies requiring backfill.
    To address the backfill requirements for this mission set, the 
Department is conducting a recruit officer class in June 2009, in which 
we will hire 26 new recruit officers for this purpose. Following the 
conclusion of the transition, the Department may need to request 
authorization and funding for the eight remaining sworn complement for 
this purpose, which are currently vacant.
    The current estimates for fiscal year 2009 are:
  --The Department received $279,000 in transferred funds from the LOC 
        to cover the salaries for the four civilians that transferred 
        from the LOC to the USCP on October 1, 2009.
  --The Department projects receiving $88,099 transferred salary 
        funding from the LOC to cover the salaries, benefits and 
        overtime from September 27-30, 2009 for the 61 anticipated 
        sworn transfers.
  --The Department will expend $149,000 in general expenses to conduct 
        the sworn transition training.
  --The Department will utilize an estimated $1.615 million in general 
        expenses to provide uniforms, equipment and weapons for the 
        certified sworn transferees.
    The projected estimates for fiscal year 2010 are:
  --The Department requires $4,688,582 in salaries and benefits to 
        annualize for the 61 sworn officers transferring to the USCP in 
        the last 3 days of fiscal year 2009.
  --The Department requires $1,998,412 in salaries and benefits to 
        annualize for the 26 LOC backfill officers hired in the June 
        2009 Recruit Officer Class.
  --The Department requires $2,184,000 in salaries and benefits for the 
        23 current LOC sworn officers who transfer to the USCP on 
        October 11, 2009 as civilians pursuant to the U.S. Capitol 
        Police and Library of Congress Police Merger Implementation Act 
        of 2007 and the three civilians currently with the Department. 
        (Salaries for these three civilians were transferred to the 
        USCP form the LOC appropriation for fiscal year 2009.)
  --Benefits and a 2.9 percent COLA for the positions noted above are 
        $2,973,557 and $192,944 respectively.
  --$1.42 million in overtime to cover the backfill for the 26 recruit 
        officers in the recruit officer class until they are deployed 
        in January 2010 as well as overtime to cover backfill for the 
        remaining eight LOC sworn vacancies until they are authorized 
        and funded.
  --$873,000 for overtime for normal post requirements that are 
        currently funded with LOC appropriated salaries funding.
  --The Department has requested $1.966 million in general expenses 
        funding to support the first phase of technical security 
        integration for the Library buildings when they fall under the 
        Capitol Buildings and Grounds jurisdiction on October 1, 2009.
    Question. Last year USCP estimated (DOC#409916) it would require 
$3,064,958 for the 2009 Presidential inaugural, including $2,080,958 
for overtime and $984,000 for expenses. What is the current estimate?
    Answer. The overtime estimate was revised multiple times up to and 
including the $1,646,800 we referenced in our reprogramming request 
dated October 3, 2008. That amount was based on the number of hours 
employees would work for the Inauguration itself, Inauguration 
rehearsals, and the extra hours we planned to work for Inauguration 
ticket pickup. We spent approximately $1.2 million in overtime for all 
of the Inauguration events combined. There are several contributors to 
this variance, the most significant among them that we have not charged 
``holiday pay'' to the Inauguration funding--although it had been 
included in the estimates--since it is not strictly overtime.
    As recently as January 2, we still anticipated using virtually all 
of the general expenses funding we had budgeted for the Inauguration 
(i.e., $945,700), the same amount referenced in the October 3 
reprogramming request. We ultimately used almost $500,000 of the total. 
The reason for the variance was the strict control exerted by the 
Inauguration Task Force over what expenditures were intrinsic to the 
Inauguration, and which were desirable but not absolutely necessary for 
that purpose.
    Question. Last year USCP estimated (DOC#409919) it would need an 
increase of $7,300,000 for the Capitol Visitor Center salary costs. 
Total FTE required to meet the mission was estimated at 155 sworn FTE, 
of which 134 were offset through previous authorization and 
reassignments. What is the current estimate? What additional 
requirements have been experienced that were not planned for the CVC?
    Answer. The current salaries and benefits costs projected for the 
CVC is approximately $2.1 million for the 31 sworn positions provided 
to support the staffing shortfalls identified at the time of these 
estimates. The current overtime estimate for fiscal year 2009 is $2.191 
million, which includes overtime to support the early opening time for 
the facility and new post requirements, including life and safety 
posts, as well as reduced offset posts following the opening of the 
CVC.
    In fiscal year 2010, the Department is continuing its load leveling 
efforts to evenly spread workloads and overtime impacts across the 
Department. In doing so and accounting for new CVC post requirements, 
as well as planning assumption changes for the operation of the 
facility, the Capitol Division, which includes the CVC, will have a 
higher overtime allocation than previously estimated.
    The current general expenses projected costs to support the 31 new 
sworn officers are $575,000 for uniforms, equipment and weapons.
    Since opening to the public in the fall of 2008, the CVC's 
operating assumptions have changed and the alignment of posts was 
altered from the original planning assumptions. To address these 
changes--many of which resulted in new posts or extended/expanded hours 
of operations, the Capitol Division has had to realign staffing within 
the Division and utilize overtime to meet the mission. To determine the 
full impact of these staffing assumption changes, we are conducting a 
staffing and gap analysis which will be completed by the end of June 
2009.
    Additional posts added as part of CVC that were not projected 
previously:
  --Nine mandatory life safety posts required during evacuations (this 
        does not include two funded and anticipated life safety posts 
        or ERs, patrols, or perimeter officers). Life safety posts are 
        staffed only during operating hours of the CVC--additional 
        overtime is incurred for late night receptions/events based 
        upon anticipated guest participation.
  --Two officers Upper Level of the CVC at base of escalators, Monday-
        Friday 0700-1630; one officer, Saturday 0830-1630; and one 
        officer for late sessions of Congress.
  --One officer at the Rotunda Door interior, Monday-Saturday 0800-
        1630.
  --One officer at the 3rd floor East Front Corridor, Monday-Friday 
        0800-1630 or until the House and Senate adjourn.
  --Two officers, working 24/7 at the CVC Main Entrance exteriors to 
        monitor multiple fire doors.
  --Two officers working 24/7 to monitor new West Front egress fire 
        doors.
  --Two officers working 24/7 to monitor Law Library and Memorial 
        Doors.
    In addition to the new unplanned posts outlined above, the 
Department estimated that 89 sworn FTE would be realized by reassigning 
sworn personnel from posts that would close upon the opening of the 
CVC. However, some of these closures have not been realized, these 
include:
  --North Screening/North Door has remained open after CVC opening, 
        which requires six officers to operate the post.
  --S-407 continues to be a 9-5 post which is an unplanned expenditure.
  --Five officers are required to prevent early morning/late night 
        access into the Capitol from the CVC i.e., tunnels, etc (CVC 
        opens 30 minutes prior to the Capitol and often has late night, 
        unescorted events.)
    Question. Please provide a prioritization of FTEs requested in 
fiscal year 2010, and explain whether any of those requested are a 
higher priority than those for which vacancies currently exist.
    Answer. Realizing that the fiscal year 2010 budget allocation for 
the Legislative Branch will not allow for double digit increases for 
the Department, we have reprioritized our total salary and general 
expenses requirements and determined that it will be more efficient for 
the Department to meet its sworn staffing shortages through overtime in 
fiscal year 2010, rather than with new sworn officers. While we will 
not be able to immediately staff for an increased intelligence 
capability, we plan to utilize our overtime and other resources to meet 
these and other critical mission requirements.
    Likewise, the Department plans to refocus its efforts on hiring the 
currently authorized and funded civilian positions during fiscal year 
2010. As a part of this effort, we plan to seek authorization to 
reallocate some vacant civilian positions to critical mission 
requirements that would have been filled by the new civilian positions 
included in our fiscal year 2010 budget request. Additionally, we will 
be seeking authorization to reallocate current vacant positions to meet 
mission needs currently met through outsourcing, such as communications 
and dispatch.
    Because of reduced benefits costs for overtime and a reduction in 
general expense outlays for new positions; we believe we can better 
meet our mission requirements, as well as critical infrastructure and 
lifecycle needs, within a single digit increase, by utilizing overtime 
to meet sworn staffing shortages.
    Question. How much overtime has been expended to date on the power 
plant utility tunnel project? What is required for fiscal year 2010?
    Answer. As of Pay Period 8, the USCP has not yet expended overtime 
to support the Architect of the Capitol (AOC) Tunnel Project in fiscal 
year 2009. The requirement for overtime is based on the project plan 
presented by AOC. Based on AOC estimates for fiscal year 2009, the 
Department is projecting to expend $280,000 in fiscal year 2009 for 
this purpose.
    Recently, the AOC presented USCP with its proposed project plan for 
the remainder of fiscal year 2009, as well as for fiscal year 2010. We 
are working with the AOC to determine the security requirements, both 
in terms of physical security and the physical presence of a USCP 
Officer to provide security and protection due to direct access to the 
Capitol Complex. Once the AOC has finalized its project plan and 
implemented mitigating physical security elements, we will be able to 
provide estimates for the overtime needed to support this project in 
fiscal year 2010.
    Question. USCP generally loses approximately 10 percent of recruits 
in any given class for a variety of reasons. What is the cost 
associated with this ``drop-out'' rate? What is USCP doing to improve 
its ability to recruit those individuals who have a high probability of 
graduating from FLETC and becoming USCP officers?
    Answer. In terms of human resources costs, the average cost per 
recruit who drops from training (which includes removal from training 
up to the last day):
  --Recruiting/Background Investigation Cost: $8,496 (not including any 
        salaries for any USCP employee working in recruiting or 
        Background Investigations (BI) or staffing, etc.)
  --Average Salary Cost (loss): $27,169
  --Average Overtime Cost: $4,079.
    Thus, the OHR drop cost total is $40,122.
    Additionally, there are offsetting losses to overtime reductions 
for recruits who ``drop-out'' during training. This offset is based on 
the recruit officer's contribution to meeting mission requirements 
going forward from their time of actual deployment. Because this 
contribution varies within a fiscal year dependant on when recruit 
classes occur and actual recruit officer deployments take place, it is 
hard to determine exact costs within a fiscal year resulting from this 
loss recruit officer contribution.
    In order to continue to improve our ability to recruit those 
individuals who have a high probability of graduating from FLETC, we 
are doing the following measures.
  --Recruiting and BI operations include a rigorous testing and 
        evaluation system that includes testing of cognitive skills and 
        evaluation of psychological, medical, polygraph, and personal 
        history as well as a personal interview with an investigator.
  --Applicants who meet the highest of standards in each category then 
        have their packages reviewed by a panel of USCP senior leaders 
        at the rank of Inspector, who make recommendations to the Chief 
        of Police on the best qualified candidates for hire.
  --The Chief of Police reviews these recommendations and makes a final 
        determination of the best candidates to send forward for hiring 
        approval.
  --From there, each individual is approved for hire by the Committee 
        on House and the Senate Committee on Rules and Administration 
        Chairs after first passing through the Capitol Police Board.
    We believe this rigorous multi-faceted, multi-phased approach has 
so far yielded consistent results in effectively prescreening 
applicants prior to the appointment to the USCP.
    Additionally, the Department is drafting updated sworn hiring 
standards, which will include physical fitness aptitude testing, for 
the consideration of the Capitol Police Board. Because many recruit 
officers either ``drop-out'' or are recycled into future recruit 
classes are as a result of physical injury resulting from the recruit's 
inability to meet the rigorous physical fitness requirements of 
training, we felt it was important to recommend the implementation of a 
physical fitness aptitude test prior to hiring a recruit officer.

                          SUBCOMMITTEE RECESS

    Senator Nelson. The subcommittee will stand in recess until 
2:30 p.m. on May 7, 2009, when we will meet in room SD-124 to 
take testimony on the fiscal year 2010 budget requests of the 
Architect of the Capitol and the Office of Compliance.
    We are recessed.
    [Whereupon, at 4:19 p.m., Thursday, April 23, the 
subcommittee was recessed, to reconvene at 2:30 p.m., Thursday, 
May 7.]

</pre></body></html>
